      United States Department of Agriculture




Office of Inspector General
Department of Agriculture's
Consolidated Financial Statements
for Fiscal Years 2013 and 2012




                                       50401-0005-11
                                       December 2013
                                       Department of Agriculture’s Consolidated Financial
                                           Statements for Fiscal Years 2013 and 2012

                                                     Audit Report 50401-0005-11

What Were OIG’s
Objectives
Our objective was to
determine, as required,
whether USDA’s consolidated
financial statements are fairly
presented in accordance with       OIG audited USDA’s consolidated financial
generally accepted accounting
principles. Our objective was      statements for fiscal years 2013 and 2012,
also to review USDA’s              and also assessed internal controls over
internal controls over financial   financial reporting and compliance with
reporting and test compliance
with applicable laws and           laws and regulations.
regulations.

What OIG Reviewed                  What OIG Found

To assess whether information      The Office of Inspector General (OIG) determined that the U.S.
in the underlying accounting       Department of Agriculture’s (USDA) consolidated financial
records and other sources is       statements fairly present, in all material respects, USDA’s financial
reliable and sufficient to serve   position as of September 30, 2013 and 2012. Statements of net cost,
as the basis of USDA’s             changes in net position, and budgetary resources for these years
financial statements, we           conform with accounting principles generally accepted in the United
performed tests at the financial   States.
offices of various USDA
agencies and offices in            OIG’s review of USDA’s internal controls over financial reporting
Washington, D.C., at USDA’s        identified four significant deficiencies, two of which are material
National Finance Center in         weaknesses. Specifically, three of USDA’s component agencies need
New Orleans, LA, and at            to make further improvements to their internal controls over financial
selected agencies’ field           reporting. Also, USDA needs to improve its information technology
offices.                           security and controls, as many long-standing weaknesses remain.
                                   Moreover, USDA needs to improve its controls over financial
What OIG Recommends                reporting, as our review again disclosed deficiencies related to
                                   obligations and abnormal year-end balances. The final significant
We recommend additional
                                   deficiency we identified relates to deviations in information
actions needed to correct
                                   technology controls over two financial systems. Additionally, this
invalid obligation balances
                                   report includes a finding related to USDA’s lack of substantial
and mitigate deviations in
                                   compliance with the Federal Financial Management Improvement Act
information technology
                                   of 1996, and a finding related to a violation of the Anti-Deficiency
controls over two financial
                                   Act.
systems.
                                   The Department concurred with our findings and generally agrees
                                   with our recommendations. It states that it will develop corrective
                                   action plans with milestones to address the findings within 60 days.
                          United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          December 13, 2013

AUDIT
NUMBER:        50401-0005-11

TO:            Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
               Management Control and Audit Team

FROM:          Phyllis K. Fong
               Inspector General

SUBJECT:       Department of Agriculture’s Consolidated Financial Statements for
               Fiscal Years 2013 and 2012


This report presents the results of our audits of the Department of Agriculture’s consolidated
financial statements for the fiscal years ending September 30, 2013 and 2012. The report
contains an unmodified opinion on the financial statements, as well as the results of our
assessment of the Department’s internal control over financial reporting and compliance with
laws and regulations. Your response is included in its entirety in Exhibit E.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audits. This report contains publicly available information and will be posted in its entirety to
our website http://www.usda.gov/oig in the near future.
Table of Contents

Independent Auditor’s Report............................................................................... 1
Report on the Financial Statements ...................................................................... 1
Opinion on the Consolidated Financial Statements ............................................ 2
Other Matters .......................................................................................................... 3
Report on Internal Control Over Financial Reporting ....................................... 3
Report on Compliance and Other Matters........................................................... 4
Findings and Recommendations............................................................................ 7
Section 1: Material Weaknesses in Internal Control Over Financial
Reporting ................................................................................................................. 7
         Finding 1: Improvements Are Needed in Overall Financial
         Management ...................................................................................................7
         Finding 2: Improvements Are Needed in Overall Information
         Technology Security Program ......................................................................9
Section 2: Significant Deficiency in Internal Control Over Financial
Reporting ............................................................................................................... 10
         Finding 3: Controls Over Financial Reporting Can Be Strengthened ..10
         Recommendation 1 ......................................................................................11
         Finding 4: Information Technology Controls Can Be Strengthened in
         Two Financial Systems ................................................................................12
         Recommendation 2 ......................................................................................13
         Recommendation 3 ......................................................................................13
Section 3: Noncompliance With Laws and Regulations................................... 14
         Finding 5: Lack of Substantial Compliance With FFMIA Requirements
         .......................................................................................................................14
         Finding 6: Anti-Deficiency Act Violation .................................................15
Abbreviations ........................................................................................................ 16
Exhibit A: Audit Reports Related to the Fiscal Year 2013 Financial
Statements .............................................................................................................. 17
Exhibit B: Summary of Prior Year Open Recommendations ......................... 18
Exhibit C: Status of Prior Year Material Weaknesses and Significant
Deficiencies ............................................................................................................ 21
Exhibit D: Status of Prior Year Noncompliance Finding ................................ 22
Exhibit E: Agency Response ............................................................................... 23
Exhibit F: Agency Financial Report .................................................................. 27
Independent Auditor’s Report 
Jon M. Holladay
Deputy Chief Financial Officer
Office of the Chief Financial Officer

The U.S. Department of Agriculture’s (USDA) Office of Inspector General (OIG) audited the
consolidated financial statements of the Department for fiscal years 2013 and 2012. We also
considered USDA’s internal control over financial reporting and tested USDA’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could
have a direct and material effect on these consolidated financial statements.

The Findings and Recommendations section presents the material weaknesses and significant
deficiencies in internal control and instances of noncompliance with laws and regulations, as of
and for the year ended September 30, 2013. Exhibit A of this report presents the audit reports
related to the fiscal year 2013 financial statements. Exhibit B summarizes the current year status
of prior years’ open audit recommendations. Exhibit C shows the status of prior year internal
control weaknesses. Exhibit D provides an update to a previously reported instance of
noncompliance with laws and regulations. USDA’s response is presented in its entirety in
Exhibit E.

Report on the Financial Statements

OIG has audited the accompanying consolidated financial statements of the USDA, which
comprise balance sheets as of September 30, 2013 and 2012; the related consolidated statements
of net cost, changes in net position; and the combined statements of budgetary resources for the
fiscal years then ended; and the related notes to the financial statements (hereafter referred to as
the “consolidated financial statements”). The objective of our audits was to express an opinion
on the fair presentation of these consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated
financial statements in accordance with accounting principles generally accepted in the United
States of America (U.S.); this includes the design, implementation, and maintenance of internal
control relevant to the preparation and fair presentation of consolidated financial statements that
are free from material misstatement, whether due to fraud or error.




                                                               AUDIT REPORT 50401-0005-11          1
Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the U.S.; the
standards applicable to financial audits contained in government auditing standards issued by the
Comptroller General of the U.S.; and Office of Management and Budget (OMB) Bulletin 14-02,
Audit Requirements for Federal Financial Statements. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free
from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the entity’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2013 and 2012, and its net
costs, changes in net position, and budgetary resources for the years then ended, in accordance
with accounting principles generally accepted in the U.S.

Emphasis of Matter

The consolidated financial statements discuss, in Note 31, two changes in accounting principles
implemented in fiscal year 2013. First, USDA implemented Technical Bulletin 2006-1, and
recognized a liability for estimated asbestos-related cleanup costs of $165 million, with an
offsetting charge to net position. Second, Statement of Federal Accounting Standards 43
modified the definition of a fund from dedicated collections. Consequently, two USDA funds no
longer met the definition of dedicated collections, and net position for these funds of
$878 million was reclassified to other funds.

Additionally, as discussed in Note 7, in fiscal year 2013, a component agency of the Department
(Rural Development) changed its valuation methodology for reporting direct loans made pre-
1992 to net realizable value. This change in methodology resulted in a decrease to the allowance
of $3.8 billion.



2    AUDIT REPORT 50401-0005-11
Our opinion is not modified with respect to these items.

Other Matters

Required Supplementary Information

Accounting principles generally accepted in the U.S. require that the information in the
Management’s Discussion and Analysis (MD&A), Required Supplementary Stewardship
Information (RSSI), and Required Supplementary Information (RSI) sections be presented to
supplement the consolidated financial statements. Such information, although not a part of the
consolidated financial statements, is required by the Federal Accounting Standards Advisory
Board, which considers it to be an essential part of financial reporting for placing the
consolidated financial statements in an appropriate operational, economic, or historical context.
We have applied certain limited procedures to the MD&A, RSSI, and RSI in accordance with
auditing standards generally accepted in the U.S., which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency
with management’s responses to our inquiries, the consolidated financial statements, and other
knowledge we obtained during our audit of the consolidated financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures
do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the consolidated financial
statements as a whole. The information in the Other Information section is presented for
purposes of additional analysis and is not a required part of the financial statements. This
information has not been subjected to the auditing procedures applied in the audits of the
consolidated financial statements and, accordingly, we express no opinion on it or provide any
assurance.

Report on Internal Control Over Financial Reporting and on Compliance and
Other Matters Based on an Audit of Financial Statements Performed in
Accordance With Government Auditing Standards

Report on Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered USDA’s internal
control over financial reporting (internal control) to determine the audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of USDA’s
internal control or on management’s assertion on the internal control included in the MD&A.
Accordingly, we do not express an opinion on the effectiveness of USDA’s internal control, or
on management’s assertion on internal control included in the MD&A. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA).


                                                              AUDIT REPORT 50401-0005-11            3
Our consideration of the internal control over financial reporting was for the limited purposes
described in the preceding paragraph and would not necessarily identify all deficiencies in the
internal control over financial reporting that might be significant deficiencies or material
weaknesses, and, therefore, material weaknesses or significant deficiencies may exist that were
not identified.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of USDA’s financial statements will not be prevented, or
detected and corrected on a timely basis.

A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

In our fiscal year 2013 audit, we noted certain matters involving the internal control over
financial reporting and its operation that we consider to be significant deficiencies. Specifically,
we identified weaknesses in USDA’s:

    ·    overall financial management,
    ·    overall information technology (IT) security program,
    ·    controls over financial reporting, and
    ·    IT controls in two financial systems.

We determined that the first two deficiencies are also material weaknesses. These deficiencies
are discussed in the Findings and Recommendations, Sections 1 and 2, of this report.

We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act Report on Management Control.

Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests of USDA’s compliance with certain
provisions of laws, regulations, contracts, grant agreements, and Governmentwide policy
requirements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin 14-02. However, providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not
express such an opinion.

We performed tests of USDA’s compliance with selected provisions of applicable laws and
regulations, as described in the preceding paragraph. Our tests disclosed two instances of
noncompliance with laws and regulations that are required to be reported under government

4       AUDIT REPORT 50401-0005-11
auditing standards and OMB Bulletin 14-02. Specifically, the results of our tests of the Federal
Financial Management Improvement Act of 1996 (FFMIA) disclosed instances described in
more detail in Finding 5 of this report, where USDA was not substantially compliant with
applicable Federal Accounting Standards, and the U.S. Standard General Ledger (SGL) at the
transaction level. Providing an opinion on compliance with FFMIA was not an objective of our
engagement, and, accordingly, we do not express such an opinion. Also, the Department
disclosed noncompliance with the Anti-Deficiency Act (ADA), as described in more detail in
Finding 6 of this report.

Furthermore, in October 2013, the Commodity Credit Corporation (CCC)1 identified that a
violation of the ADA, 31 U.S.C. 1571 (a), may have occurred in September 2013 in the
Feedstock Flexibility Program. As of the date of this report, CCC has not completed its
investigation to determine whether a violation actually occurred or not.

Also, as noted in its MD&A, the Department reported that one agency was not compliant with
certain requirements of the Code of Federal Regulations, relating to the management of grants.

Additionally, during fiscal year 2013, we identified instances of noncompliance with the
requirements of the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
regarding the design of program internal controls related to reporting improper payments. A
separate report will be issued with further details on the Department’s compliance with IPERA.2

Management’s Responsibility for Internal Control and Compliance

USDA management is responsible for: (1) evaluating the effectiveness of internal control over
financial reporting, based on criteria established under the FMFIA; (2) providing a statement of
assurance on the overall effectiveness of internal control over financial reporting; (3) ensuring
USDA’s financial management systems are in substantial compliance with FFMIA requirements;
and (4) ensuring compliance with other applicable laws, regulations, contracts, and grant
agreements.

Auditor’s Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting to plan the audit; (2) testing whether USDA’s financial management systems
substantially comply with the FFMIA requirements referred to above; (3) testing compliance
with certain provisions of laws and regulations that have a direct and material effect on the
financial statements and applicable laws for which OMB Bulletin 14-02 requires testing; and
(4) applying certain limited procedures with respect to the RSI and all other information included
with the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly established
by FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient


1
    A wholly-owned Government Corporation within USDA.
2
    IPERA amended the Improper Payments Information Act of 2002, Public Law 107-300.

                                                                     AUDIT REPORT 50401-0005-11     5
operations. We limited our internal control testing to testing controls over financial reporting.
Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected. We also caution that projecting our
audit results to future periods is subject to risk that controls may become inadequate because of
changes in conditions or that the degree of compliance with controls may deteriorate. In
addition, we caution that our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to USDA. We limited our
tests of compliance to certain provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB Bulletin 14-02 that we deemed
applicable to USDA’s financial statements for the fiscal year ended September 30, 2013. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes. Also, our work on FFMIA
would not necessarily disclose all instances of noncompliance with FFMIA requirements.

Management’s Response

Management’s response to the report is presented in Exhibit E. We did not audit USDA’s
response and, accordingly, we express no opinion on it.

Status of Prior Year’s Findings and Recommendations

We reviewed the status of open recommendations from prior years, prior year internal control
deficiencies, and a prior year noncompliance issue. The statuses of these items are presented in
Exhibits B, C, and D.

Purpose of the Report on Internal Control Over Financial Reporting and the Report on
Compliance and Other Matters

The purpose of the “Report on Internal Control Over Financial Reporting” and the “Report on
Compliance and Other Matters” sections of this report is solely to describe the scope of our
testing of internal control and compliance and the result of that testing, and not to provide an
opinion on the effectiveness of USDA’s internal control or on compliance. These reports are an
integral part of an audit performed in accordance with government auditing standards in
considering USDA’s internal control and compliance. Accordingly, these reports are not suitable
for any other purpose.




Phyllis K. Fong
Inspector General
December 13, 2013




6    AUDIT REPORT 50401-0005-11
Findings and Recommendations 
Section 1:  Material Weaknesses in Internal Control Over Financial 
Reporting 

Finding 1: Improvements Are Needed in Overall Financial Management
During fiscal year 2013, the Department made further improvements in its financial
management. The Department completed the replacement of its outdated financial management
system, which was a distributed multi-instance mainframe system.3 That legacy system has now
been migrated to a federally compliant and consolidated single instance web-based system, the
Financial Management Modernization Initiative (FMMI). However, we noted areas where
further improvements are needed for three component entities.

        ·       In fiscal year 2013, we again attempted to perform an audit of the Natural
        Resources Conservation Service’s (NRCS) financial statements.4 NRCS was unable to
        provide sufficient evidential matter in support of certain transactions and account
        balances, as presented in the NRCS financial statements as of and for the year ended
        September 30, 2013, particularly with respect to beginning net position balances and
        current year activity; obligations incurred, including accrued expenses and undelivered
        orders; real and personal property; recoveries of prior year unpaid obligations; advances
        to others; and accrued revenue, accounts receivable and unfilled customer orders. NRCS
        was unable to complete corrective actions and make adjustments, as necessary, to these
        and other financial statement amounts prior to the contractually required completion date
        of the engagement.

        ·       In fiscal year 2013, we continue to report a material weakness for CCC,5 relating
        to funds control management specific to recording obligations at the transaction level.
        CCC has not yet achieved full funds control and still does not record certain obligations
        (budgetary entries) at the transaction level. This deficiency does not allow CCC to
        perform automated and real time funds control at the time contracts are fully executed
        (obligated).

        In its FMFIA Report on Management Control for 2013, the Department identified the
        CCC and NRCS issues described above as an existing (previously reported) financial
        management system non-conformance.

        ·      For fiscal year 2013, we also reported a material weakness in internal control for
        the Federal Crop Insurance Corporation6 (FCIC), related to calculating estimated losses
        on insurance claims. While reviewing our questions and formulating respective

3
  The outdated financial management system was the Foundation Financial Information System (FFIS). A few
agencies operated financial systems outside of FFIS, and continue to operate those systems outside of FMMI.
4
  Report 10401-0003-11, NRCS’ Financial Statements for Fiscal Year 2013 (December 2013).
5
  Report 06401-0003-11, CCC’s Financial Statements for Fiscal Years 2013 and 2012 (December 2013).
6
  Report 05401-0003-11, FCIC’s Financial Statements for Fiscal Years 2013 and 2012 (December 2013).

                                                                       AUDIT REPORT 50401-0005-11             7
      responses, management noted an error in the calculation leading to the liability balance
      on the September 30, 2013 financial statements. The error affected multiple financial
      statement line items. Per discussions with FCIC, the root cause of the error on the
      financial statement was a manual coding error in the indemnity projection model that was
      not detected through FCIC’s internal control procedures. Subsequent to the discovery of
      the error, management recalculated the liability on estimated losses on insurance claims
      and produced revised and corrected financial statements.

      In its FMFIA Report on Management Control for 2013, the Department identified the
      FCIC issue as a new material weakness being reported for the first time.

Because of recommendations already made to NRCS, CCC, and FCIC in other audit reports, we
are making no further recommendations in this report.




8    AUDIT REPORT 50401-0005-11
Finding 2: Improvements Are Needed in Overall Information Technology
Security Program

We performed an independent evaluation of the Department’s IT security program and practices,
as required by the Federal Information Security Management Act of 2002 (FISMA). Although
improvements continue to be made in the Department’s IT security, our FISMA report notes that
many long-standing weaknesses remain. Our fiscal year 2013 FISMA report provides details on
the material weaknesses we continued to note in the design and effectiveness of the Department’s
overall IT security program.7

We also performed a review of the control structure of the Office of the Chief Financial
                                                                                   8
Officer/National Finance Center (OCFO/NFC), located in New Orleans, Louisiana.
OCFO/NFC sustained an unmodified opinion on its control environment.

In its FMFIA Report on Management Control for 2013, the Department again reported an overall
IT material weakness relating to deficiencies in the internal control design and operating
effectiveness for logical access controls/personnel security and configuration management. As
noted in its FMFIA report, the Department indicated that 2013 accomplishments include:

    ·   Revision of a Departmental Regulation (DR), regarding the risk management framework;
    ·   Revision and publication of National Institute of Standards and Technology (NIST)-
        compliant IT security policies; and
    ·   Development of a continuous monitoring program plan.

The Department has additional corrective actions planned in fiscal year 2014.

Because of recommendations made in our prior FISMA audits, we are making no further
recommendations in this report.




7
  Report 50501-0004-12, U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2013
Federal Information Security Management Act (November 2013).
8
  Report 11401-0005-11, Statement on Standards for Attestation Engagements No. 16 Report on Controls at the
National Finance Center for October 1, 2012 to July 31, 2013 (September 2013).

                                                                        AUDIT REPORT 50401-0005-11              9
Section 2:  Significant Deficiency in Internal Control Over Financial 
Reporting 

Finding 3: Controls Over Financial Reporting Can Be Strengthened

During our audit, we noted that controls relating to certain financial management practices could
be strengthened to operate more effectively throughout the fiscal year.

Unliquidated Obligations

Last year, our review of inactive, unliquidated obligations (ULO)9 disclosed that substantial
improvements had been made by agencies to effectively monitor and review ULOs. In its
FMFIA Report on Management Control for 2012, the Department downgraded its long-standing
material weakness (relating to the lack of consistent review and follow-up on ULOs) to a
significant deficiency. OIG also downgraded the weakness to a significant deficiency in last
year’s audit report.

This year, we nonstatistically selected 60 ULOs (from 10 agencies and offices) for which no
activity had occurred for over 1 year, as of March 31, 2013. We determined that five ULOs were
invalid because no future expenditures were expected.

Also, we nonstatistically selected three agencies and reviewed the obligation certifications they
submitted to the Department for the third quarter of fiscal year 2013. To assess the
appropriateness of the ULO certifications, we selected six obligation balances nonstatistically
from each of the certifications. We found that one agency inappropriately certified to the
validity of the ULO balances, as five of the agency’s six selected balances were invalid.

Additionally, the NRCS10 and Forest Service 11 reports this year discussed deficiencies in
controls over unliquidated obligations.

The U.S. Department of the Treasury’s (Treasury) annual closing guidance (Treasury Bulletin
2013-10, 2013 Yearend Closing, dated August 14, 2013) requires an annual review of ULOs.
DR 2230-1, Reviews of Unliquidated Obligations (April 21, 2009), further requires quarterly
reviews and certifications as to the validity of ULO balances from agency Chief Financial
Officers.

Ineffective monitoring and reviewing, as well as inappropriately certifying to the validity of
obligation balances, resulted in invalid obligations remaining open. Invalid obligations
improperly restrict the availability of funding authority. This also increases the risk of misstating
obligations as of yearend.


9
  An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources
must be available before obligations can be incurred legally.
10
   10401-0003-11, NRCS’s Financial Statements for Fiscal Year 2013 (December 2013).
11
   08401-0003-11, Forest Service’s Fiscal Years 2013 and 2012 Financial Statements (December 2013).

10      AUDIT REPORT 50401-0005-11
Abnormal Balances

Our review again disclosed abnormal balances12 in USDA’s fiscal yearend trial balance that were
not fully researched and corrected. For fiscal year 2013, we noted 80 abnormal balances with an
absolute value of approximately $1.7 billion. According to the Department, the existence of an
abnormal balance indicates that transactions or adjustments may have been posted in error. In
addition, abnormal balances increase the risk of material misstatement on the financial
statements. The Department is still in the process of completing actions on a recommendation
we made last year, and therefore, no further recommendation is made in this report.

Intra-Governmental Payment and Collection (IPAC) Transactions

Last year, we reported that IPAC transactions were not always processed in a timely manner.13
In order for IPAC bills to fully process, all details are required from the agencies, including valid
funding document information. We noted that as of September 30, 2012, over 3,900 bills were
not fully processed and over 2,000 remained unprocessed for more than 60 days.

Our review this year disclosed that over 3,400 bills were not fully processed as of June 30, 2013,
and that over 1,800 remained unprocessed for more than 60 days. By September 30, 2013, over
1,800 bills were not fully processed, and only 363 remained unprocessed for over 60 days.

The Department initiated a series of corrective actions in response to our finding last year. These
included training visits to customer agencies, system changes, and improved monthly suspense
reconciliations. As a result, by the end of fiscal year 2013, the Department had significantly
improved the timeliness of processing IPAC bills.

Corrective actions require time to be effective. Although these actions were not fully effective
throughout fiscal year 2013, they were by yearend. Therefore, no further recommendations are
made in relation to IPAC transactions at this time.

Recommendation 1

Emphasize to component agencies the importance of appropriately reviewing and certifying
ULOs, and ensuring that appropriate actions were implemented for certified ULOs, as required
by DR 2230-1.




12
  A balance that deviates from the standard balance, as defined by Treasury’s SGL.
13
  The primary purpose of the IPAC system is to provide a standardized interagency fund transfer mechanism for
Federal program agencies. IPAC facilitates the intra-Governmental transfer of funds, with descriptive data, from
one Federal program agency to another.

                                                                       AUDIT REPORT 50401-0005-11              11
Finding 4: Information Technology Controls Can Be Strengthened in Two
Financial Systems
We reviewed application controls for two financial systems: the Integrated Acquisition
System (IAS) and the Financial Management Modernization Initiative (FMMI). IAS is a web-
based eProcurement solution designed to streamline and automate contract management and
acquisition processes throughout USDA. FMMI replaced the Foundation Financial Information
System (FFIS) administrative and program general ledger systems with a web-based accounting
and ledger system. The Office of Procurement and Property (OPPM) is the owner of IAS and
the Office of the Chief Financial Officer (OCFO) is the owner of FMMI.

During our audit, we noted that controls relating to certain access control and change
management practices could be strengthened. Specifically, improvements could be made
regarding IAS and FMMI access controls, and IAS change management practices.

The National Institute of Standards and Technology (NIST) requires organizations to manage
information system accounts,14 and implement separation of duties and least privilege
philosophies.15 Additionally, IAS procedures16 require quality assurance test plans and scripts to
be developed for every system modification. However, we found deviations related to IAS and
FMMI access controls and IAS change management.

Specifically, for IAS, we noted:

·    IAS user authorization forms were not consistently maintained;
·    some inactive IAS user accounts were not automatically disabled;
·    a flawed user review process for one agency;
·    instances of IAS users with improper access;
·    instances of IAS users with excessive access and undefined user roles;17 and
·    OPPM could not provide adequate testing documentation for one of five sampled IAS change
     records. Specifically, no evidence of final sign-off or acceptance was obtained for user
     testing. In addition, testing documentation did not show evidence that the modification, for
     which the change was initiated, was implemented correctly.

For FMMI, our review disclosed:

· two FMMI users with unmitigated segregation of duty risks;
· one FMMI user had four segregation of duty risks with expired mitigations; and
· in three instances, one agency had inappropriately applied mitigations to segregation of duty
  risks. These mitigations had been specifically developed for other agencies.

14
   NIST Special Publication (SP) 800-53, Security and Privacy Controls for Federal Information Systems and
Organizations, Access Control 2 (Account Management) (April 2013).
15
   NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook (October 1995).
16
   IAS Configuration Management Plan.
17
   OIG Audit 92501-1-12, Review of the Procurement Operations (September 27, 2013) found additional IAS users
with excessive access and undefined user roles.

12       AUDIT REPORT 50401-0005-11
These deviations occurred for a variety of reasons, including: reliance on agencies to perform
user administration without adequate oversight by system owners, a lack of procedures or
unclear procedures, and inconsistent or incomplete procedure implementation. As a result,
FMMI and IAS are at risk from inappropriate access from unintended and/or malicious users,
and IAS changes may not be effectively tested prior to introduction to the production
environment.

Recommendation 2
Revise, improve, and consolidate user security administration for FMMI procedures (all
contained within one document) that clearly identify the responsibilities assigned to the agencies
and those addressed by OCFO. These procedures should include requirements for maintaining
approvals, conducting periodic reviews of segregation of duties, and specifying how and when
OCFO will conduct oversight procedures regarding monitoring segregation of duties and
implementation of mitigations.

Recommendation 3

Ensure OPPM implements corrective actions for IAS relating to access controls and change
management practices.




                                                            AUDIT REPORT 50401-0005-11           13
Section 3:  Noncompliance With Laws and Regulations

Finding 5: Lack of Substantial Compliance With FFMIA Requirements
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires agencies to
annually assess whether their financial management systems comply substantially with
(1) Federal Financial Management Systems Requirements, (2) applicable Federal accounting
standards, and (3) the Standard General Ledger (SGL) at the transaction level. In addition,
FISMA requires each agency to report significant information security deficiencies, relating to
financial management systems, as a lack of substantial compliance under FFMIA. FFMIA also
requires auditors to report in their Chief Financial Officers Act financial statement audit reports
whether financial management systems substantially comply with FFMIA’s system
requirements.

During fiscal year 2013, the Department evaluated its financial management systems to assess
compliance with FFMIA. The Department reported that it was not compliant with applicable
accounting standards, the SGL at the transaction level, and FISMA requirements. As noted in its
MD&A section of its Agency Financial Report, the Department continues working to meet the
FFMIA and FISMA objectives.

Specifically, in its FFMIA and FMFIA reports, the Department reported noncompliance with
information security practices, procedures, and/or practices for multiple agencies relating to
logical access controls/personnel security, and configuration management.

Additionally, in its FFMIA report, the Department noted noncompliances for two of its
component agencies, described below.

     1. CCC was not compliant with the SGL at the transaction level. CCC is working to
        implement a systemic solution by September 30, 2014.
     2. NRCS was not compliant with Federal accounting standards and the SGL at the
        transaction level. Corrective actions were scheduled for completion by
        November 30, 2013.

Finding 1 of this report provides more details on the NRCS and CCC issues.

Because of planned actions and recommendations made in other audit reports, we are making no
further recommendations in this report.




14      AUDIT REPORT 50401-0005-11
Finding 6: Anti-Deficiency Act Violation

In fiscal year 2013, the Department reported an Anti-Deficiency Act (ADA) violation in its
Annual Financial Report. Specifically, Forest Service identified an ADA violation under
31 U.S.C. §1517(a). The Energy Policy Act of 2005 required the Secretary of Interior to create a
pilot project to improve Federal permit coordination. The Bureau of Land Management
transferred funds to Forest Service to participate in the pilot. Forest Service reported
obligations/expenditures in excess of the balance of the fund transferred from the Bureau of Land
Management as of December 31, 2012. Forest Service spent $6,781.90 in excess of the $72,000
carried over from fiscal year 2012. Although several actions were taken to obtain the funding
needed for fiscal year 2013, the warrant with additional funding was not received by Forest
Service until January 31, 2013. The ADA violation is in the process of being reported to
Congress and the President.




                                                           AUDIT REPORT 50401-0005-11        15
Abbreviations 
ADA ............................ Anti-Deficiency Act
CCC............................. Commodity Credit Corporation
DR ............................... Departmental Regulation
FCIC ............................ Federal Crop Insurance Corporation
FFIS............................. Foundation Financial Information System
FFMIA ........................ Federal Financial Management Improvement Act of 1996
FISMA ........................ Federal Information Security Management Act of 2002
FMFIA ........................ Federal Managers’ Financial Integrity Act of 1982
FMMI .......................... Financial Management Modernization Initiative
IAS .............................. Integrated Acquisition System
IPAC ........................... Intra-Governmental Payment and Collection
IPERA ......................... Improper Payments Elimination and Recovery Act of 2010
IT ................................. information technology
MD&A ........................ Management’s Discussion and Analysis
NFC ............................. National Finance Center
NIST ............................ National Institute of Standards and Technology
NRCS .......................... Natural Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPPM.......................... Office of Procurement and Property
RSI .............................. Required Supplementary Information
RSSI ............................ Required Supplementary Stewardship Information
SGL ............................. Standard General Ledger
SP ................................ Special Publication
Treasury ...................... U.S. Department of Treasury
ULO ............................ Unliquidated Obligation
U.S. ............................. United States of America
USDA.......................... U.S. Department of Agriculture




16       AUDIT REPORT 50401-0005-11
Exhibit A:  Audit Reports Related to the Fiscal Year 2013 Financial 
Statements 
The following is a list of reports related to OIG’s audit of the Department’s fiscal year 2013
financial statements.

      Audit Number        Audit Title                                     Release Date
                          Federal Crop Insurance Corporation/Risk
      05401-0003-11       Management Agency’s Financial Statements        December 2013
                          for Fiscal Years 2013 and 2012
                          Commodity Credit Corporation’s
      06401-0003-11       Financial Statements for                        December 2013
                          Fiscal Years 2013 and 2012
                          Forest Service’s Financial Statements for
      08401-0003-11                                                       December 2013
                          Fiscal Years 2013 and 2012
                          Fiscal Year 2013 Natural Resources
      10401-0003-11                                                       December 2013
                          Conservation Service’s Financial Statements
                          Statement on Standards for Attestation
                          Engagements No. 16 Report on Controls at
      11401-0005-11                                                       September 2013
                          the National Finance Center for
                          October 1, 2012, to July 31, 2013
                          Food and Nutrition Service’s
      27401-0003-21       Financial Statements for                        December 2013
                          Fiscal Years 2013 and 2012
                          Office of the Chief Information Officer,
      50501-0004-12       Fiscal Year 2013 Federal Information            November 2013
                          Security Management Act
                          Rural Development’s Financial Statements
      85401-0003-11                                                       December 2013
                          for Fiscal Years 2013 and 2012




                                                             AUDIT REPORT 50401-0005-11          17
Exhibit B:  Summary of Prior Year Open Recommendations 

Report 50401-0003-11, Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2012 and 2011 (November 15, 2012)

Finding 3: Controls Over Financial Reporting Can Be Strengthened

Recommendation 1

Continue to analyze the abnormal balances to identify and implement the actions needed to
correct those balances, to include providing oversight to ensure reimbursable activities are timely
billed for collection.

Departmental Status

On March 6, 2013, the Office of the Chief Financial Officer (OCFO) issued Bulletin 13-01,
which updated policies and procedures for identifying, reconciling, and reporting intra-
Departmental transactions to facilitate elimination of intra-Departmental balances and activity in
the consolidated financial statements. During fiscal year 2013, OCFO reviewed staff offices’
billing and collection practices and made recommendations to ensure reimbursable activities are
timely billed for collection. Once OCFO confirms the recommendations have been
implemented, the request to close the recommendation will be submitted. The revised estimation
completion date is December 30, 2013 (originally June 30, 2013).

OIG Results

As discussed in Finding 3, this weakness continues to exist.

Recommendation 2

Continue to develop and implement effective steps to timely process IPAC transactions.

Departmental Status

In fiscal year 2013, the Department cleaned up the backlog of IPAC transactions, established
suspense reconciliations, and also indicated it made system improvements for increased
efficiency and accuracy in regards to both processing and reporting. The Department closed this
recommendation on October 31, 2013.

OIG Results

As discussed in Finding 3, the Department’s timely processing of IPAC transactions was
significantly improved by fiscal yearend.




18     AUDIT REPORT 50401-0005-11
Recommendation 3

Issue detailed guidance to agencies relating to processing IPAC bills and provide training to
ensure agencies fully understand their roles, as well as the detailed data requirements for
successful processing.

Departmental Status

During the fiscal year, OCFO indicated that it provided weekly training to OCFO staff and made
quarterly visits to customer agencies. The Department closed this recommendation on
October 31, 2013.

OIG Results

As discussed in Finding 3, the Department’s timely processing of IPAC transactions was
significantly improved by fiscal yearend.

Report 50401-70-FM, Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2010 and 2009 (November 15, 2010)

Finding 1: Improvements Are Needed in Overall Financial Management

Recommendation 1

Provide additional oversight to ensure that agencies are properly reviewing, researching, and
timely implementing action to correct abnormal balances.

Departmental Status

During fiscal year 2011, the Department issued OCFO Bulletin 11-02, Controls Over Abnormal
Balances, to update Departmental guidance to its agencies to improve the process for reviewing,
researching, and timely implementing action to correct abnormal balances. This bulletin was
updated on October 4, 2012. The Department closed this recommendation on January 28, 2013.

OIG Results

The weakness continues to exist, as discussed in Finding 3.




                                                              AUDIT REPORT 50401-0005-11        19
Report 50401-67-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2009 and 2008 (November 16, 2009)

Finding 1: Improvements Are Needed in Overall Financial Management

Recommendation 1

Provide additional oversight to ensure agencies (1) properly monitor and review obligation
balances, (2) provide valid certifications based on complete and accurate reviews as required by
DR 2230-001, and (3) understand the importance of responding to requests for bills or additional
information in a timely manner.

Departmental Status

During fiscal year 2012, the Department worked with agencies to complete cleanup of
obligations recorded in the Foundation Financial Information System and the Financial
Management Modernization Initiative. In addition, the Department continued to monitor
obligations via monthly status reports. The Department closed this recommendation on
January 29, 2013.

OIG Results

This weakness continues to exist, as discussed in Finding 3.

Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2008 and 2007 (November 14, 2008)

Finding 1: Improvements Are Needed in Overall Financial Management

Recommendation 1

Provide additional oversight to ensure that general ledgers reflect valid obligations and that
agencies perform the required reviews timely and effectively.

Departmental Status

The Department closed this recommendation on January 29, 2013.

OIG Results

The weakness continues to exist, as discussed in Finding 3.




20     AUDIT REPORT 50401-0005-11
Exhibit C:  Status of Prior Year Material Weaknesses and 
Significant Deficiencies 

    Control Deficiency              2012 Status                   2013 Status
      Overall Financial
                                Material Weakness             Material Weakness
        Management
  Information Technology
                                Material Weakness             Material Weakness
   Security and Controls
Financial Reporting Controls   Significant Deficiency        Significant Deficiency




                                                    AUDIT REPORT 50401-0005-11        21
Exhibit D:  Status of Prior Year Noncompliance Finding 

Report 50401-0003-11, U.S. Department of Agriculture’s Consolidated
Financial Statements for Fiscal Years 2012 and 2011 (November 15, 2012)

Finding 3: Lack of Substantial Compliance With Federal Financial Management
Improvement Act of 1996 (FFMIA) Requirements

Reported Noncompliance

The Department reported a lack of substantial compliance with FFMIA requirements. The
Department reported that it was not substantially compliant with Federal Financial Management
Systems Requirements, applicable accounting standards, the U.S. Government Standard General
Ledger (SGL) at the transaction level, and the Federal Information Security Management Act of
2002 (FISMA) requirements.

Status

In fiscal year 2013, the Department continued to report substantial noncompliance with
applicable accounting standards, the SGL at the transaction level, and FISMA requirements, as
discussed in Finding 5




22       AUDIT REPORT 50401-0005-11
Exhibit E:  Agency Response 




                  USDA’S
         RESPONSE TO AUDIT REPORT




                               AUDIT REPORT 50401-0005-11   23
24   AUDIT REPORT 50401-0005-11
United States
Department of
Agriculture

Office of the Chief
Financial Officer                                                                December 13, 2013
1400 Independence
Avenue, SW
Washington, DC
20250                 TO:           Phyllis K. Fong
                                    Inspector General
                                    Office of Inspector General

                      FROM:         Jon M. Holladay                       -s- Jon M. Holladay
                                    Deputy Chief Financial Officer
                                    Office of the Chief Financial Officer

                      SUBJECT:      Department of Agriculture’s Consolidated Financial Statements for
                                    Fiscal Years 2013 and 2012, Audit Report No. 50401-5-11

                      The Department is pleased to respond to your audit report on the Consolidated Financial
                      Statements for fiscal years 2013 and 2012.

                      We concur with the findings in the report. We generally agree with the recommendations
                      in the report and will develop corrective action plans with milestones to address the
                      findings within 60 days.

                      We recognize the achievement of an unqualified opinion was accomplished through the
                      joint efforts of your staff, contract auditors, and the financial staffs of the Department and
                      agencies.

                      I would like to express my appreciation for the cooperation and professionalism
                      displayed by your staff and your contract auditors during the course of your audit.

                      .
26   AUDIT REPORT 50401-0005-11
Exhibit F:  Agency Financial Report 




            AGENCY FINANCIAL REPORT

             FISCAL YEARS 2013 AND 2012
              FINANCIAL STATEMENTS

                     Prepared By USDA
     SECTIONS 1 AND 3 ARE UNAUDITED




                                       AUDIT REPORT 50401-0005-11   27
      United States Department of Agriculture




Agency Financial Report


      Fiscal Year 2013
Non-Discrimination Statement
The U.S. Department of Agriculture (USDA) prohibits discrimination against its customers. If
you believe you experienced discrimination when applying for or obtaining services from
USDA, participating in a USDA program, or participating in a program that receives financial
assistance from USDA, you may file a complaint with USDA. Information about how to file a
discrimination complaint is available from the Office of the Assistant Secretary for Civil Rights.

To file a complaint of discrimination, complete, sign, and mail a program discrimination complaint
form, available at any USDA office location or online at http://www.ascr.usda.gov/, or write to:

USDA
Office of the Assistant Secretary for Civil Rights
1400 Independence Avenue, S.W.
Washington, D.C. 20250-9410

Or, call toll free at (866) 632-9992 (voice) to obtain additional information, the appropriate
office, or to request documents. Individuals who are deaf, hard of hearing, or have speech
disabilities may contact USDA through the Federal Relay service at (800) 877-8339 or
(800) 845-6136 (in Spanish).

USDA is an equal opportunity provider, employer, and lender.

Persons with disabilities who require alternative means for communication of program
information (e.g., Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center
at (202) 720-2600 (voice and TDD).

Only Federal employees participated in the preparation of the performance and financial
information contained in this report.




                                                      Fiscal Year 2013 Agency Financial Report
About This Report
The U.S. Department of Agriculture (USDA) has chosen to produce both an Agency Financial
Report (AFR) and an Annual Performance Report (APR). USDA will include its Fiscal Year
(FY) 2013 APR with its Congressional Budget Justification and will post it on the Department’s
Web site at USDA Performance when published.

Historically, USDA published consolidated financial and performance management reporting via
the Performance and Accountability Report (PAR). Starting in FY 2012, the Department began
publishing an AFR.

This AFR provides financial and high-level performance information to the President, the
Congress, and the American people. USDA’s end-of-fiscal-year financial position includes, but
is not limited to, financial statements, notes to the financial statements, and a report of the
independent auditors.

The APR is a detailed report on USDA’s progress toward achieving the goals and objectives
described in the agency’s Strategic Plan and Annual Performance Plan, including progress on the
strategic objectives, performance goals, and Agency Priority Goals. The report will be delivered
to Congress with the budget.

This report is to be posted on these Web sites: Performance.gov and USDA Performance.
Previous reports are posted as well.




                                                     United States Department of Agriculture
This page was intentionally left blank.
                                             TABLE OF CONTENTS

MESSAGE FROM THE SECRETARY.................................................................................... iii

SECTION 1: MANAGEMENT’S DISCUSSION AND ANALYSIS ...................................... 1
  USDA OVERVIEW ........................................................................................................................ 1
  USDA ORGANIZATION CHART .................................................................................................... 2
  MISSION AREAS AND DEPARTMENTAL MANAGEMENT ................................................................ 3
  PERFORMANCE GOALS, OBJECTIVES, AND RESULTS .................................................................... 7
    Agency Priority Goals ............................................................................................................. 7
    Strategic Goals, Objectives, and Annual Performance Goals ................................................. 9
    Future Demands, Risks, Uncertainties, Events, Conditions, and Trends .............................. 13
  ANALYSIS OF FINANCIAL INFORMATION AND HIGHLIGHTS ........................................................ 14
    Financial Statement Highlights ............................................................................................. 14
  ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE ................................................. 21
    Management Assurances ....................................................................................................... 21
    Federal Managers’ Financial Integrity Act Report on Management Control ........................ 23
    Compliance with Laws and Regulations ............................................................................... 27
    Federal Financial Management Improvement Act Report on Financial Management
    Systems .................................................................................................................................. 32
    Financial Management Systems Strategy .............................................................................. 33
  OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES ............................................... 35
    Federal Financial Management Improvement Act Requirements ......................................... 35
    American Recovery and Reinvestment Act Activities .......................................................... 37
    Eliminating Improper Payments ............................................................................................ 39
    Debt Management.................................................................................................................. 40
    Limitations of the Financial Statements ................................................................................ 40

SECTION 2: FINANCIAL INFORMATION ......................................................................... 41
  MESSAGE FROM THE DEPUTY CHIEF FINANCIAL OFFICER.......................................................... 41
  CONSOLIDATED FINANCIAL STATEMENTS .................................................................................. 42
   Notes to the Consolidated Financial Statements ................................................................... 47
   Required Supplementary Stewardship Information ............................................................ 118
   Required Supplementary Information ................................................................................. 127




                                                                          Fiscal Year 2013 Agency Financial Report | i
SECTION 3: OTHER INFORMATION ............................................................................... 137
  SCHEDULE OF SPENDING .......................................................................................................... 137
  RESPONSE TO MANAGEMENT CHALLENGES ............................................................................. 139
  SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES ................... 158
  IMPROPER PAYMENTS .............................................................................................................. 159
  INSPECTOR GENERAL ACT AMENDMENTS OF 1988: MANAGEMENT’S REPORT ON AUDIT
  FOLLOW UP .............................................................................................................................. 194
  FREEZE THE FOOTPRINT ........................................................................................................... 205

ACRONYMS ............................................................................................................................. 206




                                                                          United States Department of Agriculture | ii
Message from the Secretary
In fulfillment of our duty to the people, the President, and Congress,
the U.S. Department of Agriculture (USDA) respectfully submits the
Fiscal Year 2013 Agency Financial Report.

This year has marked another period of historic accomplishments at USDA.
We have innovated and collaborated with partners across the Nation to
continue our support for a strong American agricultural sector; expand
agricultural trade; support our rural communities; ensure a safe food supply;
and provide critical nutrition assistance to American families in need.

USDA has accomplished these results in a time of significant uncertainty. Federal budget
reductions have challenged USDA leaders and employees alike to find new strategies for
delivering modern, efficient service. In fact, USDA’s discretionary budget that funds our
operations was a full $1 billion less than it was when President Barack Obama took office—
requiring again that we take steps to deliver service in new and cost-effective ways.

This year, USDA continued efforts to proactively achieve cost savings and efficiencies in our
operations through the “Blueprint for Stronger Service” originally announced in January 2012.
This important effort aims to modernize the Department, reduce red tape, improve the experience
of USDA customers, and help bring the Department’s operating costs within the budget and
staffing constraints predicated by decreasing congressional appropriations. Since the initial
Blueprint effort began in 2012, USDA has identified and achieved more than $920 million in
cost avoidances. Notably, to date, this has allowed the Department to avoid staff layoffs, as the
Federal Government implements across-the-board spending reductions under the Sequester.

The fact that we were able to continue accomplishing admirable results across all areas of the
Department is a testament to nearly 100,000 USDA employees stationed in Washington, D.C.,
across the Nation, and around the world. Often, Americans do not have a chance to work directly
with these dedicated public servants—but the impact of their work is felt from our smallest
towns to our biggest cities.

At the same time, ongoing lack of a comprehensive, multiyear Food, Farm, and Jobs Bill added
uncertainty to a wide range of USDA programs. While some programs authorized under the
Food, Conservation, and Energy Act of 2008 (“2008 Farm Bill”) were extended on
January 2, 2013, authorization of those programs expired at the end of fiscal year (FY) 2013.
A new, long-term Food, Farm, and Jobs Bill will be critically important to continue USDA’s
record achievements over recent years, while ensuring a strong and secure U.S. agricultural
sector.

In 2013, notwithstanding the lack of long-term Farm Bill programs, USDA took a multitude of
steps to provide innovative assistance for America’s farmers and ranchers. For example, USDA’s
Farm Service Agency—recognizing that the complexity of the existing loan application process
served as a barrier to participation by small and non-traditional growers—developed a



                                                   United States Department of Agriculture | iii
microloan program that was implemented in January 2013. The microloan program features an
abbreviated application process, less paperwork, and more flexibility in business planning and
training and experience requirements. In only eight months of operation, over 3,700 microloans
have been made.

USDA’s Risk Management Agency added new insurance coverage or offered improved
coverage for a wide range of specialty crops, while expanding organic crop insurance to provide
a wide range of safety net options for producers.

We continued our strong support for agricultural trade. U.S. agricultural exports are forecast to
reach a record $141 billion in FY 2013, supporting nearly one million jobs. USDA’s Foreign
Agricultural Service administered $256 million in export promotion programs that built demand
for U.S. products and addressed market access issues. Working with over 70 industry groups,
these programs leveraged significant industry contributions, bringing total investments to over
$500 million. And, working across the Federal Government, we continued efforts that have,
since 2009, broken down hundreds of unfair barriers to trade.
In FY 2013, USDA has continued supporting farmers’ conservation work through technical
assistance and conservation programs—applying the most effective programs in the best places
to achieve the best possible result. This year, USDA continued to work with more than 500,000
landowners around the United States, providing additional opportunities for producers to enter
into contracts under the Conservation Reserve Program while expanding the program to more
than 14 million acres and strengthening landscape-scale conservation initiatives across the
Nation. Meanwhile, in America’s national forests and grasslands, USDA is hard at work
reducing the risk of devastating wildfire and improving soil and water quality.

USDA continued its record level of investment in rural America and the rural communities that
millions call home by investing in community facilities, providing loans for rural small business,
helping rural families buy or repair a home, and helping to ensure communities have access to
critical infrastructure. Since 2009, for example, USDA has provided more than 15,000 rural
business loans to aid more than 65,000 businesses in expanding opportunity and creating jobs. In
addition, we have helped more than 740,000 families achieve the dream of homeownership.

The Department is leading the way for renewable energy, supporting the infrastructure we will
need in a new energy economy. This year, new awards under the Rural Energy for America
Program helped USDA to reach a milestone of more than 7,500 projects around the country that
are helping producers and rural businesses save energy and grow their bottom line. Meanwhile,
we took new steps in 2013 to support biobased product manufacturing that promises to create
new jobs across rural America—including adding new categories of certified biobased products
for Federal procurement.

The Department ensures a safe food supply through its network of Federal inspectors in more
than 6,000 locations nationwide. In the past year, USDA has implemented a number of actions to
further protect the food supply. For example, producers are now required to hold a product until
it has passed the Food Safety and Inspection Service (FSIS) testing for adulterants, and USDA
has directed companies that produce ground and comminuted poultry products to reassess their
food safety plans to ensure that they appropriately address the problem of Salmonella
contamination. USDA has also begun sampling comminuted poultry products for Salmonella and
                                                   United States Department of Agriculture | iv
will use the results of this sampling to set performance standards. USDA and the Food and Drug
Administration (FDA) conducted a risk assessment to better understand the risk of Listeria
monocytogenes in retail delicatessens and made recommendations for improving food safety at
retail establishments. USDA also proposed labeling for mechanically tenderized beef.
In February 2011, the Government Accountability Office (GAO) reported in its High-Risk Series
Update that food safety agencies have not developed a governmentwide performance plan that
includes results-oriented performance measures, which would be a leap forward with regard to
measuring our progress in preventing foodborne illness from meat, poultry, and processed egg
products. In February 2013, the GAO reported in its High-Risk Series Update that while food
safety agencies have not developed a governmentwide performance plan that includes results-
oriented goals and performance measures, there are some encouraging actions.

Specifically, GAO noted that through the President’s Food Safety Working Group, USDA and
FDA have taken steps designed to increase collaboration in some areas that cross regulatory
jurisdictions—in particular, improving produce safety, reducing Salmonella contamination, and
developing food safety performance measures. USDA’s FSIS strategic plan for FY2011-2016,
published in September 2011, includes results-oriented performance measures.

For example, FSIS has estimated the total number of illnesses from meat, poultry, and processed
egg products and developed a key corporate performance measure of our progress toward
preventing these illnesses. FSIS’ strategic plan includes 30 distinct, quantifiable performance
measures that support eight larger goals. In support of this strategic plan and the core principles
of the President’s Food Safety Working Group, USDA-FSIS has announced several new
measures to prevent foodborne illness, empower people, and strengthen infrastructure, as well as
to better understand and influence the farm-to-table continuum.

USDA continued delivering critical nutrition assistance to millions of Americans who are
working hard but struggling to put food on the table, including meals to over 30 million children
each school day. We continued to work with schools across the Nation to implement new,
healthier meals standards authorized under the Healthy, Hunger-Free Kids Act of 2010. We
implemented new steps to ensure that snack foods are healthier during the school day—
supporting the efforts of parents and teachers to improve children’s eating habits. And, we placed
a special focus on expanding access to meals for low-income children in the summer, when
school meals are not widely available.

In addition, USDA continues to lead the way in America’s agricultural research. USDA
researchers have partnered with others, including universities and private industry, across the
country to develop the next generation of renewable energy and find solutions to some of
America’s greatest scientific challenges.

The Department’s Office of the Chief Financial Officer completed implementation of the
Financial Management Modernization Initiative (FMMI), a Web-based system to replace the
mainframe-based legacy Foundation Financial Information System (FFIS). The Food and
Nutrition Service will implement FMMI, which will replace its Integrated Program Accounting
System, by the end of fiscal year 2015.



                                                  Fiscal Year 2013 Agency Financial Report | v
The Department’s management team continues to oversee USDA’s assessment of internal
control over its programs, operations, financial systems, and financial reporting. The
Department’s work is consistent with the provisions of the Federal Managers’ Financial Integrity
Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA). USDA’s
continuous monitoring and remediation efforts allow us to provide taxpayers with reasonable
assurance that this report is based on sound, accurate data.

Nevertheless, continued improvement is needed to remediate USDA’s existing material
weakness and financial system noncompliance. To accomplish this goal, management continues
to implement corrective action plan activities. Therefore, I provide qualified assurance that,
except for the areas in need of improvement as described in the Management Assurances section
of this report, USDA’s internal control over operations, financial systems, and financial reporting
meets the objectives of FMFIA and FFMIA. The financial and performance information
presented herein is complete and accurate, and is in accordance with law and Office of
Management and Budget guidance.

While every year brings unique challenges and 2013 was no different, I am truly proud of USDA
employees across the Nation. They have stepped up to get the job done on behalf of Americans,
and in so doing they continue to grow our economy and create new jobs in rural communities.
I know that together, we can continue to deliver efficient service while finding more ways to
serve as efficient stewards of taxpayer dollars.

Thank you for your interest in the Department.




Thomas J. Vilsack
Secretary of Agriculture
December 12, 2013




                                                   United States Department of Agriculture | vi
                                        Section 1: Management’s Discussion and Analysis


Section 1: Management’s Discussion and Analysis
USDA Overview
The U.S. Department of Agriculture (USDA) was founded by President Abraham Lincoln in
1862, when more than half of the Nation’s population lived and worked on farms. The
population has increased approximately tenfold and now exceeds 314 million people, the vast
majority of whom do not live on farms or in rural areas.

Today, USDA improves the Nation’s economy and quality of life by touching the lives of almost
every person in America, every day. Nearly 100,000 employees deliver more than $159 billion in
public services through the Department’s more than 300 programs worldwide.

Because America’s food and fiber producers operate in a global, technologically advanced,
rapidly diversifying, and highly competitive business environment, USDA is constantly helping
agricultural producers meet the needs of the Nation and of the world.

Mission Statement
We provide leadership on food, agriculture, natural resources, rural development, nutrition, and
related issues based on sound public policy, the best available science, and efficient management.

Vision Statement
To expand economic opportunity through innovation, helping rural America to thrive; to
promote agriculture production sustainability that better nourishes Americans while also helping
feed others throughout the world; and to preserve and conserve our Nation’s natural resources
through restored forests, improved watersheds, and healthy private working lands.




                                                  Fiscal Year 2013 Agency Financial Report | 1
            USDA: Managing for Results in Performing Its Many Vital Public Functions


USDA Organization Chart
Exhibit 1: Organization Chart


                                                                                  SECRETARY




                                                                                  Deputy Secretary




                                                                                                                                     Assistant
                     Director,                                                                 Office of the    Office of Budget                       Assistant          Assistant
                                    Director of          Inspector                                                                  Secretary for
 Chief Economist National Appeals                                        General Counsel      Chief Financial    and Program                          Secretary for     Secretary for
                                  Communications          General                                                                  Congressional
                     Division                                                                     Officer          Analysis                          Administration     Civil Rights
                                                                                                                                     Relations



                                                                                                                                                         Chief
                                                                                                                                                      Information
                                                                                                                                                         Officer




     Under Secretary for     Under Secretary for       Under Secretary for       Under Secretary for       Under Secretary for      Under Secretary for       Under Secretary for
    Natural Resources and    Farm and Foreign          Rural Development         Food, Nutrition, and         Food Safety           Research, Education,        Marketing and
        Environment         Agricultural Services                                Consumer Services                                    and Economics          Regulatory Programs

    Forest Service          Farm Service Agency     Rural Utilities          Food and Nutrition       Food Safety and          Agricultural Research    Agricultural
                                                       Service                   Service                   Inspection Service        Service                   Marketing Service
    Natural Resources       Foreign Agricultural
     Conservation Service     Service                 Rural Housing            Center for Nutrition                               National Institute of    Animal and Plant
                                                       Service                   Policy and Promotion                                Food and Agriculture      Health Inspection
                             Risk Management                                                                                                                  Service
                              Agency                  Rural Business                                                               Economic Research
                                                       Cooperative Service                                                           Service                  Grain Inspection,
                                                                                                                                                               Packers and
                                                                                                                                    National Agricultural     Stockyards
                                                                                                                                     Library                   Administration

                                                                                                                                    National Agricultural
                                                                                                                                     Statistics Service




Source: USDA’s Web site, November 25, 2013

This image displays the U.S. Department of Agriculture’s (USDA) Headquarters Organization,
including the Secretary, Chief Officers, Under Secretaries, and Assistant Secretaries for various
agencies within USDA. In addition to its Headquarters Organization, USDA has a network of
offices, facilities, and laboratories across the country and overseas.




                                                                                              United States Department of Agriculture | 2
                                       Section 1: Management’s Discussion and Analysis


Mission Areas and Departmental Management
The U.S. Department of Agriculture’s (USDA) work is organized by mission areas, which are
collections of agencies that work together to achieve USDA’s strategic goals. Descriptions of
USDA’s seven mission areas and Departmental Management follow.

Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area does the following:
1) supports a strong financial safety net including providing access to credit for farmers and
ranchers who are temporarily unable to obtain commercial credit; 2) promotes the vitality of
rural America by improving access to international markets, thereby providing credit guarantees
for U.S. farm exports; and 3) supports industry efforts to develop new markets. Also, in support
of ensuring private working lands are preserved, the FFAS area protects watershed health to
ensure clean and abundant water; and enhances soil quality to maintain productive working
cropland. Finally, in support of agricultural production, FFAS promotes the international
acceptance of new technologies, and promotes sustainable, productive agricultural systems and
trade in developing countries to enhance global food security.

This mission area is comprised of the Farm Service Agency (FSA), the Foreign Agricultural
Service (FAS), and the Risk Management Agency (RMA). FSA ensures the well-being of
American agriculture, the environment, and the American public through the administration of
farm commodity programs, farm ownership, farm operating and emergency loans; conservation
and environmental programs; emergency and disaster assistance; and domestic and international
food assistance. FSA programs are delivered and serviced through an extensive network of field
offices in approximately 2,200 USDA FSA County Office Service Centers and 51 State Offices.
FSA also provides administrative support for the Commodity Credit Corporation (CCC). The
CCC is a Government-owned entity that provides funding for commodity programs administered
by FSA and many Farm Bill programs such as the conservation programs administered by FSA
and the Natural Resources Conservation Service (NRCS), and export programs administered by
FAS. FAS works to improve international market access for U.S. products, build new markets,
improve the competitive position of domestic agriculture in the global marketplace, and provide
food aid and technical assistance to other countries. RMA helps producers manage their business
risks through effective, market-based, risk-management solutions. In addition, RMA manages
the Federal Crop Insurance Corporation to improve the economic stability of agriculture through
a sound system of crop insurance.

Food, Nutrition and Consumer Services
The Food, Nutrition, and Consumer Services (FNCS) mission area works to harness the Nation’s
agricultural abundance to reduce hunger and improve health in the United States.

FNCS is comprised of the Food and Nutrition Service (FNS) and the Center for Nutrition Policy
and Promotion (CNPP). FNS administers USDA’s domestic nutrition assistance programs. The
mission of FNS is to increase food security and reduce hunger, working in partnership with State
agencies and other cooperating organizations, to help ensure children and low-income people

                                                 Fiscal Year 2013 Agency Financial Report | 3
        USDA: Managing for Results in Performing Its Many Vital Public Functions

have access to food, a healthful diet, and nutrition education in a manner that supports American
agriculture and inspires public confidence. In addition to providing access to nutritious food,
FNS works to empower program participants with the knowledge to eat healthy diets and engage
in physical activity. The mission of CNPP is to improve the health of Americans by developing
and promoting dietary guidance that links the best evidence-based, scientific research to the
nutrition needs of Americans.

Food Safety
The Food Safety mission area is the public health mission area of USDA that is responsible for
ensuring that the Nation’s commercial supply of meat, poultry and processed egg products is
safe, wholesome, and properly labeled and packaged. This includes products produced
domestically in Federally inspected establishments, as well as products imported from foreign
countries. It also plays a key role in the President’s Food Safety Working Group, a coordinated
governmentwide initiative to ensure a safe food supply for the American people for the
21st century. USDA’s partners in the working group include the U.S. Department of Health and
Human Services, the U.S. Environmental Protection Agency, and a number of other Government
agencies. The Food Safety mission area is comprised of a single agency, the Food Safety and
Inspection Service, which provides Federal inspection of meat, poultry, and processed egg
products establishments; support for similar establishments under State inspection programs;
development and implementation of the Public Health Information System to enhance science-
based, data-driven inspections; and determination of international equivalence of foreign
systems.

Marketing and Regulatory Programs
The mission of Marketing and Regulatory Programs (MRP) is to facilitate and expand the
domestic and international marketing of U.S. agricultural products, to help protect the
agricultural sector from plant and animal health threats, and to ensure humane care and treatment
of certain animals. MRP conducts oversight activities to protect producers from unfair
competition and unfair business practices, and partners with the Department of Justice to help
prevent anti-competitive behaviors for regulated entities. MRP also assists producers in
management and marketing by providing market trend analysis and business and marketing
tools.

MRP is made up of the Animal and Plant Health Inspection Service (APHIS), the Agricultural
Marketing Service (AMS), and the Grain Inspection, Packers, and Stockyards Administration
(GIPSA). APHIS is responsible for protecting and promoting U.S. agricultural health, regulating
genetically engineered organisms, administering the Animal Welfare Act, and carrying out
wildlife damage management activities. APHIS works cooperatively with State and local
agencies, private groups, and foreign governments to protect the safety of the Nation’s
agriculture. AMS strives to facilitate the competitive and efficient marketing of agricultural
products in domestic and international markets, while ensuring fair trading practices. AMS
programs benefit producers, traders, and consumers of U.S. food and fiber products by
promoting a strategic marketing perspective that adapts product and marketing decisions to
consumer demands, changing domestic and international marketing practices, and new
technology. GIPSA helps USDA enhance international competitiveness of American agriculture

                                                  United States Department of Agriculture | 4
                                        Section 1: Management’s Discussion and Analysis

and the economic viability and sustainability of rural and farm economies. GIPSA establishes the
official U.S. standards and quality assessment methods for grain and related products, regulates
handling practices to ensure compliance with the U.S. Grain Standards Act and Agricultural
Marketing Act of 1946, and manages a network of Federal, State, and private laboratories that
provide impartial, user-fee funded official inspection and weighing services.

Natural Resources and Environment
The Natural Resources and Environment (NRE) mission area promotes the conservation and
sustainable use of natural resources on the Nation’s private lands and sustains production of all
the goods and services that the public demands of the national forests and grasslands. The NRE
mission area, primarily through the Natural Resources Conservation Service (NRCS), also has
responsibility for implementing most of the Conservation Title of the 2008 Farm Bill.
The mission area includes two agencies: NRCS and the Forest Service (FS). NRCS and FS
continue to expand public access to Federal and private lands for hunting, fishing, and other
outdoor recreational opportunities. This is accomplished through a variety of programs aimed at
preserving and restoring our public and private lands, mitigating the effects of climate change,
and making the landscape more resilient to wildfire. Both NRE agencies excel in delivering site-
specific and landscape-scale solutions and accelerate their efforts through partnering with Tribal,
Federal, State, and local Governments, and community-related groups to protect soils,
watersheds, and ecosystems. NRCS partners with private landowners to provide technical and
financial assistance to help protect farm and ranchlands and private forestland. FS partners with
State and local government agencies to oversee the management of the National Forest System.

Research, Education, and Economics
The Research, Education, and Economics (REE) mission area provides Federal leadership for the
discovery, application, and dissemination of information and technologies spanning the
biological, physical, and social sciences through agricultural research, education, and extension
activities and economic research and statistics.

REE is comprised of the Agricultural Research Service (ARS), the Economic Research Service
(ERS), the National Agricultural Statistics Service (NASS), and the National Institute of Food and
Agriculture (NIFA). ARS conducts intramural research in the area of natural and biological
sciences. ARS includes the National Agricultural Library, which is the Nation’s major
information resource on food, agriculture, and natural resource sciences. ERS performs
intramural economic and social science research. NASS conducts the Census of Agriculture and
provides the official, current statistics on agricultural production and indicators of the economic
and environmental welfare of the farm sector. NIFA partners with land grant and non-land grant
colleges and universities in carrying out extramural research, higher education, and extension
activities.

Rural Development
USDA, as a leading advocate for rural America, is at the forefront of developing the technology
and tools necessary to transform rural America to take advantage of new opportunities. The
mission of Rural Development (RD) programs is to assist rural communities to create prosperity
by providing financial and technical assistance to rural residents, businesses, and private and
                                                  Fiscal Year 2013 Agency Financial Report | 5
        USDA: Managing for Results in Performing Its Many Vital Public Functions

public entities for a broad range of purposes that bring prosperity and better living to Rural
America. These programs are grouped within three agencies: (1) the Rural Business-
Cooperative Service (RBS), which provides assistance for the development of business and
industry, including small businesses, and renewable energy and energy improvement projects;
(2) the Rural Utilities Service (RUS), which provides assistance for water and waste disposal,
rural electricity and telecommunications, including broadband access; and (3) the Rural Housing
Service (RHS), which provides assistance for homeownership, multi-family housing, and
essential community facilities such as health and public safety infrastructure.

Departmental Offices
Department-level offices provide centralized leadership, coordination, and support for USDA’s
policy and administrative functions. Their efforts maximize the energy and resources agencies
devote to the delivery of services to USDA customers and stakeholders.




                                                 United States Department of Agriculture | 6
                                        Section 1: Management’s Discussion and Analysis


Performance Goals, Objectives, and Results
Agency Priority Goals
USDA has been pursuing three Agency Priority Goals in fiscal years (FY) 2012 and 2013. Goal
performance data will be available at the end of the calendar year and published in the Annual
Performance Report, which will be released in February 2014. A synopsis of the goals is
provided below.

Agency Priority Goal 1: Further improve payment accuracy in the Supplemental Nutrition
Assistance Program (SNAP).

SNAP puts healthy food on the table for millions of low-income people in America every month.
The program supplements their budgets by providing benefits via an electronic benefit card,
which is used like a debit card at most food retailers. Through nutrition education partners, the
program helps clients learn how to make healthy eating and active lifestyle choices. SNAP also
provides a significant boost to local economies. For every dollar in new SNAP benefit spending,
$1.80 is generated in total economic activity.

Payment accuracy has reached a record high of 96.58 percent. This combined rate reflects
2.77 percent in overpayments and 0.65 percent in underpayments for a total of 3.42 percent in
erroneous payments. USDA’s Food and Nutrition Service (FNS) has continued to work to
improve payment accuracy through partnerships with States and by rewarding exemplary
performance while holding low-performing States accountable. FNS uses an early detection
system to target States that may be experiencing a higher incidence of payment errors. FNS then
intervenes to address situations identified in individual States. FNS provides technical assistance
and knowledge to State agencies to improve payment accuracy and shares best practices among
States.

Agency Priority Goal 2: Expand U.S. agricultural exports to at least $150 billion by
September 2013, up from a level of $137.4 billion in FY 2011.

Agricultural exports reached $140.9 billion. For every $1 billion of agricultural exports, an
estimated 6,800 jobs are created and an additional $1.29 billion in economic activity is
generated.

USDA continued to use all available resources to increase exports and adjust market
development and maintenance efforts based on changes in the global economic environment.
The Department supported trade agreement negotiations; monitoring and enforcing of existing
trade agreements; capacity building in emerging trading partners; and promotion of
U.S. products overseas. USDA supported access to international markets through market
development programs and trade shows, which leads to direct sales by connecting exporters with
foreign buyers. USDA also resolved technical barriers to trade and unjustified sanitary and
phytosanitary measures.




                                                  Fiscal Year 2013 Agency Financial Report | 7
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Agency Priority Goal 3: Accelerate the protection of clean, abundant water resources by
advancing USDA’s capacity to measure the effectiveness of conservation investments in
addressing water resource concerns.
The availability and protection of clean water is critical to the country’s drinking water supply
and crop production capacity. The Environmental Protection Agency recently released an
assessment indicating that 23 percent of the Nation’s rivers and streams were rated as fair
condition, and 55 percent rated as poor condition. USDA could positively impact 87 percent of
America’s surface supply of drinking water by assisting with conservation on lands upstream. If
conservation treatment methods and locations are carefully selected, the investments in USDA
conservation programs have an even stronger positive impact on the Nation’s water quality.
Policymakers and conservationists increasingly recognize that broadly implementing
conservation practices is not adequate to target water quality improvement. To make informed
decisions with public funding to target water quality improvements, the focus must be on
assessing water quality, with a scientific connection to the effectiveness of conservation and
management actions. This combination offers the potential to achieve more economical and
sustainable solutions to protect and increase clean water.
Building on years of advances by USDA conservation and science agencies, USDA is providing
results-based, landscape-scale conservation investment that will protect water resources more
efficiently and effectively, and encourage innovations that attract private capital and create non-
regulatory incentives for a variety of stakeholders to invest in sustainable water resource
management practices.
To this end, USDA implemented two project watersheds, the St. Joseph River Watershed Project
in Indiana, and the Cienega Creek Watershed Project in Arizona. The research from these
projects demonstrates why both condition and effectiveness frameworks consisting of monitoring
and modeling are needed to assess and evaluate water-quality improvements. These approaches
will enable USDA agencies and their partners to build performance measures into their programs
and use the results to improve their work and guide future investments so as to more efficiently
and effectively achieve the Nation’s water goals.
USDA continued to track a secondary goal: implementing high-impact targeted practices to
improve water quality on 4 million acres within critical and/or impaired watersheds by the end of
this fiscal year. USDA estimates achieving 90 percent (3.6) of the 4 million-acre goal.




                                                   United States Department of Agriculture | 8
                                       Section 1: Management’s Discussion and Analysis

Strategic Goals, Objectives, and Annual Performance Goals
The Performance Summary information in Exhibit 2, organized by the U.S. Department of
Agriculture’s strategic goals and objectives, provides a summary of the Department’s
performance results. Of the 43 performance measures contained in USDA’s FY 2013 Annual
Performance Plan, 40 were met or exceeded, 2 were unmet, and 1 was deferred. The
Department’s Annual Performance Report to be released with the budget will contain additional
analysis of these results, including the historical performance trend data. Published performance
information with a comprehensive picture of a program’s performance history is available at
Performance.gov and USDA Performance.

Agency Strategic Goals
Strategic Goal 1:     Assist Rural Communities to Create Prosperity So They are
                      Self-Sustaining, Repopulating, and Economically Thriving.

Strategic Goal 2:     Ensure Our National Forests and Private Working Lands are Conserved,
                      Restored, and Made More Resilient to Climate Change, While Enhancing
                      Our Water Resources.

Strategic Goal 3:     Help America Promote Agricultural Production and Biotechnology
                      Exports as America Works to Increase Food Security.

Strategic Goal 4:     Ensure That All of America’s Children Have Access to Safe, Nutritious,
                      and Balanced Meals.




                                                 Fiscal Year 2013 Agency Financial Report | 9
         USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit is a summary of the Department’s performance results.

Exhibit 2: Performance Summary

                                     Performance Summary for FY 2013
      Strategic Objectives                                 Annual Performance Goals                        Result
Strategic Goal 1: Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating,
                                      and Economically Thriving
1.1    Enhance Rural Prosperity      1.1.1 Number of jobs created or saved through USDA financing of       Exceeded
                                     businesses
                                     1.1.2 Number of borrowers/subscribers receiving new or improved       Exceeded
                                     telecommunication services (millions)
1.2    Create Thriving Communities   1.2.1 Number of population receiving new or improved service from       Met
                                     agency-funded water facility (millions)
                                     1.2.2 Homeownership opportunities provided                              Met
                                     1.2.3 Percentage of customers who are provided access to new
                                     and/or improved essential community facilities

                                     Note: Some facility types serve more than one purpose

                                      Health Facilities                                                     Met

                                      Safety Facilities                                                   Exceeded

                                      Educational Facilities                                              Exceeded

                                     1.2.4 Number of borrowers/subscribers receiving new and/or              Met
                                     improved electric facilities (millions)
1.3    Support a Sustainable and     1.3.1 Percentage direct and guaranteed lending to Socially              Met
       Competitive Agricultural      Disadvantaged Farmers (SDA)
       System
                                     1.3.2 Maintain or increase percentage of FSA program delivery           Met
                                     applications at USDA Service Centers that are Web-enabled
                                     1.3.3 Percentage direct and guaranteed lending to beginning Farmers   Exceeded
                                     1.3.4 Value of trade preserved through resolution of foreign market   Exceeded
                                     access issues such as U.S. export detainment, restrictive
                                     Sanitary/Phytosanitary and Technical Barriers to Trade issues, and
                                     trade regulations ($billions)
                                     1.3.5 Value of agricultural exports resulting from participation in   Exceeded
                                     foreign food and agricultural trade shows ($billions)
                                     1.3.6 Value of Federal Crop Insurance Corporation (FCIC) risk         Exceeded
                                     protection coverage provided through FCIC-sponsored insurance
                                     ($billions)
                                     1.3.7 Normalized value of FCIC risk protection coverage provided      Exceeded
                                     through FCIC-sponsored insurance ($billions)
                                     1.3.8 Percent of industry compliance with the Packers and               Met
                                     Stockyards Act
  Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and
              Made More Resilient to Climate Change, While Enhancing Our Water Resources
2.1    Restore and Conserve the      2.1.1 Conservation Reserve Program: Restored wetland acreage            Met
       Nation’s Forests, Farms,      (millions of acres)


                                                              United States Department of Agriculture | 10
                                                  Section 1: Management’s Discussion and Analysis

                                        Performance Summary for FY 2013
      Strategic Objectives                                   Annual Performance Goals                                      Result
      Ranches, and Grasslands           2.1.2 Conservation Technical Assistance: Cropland with                              Met
                                        conservation applied to improve soil quality (millions of acres)
                                        2.1.3 Environmental Quality Incentives Program: Cropland with                       Met
                                        conservation applied to improve soil quality (millions of acres)
                                        2.1.4 Conservation Technical Assistance: Grazing land and forest                    Met
                                        land with conservation applied to protect and improve the resource
                                        base (millions of acres)
                                        2.1.5 Environmental Quality Incentives Program: Grazing land and                  Exceeded
                                        forest land with conservation applied to protect and improve the
                                        resource base (millions of acres)
                                        2.1.6 Farm and Ranch Lands Protection Program: Prime, unique, or                  Exceeded
                                        important farmland protected from conversion to non-agricultural
                                        uses by conservation easements (thousands of acres)
                                        2.1.7 Wildlife Habitat Incentive Program: Non-Federal land with                     Met
                                        conservation applied to improve fish and wildlife habitat quality
                                        (millions of acres)
                                        2.1.8 Environmental Quality Incentives Program: Non-Federal land                    Met
                                        with conservation applied to improve fish and wildlife habitat
                                        quality (millions of acres)
                                        2.1.9 Number of communities with urban and community forestry                     *Deferred
                                        programs resulting from Forest Service assistance (number of
                                        communities)

                                        * Fourth-quarter data are not available. Results will be reported in the Annual
                                        Performance Report to be issued with the budget.

                                        2.1.10 Annual acres of public and private forest lands restored or                  Met
                                        enhanced (millions of acres)
                                        2.1.11 Volume of timber sold (million board feet)                                   Met
2.2   Lead Efforts to Mitigate and Adapt to Climate Change
2.3   Protect and Enhance               2.3.1 Conservation Technical Assistance: Land with conservation                     Met
      America’s Water Resources         applied to improve water quality (millions of acres)
                                        2.3.2 Environmental Quality Incentives Program: Land with                           Met
                                        conservation applied to improve water quality (millions of acres)
                                        2.3.3 Wetlands Reserve Program: Wetlands created, restored or                       Met
                                        enhanced (thousands of acres)
2.4   Reduce Risk from                  2.4.1 Acres of Wildland Urban Interface fuels treated to reduce the                 Met
      Catastrophic Wildfire and         risk of catastrophic fire (millions of acres)
      Restore Fire to its Appropriate
      Place on the Landscape            2.4.2 Percentage of acres treated in the Wildland Urban Interface                   Met
                                        that have been identified in Community Wildfire Protection Plans
                    Strategic Goal 3: Help America Promote Agricultural Production and
                     Biotechnology Exports as America Works to Increase Food Security
3.1   Ensure U.S. Agricultural Resources Contribute to Enhanced Global Food Security
3.2   Enhance America’s Ability to      3.2.1 Cumulative number of genetically engineered plant lines                     Exceeded
      Develop and Trade                 reviewed by the U.S. Department of Agriculture and found safe for
      Agricultural Products Derived     use in the environment
      from New Technologies



                                                               Fiscal Year 2013 Agency Financial Report | 11
        USDA: Managing for Results in Performing Its Many Vital Public Functions

                                            Performance Summary for FY 2013
      Strategic Objectives                                  Annual Performance Goals                                       Result
3.3   Support Sustainable Agriculture Production in Food-Insecure Nations
                            Strategic Goal 4: Ensure That All of America’s Children
                              Have Access to Safe, Nutritious, and Balanced Meals
4.1   Increase Access to Nutritious     4.1.1 Participation rates for the major Federal nutrition assistance                 Met
      Foods                             programs (millions per month): Supplemental Nutrition Assistance
                                        Program
                                        4.1.2 SNAP payment accuracy rate (percent)                                        Exceeded
                                        4.1.3 Participation levels for the major Federal nutrition assistance
                                        programs (millions per day):
                                         National School Lunch Program                                                      Met

                                         School Breakfast Program                                                           Met

                                        4.1.4 Participation levels for the major Federal nutrition assistance                Met
                                        programs (millions per month): The Special Supplemental Nutrition
                                        Program for Women, Infants and Children (average)
4.2   Promote Healthy Diet and          4.2.1 Application and usage level of nutrition guidance tools                     Exceeded
      Physical Activity Behavior        (billions of pieces of nutrition guidance distributed)
4.3   Protect Public Health by          4.3.1 Percent of broiler plants passing the carcass Salmonella                     Unmet
      Ensuring Food is Safe             Verification Testing Standard1
                                        4.3.2 Total illnesses from all Food Safety and Inspection Service                  Unmet
                                        products2
                                        4.3.3 Percent of establishments with a functional food defense plan3              Exceeded
                                        1
                                          Revised from FY 2012’s measure of “overall public exposure to Salmonella from boiler
                                        carcasses as FSIS implemented a new, stricter Salmonella performance standard for broilers and
                                        turkeys on July 1, 2011.
                                        2
                                          Recalculated in FY 2011 to reflect newly published illness estimates from the CDC, new,
                                        national Healthy People 2020 goals, and methodological changes.
                                        3
                                          Functional food defense plans are voluntary written procedures that food processing
                                        establishments should follow to protect the food supply from intentional contamination with
                                        chemicals, biological agents or other harmful substances.

4.4   Protect Agricultural Health by    4.4.1 Value of damage prevented and mitigated annually as a result                   Met
      Minimizing Major Diseases         of selected plant and animal health monitoring and surveillance
      and Pests, Ensuring Access to     efforts ($billions)
      Safe, Plentiful, and Nutritious
      Food




                                                                 United States Department of Agriculture | 12
                                        Section 1: Management’s Discussion and Analysis

Future Demands, Risks, Uncertainties, Events, Conditions, and
Trends
Farmers and ranchers operate in highly competitive markets, both domestically and internationally.
Rapid shifts in consumer demands associated with quality, convenience, taste, and nutrition dictate
that farming, ranching, and marketing infrastructures become more fluid and responsive.

National security is a significant, ongoing priority for the Department. The U.S. Department of
Agriculture (USDA) is working with the U.S. Department of Homeland Security to help protect
agriculture from intentional and accidental acts that might impact America’s food supply or
natural resources.

External factors that challenge USDA’s ability to achieve its goals include the following:

      Weather-related hardships, including disasters related to the increasing intensity and
       duration of extreme weather and climate change, both domestically and abroad;
      The risk of catastrophic fire, depending on weather, drought conditions, and the
       expanding number of communities in the wildland-urban interface.
      Non weather-related hardships and other uncontrollable events, both domestically and
       abroad;
      Domestic and international macroeconomic factors, including consumer purchasing
       power, the strength of the U.S. dollar, and political changes abroad that could impact
       domestic and global markets greatly at any time;
      Sharp fluctuations in farm prices, interest rates, and unemployment that could impact the
       ability of farmers, other rural residents, communities, and businesses to qualify for credit
       and manage their debts;
      The impact of future economic conditions and actions by a variety of Federal, State, and
       local Governments that could influence the sustainability of rural infrastructure;
      The increased movement of people and goods, which provides the opportunity for crop
       and animal pests and diseases to move quickly across domestic and international
       boundaries; and
      Potential exposure to hazardous substances, which may threaten human health and the
       environment, and the ability of the public and private sectors to collaborate effectively on
       food safety, security, and related emergency preparedness efforts.




                                                Fiscal Year 2013 Agency Financial Report | 13
        USDA: Managing for Results in Performing Its Many Vital Public Functions


Analysis of Financial Information and Highlights
Financial Statement Highlights
Budgetary Resources
The U.S. Department of Agriculture (USDA) receives most of its funding from appropriations
authorized by Congress and administered by the U.S. Department of the Treasury. Total budgetary
resources consist of the balance at the beginning of the year, appropriations received during the
year, spending authority from offsetting collections, and other budgetary resources. The following
exhibit presents fiscal year (FY) 2013 total budgetary resources by mission area.

Exhibit 3: FY 2013 Total Budgetary Resources by Mission Area ($billions)

  Food Nutrition and Consumer Services - $130                   1%             1%
                                                           1%                       1%
  Farm and Foreign Agriculture Services - $54
                                                      7%
  Rural Development - $34

  Natural Resources and Environment - $16                   14%

  Research, Education and Economics - $3                                            53%

  Marketing and Regulatory Programs - $3                        22%
  Departmental Offices - $2

  Food Safety -$1



Total budgetary resources were $243 billion for FY 2013 compared to $225 billion in FY 2012, an
increase of $18 billion, or 8 percent.




                                                 United States Department of Agriculture | 14
                                         Section 1: Management’s Discussion and Analysis

The following exhibit presents significant changes in total budgetary resources by mission area.

Exhibit 4: Significant Changes in Total Budgetary Resources by Mission Area ($billions)


           Food Nutrition and Consumer            Rural              Farm and Foreign Agriculture
                     Services                  Development                    Services

 $9
 $8                                                                          $9
 $7
 $6
 $5
 $4                                             $5
 $3                $4
 $2
 $1
 $0


Obligations Incurred
Obligations incurred were $201 billion for FY 2013, compared to $187 billion in FY 2012, an
increase of $14 billion, or 7 percent. The following exhibit presents significant changes in
obligations incurred.

Exhibit 5: Significant Changes in Obligations Incurred ($billions)
                Farm Service            Rural         Food and Nutrition    Risk Management
                  Agency             Development           Service               Agency

      $8                                                                          $8
      $7
      $6
      $5
      $4
      $3
      $2
                  $2                                         $2
      $1                                 $2
      $0

There were increases at Risk Management Agency (RMA) for Crop Insurance; at Food and
Nutrition Service (FNS) for the Supplemental Nutrition Assistance (SNAP); at Rural
Development (RD) for the Rural Electric and Telecommunications Program and at Farm Service
Agency (FSA) for Disaster Relief Trust and Pigford II.




                                                Fiscal Year 2013 Agency Financial Report | 15
         USDA: Managing for Results in Performing Its Many Vital Public Functions

Net Outlays
Net Outlays were $159 billion for FY 2013, compared to $144 billion in FY 2012, an increase of
$15 billion or 10 percent. The following exhibit presents significant changes in net outlays.

Exhibit 6: Significant Changes in Net Outlays ($billions)
             Commodity Credit          Farm Service      Food and Nutrition    Risk Management
               Corporation               Agency               Service               Agency

     9                                                                             $9
     8
     7
     6
     5
     4
     3
     2                                                        $3
     1                                   $2
                  $1
     0

There were increases at RMA for Crop Insurance; at FNS for SNAP; at FSA for Pigford II and at
CCC for Direct and Counter Cyclical Payments.

Balance Sheet
Total Assets
Total assets for FY 2013 were $194 billion as of September 30, 2013, compared to $193 billion
for FY 2012, an increase of $1 billion, or 1 percent. The following exhibit presents FY 2013
total assets.

Exhibit 7: Total Assets ($billions)

                                                                 2%           2%
  Direct Loan and Loan Guarantees, Net - $101

  Fund Balance with Treasury - $87
                                                           44%                     52%
  Accounts Receivable, Net - $3

  General Property, Plant and Equipment,
  Net - $3




Direct Loan and Loan Guarantees, Net, is the single largest asset on the USDA Balance Sheet. RD
offers both direct and guaranteed loan products for rural housing and rural business infrastructure.
These products represent 89 percent of the total Department loan programs. Loan programs

                                                      United States Department of Agriculture | 16
                                         Section 1: Management’s Discussion and Analysis

administered by FSA represent 7 percent of the total. FSA supports farmers who are temporarily
unable to obtain private, commercial credit. The remaining 4 percent represents commodity loans
and credit programs administered by the CCC. Their loans are used to improve economic stability
and provide an adequate supply of agricultural commodities. CCC credit programs provide
international food assistance, expand international markets, and provide domestic low-cost financing
to protect farm income and prices. The following exhibit presents significant changes in total assets.
Exhibit 8: Significant Changes in Assets ($billions)

                                                                            Direct Loan and Loan
              Accounts Receivable        Fund Balance with Treasury              Guarantees

 6
 4                                                                               $5
 2
                                                  $2
 0
 -2
 -4
                   -$6
 -6




                                                  Fiscal Year 2013 Agency Financial Report | 17
          USDA: Managing for Results in Performing Its Many Vital Public Functions

Total Liabilities
Total liabilities for FY 2013 were $151 billion as of September 30, 2013, compared to $153 billion
for FY 2012, a decrease of $2 billion, or -1 percent. The following exhibit presents total liabilities.

Exhibit 9: Total Liabilities ($billions)
                                                                       3% 0%
   Debt                              $105                   3%                          1%

   Other                             $34

                                                             23%
   Loan Guarantee Liability           $5

   Benefits Due and Payable           $4
                                                                                        70%
   Accounts Payable                   $2

   Federal Employee and Veteran $1
   Benefits

Debt is the single largest liability on USDA’s balance sheet. It represents amounts owed primarily
to Treasury by CCC and RD. For CCC, the debt primarily represents financing to support direct
and counter-cyclical, crop disaster, and loan deficiency programs. For RD, the debt primarily
represents financing to support electric and housing loan programs. The following exhibit presents
significant changes in total liabilities.

Exhibit 10: Significant Changes in Total Liabilities ($billions)


                              Other Liabilities                                  Debt


 $12
                                                                           $11
  $7

  $2

 ($3)

 ($8)
                            -$13
($13)




                                                     United States Department of Agriculture | 18
                                        Section 1: Management’s Discussion and Analysis

Net Cost of Operations
Net cost of operations for FY 2013 was $144 billion as of September 30, 2013, compared to
$151 billion for FY 2012, a decrease of $7 billion, or -5 percent. The following exhibit presents net
cost of operations by strategic goal.

Exhibit 11: FY 2013 Net Cost of Operations by Strategic Goals ($billions)

  Goal 1 - $17                                                                     12%
  Goal 2 - $12                                                                                8%
  Goal 3 - $3
                                                                                                   2%
  Goal 4 - $112
                                                                78%




Goal 1: Assist Rural Communities to Create Prosperity So They are Self-Sustaining,
Repopulating, and Economically Thriving.
Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and
Made More Resilient to Climate Change, While Enhancing Our Water Resources.
Goal 3: Help America Promote Agricultural Production and Biotechnology Exports as America
Works to Increase Food Security.
Goal 4: Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced
Meals.




                                                 Fiscal Year 2013 Agency Financial Report | 19
         USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit presents significant changes in net cost of operations by strategic goal.

Exhibit 12: Significant Changes in FY 2013 Net Cost of Operations by Strategic Goals
($billions)
                  Risk                                                              Food and
               Management               Rural               Farm Service            Nutrition
                Agency               Development              Agency                 Service

  $4
  $2                                                                                $3
                                                              $1
  $0
 -$2                                  -$3
 -$4
 -$6
                -$8
 -$8
There were increases at FNS for SNAP and at FSA for Disaster Relief Trust; these increases
were offset by a decrease at RD for Multi Family Housing and at RMA for Crop Insurance.

Stewardship Investments
Stewardship investments are substantial investments made by the Federal Government for the
benefit of the Nation but are not physical assets owned by the Federal Government. When
incurred, they are treated as expenses in determining the net cost of operations. However, these
items merit special treatment so that users of Federal financial reports know the extent of
investments that are made for long-term benefit. Such investments are measured in terms of
expenses incurred for non-Federal physical property, human capital, and research and
development. The following exhibit presents a comparison of stewardship investments.

Exhibit 13: Comparison of Stewardship Investments ($millions)

             Non-Federal Physical                                  Research and
                  Property               Human Capital             Development
$2,500

$2,000                                                                     $2,128
                                                            $1,987                          FY2013
$1,500                                                                                      FY2012
$1,000

  $500                              $615           $623
             $56            $71
    $0




                                                   United States Department of Agriculture | 20
                                       Section 1: Management’s Discussion and Analysis


Analysis of Systems, Controls, and Legal Compliance
Management Assurances
Statement of Assurance
The U.S. Department of Agriculture (USDA) is providing qualified
assurance that USDA’s systems of internal control comply with the Federal
Managers’ Financial Integrity Act (FMFIA) objectives. USDA’s systems of
internal control meet the objectives of the FMFIA and the Federal Financial
Management Improvement Act (FFMIA), with the exception of two
material weaknesses in internal control, one financial system
non-conformance, and three noncompliances with laws and regulations.
Management is providing reasonable assurance that the internal controls
over operations are effective. The details of the exceptions are provided in
the FMFIA, FFMIA, and Summary of Financial Statement Audit and
Management Assurances sections of this report.

USDA assessed its financial management systems and internal controls over the effectiveness
and efficiency of operations and compliance with applicable laws and regulations as of
September 30, 2013, and financial reporting as of June 30, 2013. The assessment included the
safeguarding of assets and compliance with applicable laws and regulations, in accordance with
the requirements of Office of Management and Budget Circular No. A-123, “Management’s
Responsibility for Internal Control.”

The Forest Service (FS) identified an Antideficiency Act (ADA) violation under 31 U.S.C.
§1517(a). The Energy Policy Act of 2005, Public Law 109-58, required the Secretary of the
Interior to create a pilot project to improve Federal permit coordination. The Bureau of Land
Management (BLM) transferred funds to FS to participate in the pilot. FS reported
obligations/expenditures in excess of the balance of the fund transferred from the BLM as of
December 31, 2012. FS spent $6,781.90 in excess of the $72,000 carried over from FY 2012.
Although several actions had transpired to obtain the funding needed for FY 2013, the warrant
with additional funding was not received by FS until January 31, 2013. The ADA violation is in
the process of being reported to Congress and the President.

In October 2013, the Commodity Credit Corporation (CCC), which is a wholly-owned
government corporation within USDA, identified that a violation of the ADA may have occurred
in September 2013 in the Feedstock Flexibility Program. However, CCC has not completed its
investigation to determine whether a violation has occurred or not.




                                               Fiscal Year 2013 Agency Financial Report | 21
        USDA: Managing for Results in Performing Its Many Vital Public Functions

No other material weaknesses were found in the design or operation of the internal control over
(1) the effectiveness and efficiency of operations and compliance with applicable laws and
regulations as of September 30, 2013, and (2) financial reporting as of June 30, 2013.




Thomas J. Vilsack
Secretary of Agriculture
December 12, 2013




                                                 United States Department of Agriculture | 22
                                        Section 1: Management’s Discussion and Analysis

Federal Managers’ Financial Integrity Act Report on Management
Control
Background
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal
controls and financial management systems. These evaluations lead to an annual statement of
assurance that:
     Obligations and costs comply with applicable laws and regulations;
      Federal assets are safeguarded against fraud, waste, abuse, and mismanagement;
      Transactions are accounted for and properly recorded; and
      Financial management systems conform to standards, principles, and other requirements
       to ensure that Federal managers have timely, relevant, and consistent financial
       information for decision-making purposes.

The U.S. Department of Agriculture (USDA) annually evaluates its internal controls over
financial reporting in accordance with Office of Management and Budget (OMB) Circular
No. A-123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal Control
over Financial Reporting” (OMB Circular No. A-123, Appendix A).

The Department operates a comprehensive internal control program. This program ensures
compliance with the requirements of FMFIA and other laws, and OMB Circular No. A-123,
Appendices A and D. All USDA managers must ensure that their programs operate efficiently and
effectively, and comply with relevant laws. They must also ensure that financial management
systems conform to applicable laws, standards, principles, and related requirements. In conjunction
with the Office of Inspector General and the Government Accountability Office, USDA’s
management works aggressively to determine the root causes of its material weaknesses so that it
can direct resources to focus on their remediation.

USDA remains committed to reducing and eliminating the risks associated with its deficiencies.
It also strives to efficiently and effectively operate its programs in compliance with FMFIA.

Fiscal Year 2013 Results
The Department has one existing material weakness in internal controls over financial reporting
for Information Technology, and one existing system non-conformance in Funds Control
Management. Also, a new material weakness for Estimated Losses on Insurance Claims
Calculations in the Risk Management Agency/Federal Crop Insurance Corporation (RMA/FCIC)
is being reported for the first time. Remediation activities are continuing for the Commodity
Credit Corporation (CCC) and the Natural Resources Conservation Service (NRCS) to resolve
the non-conformance in FY 2014. The Forest Service is noncompliant with laws and regulations
related to its grants management program. The Food and Nutrition Service, the Farm Service
Agency, the Risk Management Agency, and the Natural Resources Conservation Service are
noncompliant with laws and regulations related to the Improper Payments Information Act of
2002, and the Improper Payments Elimination and Recovery Act of 2010. FS identified an
Antideficiency Act violation under 31 US.C. §1517(a) (ADA) related to funds provided by BLM

                                                Fiscal Year 2013 Agency Financial Report | 23
           USDA: Managing for Results in Performing Its Many Vital Public Functions

to improve Federal permit coordination. The ADA violation is in the process of being reported to
Congress and the President. Thus, the Secretary’s Statement of Assurance provides qualified
assurance that USDA’s system of internal controls complies with FMFIA objectives. For
additional details on the results reported in USDA’s Consolidated Financial Statements Audit
Report, see the Summary of Financial Statement Audit and Management Assurances section of
this report.

Summary of Outstanding Material Weakness
The following exhibit provides FY 2013 accomplishments and FY 2014 planned actions toward
resolving the Department’s outstanding material weakness.
Exhibit 14: Summary of Outstanding Material Weakness

                                    1. USDA Information                 Overall Estimated
                                                                                                              FY 2014
                                       Technology (IT)                  Completion Date
    Material Weakness
        Existing                  Pervasive internal control design and operating effectiveness deficiencies occurred in two
                                  areas: logical access controls/personnel security and configuration management. These
                                  deficiencies represent an overall IT material weakness. (Department)

            FY 2013 Accomplishments:                                            FY 2014 Planned Actions:
Office of the Chief Information Officer (OCIO):                     OCIO will:
 Revised an existing Departmental Regulation to reflect             Implement the Operational Security Assessment project to
  National Institute of Standards and Technology (NIST)               analyze component agencies’ information architecture and
  SP800-37 and the current USDA process for the Risk                  related processes to develop a threat profile. Additionally,
  Management Framework;                                               the assessment will examine and evaluate the agency’s
 Revised and published NIST-compliant IT Security policies;          operational security policies, procedures, and systems
 Continued implementation of ICAM/HSPD-12 and use of the             through the performance of technological reviews;
  personal identity verification card for logical and physical       Complete necessary application changes to fully support the
  access enterprisewide;                                              eAuth 2.0 transition and decommissioning of the eAuth 1.0
 Developed a continuous monitoring program plan that                 environment;
  automates the risk assessment at the enterprise level for more     Achieve 80 percent utilization of the PIV/HSPD-12
  timely and actionable information; and                              credential for logical access to all USDA systems; and
 Implemented the Cyber Security Assessment and                      Monitor security controls in the following areas:
  Management tool, to enhance monitoring and reporting                   vulnerability management;
  capabilities of Departmental control failures.                         configuration management;
                                                                         patch management;
                                                                         malware detection; and
                                                                         asset management.


Summary of New Material Weakness
During the audit of the estimated losses on insurance claims calculation, Risk Management
Agency/ Federal Crop Insurance Corporation (RMA/FCIC) noted an error in the calculation
impacting the liability balance in the September 30, 2013 financial statements. RMA/FCIC
management implemented newly enhanced indemnity projection models in 2013. RMA/FCIC
has several control procedures in place to ensure that the liability with respect to estimated losses
on insurance claims reported on the financial statements is free of material misstatements.
However, management’s control procedures were not able to prevent this error from occurring
and impacting the draft financial statements.
The error impacted multiple financial statement line items; the Statement of Net Costs, Statement
of Changes in Net Position and notably the Estimated Losses on Insurance Claims line in the
liability section of the balance sheet. The absolute value of the cumulative differences as a result

                                                                   United States Department of Agriculture | 24
                                                     Section 1: Management’s Discussion and Analysis

of this error on the balance sheet was $626 million; the net effect of the error in the balance sheet
was $366 million. Management recalculated the liability on estimated losses on insurance claims
and produced revised and corrected financial statements. The root cause of the material
misstatement on the financial statement was a manual coding error in the indemnity projection
model that was not detected through FCIC/RMA’s internal control procedures.

The following exhibit provides FY 2014 planned actions toward resolving the Department’s new
material weakness.
Exhibit 15: Summary of New Material Weakness

                                    2. Estimated Losses on
                                                                         Overall Estimated
                                       Insurance Claims                                                         FY 2014
                                                                         Completion Date
                                          Calculation
 New Material Weakness
                                   A coding error in the indemnity projection model that was not detected by RMA/FCIC caused
                                   an error in the calculation for estimated losses on insurance claims reported in the draft
                                   financial statements.

                                               FY 2014 Planned Actions:
RMA/FCIC will:
 Implement procedures to ensure that manual processes of the indemnity projection model are performed and subsequently
  reviewed by FCIC/RMA management;
 Ensure review process over the calculation is adequate and limits the risk of material misstatements in the liability for estimated
  losses on insurance claims at year end; and
 Ensure that documentation over the review process is adequately maintained and reviewed.




                                                                 Fiscal Year 2013 Agency Financial Report | 25
           USDA: Managing for Results in Performing Its Many Vital Public Functions

Summary of Outstanding System Non-conformance
The funds control management non-conformance is reported as a system noncompliance, and
included in the FFMIA Report on Financial Management Systems (Exhibit 19). The weakness
involves component agency-specific deficiencies for CCC and NRCS.
The following exhibit provides FY 2013 accomplishments and FY 2014 planned actions toward
resolving the Department’s outstanding system non-conformances.
Exhibit 16: Summary of Outstanding System Non-conformance

                                       1. Funds Control                  Overall Estimated
                                                                                                                 FY 2014
       System Non-                       Management                      Completion Date
       Conformance                 System improvements needed in recording obligations at the transactions level. (Commodity
         Existing                  Credit Corporation (CCC))
                                   Noncompliance with Federal Financial Management Improvement Act of 1996. (CCC and NRCS)
                FY 2013 Accomplishments:                                             FY 2014 Planned Actions:
CCC:                                                                 CCC will:
 Identified program and financial applications that are not          Complete software modifications to ensure all program
  system compliant;                                                    applications (Farm Programs, Foreign Programs, etc.) are in
 Collaborated with Information Technology Services Division           full compliance with the Funds Control/Obligation
  and Deputy Administrator for Farm Programs to develop and            Requirements (e.g., business events, such as establishments,
  execute a project plan to complete software modifications for        liquidations, adjustments, etc.) related to obligations at the
  the identified program applications to send obligations to           transaction level;
  eFMS at the transaction level;                                      Continue to collaborate with Information Technology
 Developed and implemented reconciliation policies and                Services Division (ITSD) and Deputy Administrator Farm
  procedures to ensure: (1) budget authority in CCC’s Core             Programs (DAFP) to make software modifications for the
  Accounting System (CORE) agrees with budget authority in             identified program applications to send obligation
  eFMS, Standard Form No. 132. Apportionment and                       transactions, including establishments, liquidations, and
  Reapportionment Schedules and CCC/Farm Service                       adjustments to eFMS at the transaction level;
  Agency’s Apportionment Control Log; and (2) unliquidated            Implement a reconciliation process to ensure obligation
  obligations (ULOs) in CORE agree with ULOs in eFMS;                  transactions are timely and accurately recorded in the
 Modified the existing quarterly review and certification of the      general ledger system;
  unliquidated obligations process;                                   Continue to perform clean-up of existing unliquidated
 Performed clean-up of existing unliquidated obligations;             obligations;
 Developed a report that summarizes the amounts allotted and         Perform validation testing of all new processes; and
  obligated by fund and by program; and                               Develop and implement performance measures/metrics for
 Developed and executed a training plan on the policy and             management to monitor progress in the timely deobligation
  procedures for reconciliation and account analysis.                  of invalid ULOs.

NRCS:                                                                NRCS will:
 Verified property data in the Corporate Property Automated          Develop a comprehensive strategy for determining all
  Information Systems;                                                 needed policies and procedures;
 Continued to perform asset valuation reviews to improve             Continue quality assurance efforts and implement internal
  property and deferred maintenance reporting;                         controls to improve stewardship land monitoring and
 Continued improving stewardship-land monitoring and                  reporting;
  reporting;                                                          Continue efforts to improve accuracy of upward and
 Implemented recommendations from a review of period 13               downward adjustments; and
  adjustments;                                                        Continue audit remediation efforts.
 Performed internal control testing for the financial reporting
  cycle;
 Performed full reconciliation for FY 2012 converted unfilled
  customer order (reimbursable agreement) balances into the
  new financial system (FMMI);
 Conducted subsequent disbursement testing on accrued
  expenses; and
 Continued audit remediation efforts.




                                                                    United States Department of Agriculture | 26
                                        Section 1: Management’s Discussion and Analysis


Compliance with Laws and Regulations
Background
The Department identified an agency-specific deficiency in the Forest Service’s (FS) Grants
Management Program. Results of evaluations and audits of its program concluded that material
deficiencies exist in the award and recipient management processes. Outstanding initiatives to
achieve compliance are depicted in Exhibit 17. To achieve compliance, FS needs to ensure that
grantees’ financial systems comply with applicable standards and that disbursements are
allowable, accurate, and fully supported. Specifically, we determined that FS was not compliant
with the following requirements of the Code of Federal Regulations (CFR):
     2 CFR 225.35. Establishes principles and standards to provide a uniform approach for
        determining costs, and promote effective program delivery, efficiency, and better
        relationships between governmental units and the Federal Government. The principles
        are for determining allowable costs only. “Agencies responsible for administering
        programs that involve cost reimbursement contracts, grants, and other agreements with
        governmental units shall issue regulations to implement the provisions of this part and its
        appendices;” and
      7 CFR 3016.20. Requires agencies to:
          I.   Ensure that State grantees expand and account for grant funds in accordance with
               State laws and procedures for expending and accounting for their own funds.
               Fiscal control and accounting procedures of the State, as well as its sub-grantees
               and cost-type contractors must be sufficient to permit the following:
               a. Preparation of required reports; and
               b. Tracing of funds to a level of expenditures adequate to establish that such
                  funds have not been used in violation of the restrictions and prohibitions of
                  applicable statutes.
         II.   Ensure that the financial management systems of other (non-State) grantees and
               sub-grantees meet the following standards:
               a. Financial reporting. Financial results must be accurate, current, and
                  completely disclosed;
               b. Accounting records. Records that adequately identify source and application
                  of funds must be maintained;
               c. Internal control. Effective control and accountability must be maintained for
                  all grant and sub-grant cash, real and personal property, and other assets;
               d. Budget control. Actual expenditures or outlays must be compared with
                  budgeted amounts for each grant;
               e. Allowable cost. Applicable OMB cost principles, agency program regulations,
                  and the terms of grant agreements must be followed in determining
                  allowability and allocability of costs;


                                                Fiscal Year 2013 Agency Financial Report | 27
        USDA: Managing for Results in Performing Its Many Vital Public Functions

               f. Source documentation. Accounting records must be supported by such source
                  documentation as cancelled checks, paid bills, time and attendance records;
                  and
               g. Cash management. Procedures for minimizing the time elapsing between the
                  transfer of funds from the U.S. Treasury and disbursement by grantees and
                  sub-grantees must be followed whenever advance payment procedures are
                  used.
In FY 2013, FS identified an Antideficiency Act (ADA) – Section 31 U.S.C. §1517(a) violation.
The Energy Policy Act of 2005 (P.L. 109-58) established congressional direction in Section 365
for the Secretary of the Interior to create a pilot project to improve Federal permit coordination.
The Bureau of Land Management (BLM) transferred funds to FS to participate in the pilot. The
program’s priorities are to identify additional expertise to accomplish congressional direction to
improve Federal permit coordination, continue improvement in processing oil and gas permits,
and establish a joint database tracking system between the BLM and FS. Four forests and
grasslands in three FS regions participate in this program.

FS reported obligations/expenditures in excess of the balance of the funds transferred to the FS
from the BLM as of December 31, 2012. The ADA specifically prohibits an agency from making
obligations or expenditures in excess of an apportionment or reapportionment, or in excess of the
amount permitted by agency regulations. FS spent $6,781.90 in excess of the $72,000 carried
over from FY 2012. Although several actions had transpired to obtain the funding needed for
FY 2013 work by FS and BLM, the warrant with additional funding was not received until after
December 31, 2012. The transfer was received on January 31, 2013.




                                                  United States Department of Agriculture | 28
                                        Section 1: Management’s Discussion and Analysis

The following exhibit provides a summary of agency programs that are not compliant with
various laws and regulations; the exhibit also provides the estimated date by which each agency
must achieve compliance with the requirements.

Exhibit 17: Outstanding Initiatives to Achieve Compliance

                      OUTSTANDING INITIATIVES TO ACHIEVE COMPLIANCE
                                                                                                   Target
              Initiative               Section of Noncompliance            Agency/Program        Completion
                                                                                                    Date
Grants Management                   2 CFR 225.35, “Cost Principles for     Forest Service (FS)   12/31/2013
                                    State, Local, and Indian Tribal
                                    Governments”
                                    7 CFR 3016.20, “Standards for
                                    Financial Management Systems”
Improper Payments Elimination and   Publish improper payment estimates     Food and Nutrition     9/30/2015
Recovery Act of 2010 (IPERA)        for all high-risk programs and           Service (FNS)/
                                    activities                              /Child and Adult
                                                                           Care Food Program
                                                                           Risk Management        9/30/2016
                                                                                Agency
                                                                            (RMA)/Federal
                                                                            Crop Insurance
                                                                           Corporation (FCIC)
                                    Publish and meet annual reduction         FNS/National        9/30/2014
                                    targets for each program assessed to      School Lunch
                                    be at risk and measured for improper    Program (NSLP),
                                    payments                                School Breakfast
                                                                           Program (SBP), and
                                                                               the Women,
                                                                               Infants, and
                                                                                 Children
                                                                              Farm Service        9/30/2014
                                                                                 Agency
                                                                           (FSA)/Conservation
                                                                            Reserve Program,
                                                                               Noninsured
                                                                               Assistance
                                                                              Program, and
                                                                             Miscellaneous
                                                                            Disaster Program
                                                                              RMA/FCIC            9/30/2014
                                                                           Natural Resources      9/30/2014
                                                                             Conservation
                                                                            Service (NRCS)/
                                                                           Farm Security and
                                                                           Rural Investment
                                                                             Act Programs




                                                   Fiscal Year 2013 Agency Financial Report | 29
           USDA: Managing for Results in Performing Its Many Vital Public Functions

                           OUTSTANDING INITIATIVES TO ACHIEVE COMPLIANCE
                                                                                                                       Target
                 Initiative                         Section of Noncompliance              Agency/Program             Completion
                                                                                                                        Date
Improper Payments Elimination and                Report a gross improper payment             FNS/NSLP and             9/30/2020
Recovery Act of 2010 (IPERA) cont’d              rate of less than 10 percent for each           SBP
                                                 program and activity for which an
                                                 improper payment estimate was
                                                 obtained and published in the PAR
                                                 or AFR


The following exhibit provides information on the status of corrective actions already completed
and FY 2014 planned corrective actions related to the deficiency.

Exhibit 18: Summary of Corrective Actions/Noncompliance with Laws and Regulations

                                 SUMMARY OF CORRECTIVE ACTIONS
                          FOR NONCOMPLIANCES WITH LAWS AND REGULATIONS
                                                       Overall Estimated Completion Date: FY 2014
  Grants Management
                                  Pre-award noncompliance issues. Forest Service (FS)
               FY 2013 Accomplishments:                                              FY 2014 Planned Actions:
FS:                                                                 FS will:
 Conducted training for program managers, grants and                Continue annual training for cost principles, uniform
  agreements specialists, and Acquisition Management                  requirements, and Single Audit Act A-133;
  Oversight Branch staff;                                            Work with OMB on required forms for FS recipients;
 Developed a “Grants Management Handbook” for all                   Require a pre-award assessment prior to any award
  recipients;                                                         commencing on or after April 1, 2014;
 Created pre-award financial compliance questionnaires for          Create quarterly oversight tests to ensure the pre-award
  program managers and grants and agreements (G & A)                  assessments occur;
  specialists to use prior to awards;                                Define differences between all types of grants and
 Created analysis of closeout process and implemented                agreements along with definition of exemptions;
  quarterly reminders for de-obligation of funds for G&A;            Revise Grants Management Handbook and policies;
 Trained all State and Territorial recipients on requirements of    Update Chapters 10-90 of policies; and
  OMB Circular A-133, “Audits of States, Local Governments
  and Non-Profit Organizations”; and                                 Continue annual reviews of recipients based upon risk
                                                                      assessments and regional visits to ensure that recipients are
 Created internal FS training for Cost Principles, Uniform           in compliance with applicable laws and regulations.
  Requirements, and Indirect Rates.




                                                                    United States Department of Agriculture | 30
                                                    Section 1: Management’s Discussion and Analysis

  Improper Payments                                   Overall Estimated Completion Date: FY 2020
    Elimination and              IPERA noncompliance issues. (Food and Nutrition Service (FNS), Farm Service Agency (FSA),
  Recovery Act of 2010           Natural Resources Conservation Service (NRCS), Rural Development (RD), and Risk
       (IPERA)                   Management Agency (RMA))
               FY 2013 Accomplishments:                                             FY 2014 Planned Actions:
FNS:                                                                FNS will:
 Reported a FY 2013 improper payment rate of 1.09 percent           Implement a State monitoring process for compliance with
  for the Child and Adult Care Food Program (CACFP), which            school meal program requirements;
  met its reduction target of 1.53 percent;                          Require annual training for schools on certification and
 Reported a FY 2013 improper payment rate of 3.42 percent            accountability issues;
  for the Supplemental Nutrition Assistance Program, which           Monitor the Special Supplemental Nutrition Program for
  met its reduction target of 3.81 percent;                           Women, Infants, and Children (WIC) vendor compliance and
 Issued a policy memo detailing the school district’s ability        provide program integrity training and oversight to
  and responsibilities to verify National School Lunch Program        strengthen vendor management;
  (NSLP)/School Breakfast Program (SBP) applications                 Perform feasibility evaluation test (Child and Adult Care
  beyond the required sample size if needed; and                      Food Program Improper Payments Meal Claim Assessment)
 Included milestones and results of past corrective actions in       to develop an estimate of meal counting/claiming errors; and
  its corrective actions plans.                                      Establish realistic and achievable improper payment rate
                                                                      reduction targets and meet the targets for NSLP, SBP, and
                                                                      WIC.

FSA:                                                                FSA will:
 Reported a Marketing Assistance Loan (MAL) Program                 Establish audit procedures for identifying applicants
  improper payment rate of 0.34 percent, which met its                exceeding income limitations;
  0.49 percent reduction target;                                     Provide notices on acceptable signatures;
 Reported a Milk Income Loss Contract (MILC) Program                Reinforce program and administrative policy and procedures
  improper payment rate of 0.17 percent, which met its                to field offices; and
  1.80 percent reduction target; and                                 Establish realistic and achievable improper payment rate
 Conducted video teleconference training, provided notices,          reduction targets and meet the targets for the Conservation
  and issued handbook amendments to field offices on second-          Reserve Program, Miscellaneous Disaster Programs, and
  party reviews on program and administrative policies and            Noninsured Disaster Assistance Program.
  procedures.

NRCS:                                                               NRCS will:
 Conducted training for program staff, reminding them that all      Work with the Department to ensure that the period of
  entity participants must be registered in the System for            performance data element is available for all payment types
  Award Management (SAM) and that their registration must             and is available when reports are run and viewed; Develop
  remain current;                                                     and implement easement payment checklist that includes
 Conducted reminder training for program staff on the current        checking the status of obligations prior to payment; Publish
  easement policy regarding advance payments;                         revised WRP policy; and
 Issued a National Bulletin requiring states to review all open     Conduct training on revised policy for program and financial
  easement obligations and to process modifications necessary         management staff.
  to prevent period of performance expirations;
 Provided training to financial management and program staff
  on newly issued National Bulletin, and instructed staff on
  how to populate the period of performance data element in
  FMMI; and
 Drafted revised Wetland Reserve Program (WRP) policy to
  align with other advance payment policies.

RD:
 Reported a FY 2013 improper payment rate of 1.79 percent for the Rental Assistance Program, which met its reduction target
  of 2.50 percent;
 Conducted reviews of appropriate documentation from borrowers and property managers; and
 Followed up on tenant income verification.




                                                                   Fiscal Year 2013 Agency Financial Report | 31
          USDA: Managing for Results in Performing Its Many Vital Public Functions

  Improper Payments                                 Overall Estimated Completion Date: FY 2020
    Elimination and             IPERA noncompliance issues. (Food and Nutrition Service (FNS), Farm Service Agency (FSA),
  Recovery Act of 2010          Natural Resources Conservation Service (NRCS), Rural Development (RD), and Risk
    (IPERA) cont’d              Management Agency (RMA))
              FY 2013 Accomplishments:                                         FY 2014 Planned Actions:
RMA:                                                            RMA will:
 Requested additional funding through the budget process to     Request additional funding rate through the FY 2015 budget
  measure the complete FCIC program to estimate an improper       process to measure the complete FCIC program to estimate
  payments rate. However, the request was not included in the     an improper payments.
  President’s budget.
 RMA will monitor producers, administrative actions, and
  potential penalties for reinsurance company noncompliance.


Federal Financial Management Improvement Act Report on
Financial Management Systems
Background
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial
and program managers’ accountability, provide better information for decisionmaking, and
improve the efficiency and effectiveness of Federal programs. FFMIA requires that financial
management systems provide reliable, consistent disclosure of financial data in accordance with
generally accepted accounting principles and standards. These systems must also comply
substantially with (1) Federal Financial Management System (FFMS) requirements;
(2) applicable Federal accounting standards; and (3) the U.S. Standard General Ledger (USSGL)
at the transaction level.

Additionally, the Federal Information Security Management Act (FISMA) requires that there be
no significant weaknesses in information security policies, procedures, or practices to be
substantially compliant with FFMIA. The information technology noncompliance is reported as a
material weakness and included in the Federal Managers’ Financial Integrity Act (FMFIA)
Report on Management Control (Exhibit 14). This weakness is comprised of two major issues:
logical access controls/personnel security and configuration management. More detailed
information on the status of corrective actions planned and to be completed to comply with
FISMA is also provided in the Response to Management Challenges section of this report,
Challenge 3: Information Technology Security Needs Continuing Improvement.




                                                                United States Department of Agriculture | 32
                                          Section 1: Management’s Discussion and Analysis

The following exhibit contains the outstanding initiatives to achieve compliance.

Exhibit 19: Initiatives to Be Completed

                   OUTSTANDING INITIATIVES TO ACHIEVE FFMIA COMPLIANCE
                                                                                            Target
          Initiative                Section of Noncompliance                   Agency     Completion
                                                                                             Date
Information Technology      Federal Financial Management System                Multiple    9/30/2014
                            requirements, and Information security policies,
                            procedures, and/or practices.
Funds Control Management    Federal Accounting Standards, and U.S.             NRCS       11/30/2013
                            Standard General Ledger (USSGL) at the
                            transaction level.
                            USSGL at the transaction level.                     CCC        9/30/2014


Fiscal Year 2013 Results
During fiscal year (FY) 2013, the U.S. Department of Agriculture (USDA) evaluated its financial
management systems to assess substantial compliance with FFMIA. In assessing FFMIA
compliance, the Department considered auditors’ opinions on component agencies’ financial
statements, and progress made in addressing the material weaknesses identified in the Fiscal
Year 2012 Agency Financial Report. Due to the CCC’s inability to record obligations at the
transaction level in their program feeder system and NRCS’ inadequate business practices related
to adjusting obligations, the Department is not compliant with Federal accounting standards and
the USSGL at the transaction level. Additionally, as reported in the FMFIA section of this report,
USDA continues to have weaknesses in information technology controls that result in
noncompliance with the FISMA requirement. As part of its financial systems strategy, USDA
agencies continue working to meet FFMIA and FISMA objectives.

Financial Management Systems Strategy
The Financial Management Modernization Initiative (FMMI) project was initiated to modernize
USDA’s outdated financial system technology. The legacy Foundation Financial Information
System was a distributed multi-instance mainframe system and has now been migrated to a
federally compliant and consolidated single-instance Web-based system with Systems,
Applications, and Products Enterprise Resource Planning 6.0. FMMI will continue to be in a
state of process improvement in order to enhance USDA financial capabilities.

FMMI has the following key attributes:
   Integration with eGovernment Travel Services, ePayroll, Grants.gov, and eLoans,
    corporate solutions for which results must be reflected in the budgetary and general
    ledger accounts of the Department (e.g., asset management and procurement), and
    program-specific systems that support the general ledger; and
       Integration with performance management and budgeting, allowing USDA to meet
        management’s objectives and Government Performance and Results Act requirements,


                                                     Fiscal Year 2013 Agency Financial Report | 33
       USDA: Managing for Results in Performing Its Many Vital Public Functions

       and achieve compliance with FFMIA, including Federal financial management system
       requirements, applicable Federal accounting standards, and USSGL.
FMMI will continue to improve financial performance through a modern financial system that
provides maximum support to the mission and USDA’s financial management objectives,
including the following:
     Ensuring that financial management systems support data integrity, reliability, and
       consistency across the Department and for the community of direct users;
      Providing online, on-demand querying capabilities and access to reports for financial
       managers and, ultimately, program managers (new users);
      Ensuring that information and reports are clearly communicated and organized in a
       format that promotes understanding, and are directly relevant to the needs of end users;
      Providing technology that supports future growth and changes in requirements;
      Promoting USDA’s credibility and trust with Congress, the Executive Office of the
       President, and the public by demonstrating full compliance with financial laws,
       regulations, and Federal financial standards, including maintaining an unqualified audit
       opinion;
      Ensuring that the investment advances the Department’s strategic plan, including its
       responsiveness to the fulfillment of mandates such as Federal core financial management
       system requirements;
      Demonstrating the strategic use of USDA’s human capital by supporting the realignment
       from internally focused positions to decision support or citizen-facing roles, and
       enhancing workplace desirability for current and future financial employees;
      Demonstrating the strategic use of the Department’s information technology (IT) by
       leveraging IT within USDA and across the Government to facilitate streamlining and
       unification of services; and
      Demonstrating good stewardship of public funds by securing the best performance and
       highest measure of accountability in the use of taxpayer dollars.




                                                 United States Department of Agriculture | 34
                                       Section 1: Management’s Discussion and Analysis


Other Management Information, Initiatives, and Issues
Federal Financial Management Improvement Act Requirements
Commodity Credit Corporation (CCC)
CCC is a wholly-owned government corporation within the Department of Agriculture. CCC has
no employees, and its general day-to-day operations are managed by the Farm Service Agency
(FSA). CCC is not in substantial compliance with Funds Control Management. FSA plans to
correct the deficiency by September 30, 2014. The development of a fully integrated funds
control system, the Electronic Funds Management System (eFMS), within the CCC core
financial management system has been completed. This system is integrated with CCC’s general
ledger system at the transaction level. eFMS provides management with timely information to
monitor and control the status of budgetary resources recorded in the general ledger. Work
continues to implement programs into eFMS for full funds control at a transaction level.

Of total CCC funds obligated, 85 percent are obligated through eFMS. An additional 8 percent
are electronically controlled at the payment level, not at the transactional level. The balance
(7 percent) will be migrated to eFMS or administratively controlled due to the age of the systems
or cost considerations.

While significant progress has been made toward complete funds control, the lack of the
financial system functionality to record all obligations at the transaction level at the time the
transaction occurs increases the risk that funds could be disbursed or obligations incurred with no
or insufficient budget authority to fund the expense or obligation. Although CCC implemented
detective manual controls to compensate for the system’s inherent limitation, the controls may be
inadequate to reduce the risks of an Anti-Deficiency Act violation occurring. They also may not
prevent or detect violations in a timely manner. CCC is working to implement a systemic
solution by the end of September 30, 2014, subject to the availability of sufficient IT resources.

In FY 2013, CCC accomplishments included the following:
     Identified program and financial applications that are not system compliant;
      Collaborated with Information Technology Services Division and Deputy Administrator
       Farm Programs to develop and execute a project plan to complete software modifications
       for the identified program applications to send obligations to eFMS at the transaction
       level;
      Developed and implemented reconciliation policies and procedures to ensure: (1) budget
       authority in CCC’s Core Accounting System (CORE) agrees with budget authority in
       eFMS, Standard Form No. 132—Apportionment and Reapportionment Schedules and
       CCC/Farm Service Agency’s Apportionment Control Log; and (2) unliquidated
       obligations (ULOs) in CORE agree with ULOs in eFMS;
      Modified the existing quarterly review and certification of the unliquidated obligations
       process;
      Performed clean-up of existing unliquidated obligations;


                                                Fiscal Year 2013 Agency Financial Report | 35
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      Developed a report that summarizes the amounts allotted and obligated by fund and by
       program; and
      Developed and executed a training plan on the policy and procedures for reconciliation
       and account analysis.
In FY 2014, CCC will:
     Complete software modifications to ensure all program applications (Farm Programs,
      Foreign Programs, etc.) are in full compliance with the Funds Control/Obligation
      Requirements (e.g., business events such as establishments, liquidations, adjustments,
      etc.) related to obligations at the transaction level;
      Continue to collaborate with Information Technology Services Division (ITSD) and
       Deputy Administrator Farm Programs (DAFP) to make software modifications for the
       identified program applications to send obligation transactions, including establishments,
       liquidations, and adjustments to eFMS at the transaction level;
      Implement a reconciliation processes to ensure obligation transactions are timely and
       accurately recorded in the general ledger system;
      Continue to perform clean-up of existing unliquidated obligations;
      Perform validation testing of all new processes; and
      Develop and implement performance measures/metrics for management to monitor
       progress in the timely deobligation of invalid ULOs.

Natural Resources Conservation Service (NRCS)
NRCS had disclosed instances where its financial management systems did not substantially
comply with applicable Federal accounting standards and the U.S. Standard General Ledger at
the transaction level. In FY 2013, auditors determined that NRCS is compliant with Federal
financial system requirements.

NRCS continues working to mitigate auditor-identified deficiencies and substantially comply
with FFMIA. The following deficiencies were found:
    Applicable Federal accounting standards: the following areas were not properly recorded
       and include beginning net position balances; current year activity; obligations incurred;
       accrued expenses; undelivered orders; real and personal property; recoveries of prior
       year; unpaid obligations; advances to others; accrued revenue; accounts receivable; and
       unfilled customer; and
      U.S. Standard General Ledger at the transaction level: USSGL appropriate posting
       models were not used for recoveries of prior year obligations paid and unpaid, and
       nonproduction costs.
In FY 2013, NRCS accomplishments included the following:
     Established and maintained a formal procedure for account creation, modification,
      removal, review, and monitoring;
      Enhanced security controls over user access by installing VPN clients and LincPass card
       readers on remote user machines;


                                                 United States Department of Agriculture | 36
                                                          Section 1: Management’s Discussion and Analysis

            Improved internal control over real and personal property;
            Improved ability to provide timely extracts for audit purposes; and
            Ensured that financial systems allow for authority beyond 10 years of availability.
In FY 2014, NRCS will:
     Continue to improve processes and procedures related to properly accounting for upward
      and downward adjustments;
            Continue to implement process improvements regarding leases on real and personal
             property;
            Continue quality assurance efforts and implement internal controls to improve
             stewardship-land monitoring and reporting; and
            Continue to monitor the validity of open obligations.
American Recovery and Reinvestment Act Activities
The American Recovery and Reinvestment Act of 2009 (ARRA) provided funding for several
U.S. Department of Agriculture (USDA) programs. As of fiscal year (FY) 20131, USDA had
obligated $48.9 billion and disbursed $47.5 billion (see Exhibit 20). Some of this funding was to
entitlement programs, which are open-ended and subject to increases based on economic factors.
The demand for the Supplemental Nutrition Assistance Program (SNAP) was high. SNAP,
formerly known as the Food Stamps Program, issued more than $41.8 billion in benefits, more
than the original appropriated amount of $19.8 billion. USDA also made more than $17.4 billion
in direct and guaranteed loans in rural America for rural housing, broadband, community
facilities, and rural businesses (see Exhibit 20). ARRA funds have been used to:
     Combat hunger and improve the nutrition and health of children, individuals, and
         families;
            Rebuild the infrastructure of rural communities;
            Provide decent housing opportunities in rural areas;
            Ensure that individuals and companies in rural areas have access to the latest in
             technology through expanded broadband;
            Provide farmers funds to operate and mitigate losses that occur when natural disasters
             cause a catastrophic loss of crop production or prevent planting;




1
    Figures through August 2013. The Recovery Board will not publish year end numbers and continue in October 2013.

                                                                      Fiscal Year 2013 Agency Financial Report | 37
          USDA: Managing for Results in Performing Its Many Vital Public Functions

         Reduce the risk of wildfires, improve forest health, and maintain forest roads and
          facilities;
         Rehabilitate aging flood control structures, improve water quality, increase water supply,
          decrease soil erosion, and improve fish and wildlife habitat; and
         Meet critical maintenance needs of USDA facilities.
For direct access to extensive reports and data, visit: Recovery.gov
Exhibit 20: Total ARRA Obligations and Outlays ($ billions)

                     Total Obligations                                 Total Outlays
                  $1.03    $0.32                                    $1.00     $0.31
          $1.11                                           $1.07
                                    $0.20                                             $0.19
  $4.01                                              $2.81




                           $42.22                                            $42.15




           Nutrition Assistance (FNS)                        Nutrition Assistance (FNS)
           Rural Development                                 Rural Development
           Forestry (FS)                                     Forestry (FS)
           Farm Investments (FSA and FAS)                    Farm Investments (FSA and FAS)
           Conservation (NRCS)                               Conservation (NRCS)
           USDA Infrastructure (ARS and DM)                  USDA Infrastructure (ARS and DM)




                                                    United States Department of Agriculture | 38
                                        Section 1: Management’s Discussion and Analysis

Eliminating Improper Payments
The Improper Payments Information Act of 2002 (IPIA), as amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA) and the Improper Payments Elimination and
Recovery Improvement Act of 2012 (IPERIA), requires agencies to review programs susceptible
to significant improper payments, report estimated improper payments, and establish corrective
actions to reduce improper payments. The Office of Management and Budget (OMB) provides
guidance in OMB Circular No. A-123, Appendix C, “Requirements for Effective Measurement
and Remediation of Improper Payments,” and OMB Circular A-136 “Financial Reporting
Requirements” on measuring, reducing, recovering, and reporting improper payments.

The Department of Agriculture (USDA) first reported on improper payments in 2004 and
currently has 16 programs declared at risk for significant improper payments (high-risk
programs). This report provides information on improper payments for FY 2013 in USDA
high-risk programs regarding the estimated improper payment rate, estimated improper payment
amount, measures methodology, root causes, corrective actions taken and planned, reduction
targets for future years, and improper payments recovered.

IPIA requires that agencies measure their improper payments annually, establish reduction
targets and corrective action plans, and track the results annually to ensure that the corrective
actions are effective. USDA continues to strive for accurate improper payment measuring and
reporting; developing and implementing effective corrective actions; and reducing, recovering,
and preventing improper payments.

The USDA improper payment rate for FY 2013 was 5.36 percent, an increase from 5.11 percent
reported for FY 2012. The FY 2013 improper payment rate is slightly below the 5.37 percent
reported for FY 2011 and FY 2010. Outlays for the high-risk programs increased $7.3 billion
from FY 2012 to FY 2013. The largest increase in outlays was attributable to the Federal Crop
Insurance Corporation program, which had over a $6 billion increase in outlays.

USDA FY 2013 improper payment progress:
   Six USDA high-risk programs reported improper payment rates in FY 2013 that met the
     programs’ reduction targets for FY 2013; and
      Four USDA high-risk programs reported improper payment rates in FY 2013 that were
       less than the programs’ improper payment rates reported in FY 2012.
Significant actions taken by USDA during FY 2013 to address improper payments include:
    Awarded a payment supplier credit recovery auditing services contract to a private sector
        recovery auditing contractor to identify vendor unapplied credits owed USDA;
      Recovered overpayments under the payment recapture recovery auditing services
       contract with a private sector recovery auditing contractor that identifies potential
       overpayments by program;
      Enrolled USDA agencies with the Do Not Pay Portal through the on-boarding process for
       pre-award and eligibility checks at applicable points in a program’s business process to
       prevent improper payments; and


                                                 Fiscal Year 2013 Agency Financial Report | 39
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      Developed a process to adjudicate and report on Do Not Pay Portal prepayment matches
       required by IPERIA to identify ineligible recipients and establish processes and business
       rules to prevent future improper payments.
USDA’s FY 2014 goals are to reduce improper payments through the use of the following:
expanding and refining the use of the Do Not Pay Portal; expanding the use of recovery auditing to
additional high-risk programs and activities where cost effective; and developing and
implementing effective corrective actions to address improper payment root causes and meet
reduction targets. In addition to these goals, USDA will continue to address compliance issues
identified by the Inspector General’s annual IPERA Compliance Review.

USDA improper payment detailed results and corrective actions are provided in Section 3, Other
Accompanying Information, of this report.

Debt Management
The U.S. Department of Agriculture (USDA) is one of the Federal Government’s largest
providers of direct loans with a receivables portfolio of approximately $117 billion. This
represents about 12 percent of the non-tax debt owed to the Federal Government. In fiscal
year (FY) 1996, Congress passed the Debt Collection Improvement Act. As of June 30, 2013,
USDA’s $4.8 billion in delinquent receivables represent a 45-percent decrease from the
$8.8 billion in delinquencies reported for FY 1996. Of this $4.8 billion, $1.8 billion is eligible for
referral to the Department of the Treasury (Treasury) for collection. The remaining delinquent
debt is ineligible due to such statutory or administrative requirements such as bankruptcy,
litigation, or debt owed by international/sovereign entities (approximately $2.2 billion of the
delinquent debt is international debt). As of June 30, 2013, USDA referred 99.7 percent of the
eligible delinquent debt to the Treasury Offset Program and 99.4 percent to the Cross Servicing
Program. During the 12-month period ending June 30, 2013, USDA collected $1.3 billion of
delinquent debt, a 10-percent increase over the previous 12-month period.

Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b), “Financial
Statements of Agencies.”

While the statements have been prepared from the books and records of the entity in accordance
with generally accepted accounting principles for Federal entities and with the formats prescribed
by the Office of Management and Budget, the statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and
records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.




                                                   United States Department of Agriculture | 40
                                                         SECTION 2: Financial Information


Section 2: Financial Information
Message from the Deputy Chief Financial Officer
As Deputy Chief Financial Officer for the U.S. Department of Agriculture (USDA), I am pleased
to present our Agency Financial Report (AFR) for fiscal year (FY) 2013. This report shows the
progress made to provide fiscally sound, cost-effective program delivery.

Because we are accountable to the American taxpayer, we strive for peak performance in all
facets of our work. Through the collaborative efforts of USDA managers, employees, business
partners, and stakeholders, we have made significant strides in advancing the Department’s
impressive record of excellence in financial management during FY 2013. Highlights of this
progress include:

      Received another clean financial audit opinion;
      Implemented the Financial Management Modernization Initiative (FMMI), a Web-based
       system to replace the mainframe-based legacy Foundation Financial Information System
       (FFIS). The Food and Nutrition Service will implement FMMI, which will replace its
       Integrated Program Accounting System, by the end of fiscal year 2015;
      Reduced administrative costs by approximately $355.3 million below FY 2010 levels, in
       accordance with Executive Order, Promoting Efficient Spending in the Federal
       Government;
      Increased the collection of delinquent debt by 9.4 percent from $0.924 billion for the
       12-month period ending June 30, 2012, compared to $1.011 billion for the same period
       in 2013; and
      Provided cost-effective and secure payroll and other administrative services reliably and
       accurately Government-wide through our National Finance Center.
Though we are continually making progress in financial management, we cannot yet give
unqualified assurance of compliance with the Federal Managers’ Financial Integrity Act, or with
the financial systems requirements of the Federal Financial Management Improvement Act. We
will continue to focus on these efforts in the coming year.

We are proud of the accomplishments of our hard-working employees at USDA. All of us are
committed to the sound management of resources under our stewardship. We remain steadfast
and committed to making greater financial management improvements in FY 2014. Ultimately
our efforts will result in setting the highest achievable standard of excellence in managing
taxpayers’ dollars.




Jon M. Holladay
Deputy Chief Financial Officer
December 12, 2013
                                               Fiscal Year 2013 Agency Financial Report | 41
        USDA: Managing for Results in Performing Its Many Vital Public Functions


Consolidated Financial Statements
                                      Consolidated Balance Sheet
                                   As of September 30, 2013 and 2012
                                              (In Millions)
                                                                                     2013          2012
 Assets (Note 2):
 Intragovernmental:
      Fund Balance with Treasury (Note 3)                                        $    86,570   $    84,670
      Investments (Note 5)                                                               139           143
      Accounts Receivable, Net (Note 6)                                                  125           309
      Other (Note 11)                                                                      6             -
    Total Intragovernmental                                                           86,840        85,122

   Cash and Other Monetary Assets (Note 4)                                               316           183
   Investments (Note 5)                                                                    3             3
   Accounts Receivable, Net (Note 6)                                                   2,578         8,660
   Direct Loan and Loan Guarantees, Net (Note 7)                                     100,710        95,513
   Inventory and Related Property, Net (Note 8)                                           69            14
   General Property, Plant, and Equipment, Net (Note 9)                                2,925         3,037
   Other (Note 11)                                                                       198           197

 Total Assets                                                                        193,639       192,729

   Stewardship PP&E (Note 10)

 Liabilities (Note 12):
   Intragovernmental:
      Accounts Payable                                                                    16            25
      Debt (Note 13)                                                                 105,040        93,880
      Other (Note 15)                                                                 14,116        12,434
   Total Intragovernmental                                                           119,172       106,339

   Accounts Payable                                                                    2,112         1,978
   Loan Guarantee Liability (Note 7)                                                   4,866         4,471
   Federal Employee and Veteran Benefits                                                 986           944
   Environmental and Disposal Liabilities (Note 14)                                      176            10
   Benefits Due and Payable                                                            4,041         3,837
   Other (Notes 15 & 16)                                                              19,989        35,555
   Total Liabilities                                                                 151,342       153,134

   Commitments and Contingencies (Note 17)

 Net Position:
  Unexpended Appropriations - Funds From Dedicated Collections (Note 18)                 107            97
  Unexpended Appropriations - All Other Funds                                         33,738        34,925
  Cumulative Results of Operations - Funds From Dedicated Collections(Note 18)         1,575           944
  Cumulative Results of Operations - All Other Funds                                   6,877         3,629
  Total Net Position                                                                  42,297        39,595

 Total Liabilities and Net Position                                              $ 193,639     $ 192,729




             The accompanying notes are an integral part of these statements.

                                                          United States Department of Agriculture | 42
                                                        SECTION 2: Financial Information


                      Consolidated Statement of Net Cost
                For the Years Ended September 30, 2013 and 2012
                                  (In Millions)

                                                                        2013          2012

Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
 Gross Costs                                                        $    23,614   $    37,192
 Less: Earned Revenue                                                     6,498        10,500
     Net Costs                                                           17,116        26,692

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
 Gross Costs                                                             13,182        13,480
 Less: Earned Revenue                                                       942         1,006
   Net Costs                                                             12,240        12,474

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
  Gross Costs                                                             3,070         3,188
  Less: Earned Revenue                                                      230           618
    Net Costs                                                             2,840         2,570

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
  Gross Costs                                                           112,995       110,148
  Less: Earned Revenue                                                    1,053           938
    Net Costs                                                           111,942       109,210


Total Gross Costs                                                       152,861       164,008
Less: Total Earned Revenue                                                8,723        13,062

Net Cost of Operations (Note 19)                                    $ 144,138     $ 150,946




     The accompanying notes are an integral part of these statements.




                                                Fiscal Year 2013 Agency Financial Report | 43
       USDA: Managing for Results in Performing Its Many Vital Public Functions

                   Consolidated Statement of Changes in Net Position
                                  For The Year Ended September 30, 2013
                                               (In Millions)
                                                         Funds From
                                                          Dedicated
                                                         Collections        All Other                     Consolidated
                                                           (Note 18)         Funds        Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                      $       944    $        3,629    $          -    $     4,573
 Adjustments:
     Changes in Accounting Principles (Note 31)                  878            (1,043)              -           (165)
     Beginning Balance, as Adjusted                            1,822             2,586               -          4,408

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                          -              (381)             -            (381)
     Appropriations Used                                           2           144,027              -         144,029
     Non-exchange Revenue                                          -                 6              -               6
     Donations and Forfeitures of Cash and Equivalents             1                 -              -               1
     Transfers In (Out) without Reimbursement                    505             4,366          4,282           9,153
 Other Financing Sources (Non-Exchange):
     Donations and Forfeitures of Property                         -                 1               -              1
     Transfers In (Out) without Reimbursement                   (188)            4,283          (4,282)          (187)
     Imputed Financing                                            51             3,554          (2,760)           845
     Other                                                        81            (5,366)              -         (5,285)
 Total Financing Sources                                         452           150,490          (2,760)       148,182

 Net Cost of Operations                                         (699)         (146,199)         2,760         (144,138)

 Net Change                                                     (247)            4,291               -          4,044

    Cumulative Results of Operations                           1,575             6,877               -          8,452

Unexpended Appropriations:
 Beginning Balances                                               97            34,925               -         35,022

 Budgetary Financing Sources:
   Appropriations Received                                        12           150,495               -         150,507
   Appropriations Transferred In (Out)                             -                23               -              23
   Other Adjustments                                               -            (7,678)              -          (7,678)
   Appropriations Used                                            (2)         (144,027)              -        (144,029)
 Total Budgetary Financing Sources                                10            (1,187)              -          (1,177)

   Unexpended Appropriations                                     107            33,738               -         33,845

 Net Position                                            $     1,682    $       40,615    $          -    $    42,297




              The accompanying notes are an integral part of these statements.




                                                                 United States Department of Agriculture | 44
                                                                        SECTION 2: Financial Information

                          Consolidated Statement of Changes in Net Position
                                     For The Year Ended September 30, 2012
                                                         (In Millions)


                                                         Funds From
                                                          Dedicated
                                                         Collections         All Other                     Consolidated
                                                           (Note 18)          Funds        Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                      $     1,730     $        9,677    $          -    $    11,407

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                         -                (155)              -           (155)
     Appropriations Used                                        (11)            137,216               -        137,205
     Non-exchange Revenue                                         -                  (7)              -             (7)
     Donations and Forfeitures of Cash and Equivalents            1                   -               -              1
     Transfers In (Out) without Reimbursement                   223               7,161               -          7,384
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                   (18)                104               -             86
     Imputed Financing                                           50               3,019          (2,156)           913
     Other                                                       77              (1,392)              -         (1,315)
 Total Financing Sources                                        322             145,946          (2,156)       144,112

 Net Cost of Operations                                       (1,108)          (151,994)         2,156         (150,946)

 Net Change                                                     (786)            (6,048)              -          (6,834)

    Cumulative Results of Operations                            944               3,629               -          4,573

Unexpended Appropriations:
 Beginning Balances                                               74             30,395               -         30,469

 Budgetary Financing Sources:
   Appropriations Received                                        12            152,099               -         152,111
   Appropriations Transferred In (Out)                             -                 25               -              25
   Other Adjustments                                               -            (10,378)              -         (10,378)
   Appropriations Used                                            11           (137,216)              -        (137,205)
 Total Budgetary Financing Sources                                23              4,530               -           4,553

   Unexpended Appropriations                                      97             34,925               -         35,022

 Net Position                                            $     1,041     $       38,554    $          -    $    39,595




                  The accompanying notes are an integral part of these statements.




                                                               Fiscal Year 2013 Agency Financial Report | 45
                     USDA: Managing for Results in Performing Its Many Vital Public Functions

                                          Combined Statement of Budgetary Resources
                                            For The Years Ended September 30, 2013 and 2012
                                                             (In Millions)
                                                                                                     2013                                 2012
                                                                                                         Non-Budgetary                        Non-Budgetary
                                                                                                          Credit Reform                        Credit Reform
                                                                                                            Financing                            Financing
                                                                                     Budgetary              Accounts      Budgetary              Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $    33,326          $     5,154     $    25,238          $     5,604
Recoveries of prior year unpaid obligations                                                2,575                  939           3,533                1,819
Other changes in unobligated balance (+ or -)                                             (1,722)              (2,266)         (3,593)              (4,442)
Unobligated balance from prior year budget authority, net                                 34,179                3,827          25,178                2,981
Appropriations (discretionary and mandatory)                                             148,775                    -         149,916                    -
Borrowing authority (discretionary and mandatory)                                         17,623               11,356          11,667               11,631
Spending authority from offsetting collections (discretionary and mandatory)              17,093               10,344          16,502                7,107
Total budgetary resources                                                                217,670               25,527         203,263               21,719

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                           183,939               16,769         169,937               16,565
Unobligated balance, end of year:
Apportioned                                                                               11,280                4,764           9,978                2,334
Exempt from apportionment                                                                    303                    8           1,124                    5
Unapportioned                                                                             22,148                3,986          22,224                2,815
Total unobligated balance, end of year                                                    33,731                8,758          33,326                5,154
Total budgetary resources                                                                217,670               25,527         203,263               21,719

Change in Obligated Balance:
Unpaid obligations:
Unpaid obligations, brought forward, October 1                                             39,816               26,270          36,637               28,532
Obligations incurred                                                                      183,939               16,769         169,937               16,565
Outlays (gross) (-)                                                                      (184,920)             (17,091)       (163,225)             (17,007)
Recoveries of prior year unpaid obligations (-)                                            (2,575)                (939)         (3,533)              (1,819)
Unpaid obligations, end of year                                                            36,260               25,009          39,816               26,270
Uncollected payments:
Uncollected customer payments from Federal sources, brought forward, October 1 (-)         (2,576)              (1,075)         (2,019)                (947)
Change in uncollected customer payments from Federal sources (+ or -)                         409                  163            (557)                (129)
Uncollected payments, Federal sources, end of year (-)                                     (2,167)                (912)         (2,576)              (1,075)
Memorandum (non-add) entries:
Obligated balance, start of year (+ or -)                                                 37,240               25,195          34,618               27,585
Obligated balance, end of year (+ or -)                                                   34,093               24,097          37,240               25,195

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                    183,491                21,700        178,085                18,738
Actual offsetting collections (discretionary and mandatory) (-)                          (26,741)              (13,821)       (21,481)              (12,665)
Change in uncollected customer payments from Federal sources                                 409                   163
   (discretionary and mandatory)(+ or -)                                                       -                     -           (557)                (129)
Anticipated offsetting collections (discretionary and mandatory) (+ or -)                      -                     -              -                    -
Budget authority, net (discretionary and mandatory)                                      157,159                 8,042        156,047                5,944

Outlays, gross (discretionary and mandatory)                                             184,920                17,091        163,225                17,007
Actual offsetting collections (discretionary and mandatory) (-)                          (26,741)              (13,821)       (21,481)              (12,665)
Outlays, net (discretionary and mandatory)                                               158,179                 3,270        141,744                 4,342
Distributed offsetting receipts (-)                                                         (914)               (1,363)          (723)               (1,310)
Agency outlays, net (discretionary and mandatory)                                    $   157,265          $      1,907    $   141,021          $      3,032




                            The accompanying notes are an integral part of these statements.




                                                                                     United States Department of Agriculture | 46
                                                      SECTION 2: Financial Information

               Notes to the Consolidated Financial Statements
                             As of September 30, 2013 and 2012
                                          (In Millions)

Note 1. Significant Accounting Policies
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States
and around the world. USDA is organized into seven distinct mission areas and their agencies
that execute these missions.

Listed below are the missions and the agencies within each mission including three
Government corporations:

Farm and Foreign Agricultural Services (FFAS)
      Farm Service Agency (FSA)
          o Commodity Credit Corporation (CCC)
      Foreign Agricultural Service (FAS)
      Risk Management Agency (RMA)
          o Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
      Food and Nutrition Service (FNS)
Food Safety
      Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
      Agricultural Marketing Service (AMS)
      Animal and Plant Health Inspection Service (APHIS)
      Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
      Forest Service (FS)
      Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
      Agricultural Research Service (ARS)
      National Institute of Food and Agriculture (NIFA)
      Economic Research Service (ERS)


                                               Fiscal Year 2013 Agency Financial Report | 47
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      National Agricultural Statistics Service (NASS)
Rural Development
      Rural Development (RD)
           o Alternative Agricultural Research and Commercialization Corporation (AARC)
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental
activity and balances are eliminated, except for the Statement of Budgetary Resources that is
presented on a combined basis. The financial statements are prepared in accordance with
generally accepted accounting principles for the Federal Government.

Reclassifications
In FY 2013 and FY 2012, the Combined Statement of Budgetary Resources was reclassified to better
align with the new SF-133, Report on Budget Execution and Budgetary Resources.

In FY 2012, RD and FSA reclassified distributed offsetting receipts of $1,128 million from the
budgetary column to the non-budgetary column on the Combined Statement of Budgetary
Resources to conform with credit reform guidance.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions
that affect the amounts reported in the financial statements and accompanying notes. Actual
results could differ from those estimates.

Revenue from exchange transactions is recognized when persuasive evidence of an arrangement
exists, delivery has occurred or services have been rendered, sales price is fixed or determinable,
and collection is reasonably assured. In certain cases, the prices charged by the Department are
set by law or regulation, which for program and other reasons may not represent full cost. Prices
set for products and services offered through the Department’s working capital funds are
intended to recover the full costs incurred by these activities. Revenue from non-exchange
transactions is recognized when a specifically identifiable, legally enforceable claim to resources
arises, to the extent that collection is probable and the amount is reasonably estimable.
Appropriations are recognized as a financing source when used. An imputed financing source is
recognized for costs subsidized by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in
Treasury securities. Investments in non-marketable par value Treasury securities are classified as
held to maturity and are carried at cost. Investments in market-based Treasury securities are
classified as held to maturity and are carried at amortized cost. The amortized cost of securities is
based on the purchase price adjusted for amortization of premiums and accretion of discounts
using the straight-line method over the term of the securities.

Accounts Receivable

                                                   United States Department of Agriculture | 48
                                                         SECTION 2: Financial Information

Accounts receivable are reduced to net realizable value by an allowance for uncollectible
accounts. The adequacy of the allowance is determined based on past experience and age of
outstanding balances.

Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the
present value of the net cash-flows estimated over the life of the loan or guarantee. The
difference between the outstanding principal of the loans and the present value of their net cash
inflows is recognized as a subsidy cost allowance; the present value of estimated net cash
outflows of the loan guarantees is recognized as a liability for loan guarantees. The subsidy
expense for direct or guaranteed loans disbursed during the year is the present value of estimated
net cash outflows for those loans or guarantees. A subsidy expense also is recognized for
modifications made during the year to loans and guarantees outstanding and for reestimates
made as of the end of the year to the subsidy allowances or loan guarantee liability for loans and
guarantees outstanding.

Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using either
the present-value or net realizable methods. Under the present-value method, the outstanding
principal of direct loans is reduced by an allowance equal to the difference between the
outstanding principal and the present value of the expected net cash flows. The liability for loan
guarantees is the present value of expected net cash outflows due to the loan guarantees. Under
the net realizable value method, the average rate of the last five years of write-offs is used.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for
a fee are valued on the basis of historical cost using a first-in, first-out method. Commodities are
valued at the lower of cost or net realizable value using a weighted average method. Barter
Delivery Obligations (BDO) are valued at the net sales proceeds. BDO are exchanged for food
products to be utilized in domestic and export food programs.

Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation.
Depreciation is determined using the straight-line method over the estimated useful lives of the
assets. Useful lives for PP&E are disclosed in Note 9. Capitalization thresholds for personal
property and real property are $25,000 and $100,000 for internal use software. There are no
restrictions on the use or convertibility of PP&E.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is
recognized at the time the employees’ services are rendered. The expense is equal to the actuarial
present value of benefits attributed by the pension plan’s benefit formula, less the amount
contributed by the employees. An imputed cost is recognized for the difference between the
expense and contributions made by and for employees.

Other Post-employment Benefits

                                                 Fiscal Year 2013 Agency Financial Report | 49
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Other post-employment benefits expense for former or inactive (but not retired) employees is
recognized when a future outflow or other sacrifice of resources is probable and measurable on
the basis of events occurring on or before the reporting date. The liability for long-term other
post-employment benefits is the present value of future payments.

Funds from Dedicated Collections
In accordance with SFFAS 43, Funds from Dedicated Collections, the Department has reported
the funds from dedicated collections for which it has program management responsibility when
the following three criteria are met: (1) a statute committing the federal government to use
specifically identified revenues and/or other financing sources that are originally provided to the
federal government by a non-federal source only for designated activities, benefits or purposes;
(2) explicit authority for the fund to retain revenues and/or other financing sources not used in
the current period for future use to finance the designated activities, benefits, or purposes; and
(3) a requirement to account for and report on the receipt, use, and retention of the revenues
and/or other financing sources that distinguishes the fund from the federal government’s general
revenues.
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a
future outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of
resources is measurable.

Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a
transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are legal
delegations by one department of its authority to obligate budget authority and outlay funds to
another department. A separate fund account (allocation account) is created in the U.S. Treasury
as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays incurred
by the child entity are charged to this allocation account as they execute the delegated activity on
behalf of the parent entity.

The Department allocates funds, as the parent, to the Department of the Interior, Department of
Defense, Department of Housing and Urban Development, U.S. Agency for International
Development and the Small Business Administration. The Department receives allocation
transfers, as the child, from the Department of Labor, Department of Transportation, Department
of the Interior, Economic Development Administration, Appalachian Regional Commission and
the Delta Regional Authority.

Inter-Entity Costs
Each entity’s full cost should incorporate the full cost of goods and services that it receives from
other entities. The entity providing the goods or services has the responsibility to provide the
receiving entity with information on the full cost of such goods or services either through billing
or other advice.



                                                   United States Department of Agriculture | 50
                                                         SECTION 2: Financial Information

Recognition of inter-entity costs that are not fully reimbursed is limited to material items that (1)
are significant to the receiving entity, (2) form an integral or necessary part of the receiving
entity’s output, and (3) can be identified or matched to the receiving entity with reasonable
precision. Broad and general support services provided by an entity to all or most other entities
should not be recognized unless such services form a vital and integral part of the operations or
output of the receiving entity.

Fiduciary Activities
Fiduciary activities are the collection or receipt, and the management, protection, accounting,
investment and disposition by the Federal Government of cash or other assets in which non-
Federal individuals or entities have an ownership interest that the Federal Government must
uphold. Fiduciary assets are not assets of the Federal Government and are not recognized on the
balance sheet.

Asbestos-Related Cleanup Costs
Effective October 1, 2012, Technical Bulletin (TB) 2006-1, Recognition and Measurement of
Asbestos-Related Cleanup Costs, as amended, requires an estimate of both friable and non-
friable asbestos-related cleanup costs; recognition of a liability and related expense for those
costs that are both probable and reasonably estimable; and disclosure of information related to
friable and non friable asbestos-related cleanup costs that are probable but not reasonably
estimable in a note to the financial statements.




                                                 Fiscal Year 2013 Agency Financial Report | 51
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 2. Non-Entity Assets
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract
performance bonds, employer contributions and payroll taxes withheld for agencies serviced by
the National Finance Center, rural housing escrow, interest, fines and penalties.

                                                              FY 2013              FY 2012
Intragovernmental:
  Fund balance with Treasury                              $         1,055      $        121
  Accounts Receivable                                                   247              20
Subtotal Intragovernmental                                          1,302               141

With the Public:
  Accounts receivable                                                   104              96
Subtotal With the Public                                                104              96

Total non-entity assets                                             1,406               237

Total entity assets                                               192,233            192,492

Total Assets                                              $       193,639      $     192,729




Note 3. Fund Balance with Treasury
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted
to Fund Balance represents un-obligated and obligated amounts recorded at year-end that will be
funded by future borrowings. Non-Budgetary Fund Balance with Treasury includes special fund
receipt accounts; and clearing and suspense account balances awaiting disposition or
reclassification. Unprocessed Intragovernmental Payment and Collection (IPAC) transactions
were not reported to Treasury at the end of FY 2013 and FY 2012 because the proper Treasury
Account Symbol was unknown which reduced Fund Balance with Treasury by $12 million and
$50 million, respectively.




                                                United States Department of Agriculture | 52
                                                              SECTION 2: Financial Information


                                                                                 FY 2013                 FY 2012
Fund Balances:
   Trust Funds                                                              $            547         $           439
   Special Funds                                                                      19,298                   18,786
   Revolving Funds                                                                    17,594                   16,371
   General Funds                                                                      48,096                   48,961
   Other Fund Types                                                                    1,035                     113
Total                                                                                 86,570                   84,670


Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                                          16,355                   13,441
   Unavailable                                                                        26,137                   25,039
Obligated Balance not yet Disbursed                                                   57,874                   62,252
Borrowing Authority not yet Converted to Fund Balance                                 (33,413)             (33,832)
Non-Budgetary Fund Balance with Treasury                                              19,617                   17,770
Total                                                                       $         86,570         $         84,670




Note 4. Cash and Other Monetary Assets
In FY 2013 and FY 2012, cash mostly consists of Federal crop insurance escrow amounts of
$316 million and $183 million respectively.

                                                                       FY 2013                   FY 2012


 Cash                                                              $            316        $             183




                                                        Fiscal Year 2013 Agency Financial Report | 53
           USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 5. Investments
FY 2013                                                                         Amortized                                                   Market
                                    Amortization                                (Premium)             Interest         Investments,          Value
                                      Method               Cost                 Discount             Receivable            Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                          $            -       $               -    $                -    $           -   $            -
    Market-based                    Straight Line                 139                      (1)                    1              139              139
Total                                                 $           139       $              (1)   $                1    $         139   $          139


With the Public:
  AARC                                                $            3        $               -    $                -    $          3    $             3
Total                                                 $            3        $               -    $                -    $          3    $             3


FY 2012                                                                         Amortized                                                   Market
                                    Amortization                                (Premium)             Interest         Investments,          Value
                                      Method               Cost                 Discount             Receivable            Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                          $            -       $               -    $                -    $           -   $                -
    Market-based                    Straight Line                 143                      (1)                    1              143              143
Total                                                 $           143       $              (1)   $                1    $         143   $          143


With the Public:
  AARC                                                $            3        $               -    $                -    $          3    $             3
Total                                                 $            3        $               -    $                -    $          3    $             3




Note 6. Accounts Receivable, Net
                FY 2013
                                                      Accounts                  Allowance for                       Accounts
                                                    Receivable,                  Uncollectible                    Receivable,
                                                       Gross                      Accounts                            Net
                Intragovernmental                   $       125                 $             -                   $       125
                With the Public                           2,635                            (57)                         2,578
                Total                               $     2,760                 $          (57)                   $     2,703

                FY 2012
                                                      Accounts                  Allowance for                       Accounts
                                                    Receivable,                  Uncollectible                    Receivable,
                                                       Gross                      Accounts                            Net
                Intragovernmental                   $       309                 $             -                   $       309
                With the Public                           8,727                            (67)                         8,660
                Total                               $     9,036                 $          (67)                   $     8,969



Note 7. Direct Loans and Guarantees, Non-Federal Borrowers
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct
loans or loan guarantees are reported at either net present value or net realizable value.



                                                                        United States Department of Agriculture | 54
                                                           SECTION 2: Financial Information

For FY 2013, RD reported direct loans made pre-1992 at net realizable value. This is a change
from the previous valuation method, for which RD received concurrence from the Office of
Management and Budget. The effect of this change resulted in a decrease to the allowance of
approximately $3.8 billion.

During FY 2013, RD analyzed the performance of pre-1992 direct loans receivable. The
previous allowance method reduced direct loans by the difference between the nominal amount
and the present value of the expected net cash flows. The net present value, at any given time,
was the amount of loans receivable less the net present value of future cash flows discounted
using RD’s borrowing rate for liquidating loans. Due to the large difference between the net
present value and the nominal amount of the loans, using a net realizable value approach, based
on the last five years of write-offs, more accurately presents the value of the pre-1992 loans.

The majority of the reduction in the allowance for loss can be attributed to the Multi-Family
Housing program. The reduction in the allowance increased Direct Loan and Loan Guarantees,
Net, and reduced Gross Costs in the Statement of Net Cost by $3.8 billion. The change in
valuation had corresponding increases to Other Liabilities on the accompanying Consolidated
Balance Sheet and Other Financing Sources on the Consolidated Statement of Changes in Net
Position. It also had corresponding effects on multiple lines on the Reconciliation of Budgetary
Resources Obligated to Net Cost of Operations (Note 30).

RD recalculated the allowance for loss for the FY 2012 pre-1992 loans receivable using the net
realizable value method. The change in valuation would have resulted in a decrease to the
allowance of approximately $3.8 billion.

Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit
Reform Act of 1990 as amended governs the resulting direct loan or loan guarantees. The Act
requires agencies to estimate the cost of direct loans and loan guarantees at present value for the
budget. Additionally, the present value of the subsidy costs (i.e. interest rate differentials, interest
subsidies, delinquencies and defaults, fee offsets and other cash flows) associated with direct
loans and loan guarantees are recognized as a cost in the year the loan or loan guarantee is
disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in
time is the amount of the gross loan or defaulted guaranteed loans receivable less the present
value of the subsidy at that time.

The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative
of the proceeds that might be expected if these loans were sold on the open market.

Direct Loan and Loan Guarantees, Net at the end of FY 2013 was $100,710 million compared to
$95,513 million at the end of FY 2012. Loans exempt from the Federal Credit Reform Act of
1990 represent $338 million of the total compared to $400 million in FY 2012. Table 1 illustrates
the overall composition of the Department’s credit program balance sheet portfolio by mission
area and credit program for FY 2013 and FY 2012.

Beginning in FY 2012, advance payments surpassed the loans receivable balance in the Rural
Utilities Liquidating Fund. This was due to an increased volume in advance payments and a
normal reduction to the Liquidating Portfolio. The Omnibus Budget Act of 1987, section 313,

                                                   Fiscal Year 2013 Agency Financial Report | 55
        USDA: Managing for Results in Performing Its Many Vital Public Functions

authorized the accumulation of Cushion of Credit (CoC) in the Revolving Fund. Borrowers may
make advance payments up to their liquidating and financing total Rural Utilities Service debt.
To accurately represent the value of Electric and Telecommunication assets, RD reports the CoC
amounts as a separate line item in Table 1.

During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is
adjusted by the value of the subsidy cost allowance held against those loans. Current year
subsidy expense, modifications and reestimates all contribute to the change of the subsidy cost
allowance throughout the year. The subsidy cost allowance moved from $6,118 million to $6,477
million during FY 2013, an increase of $359 million. Table 2 shows the reconciliation of subsidy
cost allowance balances from FY 2012 to FY 2013.

Total direct loan subsidy expense is a combination of subsidy expense for new direct loans
disbursed in the current year, modifications to existing loans, and interest rate and technical
reestimates to existing loans. Total direct loan subsidy expense in FY 2013 was $755 million
compared to $237 million in FY 2012. Table 3 illustrates the breakdown of total subsidy expense
for FY 2013 and FY 2012 by program.

Direct loan volume decreased from $11,071 million in FY 2012 to $10,437 million in FY 2013.
Volume distribution between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up
to 95 percent of the principal loan amount. Under the guaranteed loan programs, the lender is
responsible for servicing the borrower’s account for the life of the loan. The Department,
however, is responsible for ensuring borrowers meet certain qualifying criteria to be eligible and
monitoring the lender’s servicing activities. Borrowers interested in guaranteed loans must apply
to a conventional lender, which then arranges for the guarantee with a Department agency.
Estimated losses on loan and foreign credit guarantees are reported at net present value as Loan
Guarantee Liability. Defaulted guaranteed loans are reported at net present value as Loans
Receivable and Related Foreclosed Property, Net.

Guaranteed loans outstanding at the end of FY 2013 were $115,527 million in outstanding
principal and $104,772 million in outstanding principal guaranteed, compared to $103,587
million and $92,667 million, respectively at the end of FY 2012. Table 5 shows the outstanding
balances by credit program.

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan
guarantee liability held against those loans. Current year subsidy expense, modification and
reestimates all contribute to the change of the loan guarantee liability through the year. The loan
guarantee liability is a combination of the liability for losses on pre-1992 guarantees and post-
1991 guarantees. Table 6 shows that total liability moved from $4,471 million to $4,866 million
during FY 2013, an increase of $395 million. Table 7 shows the reconciliation of total loan
guarantee liability.




                                                  United States Department of Agriculture | 56
                                                         SECTION 2: Financial Information

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed
loans disbursed in the current year, modifications to existing loans, and interest rate and technical
reestimates to existing loans. Total guaranteed loan subsidy expense in FY 2013 was $575
million compared to $926 million in FY 2012. Table 8 illustrates the breakdown of total subsidy
expense for FY 2013 and FY 2012 by program.

Guaranteed loan volume increased from $27,170 million in FY 2012 to $29,035 million in FY
2013. Volume distribution between mission area and program is shown in Table 9.

Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude
direct Federal administrative expenses. Administrative expenses for FY 2013 and FY 2012 are
shown in Table 10.

Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2013 cohorts. These rates cannot be applied to the direct
and guaranteed loans disbursed during the current reporting year to yield the subsidy expense.
The subsidy expense for new loans reported in the current year could result from disbursements
of loans from both current year cohorts and prior-year cohorts. The subsidy expense reported in
the current year also includes reestimates.

Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission
area through the FSA and the CCC, and in the RD mission area.

The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America’s farmers and ranchers in business as they face the
uncertainties of weather and markets. FFAS delivers commodity, credit, conservation, disaster
and emergency assistance programs that help strengthen and stabilize the agricultural economy.
FFAS contributes to the vitality of the farm sector with programs that encourage the expansion
of export markets for U.S. agriculture.

FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private,
commercial credit and nonprofit entities that are engaged in the improvement of the nation’s
agricultural community. Often, FSA borrowers are beginning farmers who cannot qualify for
conventional loans due to insufficient financial resources. Additionally, the agency helps
established farmers who have suffered financial setbacks from natural disasters, or have limited
resources to maintain profitable farming operations. FSA officials also provide borrowers with
supervision and credit counseling.

FSA’s mission is to provide supervised credit. FSA works with each borrower to identify
specific strengths and weaknesses in farm production and management, and provides alternatives
to address weaknesses. FSA is able to provide certain loan servicing options to assist borrowers
whose accounts are distressed or delinquent. These options include reamortization, restructuring,

                                                 Fiscal Year 2013 Agency Financial Report | 57
        USDA: Managing for Results in Performing Its Many Vital Public Functions

loan deferral, lowering interest rate, acceptance of easements, and debt write-downs. The
eventual goal of FSA’s farm credit programs is to graduate its borrowers to commercial credit.

CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while
also giving humanitarian assistance to the most-needy people throughout the world. CCC offers
both credit guarantee and direct credit programs for buyers of U.S. exports, suppliers, and
sovereign countries in need of food assistance.

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The
Club is an internationally recognized organization under the leadership of the French Ministry of
Economics and Finance. Its sole purpose is to assess, on a case-by-case basis, liquidity problems
faced by economically disadvantaged countries. The general premise of the Club’s activities is to
provide disadvantaged nations short-term liquidity relief to enable them to re-establish their
credit worthiness. The Departments of State and Treasury lead the U.S. Delegation and
negotiations for all U.S. Agencies.

CCC also provides loans for Farm and Sugar Storage Facilities (FSFL). FSFL provides low-
interest financing for producers to build or upgrade farm storage and handling facilities. The
2008 Farm Bill added hay and renewable biomass as eligible FSFL commodities, extended the
maximum loan term to 12 years and increased the maximum loan amount to $500,000.




                                                 United States Department of Agriculture | 58
                                                           SECTION 2: Financial Information

Farm and Foreign Agricultural Service List of Programs

                   Farm Service Agency                   Commodity Credit Corporation
          Direct Farm Ownership                      General Sales Manager Export Credit
          Direct Farm Operating                      Guarantee Program
          Direct Emergency Loans                     Facility Program Guarantee
          Direct Indian Land Acquisition             P.L. 480 Title 1 Program
          Direct Boll Weevil Eradication             Direct Farm Storage Facility
          Direct Seed Loans to Producers             Direct Sugar Storage Facilities
          Direct Conservation
          Guaranteed Farm Operating
          Subsidized/Unsubsidized
          Guaranteed Farm Ownership Unsubsidized
          Guaranteed Conservation
          American Recovery and Reinvestment Fund


The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or
improve the quality of rural housing. To leverage the impact of its programs, RD is working with
State, local and Indian tribal Governments, as well as private and not-for-profit organizations and
user-owned cooperatives.

Through its rural housing loan and grant programs, RD provides affordable housing and essential
community facilities to rural communities. Rural housing programs help finance new or
improved housing for moderate, low, and very low-income families each year. The programs
also help rural communities finance, construct, enlarge or improve fire stations, libraries,
hospitals and medical clinics, industrial parks, and other community facilities.

The Rural Business Program goal is to promote a dynamic business environment in rural
America. RD partners with the private sector and community-based organizations to provide
financial assistance and business planning. It also provides technical assistance to rural
businesses and cooperatives, conducts research into rural economic issues, and provides
cooperative educational materials to the public.

The Rural Utilities Program helps to improve the quality of life in rural America through a
variety of loan programs for electric energy, telecommunications, and water and environmental
projects. This program leverages scarce Federal funds with private capital for investing in rural
infrastructure, technology and development of human resources.

RD programs provide certain loan servicing options to borrowers whose accounts are distressed
or delinquent. These options include reamortization, restructuring, loan deferral, lowering
interest rate, acceptance of easements and debt write-downs. The choice of servicing options
depends on the loan program and the individual borrower.

Rural Development List of Programs


                                                    Fiscal Year 2013 Agency Financial Report | 59
        USDA: Managing for Results in Performing Its Many Vital Public Functions


     Rural Housing Program                Rural Business Program               Rural Utilities Program
 Single Family Housing Direct         Business and Industry Direct Loans   Water and Environmental Direct
 Loans                                Business and Industry Guaranteed     Loans
 Single Family Housing Guaranteed     Loans                                Water and Environmental
 Loans                                Intermediary Relending Program       Guaranteed Loans
 Self Help Housing Direct Loans       Direct Loans                         Electric Direct Loans
 Single Family Housing Credit Sales   Rural Economic Development           Electric Guaranteed Loans
 Farm Labor Housing Direct Loans      Direct Loans                         Telecommunications Direct Loans
 Multi-Family Housing Direct Loans    Biorefinery Guaranteed Loans         Federal Financing Bank-Electric
 Multi-Family Housing Guaranteed      Renewable Energy Guaranteed          Federal Financing Bank-Telephone
 Loans                                Loans                                Distance Learning and
 Multi-Family Housing-Credit Sales    Rural Microenterprise Direct Loans   Telemedicine Direct
 Multi-Family Housing Relending                                            Broadband Telecommunications
 Program                                                                   Services
 Multi-Family Housing
 Revitalization Program
 Community Facilities Direct Loans
 Community Facilities Guaranteed
 Loans


Events and Changes Having a Significant and Measurable Effect on Subsidy Rates,
Subsidy Expense, and Subsidy Reestimates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary
accounting treatment of direct and guaranteed loans. The long-term cost to the Government for direct
loans or loan guarantees is referred to as “subsidy cost.” Under the act, subsidy costs for loans
obligated beginning in FY 1992 are recognized at the net present value of projected lifetime costs in
the year the loan is disbursed. Subsidy costs are revalued annually. Components of subsidy include
interest subsidies, defaults, fee offsets, and other cash flows.

The annual reestimate process updates the budget assumptions with actual portfolio performance,
interest rates and updated estimates for future loan performance. The FY 2013 reestimate process
resulted in a $571 million increase in the post 1991 estimated cost of the direct loan portfolio and a
$555 million increase in the post 1991 estimated cost of the guaranteed loan portfolio, primarily
comprised of the following programs:

Direct Loans
The Housing Programs had an overall net upward reestimate of $269 million. The majority of the
$269 million upward reestimates related to lowered prepayment assumptions. Lowered prepayment
assumptions are due to the housing market’s continued instability. By lowering projected
prepayments, the assumption is that loans remain outstanding for longer periods; hence, borrowers
receive more payment assistance. Therefore, lower prepayments produce higher interest rate
assistance over the life of the cohort, which contributes to a higher subsidy rate.


The Electric Programs had an overall upward reestimate of $356 million. The majority of this
reestimate consists of the following programs: Federal Financing Bank (FFB) upward reestimate of

                                                       United States Department of Agriculture | 60
                                                           SECTION 2: Financial Information

$390 million and Electric Municipal downward reestimate of $68 million. The FFB Electric Program
has seen a significant swing from a downward reestimate of $88 million in FY 2012 to upward
reestimate of $390 million in FY 2013. The last five cohort years have the greatest changes due to:
(1) differences between the Single Effective Rate (SER) and the weighted borrower rate, (2)
Financing Account Interest Adjustment (difference between the SER and rate paid to FFB),
(3) negative formulation rate moving to positive reestimate rate, and (4) increased cost at time of
disbursement due to a higher SER. The Municipal Electric program downward reestimates were due
to the current economic environment of lower interest rates and subsequent prepayments. Changes in
the prepayment curve account for a major component in the subsidy rate change. In the Municipal
Electric Program, projected prepayments were much lower than actual prepayments.
The Water and Environmental (WEP) program had an overall downward reestimates of $276
million. The WEP downward reestimates were due to the current economic environment of lower
interest rates and subsequent prepayments. Changes in the prepayment curve account for a major
component in the subsidy rate change. In WEP, projected prepayments were much lower than actual
prepayments.


Guaranteed Loans
The Guaranteed Housing programs had an overall upward reestimate of $616 million. The Single
Family Housing Section 502 – Purchase program had significant net upward reestimates of
$400 million. The main causes for the significant increase were actual loss amounts that were less
than projected loss amount and prediction of future defaults that were significantly less than the
actual defaults. In addition, RD made changes to the loss curves used to forecast future defaults. The
adjustment to the curves used to forecasting defaults has caused a significant increase in forecasted
defaults compared to last year, but has led to a more accurate defaults prediction. The Single Family
Housing Section 502 – Blended had significant net upward reestimates of $216 million. The main
causes for the significant increase were overestimated defaults and predicted future defaults that were
significantly less than the actual defaults. The decline in loss amounts is the result of overall better
credit score requirements for borrowers. Additionally, RD made changes to the loss curves used to
forecast future defaults.


Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the
subsidy cost, such as a change in the terms of the loan contract. The cost of a modification is the
difference between the present value of the cash flows before and after the modification.

Multiple-family housing direct loan program modifications related to the revitalization project, which
began in FY 2006, continued throughout FY 2013. The revitalization project is used to rehabilitate
ailing housing developments. In this program, RD determines whether the development owner
should be offered a financial restructuring plan and what type of incentives, if any, should be offered
to the owner to rehabilitate an ailing housing development and to provide affordable rents for tenants.

The Debt Reduction Fund is used to account for CCC’s “modified debt.” Debt is considered to be
modified if the original debt has been reduced or the interest rate of the agreement changed. In
contrast, when debt is "rescheduled," only the date of payment is changed. Rescheduled debt is
                                                   Fiscal Year 2013 Agency Financial Report | 61
        USDA: Managing for Results in Performing Its Many Vital Public Functions

carried in the original fund until paid. With one exception, all outstanding CCC modified debt is
carried in the Debt Reduction Fund and is governed by the Federal Credit Reform Act of 1990 as
amended.

Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties
associated with loans are reported at their market value at the time of acquisition. The projected
future cash flows associated with acquired properties are used in determining the related allowance
(at present value).

As of September 30, 2013 and 2012, foreclosed property consisted of 1,547 and 1,375 rural single-
family housing dwellings, with an average holding period of 15 months. As of September 30, 2013
and 2012, FSA-Farm Loan Program properties consist primarily of 75 and 77 farms, respectively.
The average holding period for these properties in inventory for FY 2013 and FY 2012 was 44
months. Certain properties can be leased to eligible individuals.

Other Information
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on
rescheduling agreements until such time two consecutive payments have been made following the
rescheduling. When RD, FSA and CCC calculate loan interest income, however, the recognition of
revenue is deferred. Late interest is accrued on arrears.

Approximately $17,900 million and $18,600 million of RHS unpaid loan principal as of September
30, 2013, and 2012 were receiving interest credit, respectively. If those loans receiving interest credit
had accrued interest at the full-unreduced rate, interest income would have been approximately $892
million and $935 million higher for FY 2013 and FY 2012 respectively.

At the end of FY 2013 and FY 2012, the RD portfolio contained approximately 66,300 and 67,900
restructured loans with an outstanding unpaid principal balance of $2,800 million and $2,700 million,
respectively . At the end of FY 2013 and FY 2012, the farm loan portfolio contained approximately
18,038 and 19,123 restructured loans with an outstanding unpaid principal balance of $1,093 million
and $1,143 million, respectively. Direct credit and credit guarantee principal receivables in the food
aid and export programs under rescheduling agreements as of September 30, 2013 and 2012, were
$1,926 million and $2,203 million, respectively.




                                                     United States Department of Agriculture | 62
                                                                SECTION 2: Financial Information

Table 1. Direct Loan and Loan Guarantees, Net
FY 2013                                        Loans                                                Value of Assets
Direct Loans                                 Receivable,     Interest    Foreclosed                   Related to
                                               Gross        Receivable    Property    Allowance         Loans
Obligated Pre-1992
  Farm                                       $       544    $      37    $       8    $      (35)   $          554
  Export                                               -            -            -             -                 -
  Food Aid                                         2,896          847            -        (2,271)            1,472
  Housing                                          8,193           72           29           (21)            8,273
  Electric                                         3,539            3            -        (1,132)            2,410
  Telecommunications                                 321            -            -             -               321
  Water and Environmental                            699            7            -             -               706
  Business and Industry                                -            -            -             -                 -
  Economic Development                                21            -            -             -                21
Pre-1992 Total                                    16,213          966           37        (3,459)           13,757

Obligated Post-1991
 Farm                                              8,010          142            9          (493)            7,668
 Export                                                -            -            -             -                 -
 Food Aid                                          1,089           50            -          (427)              712
 Housing                                          22,833          144           72        (2,955)           20,094
 Electric                                         46,006           27            -        (1,053)           44,980
 Telecommunications                                4,414            2            -           141             4,557
 Water and Environmental                          11,576           97            -          (350)           11,323
 Business and Industry                                34            -            2            28                64
 Economic Development                                542            2            -          (135)              409
Post-1991 Total                                   94,504          464           83        (5,244)           89,807

Cushion of Credit                                 (4,001)           -            -             -            (4,001)

Total Direct Loan Program Receivables            106,716        1,430          120        (8,703)           99,563

Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -             -            -            -                  -
    Export                                          101           210            -         (268)                43
    Food Aid                                          -             -            -            -                  -
    Housing                                           -             -            -            -                  -
    Electric                                          -             -            -            -                  -
    Telecommunications                                -             -            -            -                  -
    Water and Environmental                           -             -            -            -                  -
    Business and Industry                             1             -            -            -                  1
    Economic Development                              -             -            -            -                  -
 Pre-1992 Total                                     102           210            -         (268)                44

  Post-1991
    Farm                                             113            -            -          (111)                2
    Export                                           736           18            -          (279)              475
    Food Aid                                           -            -            -             -                 -
    Housing                                          818            2            -          (767)               53
    Electric                                           -            -            -             -                 -
    Telecommunications                                 -            -            -             -                 -
    Water and Environmental                            -            -            -             -                 -
    Business and Industry                            309            4            -           (78)              235
    Economic Development                               -            -            -             -                 -
  Post-1991 Total                                  1,976           24            -        (1,235)              765
Total Defaulted Guarantee Loans                    2,078          234            -        (1,503)              809

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   337             2            -            (1)              338
  Other Foreign Receivables                           -             -            -             -                 -
Total Loans Exempt                                  337             2            -            (1)              338

Total Direct Loan and Loan Guarantees, Net                                                          $      100,710




                                                      Fiscal Year 2013 Agency Financial Report | 63
        USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2012                                        Loans                                                 Value of Assets
Direct Loans                                 Receivable,     Interest    Foreclosed                    Related to
                                               Gross        Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $       692    $      47    $      12    $       (48)   $          703
  Export                                               -            -            -              -                 -
  Food Aid                                         3,167          824            -         (2,362)            1,629
  Housing                                          8,560           77           32         (3,831)            4,838
  Electric                                         4,065          157            -         (1,087)            3,135
  Telecommunications                                 412            1            -             (1)              412
  Water and Environmental                            904            8            -            (40)              872
  Business and Industry                                -            -            -              -                 -
  Economic Development                                25            -            -             (8)               17
Pre-1992 Total                                    17,825        1,114           44         (7,377)           11,606

Obligated Post-1991
 Farm                                              7,982          193           10           (472)            7,713
 Export                                                -            -            -              -                 -
 Food Aid                                          1,302           62            -           (521)              843
 Housing                                          22,401          189           62         (2,945)           19,707
 Electric                                         42,896          253            -           (759)           42,390
 Telecommunications                                4,374            4            -             99             4,477
 Water and Environmental                          11,280           97            -           (551)           10,826
 Business and Industry                                32            -            -             30                62
 Economic Development                                542            2            -           (144)              400
Post-1991 Total                                   90,809          800           72         (5,263)           86,418

Cushion of Credit                                 (3,797)           -            -              -            (3,797)

Total Direct Loan Program Receivables            104,837        1,914          116        (12,640)           94,227

Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -             -            -              -                 -
    Export                                          109           207            -           (264)               52
    Food Aid                                          -             -            -              -                 -
    Housing                                           -             -            -              -                 -
    Electric                                          -             -            -              -                 -
    Telecommunications                                -             -            -              -                 -
    Water and Environmental                           -             -            -              -                 -
    Business and Industry                             1             -            -              -                 1
    Economic Development                              -             -            -              -                 -
 Pre-1992 Total                                     110           207            -           (264)               53

  Post-1991
    Farm                                             137            -            -           (136)                1
    Export                                           814           20            -           (266)              568
    Food Aid                                           -            -            -              -                 -
    Housing                                          443            -            -           (416)               27
    Electric                                           -            -            -              -                 -
    Telecommunications                                 -            -            -              -                 -
    Water and Environmental                            -            -            -              -                 -
    Business and Industry                            269            4            -            (36)              237
    Economic Development                               -            -            -              -                 -
  Post-1991 Total                                  1,663           24            -           (854)              833
Total Defaulted Guarantee Loans                    1,773          231            -         (1,118)              886

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   397             3            -              -               400
  Other Foreign Receivables                           -             -            -              -                 -
Total Loans Exempt                                  397             3            -              -               400

Total Direct Loan and Loan Guarantees, Net                                                           $       95,513




                                                        United States Department of Agriculture | 64
                                                          SECTION 2: Financial Information


Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances
(Post-1991) Direct Loans

                                                                                   FY 2013       FY 2012

Beginning balance of the subsidy cost allowance                                $    6,118    $     6,017
Add: Subsidy expense for direct loans disbursed during the year by component
  Interest rate differential costs                                                    121            142
  Default costs (net of recoveries)                                                   154            196
  Fees and other collections                                                          (13)           (18)
  Other subsidy costs                                                                 (85)           (36)
Total subsidy expense prior to adjustments and reestimates                            177            284

Adjustments
  Loan modifications                                                                    7              25
  Fees received                                                                        67              48
  Loans written off                                                                  (789)         (1,136)
  Subsidy allowance amortization                                                     (249)           (112)
  Other                                                                               575           1,064
Total subsidy cost allowance before reestimates                                     5,906           6,190

Add or subtract subsidy reestimates by component
  Interest rate reestimate                                                           (401)            51
  Technical/default reestimate                                                        972           (123)
Total reestimates                                                                     571            (72)
Ending balance of the subsidy cost allowance                                   $    6,477    $     6,118




                                                   Fiscal Year 2013 Agency Financial Report | 65
                                                       USDA: Managing for Results in Performing Its Many Vital Public Functions



Table 3. Subsidy Expense for Direct Loans by Program and Component
FY 2013
                                     Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                    Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
Direct Loan Programs
 Farm                               $       19     $  77      $          (1)   $ (18)   $   77      $         -    $       (67)    $      117    $       50    $        127
 Export                                      -         -                  -        -         -                -              -              -             -               -
 Food Aid                                    -         -                  -        -         -                4             47             29            76              80
 Housing                                    50        39                  -        2        91                3            (37)           337           300             394
 Electric                                  (93)       14                (12)     (51)     (142)               -           (273)           629           356             214
 Telecommunications                          -        19                  -       (7)       12                -              2             65            67              79
 Water and Environmental                   133         5                  -      (11)      127                -            (73)          (203)         (276)           (149)
 Business and Industry                       1         -                  -        -         1                -              2              1             3               4
 Economic Development                       11         -                  -        -        11                -             (2)            (3)           (5)              6
Total Direct Loan Subsidy Expense   $      121     $ 154      $         (13)   $ (85)   $ 177      $          7    $      (401)    $      972    $      571    $        755




FY 2012
                                     Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                    Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
Direct Loan Programs
 Farm                               $       18     $  89      $          (1)   $ (17)   $  89       $         -    $       (91)    $       43    $      (48)   $         41
 Export                                      -         -                  -        -        -                21              -             10            10              31
 Food Aid                                    -         -                  -        -        -                 -              -              -             -               -
 Housing                                    43        54                  -       14      111                 4             58            114           172             287
 Electric                                  (56)       21                (17)     (19)     (71)                -            147            (45)          102              31
 Telecommunications                         (1)       26                  -       (7)      18                 -            (20)            11            (9)              9
 Water and Environmental                   127         6                  -       (7)     126                 -           (142)          (115)         (257)           (131)
 Business and Industry                       1         -                  -        -        1                 -            (18)           (20)          (38)            (37)
 Economic Development                       10         -                  -        -       10                 -            117           (121)           (4)              6
Total Direct Loan Subsidy Expense   $      142     $ 196      $         (18)   $ (36)   $ 284      $         25    $        51     $     (123)   $      (72)   $        237




                                                                                                           United States Department of Agriculture | 66
                                                                         Section 2: Financial Information

Table 4. Total Amount of Direct Loans Disbursed (Post-1991)
                                                              FY 2013      FY 2012
                   Direct Loan Programs
                     Farm                                     $ 1,733     $ 1,921
                     Export                                          -           -
                     Food Aid                                        -           -
                     Housing                                     1,657       1,914
                     Electric                                    4,956       5,144
                     Telecommunications                            661         780
                     Water and Environmental                     1,373       1,264
                     Business and Industry                           6           7
                     Economic Development                           51          41
                   Total Direct Loans Disbursed               $ 10,437    $ 11,071




                                                               Fiscal Year 2013 Agency Financial Report | 67
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 5. Guaranteed Loans Outstanding

                                     Pre - 1992   Post - 1991       Total        Pre - 1992   Post - 1991       Total
                                    Outstanding   Outstanding    Outstanding    Outstanding   Outstanding    Outstanding
          FY 2013
                                     Principal,    Principal,     Principal,     Principal,    Principal,     Principal,
                                    Face Value    Face Value     Face Value     Guaranteed    Guaranteed     Guaranteed
       Loan Guarantee Programs
         Farm                       $        9    $    12,924    $    12,933    $        9    $    11,637    $    11,646
         Export                               -         5,345          5,345              -         5,238          5,238
         Food Aid                             -              -              -             -              -              -
         Housing                             2         90,164         90,166             2         82,538         82,540
         Electric                           85            188            273            85            188            273
         Telecommunications                   -              -              -             -              -              -
         Water and Environmental              -            79             79              -            69             69
         Business and Industry               7          6,724          6,731             5          5,001          5,006
         Economic Development                 -              -              -             -              -              -
       Total Guarantees Disbursed   $      103    $   115,424    $   115,527    $      101    $   104,671    $   104,772




                                     Pre - 1992   Post - 1991       Total        Pre - 1992   Post - 1991       Total
                                    Outstanding   Outstanding    Outstanding    Outstanding   Outstanding    Outstanding
          FY 2012
                                     Principal,    Principal,     Principal,     Principal,    Principal,     Principal,
                                    Face Value    Face Value     Face Value     Guaranteed    Guaranteed     Guaranteed
       Loan Guarantee Programs
         Farm                       $       13    $    12,903    $    12,916    $       12    $   11,613     $   11,625
         Export                               -         6,195          6,195              -        6,071          6,071
         Food Aid                             -              -              -             -             -              -
         Housing                             2         76,995         76,997             2        69,284         69,286
         Electric                           96            193            289            96           193            289
         Telecommunications                   -              -              -             -             -              -
         Water and Environmental              -            85             85              -           74             74
         Business and Industry               5          7,100          7,105             3         5,319          5,322
         Economic Development                 -              -              -             -             -              -
       Total Guarantees Disbursed   $      116    $   103,471    $   103,587    $      113    $   92,554     $   92,667




                                                                                United States Department of Agriculture | 68
                                                                      Section 2: Financial Information


Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992
Guarantees)

                                          Liabilities for       Liabilities for Loan
                                           Losses on              Guarantees on
       FY 2013
                                            Pre-1992                Post-1991
                                          Guarantees               Guarantees          Total Liabilities for
                                         Present Value            Present Value        Loan Guarantees
   Loan Guarantee Programs
     Farm                                $             -         $             167      $             167
     Export                                            -                       126                    126
     Food Aid                                          -                         -                      -
     Housing                                           -                     3,780                  3,780
     Electric                                          -                         -                      -
     Telecommunications                                -                         -                      -
     Water and Environmental                           -                         -                      -
     Business and Industry                             -                       793                    793
     Economic Development                              -                         -                      -
   Total Liability for Loan Guarantees   $             -         $           4,866      $           4,866




                                          Liabilities for       Liabilities for Loan
                                           Losses on              Guarantees on
       FY 2012
                                            Pre-1992                Post-1991
                                          Guarantees               Guarantees          Total Liabilities for
                                         Present Value            Present Value        Loan Guarantees
   Loan Guarantee Programs
     Farm                                $             -         $             183      $             183
     Export                                            -                       174                    174
     Food Aid                                          -                         -                      -
     Housing                                           -                     3,201                  3,201
     Electric                                          -                         -                      -
     Telecommunications                                -                         -                      -
     Water and Environmental                           -                         -                      -
     Business and Industry                             -                       913                    913
     Economic Development                              -                         -                      -
   Total Liability for Loan Guarantees   $             -         $           4,471      $           4,471




                                                           Fiscal Year 2013 Agency Financial Report | 69
        USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                   FY 2013      FY 2012
Beginning balance of the loan guarantee liability                                 $   4,471    $   3,620
Add:Subsidy expense for guaranteed loans disbursed during the year by component
  Interest supplement costs                                                               1            (9)
  Default costs (net of recoveries)                                                     895            95
  Fees and other collections                                                           (876)          (75)
  Other subsidy costs                                                                     -             1
Total of the above subsidy expense components                                            20            12

Adjustments
 Loan guarantee modifications                                                             -             -
 Fees received                                                                          597           515
 Interest supplements paid                                                              (22)          (26)
 Claim payments to lenders                                                             (135)         (129)
 Interest accumulation on the liability balance                                          88            85
 Other                                                                                 (708)         (520)
Ending balance of the subsidy cost allowance before reestimates                       4,311         3,557

Add or subtract subsidy reestimates by component:
  Interest rate reestimate                                                              115           181
  Technical/default reestimate                                                          440           733
Total of the above reestimate components                                                555           914
Ending balance of the loan guarantee liability                                    $   4,866    $    4,471




                                                     United States Department of Agriculture | 70
                                                                                                            Section 2: Financial Information


Table 8. Subsidy Expense for Loan Guarantees by Program and Component
FY 2013
                                                                                                                                                Total
                                         Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
  Farm                                  $        - $ 23     $         (12)  $ -   $ 11     $          -    $       8  $     (19) $     (11)    $      -
  Export                                         -      -               -     -        -              -           (7)        (3)       (10)        (10)
  Food Aid                                       -      -               -     -        -              -            -          -          -            -
  Housing                                       1    793            (835)     -     (41)              -         135        502        637          596
  Electric                                       -      -               -     -        -              -            -          -          -            -
  Telecommunications                             -      -               -     -        -              -            -          -          -            -
  Water and Environmental                        -      -               -     -        -              -            -          -          -            -
  Business and Industry                          -    79              (29)    -      50               -          (21)       (40)       (61)        (11)
  Economic Development                           -      -               -     -        -              -            -          -          -            -
Total Loan Guarantee Subsidy Expense    $       1  $ 895    $       (876)  $ -    $ 20     $         -    $     115   $    440   $    555     $ 575




FY 2012
                                                                                                                                                Total
                                         Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
  Farm                                  $        - $ 25     $         (11)  $ -   $ 14     $          -    $       5  $     (26) $     (21)    $    (7)
  Export                                         -      -               -     -        -              -           (4)        35         31          31
  Food Aid                                       -      -               -     -        -              -            -          -          -            -
  Housing                                      (9)    40              (60)    -     (29)              -         169        607        776          747
  Electric                                       -      -               -     -        -              -            -          -          -            -
  Telecommunications                             -      -               -     -        -              -            -          -          -            -
  Water and Environmental                        -      -               -     -        -              -            -          -          -            -
  Business and Industry                          -    30               (4)    1      27               -          11        117        128          155
  Economic Development                           -      -               -     -        -              -            -          -          -            -
Total Loan Guarantee Subsidy Expense    $      (9) $ 95     $         (75) $1     $ 12     $         -    $     181   $    733   $    914     $ 926




                                                                                                Fiscal Year 2013 Agency Financial Report | 71
             USDA: Managing for Results in Performing Its Many Vital Public Functions

Table 9. Guaranteed Loans Disbursed
                                                       FY 2013                      FY 2012
                                             Principal,       Principal,    Principal,    Principal,
                                            Face Value       Guaranteed    Face Value    Guaranteed
                                             Disbursed        Disbursed     Disbursed     Disbursed
Loan Guarantee Programs
    Farm                                    $     2,421       $    2,180       $    2,649   $    2,384
    Export                                        3,175            3,117            4,399        4,306
    Food Aid                                          -                -                -            -
    Housing                                      22,646           20,379           19,042       17,133
    Electric                                          -                -                -            -
    Telecommunications                                -                -                -            -
    Water and Environmental                           1                1               26           23
    Business and Industry                           792              608            1,054          820
    Economic Development                              -                -                -            -
Total Guaranteed Loans Disbursed            $    29,035       $   26,285   $       27,170   $   24,666




Table 10. Administrative Expenses
                                                            FY 2013          FY 2012
              Direct Loan Programs                        $       459      $       489
              Guaranteed Loan Programs                            415              417
            Total Administrative Expenses                 $       874      $       906




                                                       United States Department of Agriculture | 72
                                                                       Section 2: Financial Information

Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                             Fees and
    FY 2013                                        Interest                   Other
                                                  Differential   Defaults   Collections    Other    Total
  Direct Loan Programs
    Farm Ownership                                      1.67        5.02            -      (2.45)     4.24
    Farm Operating                                      1.45        4.73            -      (0.61)     5.57
    Emergency Disaster                                 (2.34)       8.38            -      (0.43)     5.61
    Indian Tribe Land Acquisition                     (14.85)        -              -        -      (14.85)
    Boll Weevil Eradication                            (2.07)       0.02            -      (0.48)    (2.53)
    Indian Highly Fractionated Land                    (9.06)      11.14            -      (0.35)     1.73
    Farm Storage Facility Loan Program                 (2.14)       0.02          (0.27)   (0.07)    (2.46)
    Sugar Storage Facility Loan Program                (3.21)       0.03            -      (0.13)    (3.31)
    Multi-Family Housing Relending Demo                36.18         -              -        -       36.18
    Multi-Family Housing Revitalization Seconds        61.35        0.13            -      (0.04)    61.44
    Multi-Family Housing Revitalization Zero           58.35        0.10            -      (0.16)    58.29
    Community Facility Loans                           (3.11)       2.01            -      (0.99)    (2.09)
    Section 502 Single-Family Housing                   4.02        3.38            -      (1.43)     5.97
    Section 515 Multi-Family Housing                   36.28        0.19            -      (1.30)    35.17
    Section 504 Housing Repair                         18.55       (0.05)           -      (4.84)    13.66
    Section 514 Farm Labor Housing                     34.11        0.09            -      (0.86)    33.34
    Section 523 Self-Help Housing                      (2.20)        -              -       0.05     (2.15)
    Single-Family Housing Credit Sales                (12.76)       2.59            -       1.20     (8.97)
    Intermediary Relending Program                     32.76        0.18            -      (0.90)    32.04
    Rural Economic Development Loans                   12.43        0.01            -      (0.05)    12.39
    Water and Waste Disposal Loans                     10.07        0.09            -      (2.09)     8.07
    FFB Electric Loans                                 (4.85)       0.08            -      (1.52)    (6.29)
    Treasury Telecommunication Loans                     -          0.31            -      (1.46)    (1.15)
    Broadband Treasury Loans                             -         11.43            -      (1.96)     9.47




                                                           Fiscal Year 2013 Agency Financial Report | 73
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                    Fees and
 FY 2013                                  Interest                   Other
                                         Differential   Defaults   Collections    Other   Total
Guaranteed Loan Programs
 Farm Ownership—Unsubsidized                     -         1.25          (1.32)     -     (0.07)
 Farm Operating—Unsubsidized                     -         2.52          (1.34)     -      1.18
 Conservation—Guaranteed                         -         1.04          (1.32)     -     (0.28)
 GSM 102                                         -         0.05          (1.16)     -     (1.11)
 Export Guarantee Program—Facilities             -         0.13          (4.78)     -     (4.65)
 Community Facility Loan Guarantees              -         7.63          (0.88)     -      6.75
 Guaranteed 538 Multi-Family Housing             -         7.07          (7.11)     -     (0.04)
 Guaranteed 502 Single-Family Housing            -         4.17          (4.42)     -     (0.25)
 Business and Industry Loan Guarantees           -        10.08          (4.19)     -      5.89
 Renewable Energy Loan Guarantees                -        25.21          (1.19)     -     24.02
 Section 9003 Loan Guarantees                    -        45.86          (5.87)    2.01   42.00
 Water and Waste Disposal Loans                  -         1.91          (0.85)     -      1.06




                                                     United States Department of Agriculture | 74
                                                                                                                                                               Section 2: Financial Information

Note 8. Inventory and Related Property, Net
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing emergency food assistance in
developing countries and providing price support and stabilization.

                                                             FY 2013                                                                                                                                                                        FY 2013
                                                      Beginning Inventory            Acquisitions                       Sales                                   Donations                            Other                            Ending Inventory
Commodities:                       Unit of Measure   Quantity        Value      Quantity        Value        Quantity                    Value            Quantity       Value         Quantity                    Value            Quantity        Value
Corn Meal                          Pounds                      - $          -           76 $           19                   -       $                -           (76) $        (19)                   -       $              -                - $          -
Blended Foods                      Pounds                     2             1          144             54                   -                        -          (122)          (47)                   -                      -              25             8
Dry Edible Beans                   Cwt.                        -            -            -             11                   -                        -              -          (11)                   -                      -                -            -
Dry Whole Peas                     Cwt.                        -            -            2             59                   -                        -             (2)         (55)                   -                      -                -            4
Emergency Food Ration Bars         Pounds                     1             3            6             11                   -                        -             (7)         (13)                   -                      -               1             1
Grain Sorghum                      Bushels                     -            -           10             74                   -                        -           (10)          (73)                   -                      -                -            1
Lentils Dry                        Cwt.                        -            -            1             22                   -                        -             (1)         (18)                   -                      -                -            4
Nonfat Dry Milk                    Pounds                      -            -            -              -                   -                        -              -            -                    -                      -                -            -
Rice Products                      Cwt., Pounds                -            2            2             66                   -                        -             (2)         (66)                   -                      -                -            2
Meat                               Pounds                      -            -            -              -                   -                        -              -            -                    -                      -                -            -
Vegetable Oil                      Pounds                    12             8          191            122                   -                        -          (180)         (115)                   -                      -              23            15
Wheat Products                     Bushels, Pounds             -            -          147            239                   -                        -          (141)         (238)                   -                      -               6             1
Other                              Various                     -            -            -            204                   -                        -              -          (92)                   -                    (77)               -           35
Total Commodities                                     XXXX       $         14    XXXX       $         881     XXXX                  $                -     XXXX        $      (747)      XXXX                 $            (77)      XXXX       $         71
Allowance for losses                                                                                                                                                                                                                                      (2)
Barter Delivery Obligations (BDO)                                                                                                                                                                                                                          -
Total Inventory and Related Property, Net                                                                                                                                                                                                       $         69




                                                             FY 2012                                                                                                                                                                      FY 2012
                                                      Beginning Inventory            Acquisitions                      Sales                                   Donations                         Other                              Ending Inventory
Commodities:                       Unit of Measure   Quantity        Value      Quantity        Value       Quantity                    Value            Quantity       Value         Quantity                    Value           Quantity        Value
Corn Meal                          Pounds                      - $          -          103 $           23               -       $                -             (103) $        (23)               -        $                -                - $          -
Blended Foods                      Pounds                    16             5          177             57               -                        -             (190)          (61)               -                         -               2             1
Dry Edible Beans                   Cwt.                        -            3            -             13               -                        -                 -          (16)               -                         -                -            -
Dry Whole Peas                     Cwt.                        -            9            2             64               -                        -                (2)         (73)               -                         -                -            -
Emergency Food Ration Bars         Pounds                     2             4            3              6               -                        -                (4)          (7)               -                         -               1             3
Grain Sorghum                      Bushels                    1             5           14            105               -                        -              (14)         (110)               -                         -                -            -
Lentils Dry                        Cwt.                        -            -            1             20               -                        -                (1)         (20)               -                         -                -            -
Nonfat Dry Milk                    Pounds                      -            -            -              -               -                        -                (1)          (1)               1                         1                -            -
Rice Products                      Cwt., Pounds                -            -            3             81               -                        -                (3)         (79)               -                         -                -            2
Meat                               Pounds                      -            -            -              -               -                        -                 -            -                -                         -                -            -
Vegetable Oil                      Pounds                    33            24          210            150               -                        -             (232)         (166)               -                         -              12             8
Wheat Products                     Bushels, Pounds             -            -          225            263               -                        -             (225)         (263)               -                         -                -            -
Other                              Various                     -            -           94             31               -                        -              (95)          (32)               1                         1                -            -
Total Commodities                                     XXXX       $         50    XXXX       $         813    XXXX               $                -        XXXX        $      (851)     XXXX               $                2       XXXX       $         14
Allowance for losses                                                                                                                                                                                                                                     -
Barter Delivery Obligations (BDO)                                                                                                                                                                                                                        -
Total Inventory and Related Property, Net                                                                                                                                                                                                     $         14




                                                                                                                                          Fiscal Year 2013 Agency Financial Report | 75
                USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 9. General Property, Plant, and Equipment, Net
During FY 2012, ARS transferred $696 million from construction-in-progress to buildings and
other structures.



FY 2013                                          Useful                                            Net
                                                  Life                        Accumulated         Book
   Category                                     (Years)            Cost       Depreciation        Value

Land and Land Rights                                           $         76   $          -    $         76
Improvements to Land                            10 - 50                 753           (686)             67
Construction-in-Progress                                                142              -             142
Buildings, Improvements and Renovations         15 - 30               2,934         (1,626)          1,308
Other Structures and Facilities                 15 - 50               1,839         (1,509)            330
Equipment                                        5 - 20               1,636         (1,240)            396
Assets Under Capital Lease                       3 - 20                  63            (46)             17
Leasehold Improvements                            10                     78            (64)             14
Internal-Use Software                            5-8                    658           (529)            129
Internal-Use Software in Development                                    446              -             446
    Total                                                      $      8,625   $     (5,700)   $      2,925

FY 2012                                          Useful                                            Net
                                                  Life                        Accumulated         Book
   Category                                     (Years)            Cost       Depreciation        Value

Land and Land Rights                                           $         77   $          -    $         77
Improvements to Land                            10 - 50                 751           (668)             83
Construction-in-Progress                                                330              -             330
Buildings, Improvements and Renovations         15 - 30               2,796         (1,548)          1,248
Other Structures and Facilities                 15 - 50               1,816         (1,472)            344
Equipment                                        5 - 20               1,617         (1,219)            398
Assets Under Capital Lease                       3 - 20                  64            (44)             20
Leasehold Improvements                            10                     75            (57)             18
Internal-Use Software                            5-8                    650           (501)            149
Internal-Use Software in Development                                    370              -             370
    Total                                                      $      8,546   $     (5,509)   $      3,037




Note 10. Stewardship PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that
are traditionally capitalized in the financial statements. Due to the nature of these assets however,
valuation would be difficult and matching costs with specific periods would not be meaningful.
Stewardship PP&E include heritage assets and stewardship land.

Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may
be unique because they have historical or natural significance, are of cultural, educational or artistic
importance, or have significant architectural characteristics. The assets are reported in terms of
physical units rather than cost, fair value, or other monetary values. No amounts are shown on the
balance sheet for heritage assets, except for multi-use heritage assets in which the predominant use of
the asset is in general government operations. The costs of acquisition, betterment, or reconstruction of
multi-use heritage assets is capitalized as general PP&E and depreciated. The costs of acquiring,
constructing, improving, reconstructing, or renovating heritage assets, other than multi-use is

                                                          United States Department of Agriculture | 76
                                                                  Section 2: Financial Information

considered an expense in the period incurred when determining the net cost of operations. Heritage
assets consist of collection type, such as objects gathered and maintained for exhibition, for example
library collections; and non-collection-type, such as memorials, monuments and buildings.
National Forests, National Grasslands and Other Sites — FS manages its heritage assets by site.
Sites include National Forests, National Grasslands, other Forest Service-managed sites, and non
Forest Service- managed sites such as museums and university laboratories. The mission of the FS is to
sustain the health, diversity, and productivity of the Nation’s forests and grasslands to meet the needs
of present and future generations. The FS strives to achieve quality land management under the
sustainable multiple-use management concept to deliver the necessary products and services that are
essential for enhancing natural resource stewardship and to meet the diverse needs of people.

Heritage Asset categories can include the following:

Priority Heritage Assets (PHA): Heritage assets of distinct public value that are, or should be, actively
maintained, and meet one or more of the following criteria:

      The property is recognized through an official designation; such as a listing on the National
       Register of Historic Places, State register, etc.
      The property is recognized through prior investment in preservation, interpretation, and use. Any
       improvement to a PHA that meets real property designation criteria is considered real property.
      The property is recognized in an agency-approved management plan.
      The property exhibits critical deferred maintenance needs, and those needs have been documented.

Other Heritage Assets: Assets that may have potential important historical or cultural significance, but
lack formal listing and the demonstrated need for active maintenance.

Assemblage Assets: Any grouping of artifacts or archival materials aggregated through donation,
agency events, site-specific or other field collection, other acquisition method, or combination therein.

Research Centers — ARS conducts research at centers nationwide to develop and transfer solutions
to agricultural problems of high national priority and provides information access and dissemination to
ensure high-quality, safe food and other agricultural products; assess the nutritional needs of
Americans; sustain a competitive agricultural economy; enhance the natural resource base and the
environment; and provide economic opportunities for rural citizens, communities, and society as a
whole. NRCS currently owns one heritage asset, the Tucson Plant Materials Center (TPMC) which is
included in general PP&E as a multi-use asset. It was listed in the National Register of Historic Places
(NRHP) on July 2, 1997. The TPMC develops and evaluates native plants and addresses an array of
resource issues in the areas of rangeland, mined land, urban lands, cropland riparian areas, and desert
lands. The TPMC provides technical assistance to NRCS field offices, Resource Conservation and
Development (RC&D) groups, conservation districts, Federal, State, and Tribal agencies, and private
landowners through the greater Southwest. Research centers are considered heritage assets because one
or more buildings or structures at these centers is on the National Register of Historic Places or have
been identified as eligible for inclusion on the National Register.

Library Collections — The National Agricultural Library (NAL) as a whole is the largest collection
of materials devoted to agriculture in the world. The collections are in constant use to support the
research activities of USDA, departmental operations and to answer citizen inquiries. NAL houses and
                                                       Fiscal Year 2013 Agency Financial Report | 77
               USDA: Managing for Results in Performing Its Many Vital Public Functions

provides access to millions of books and periodicals. The overwhelming number of these items were
published more than 25 years ago and almost all of them are out-of-print and unavailable for purchase.
By statute, NAL is the primary depository of publications and information concerning the research and
other activities of USDA. Included in the collection are government documents and many items that
are unique and irreplaceable. NAL collects, preserves and provides access to manuscripts, rare books,
photographs, posters, oral histories and other unique materials. Collection concentrations include the
fields of agriculture, horticulture, entomology, poultry sciences, botany, natural history and agricultural
history. Although focused primarily on American agriculture and related sciences, NAL holds
numerous items of international origin.

Acquisition and Withdrawal of Heritage Assets — The FS generally does not construct heritage
assets, although in some circumstances important site-structural components may be rehabilitated or
reconstructed into viable historic properties to provide forest visitors with use and interpretation.
Heritage assets may be acquired through the procurement process, but this rarely occurs. Normally,
heritage assets are part of the land acquisition and inventory process. Withdrawal occurs through land
exchange or natural disasters. Most additions occur through inventory activities where previously
undocumented sites are discovered and added to the total.

Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E.
Land is defined as the solid surface of the earth, excluding natural resources. Stewardship land is
valued for its environmental resources, recreational and scenic value, cultural and paleontological
resources, vast open spaces, and resource commodities and revenue provided to the Federal
government, states, and counties. These assets are reported in terms of physical units rather than cost,
fair value, or other monetary values. No asset amount is shown on the balance sheet for stewardship
land. The acquisition cost of stewardship land is considered an expense in the period acquired when
determining the net cost of operations. Stewardship land consists primarily of the national forests and
grasslands owned by the FS and conservation easements purchased by NRCS.
National Forests — National forests are formally established and permanently set aside and reserved
for national forest purposes, including National Wilderness, National Primitive, National Wild and
Scenic River, National Recreation, National Scenic Research, National Game Refuges and Wildlife
Preserve, and National Monument areas.

National Grasslands — National grasslands are designated by the Secretary of Agriculture and
permanently held by the USDA under Title III of the Bankhead-Jones Farm Tenant Act.

Research and Experimental Areas — Research and experimental areas are reserved and dedicated
by the Secretary of Agriculture for forest and range research experimentation. Areas reported are
located outside the exterior boundaries of a national forest or national grassland.

National Preserves and Other Areas — National preserves are units established to protect and
preserve scientific, scenic, geologic, watershed, fish, wildlife, historic, cultural and recreational values;
and provide for multiple use and sustained yield of its renewable resources. Other areas include areas
administered by the FS that are not included in one of the above groups.

Conservation Easements — NRCS’s mission objectives in administering the conservation easement
programs are to provide landowners with financial and technical assistance in return for maintaining

                                                          United States Department of Agriculture | 78
                                                                  Section 2: Financial Information

and improving high quality productive soils, clean and abundant water, healthy plant and animal
communities, clean air, an adequate energy supply, and working farm and ranch land.

NRCS’s objectives in managing, monitoring and enforcing the terms and conditions of easement deeds
are to ensure that: (1) taxpayer investments are properly used in accordance with the intent of the
program; (2) the agency is a good steward of the land; and (3) the land is properly maintained.

Stewardship resources involve substantial investment in order to gain long-term benefits for the
American public and help the Agency satisfy its mission. The purpose of purchasing easements is to
restore or enhance wetlands, protect farmland, restore and protect grassland, restore and protect forest
ecosystems, and restore, protect, maintain, and enhance the functions of floodplains.

NRCS, on behalf of USDA, administers and owns conservation easements on private lands.
Landowners are not allowed to withdraw from the program; however termination or expiration may
occur. For the purpose of stewardship asset reporting, all easements where NRCS is the grantee of the
easement are included as stewardship land. Also included are easements that are administered by
NRCS on behalf of other USDA agencies.

Acquisition and Withdrawal of Stewardship Lands — The Land and Water Conservation Fund
(L&WCF) Land Acquisition Program acquires land for the FS NFS. The program coordinates with a
variety of partners, including State, local, and Tribal governments, and private landowners through
statewide planning for development of a land-adjustment strategy.

The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for
the public and provides permanent access to public lands for recreation, commodity production,
resource management, public safety, and community economic viability.

The L&WCF statutory authority specifically defines the purpose to also include protecting the quality
of scientific, scenic, historical, ecological, environmental, air and atmospheric, water resource,
archeological values, as well as food and habitat for fish and wildlife, and managing the public lands
for minerals, food, timber and fiber.

From these several allowable uses of program funding, the program concentrates on protecting habitat
for priority species identified in the national forest and grassland’s Land Management Plans and
enhancing recreational opportunities for areas with high demand for recreation. The program focuses
acquisitions on inholdings and areas adjacent to existing NFS lands.




                                                       Fiscal Year 2013 Agency Financial Report | 79
               USDA: Managing for Results in Performing Its Many Vital Public Functions


                                                FY 2013        Additions             Withdrawals       FY 2012
    Heritage Assets
      National Forests                                154                  -                    -            154
      National Grasslands                              20                  -                    -             20
      Other Sites                                     168                  7                   (7)           168
      Research Centers                                 34                  -                   (2)            36
      Library Collections                               1                  -                    -              1
    Total                                             377                  7                   (9)           379

    Stewardship Land
      National Forests                                154                   -                      -         154
      National Grasslands                              20                   -                      -          20
      Research and Experimental Areas                   3                   -                      -           3
      National Preserves and Other Areas                3                   -                      -           3
      Conservation Easements                       16,253               1,517                      -      14,736
    Total                                          16,433               1,517                      -      14,916




                                                FY 2012        Additions             Withdrawals       FY 2011
    Heritage Assets
      National Forests                                154                  -                   (1)           155
      National Grasslands                              20                  -                    -             20
      Other Sites                                     168                 19                  (18)           167
      Research Centers                                 36                  -                    -             36
      Library Collections                               1                  -                    -              1
    Total                                             379                 19                  (19)           379

    Stewardship Land
      National Forests                                154                  -                   (1)           155
      National Grasslands                              20                  -                    -             20
      Research and Experimental Areas                   3                  -                    -              3
      National Preserves and Other Areas                3                  -                    -              3
      Conservation Easements                       14,736                759                    -         13,977
    Total                                          14,916                759                   (1)        14,158




Note 11. Other Assets
In FY 2013 and FY 2012, other assets include investments in trust for loan asset sales of $35 million.

                                                          FY 2013                   FY 2012
                   Intragovernmental:
                      Advances to Others              $             6           $              -
                   Subtotal Intragovernmental                       6                          -

                   With the Public:
                     Advances to Others                        161                         160
                     Other Assets                               37                          37
                   Total Other Assets                 $        204              $          197




                                                            United States Department of Agriculture | 80
                                                                          Section 2: Financial Information


Note 12. Liabilities Not Covered By Budgetary Resources
In FY 2013 and FY 2012, other intragovernmental liabilities not covered by budgetary resources
include accruals for Federal Employee Compensation Act (FECA) of $167 million and $167 million,
contract disputes claims payable to Treasury’s Judgment Fund of $23 million and $23 million,
unemployment compensation of $21 million and $25 million, and custodial of $3 million and $3
million, respectively.
In FY 2013 and FY 2012, other liabilities with the public not covered by budgetary resources include,
Tobacco Transition Payment Program of $954 million and $1,906 million, future funded indemnity
costs of $3,846 million and $17,067 million, crop insurance premium subsidy deficiency reserve of
$1,040 million and $1,126 million, unfunded leave of $596 million and $615 million, Payments to
States $325 million and $346 million, contingent liabilities of $120 million and $74 million, estimated
program delivery costs to reinsurer of $11 million and $92 million, respectively. In FY 2013, there
was an estimated underwriting gain on crop insurance of $1,973 million and credit programs of $19
million. In FY 2012, the Black Farmer Discrimination Lawsuit, also known as Pigford II was $50
million and unapplied collections were $16 million.


                                                                           FY 2013           FY 2012
      Intragovernmental:
        Other                                                         $          215     $         218
      Subtotal Intragovernmental                                                 215               218
      With the Public:
        Accounts Payable                                                             -                 -
        Federal employee and veterans' benefits                                  986               944
        Environmental and disposal liabilities                                   176                   8
       Other                                                                   8,885            21,291
      Subtotal With the Public                                                10,047            22,243

      Total liabilities not covered by budgetary resources                    10,262            22,461

      Total liabilities covered by budgetary resources                       141,080           130,673

      Total Liabilities                                               $      151,342     $     153,134




                                                             Fiscal Year 2013 Agency Financial Report | 81
               USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 13. Debt
                                                      Beginning                           Ending
        FY 2013
                                                       Balance        Net Borrowing       Balance
        Intragovernmental
           Debt to the Treasury                   $       55,788      $      8,592    $      64,380
           Debt to the Federal Financing Bank             38,092             2,568           40,660
        Total Intragovernmental                           93,880            11,160          105,040

        Agency Debt:
          Held by the Public                                      -               -                 -

        Total Debt                                $       93,880      $     11,160    $     105,040

                                                      Beginning                           Ending
        FY 2012
                                                       Balance        Net Borrowing       Balance
        Intragovernmental
           Debt to the Treasury                   $       55,357      $        431    $      55,788
           Debt to the Federal Financing Bank             34,226             3,866           38,092
        Total Intragovernmental                           89,583             4,297           93,880

        Agency Debt:
          Held by the Public                                      -               -                 -

        Total Debt                                $       89,583      $      4,297    $      93,880




Note 14. Environmental and Disposal Liabilities
The Department is subject to the Comprehensive Environmental Response, Compensation, and
Liability Act, the Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of
hazardous waste. In FY 2013, CCC and FS estimate the liability for total cleanup costs for sites known
to contain hazardous waste to be $8 million and $3 million, respectively, based on actual cleanup costs
at similar sites. In FY 2012, the liability was $8 million and $2 million, respectively. These estimates
will change as new sites are discovered, remedy standards change and new technology is introduced.

The Department is also subject to Asbestos National Emissions Standards for Hazardous Air
Pollutants. In FY 2013, the Department estimated its liability for asbestos-related cleanup of real
property to be $165 million. The liability is calculated using total square footage of real property
expected to contain asbestos times a cost factor based on historical actual cleanup costs, adjusted for
inflation, including any other identifiable costs, e.g. survey cost. As additional information becomes
available, key assumptions will be reevaluated, cost estimates will be revised, and necessary
adjustments will be made to the liability recognition.

Note 15. Other Liabilities
In FY 2013, other liabilities with the public include future funded indemnity costs of $3,846 million,
estimated underwriting gains on crop insurance of $1,973 million, crop insurance premium subsidy
deficiency reserve of $1,040 million, Payments to States of $327 million, estimated program delivery
cost to reinsurer of $11 million, credit programs of $19 million, unapplied collections of $16 million,
loans paid in advance for multi-family housing of $13 million, and purchaser road credits of $1
million.



                                                           United States Department of Agriculture | 82
                                                                 Section 2: Financial Information

In FY 2012, other liabilities with the public include future funded indemnity costs of $17,067 million,
estimated underwriting gains on crop insurance of $1,666 million, crop insurance premium subsidy
deficiency reserve of $1,126 million, Pigford II of $1,200 million, Payments to States of $346 million,
estimated program delivery cost to reinsurer of $92 million, credit programs of $18 million, unapplied
collections of $16 million, loans paid in advance for multi-family housing of $12 million, and
purchaser road credits of $1 million.




                                                      Fiscal Year 2013 Agency Financial Report | 83
       USDA: Managing for Results in Performing Its Many Vital Public Functions
FY 2013                                                      Non-Current       Current         Total
Intragovernmental:
   Other Accrued Liabilities                             $           23    $       36    $       59
   Employer Contributions and Payroll Taxes                           -            46            46
   Unfunded FECA Liability                                            -           167           167
   Other Unfunded Employment Related Liability                        -            21            21
   Advances from Others                                               -            49            49
   Liability for Deposit Funds, Clearing Accounts                     -           758           758
   Liability for Subsidy Related to Undisbursed Loans                 -            59            59
   Resources Payable to Treasury                                      -        12,891        12,891
   Custodial Liability                                                -            66            66
   Other Liabilities                                                  -             -             -
Subtotal Intragovernmental                                           23        14,093        14,116

With the Public:
 Other Accrued Liabilities                                            -        10,553        10,553
 Accrued Funded Payroll and Leave                                     -           211           211
 Unfunded Leave                                                       -           596           596
 Advances from Others                                                 -           160           160
 Deferred Credits                                                     -           734           734
 Liability for Deposit Funds, Clearing Accounts                       -           344           344
 Contingent Liabilities                                               -           120           120
 Capital Lease Liability                                             13             5            18
 Custodial Liability                                                  -             8             8
 Other Liabilities                                                   23         7,222         7,245
Subtotal With the Public                                             36        19,953        19,989

Total Other Liabilities                                  $           59    $   34,046    $   34,105




FY 2012                                                      Non-Current       Current         Total
Intragovernmental:
   Other Accrued Liabilities                             $           21    $       72    $       93
   Employer Contributions and Payroll Taxes                           -           108           108
   Unfunded FECA Liability                                            -           167           167
   Other Unfunded Employment Related Liability                        -            25            25
   Advances from Others                                               -            87            87
   Liability for Deposit Funds, Clearing Accounts                     -           (14)          (14)
   Liability for Subsidy Related to Undisbursed Loans                 -            64            64
   Resources Payable to Treasury                                      -        11,845        11,845
   Custodial Liability                                                -            57            57
   Other Liabilities                                                  -             2             2
Subtotal Intragovernmental                                           21        12,413        12,434

With the Public:
 Other Accrued Liabilities                                            -        11,817        11,817
 Accrued Funded Payroll and Leave                                     -           465           465
 Unfunded Leave                                                       -           615           615
 Advances from Others                                                 -           137           137
 Deferred Credits                                                     -           741           741
 Liability for Deposit Funds, Clearing Accounts                       -           138           138
 Contingent Liabilities                                               -            74            74
 Capital Lease Liability                                             16             6            22
 Custodial Liability                                                  -             -             -
 Other Liabilities                                                   22        21,524        21,546
Subtotal With the Public                                             38        35,517        35,555

Total Other Liabilities                                  $           59    $   47,930    $   47,989




                                                        United States Department of Agriculture | 84
                                                                           Section 2: Financial Information

Note 16. Leases
USDA activities based in the Washington D.C. area are located in General Services Administration
(GSA) leased facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten
Building, and South Building) is a government owned facility, which is part of the GSA Federal
Buildings Inventory. As the result of a 1998 Agreement between GSA and USDA, a moratorium was
placed on the rental billings for the Headquarters complex beginning in FY 1999.

At current market rate, the estimated yearly rental payment for the above mentioned space would be
$65 million. This agreement is still in effect and as a result, USDA activities located in the
Headquarter complex are not billed for rental costs.

FY 2013
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $             63
   Machinery and Equipment                                        -
   Accumulated Amortization                                     (46)

  Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
                                                                        Equipment
    Fiscal Year
    2014                                                         10                  -               -            10
    2015                                                          9                  -               -             9
    2016                                                          8                  -               -             8
    2017                                                          6                  -               -             6
    2018                                                          5                  -               -             5
    After 5 Years                                                16                  -               -            16
Total Future Lease Payments                                      54                  -               -            54
Less: Imputed Interest                                           25                  -               -            25
Less: Executory Costs                                            11                  -               -            11
Less: Lease Renewal Options                                       -                  -               -             -
Net Capital Lease Liability                                      18                  -   $           -            18

Lease liabilities covered by budgetary resources                 18

Operating Leases:
 Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
    Fiscal Year                                                         Equipment
    2014                                                        122                  -               1            123
    2015                                                        109                  -               -            109
    2016                                                         95                  -               1             96
    2017                                                         85                  -               -             85
    2018                                                         75                  -               -             75
    After 5 Years                                               278                  -               1            279
  Total Future Lease Payments                      $            764    $             -   $           3   $        767




                                                             Fiscal Year 2013 Agency Financial Report | 85
                   USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2012
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $             64
   Machinery and Equipment                                        -
   Accumulated Amortization                                     (44)

  Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
                                                                        Equipment
    Fiscal Year
    2013                                                         11                  -               -            11
    2014                                                         10                  -               -            10
    2015                                                          9                  -               -             9
    2016                                                          8                  -               -             8
    2017                                                          6                  -               -             6
    After 5 Years                                                21                  -               -            21
Total Future Lease Payments                                      65                  -               -            65
Less: Imputed Interest                                           30                  -               -            30
Less: Executory Costs                                            13                  -               -            13
Less: Lease Renewal Options                                       -                  -               -             -
Net Capital Lease Liability                                      22                  -   $           -            22

Lease liabilities covered by budgetary resources                 22

Operating Leases:
 Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
    Fiscal Year                                                         Equipment
    2013                                                        125                  1               1            127
    2014                                                        109                  -               1            110
    2015                                                         98                  -               -             98
    2016                                                         85                  -               -             85
    2017                                                         76                  -               -             76
    After 5 Years                                               325                  -               1            326
  Total Future Lease Payments                      $            818    $             1   $           3   $        822




Note 17. Commitments and Contingencies
The Department is subject to various claims and contingencies related to lawsuits as well as
commitments under contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability
has been estimated, $120 million and $74 million has been accrued in the financial statements as of
September 30, 2013 and 2012, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or
where the probability of judgment against USDA is remote. The Department’s potential liability for
claims where a judgment against the Department is reasonably possible ranges from $764 million to
$1,704 million as of September 30, 2013, compared to $734 million to $1,544 million as of
September 30, 2012.
CRP rental payments are estimated to be $2,000 million annually through FY 2019. Commitments to
extend loan guarantees are estimated to be $5,430 million and $5,983 million in FY 2013 and
FY 2012, respectively.
Note 18. Funds from Dedicated Collections
Funds from dedicated collections are financed by specifically identified revenues, often supplemented by
other financing sources, which remain available over time. These specifically identified revenues and


                                                               United States Department of Agriculture | 86
                                                                   Section 2: Financial Information

other financing sources are required by statute to be used for designated activities or purposes and must
be accounted for separately from the Government’s general revenues.
Financial information for all significant funds from dedicated collections follows the descriptions of each
fund’s purpose shown below.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods
and other necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize
markets. The fund is permanently financed by statutory transfer of an amount equal to 30 percent of
customs receipts collected during each calendar year and is automatically appropriated for expanding
outlets for perishable, non-price supported commodities. An amount equal to 30 percent of receipts
collected on fishery products is transferred to the Food and Nutrition Service and is used to purchase
commodities under section 6 of the National School Lunch Act and other authorities specified in the
child nutrition appropriation. Funds are available under section 32 of the Act of August 24, 1935, as
amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide
variety of fresh and processed food commodities using federally approved grade standards and purchase
specifications. This fund is financed by the collection of fees charged to producers of various food
commodities who request, on a voluntary basis, inspection and grading of agricultural food commodities.
This program is authorized by the Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).

Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural
Quarantine Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the
Federal Agriculture Improvement and Reform Act of 1996, gave the Animal and Plant Health
Inspection Service (APHIS) the authority to charge user fees for AQI services, and to use the revenue
to fund AQI activities. In March of 2003, a portion of the AQI program was transferred to the
Department of Homeland Security (DHS); however, APHIS retained the authority to collect AQI
revenue. APHIS transfers a portion of the revenue to DHS periodically throughout the year to fund
their expenditures. The revenue in the fund is collected from airlines, air passengers, vessels, trucks,
and railroad cars that are subject to AQI inspection at ports of entry. These user fees are an inflow of
revenue from the public that is used to fund AQI inspections that are required by APHIS and DHS.
The authority is codified in 21 U.S.C. 136(a).

Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions
of the agreement between the cooperator and the Forest Service. Cooperators include timber
purchasers, not-for-profit organizations, and local hunting and fishing clubs. The governing authorities
are the Cooperative Funds Act of July 31, 1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.



                                                       Fiscal Year 2013 Agency Financial Report | 87
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the
Interior’s Land and Water Conservation Fund, to be used for the acquisition of land or waters, or
interest therein, including administrative expenses, to carry out the provisions of the Land and Water
Conservation Fund Act of 1965, as amended (16 U.S.C. 460l-4-11), pertaining to the preservation of
watersheds. The Land Acquisition program is authorized by the Interior and Related Agencies
Appropriations Act of December 30, 1982 (96 Stat. 1983, Public Law 97-394).

Payments to States, National Forest Fund
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”,
requires with a few exceptions, that 25 percent of all monies received from the national forests and
deposited into the National Forest Fund during a fiscal year from timber, grazing, special-use permits,
power and mineral leases, and admission and user fees be paid to the States in which the national
forests are located, for public schools and public roads in the county or counties in which the national
forests are situated.

Timber Salvage Sales
The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by
fire, wind, insects, disease, or other events. Amounts collected from the sale of salvaged timber are
used on other qualifying salvage sales to cover the cost of preparing and administering the sales. The
Timber Salvage Sales program is authorized by 16 USC 472(a).

State, Private, and International Forestry, Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public
Law 108-108) authorizes the Forest Service to receive a transfer of receipts from the Department of
the Interior’s Land and Water Conservation Fund to finance the existing Forest Legacy Program,
funded previously by State and Private Forestry general appropriation. To accommodate the new
financing arrangement and at OMB’s request, the U.S. Department of Treasury established a new
special fund, “State, Private and International Forestry Land and Water Conservation Fund”. The
program expenditures include grants and an occasional land purchase, but no real property will be
procured or constructed.

Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from
projects that are part of the Recreation Fee Demonstration Program. These monies are retained and
used for backlog repair and maintenance of recreation areas, sites or projects. These funds are also
used for interpretation, signage, habitat or facility enhancement, resource preservation, annual
operation, maintenance, and law enforcement related to public use of recreation areas and sites. The
Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-6(a).

National Forest Fund Receipts
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”,
requires with a few exceptions, that 25 percent of all monies received from the national forests and
deposited into the National Forest Fund during a fiscal year from timber, grazing, special-use permits,
power and mineral leases, and admission and user fees be paid to the States in which the national

                                                        United States Department of Agriculture | 88
                                                                   Section 2: Financial Information

forests are located, for public schools and public roads in the county or counties in which the national
forests are situated.



Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) states any monies
received by the United States with respect to lands under the administration of the Forest Service (a) as
a result of the forfeiture of a bond or deposit by a permittee or timber purchaser for failure to complete
performance of improvement, protection, or rehabilitation work required under the permit or timber
sale contract or (b) as a result of a judgment, compromise, or settlement of any claim, involving
present or potential damage to lands or improvements, shall be deposited into the United States
Treasury and are appropriated and made available until expended to cover the cost to the United States
of any improvement, protection, or rehabilitation work on lands under the administration of the Forest
Service rendered necessary by the action which led to the forfeiture, judgment, compromise, or
settlement: Provided, that any portion of the monies received in excess of the amount expended in
performing the work necessitated by the action which led to their receipt shall be transferred to
miscellaneous receipts.

Payments to Counties, National Grasslands
Payments to Counties, Title III, Bankhead-Jones Farm Tenant Act (Act) authorizes national grassland
or land utilization project receipts to be shared through grants with local governments for the purposes
stated in the Act. At the end of each calendar year twenty-five percent of the net revenues from each
national grassland or land utilization project are paid to the counties in which such lands are located.
These payments are not in lieu of taxes. Receipts from the Act designated as either national grasslands
or land utilization projects are to be credited to a special account.

Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action,
with forest revenues generated by the occupancy of public land or from the sale of natural resources
other than minerals. All funds appropriated that remain unobligated at the end of the fiscal year are
returned to the receipts of the affected national forests. These funds are used to purchase land and for
related expenditures such as title search, escrow, recording, and personnel costs when the purchase is
considered necessary to minimize soil erosion and flood damage. This appropriation is available for
land acquisition within the exterior boundaries of the national forests.

National Institute of Food and Agriculture (NIFA)
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund was authorized by Public Law 103-382, and
provided an initial installment to establish an endowment to benefit the 1994 land grant institutions.
The public law states that “This program will enhance educational opportunities for Native Americans
by building educational capacity at these institutions in the areas of student recruitment and retention,
curricula development, faculty preparation, instruction delivery systems, and scientific instrumentation
for teaching.” While the principal (corpus) of the fund cannot be used, the interest that is earned on the
endowment fund investments in Treasury instruments can be used for the purposes described above.

                                                       Fiscal Year 2013 Agency Financial Report | 89
              USDA: Managing for Results in Performing Its Many Vital Public Functions

After the close of a fiscal year, the income is distributed after making adjustments for the cost of
administering the fund.

Other
Financial information is summarized for all other funds from dedicated collections with total assets
less than $50 million listed below.

Agricultural Marketing Service
Perishable Agricultural Commodities Act
Wool Research, Development and Promotion Trust Fund

Animal Plant Health Inspection Service
Miscellaneous Contributed Funds

Forest Service
Roads and Trails for States, National Forest Fund
Reforestation Trust Fund
Timber Sales Pipeline Restoration Fund
Operation and Maintenance of Forest Service Quarters
Timber Roads, Purchaser Elections
Expenses, Brush Disposal
Range Betterment Fund
Acquisition of Lands for National Forests, Special Acts
Construction of Facilities or Land Acquisition
Recreation Fees for Collection Costs
Payment to Minnesota (Cook, Lake and Saint Louis Counties)
Licensee Program
Tongrass Timber Supply Fund
Resource Management Timber Receipts
Quinault Special Management Area
MNP Rental Fee Account
Midewin National Tallgrass Prairie Restoration Fund
Land Between the Lakes Management Fund
Administration of Rights-of-Way and Other Land Uses Fund
Valles Caldera Fund
Hardwood Technology Transfer and Applied Research Fund
Stewardship Contracting Product Sales
Mount Saint Helens Highway
Gifts, Donations and Bequests for Forest and Rangeland Research
Land Between the Lakes Trust Fund
Gifts and Bequests

Natural Resources Conservation Service
Miscellaneous Contributed Funds

Agricultural Research Service
                                                         United States Department of Agriculture | 90
                                                              Section 2: Financial Information

Concessions Fees and Volunteer Services
Gifts and Bequests
Miscellaneous Contributed Funds

Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund

Foreign Agricultural Service
Miscellaneous Contributed Funds
Gifts and Bequests
Foreign Service National Separation Liability Trust Fund

Grain Inspection, Packers and Stockyards Administration

Inspection and Weighing Services

Food Safety and Inspection Service
Expenses and Refunds, Inspection of Farm Products

Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
Inspector General Assets Forfeiture, Department of Treasury

National Agricultural Statistics Service
Miscellaneous Contributed Funds

Economic Research Service
Miscellaneous Contributed Funds

Departmental Offices
Gifts and Bequests




                                                    Fiscal Year 2013 Agency Financial Report | 91
                                                                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

Funds from Dedicated Collections


                                                   AMS                 AMS                  APHIS                 FS                 FS                   FS                 FS                 FS
                                                                                                                                                                                          State, Private,
                                                                   Expenses and                                                                                                          and International
                                                 Funds for            Refunds,            Agricultural                                                                                    Forestry, Land
                                               Strengthening       Inspection and         Quarantine                                                 Payments to                            and Water
                                             Markets, Income,     Grading of Farm      Inspection User                                             States, National    Timber Salvage      Conservation
Balance Sheet As of September 30, 2013          and Supply            Products           Fee Account        Cooperative Work   Land Acquisition      Forests Fund          Sales               Fund
                                                  12X5209             12X8015              12X5161              12X8028           12X5004              12X5201            12X5204            12X5367
Fund Balance with Treasury                   $             338    $             89     $             162    $            181   $             20    $            108    $           52    $            118
Investments                                                   -                  -                     -                   -                  -                    -                 -                   -
Other Assets                                               207                  23                   142                  23                 46                   2                 2                    -
Total Assets                                               545                 112                   304                 204                 66                 110                54                 118

Other Liabilities                                            6                 60                    86                  83                   -                 303                 1                 35
Total Liabilities                                            6                 60                    86                  83                   -                 303                 1                 35

Unexpended Appropriations                                    -                  -                     -                   -                  -                    -                 -                  -
Cumulative Results of Operations                           539                 52                   218                 121                 66                 (193)               53                 83

Total Liabilities and Net Position                         545                112                   304                 204                 66                  110                54                118




Statement of Net Cost For the Period
Ended September 30, 2013
Gross program costs                                        975                186                    186                104                 51                  112                22                 63
Less Earned Revenue                                          2                145                    578                 88                  -                   47                28                  -
Net Cost of Operations                                     973                 41                   (392)                16                 51                   65                (6)                63




Statement of Changes in Net Position
For the period Ended September 30, 2013
Net Position Beginning of Period                           674                 55                   192                 147                 59                 (130)               32                100
Changes in Accounting Principles (Note 31)                   -                  -                     -                   -                  -                    -                 -                  -
Beginning Balance, as Adjusted                             674                 55                   192                 147                 59                 (130)               32                100

Other Financing Sources                                    838                 38                   (366)               (10)                58                    2                15                  46
Net Cost of Operations                                    (973)               (41)                   392                (16)               (51)                 (65)                6                 (63)

Change in Net Position                                    (135)                 (3)                  26                 (26)                 7                  (63)               21                 (17)

Net Position End of Period                   $             539    $            52      $            218     $           121    $            66     $           (193)   $           53    $            83




                                                                                                                                                  United States Department of Agriculture | 92
                                                                                                                                                                    Section 2: Financial Information


Funds from Dedicated Collections


                                                    FS                 FS               FS                 FS                 FS                 NIFA                 FSA



                                                                                 Restoration of       Payments to        Acquisition of     Native American
                                              Recreation Fee                      Forest Lands          Counties,          Lands to           Institutions        Agricultural
                                              Demonstration      National Forest      and               National        Complete Land         Endowment         Disaster Relief
Balance Sheet As of September 30, 2013           Program         Fund Receipts   Improvements          Grasslands         Exchanges               Fund            Trust Fund            Other             Total
                                                 12X5268             125008         12X5215              125896            12X5216              12X5205            12X5531
Fund Balance with Treasury                   $             71    $           68 $            74      $            64    $            35     $              40   $              -    $       282       $       1,702
Investments                                                  -                 -                -                  -                    -                140                   -              3                 143
Other Assets                                                5                11                2                   1                 41                     -                  -             29                 534
Total Assets                                               76                79              76                   65                 76                  180                   -            314               2,379

Other Liabilities                                           3                  -                2                  -                    -                   -                  -            118                   697
Total Liabilities                                           3                  -                2                  -                    -                   -                  -            118                   697

Unexpended Appropriations                                   -                 -                -                  -                    -                 107                   -              -                 107
Cumulative Results of Operations                           73                79               74                 65                   76                  73                   -            196               1,575

Total Liabilities and Net Position                         76                79               76                 65                   76                 180                   -            314               2,379




Statement of Net Cost For the Period
Ended September 30, 2013
Gross program costs                                        65                  -               20                  -                   4                   -                   -            240               2,028
Less Earned Revenue                                        70                104               81                  1                   4                   6                   -            175               1,329
Net Cost of Operations                                     (5)              (104)             (61)                (1)                  -                  (6)                  -             65                 699




Statement of Changes in Net Position
For the period Ended September 30, 2013
Net Position Beginning of Period                           68                  6             136                139                   76                 162                (895)           220               1,041
Changes in Accounting Principles (Note 31)                  -                  -               -                  -                    -                   -                 895            (17)                878
Beginning Balance, as Adjusted                             68                  6             136                139                   76                 162                   -            203               1,919

Other Financing Sources                                     -               (31)             (123)              (75)                    -                 12                   -             58                    462
Net Cost of Operations                                      5               104                61                 1                     -                  6                   -            (65)                  (699)

Change in Net Position                                      5                73               (62)              (74)                    -                 18                   -                (7)               (237)

Net Position End of Period                   $             73    $           79     $         74     $           65     $             76    $            180    $              -    $       196       $       1,682




                                                                                                                                                Fiscal Year 2013 Agency Financial Report | 93
                                                                      USDA: Managing for Results in Performing Its Many Vital Public Functions


Funds from Dedicated Collections


                                                AMS                 AMS                APHIS                 FS                 FS                  FS                   FS
                                                                                                                                                                   State, Private,
                                                                Expenses and                                                                                      and International
                                              Funds for            Refunds,          Agricultural                                                                  Forestry, Land
                                            Strengthening       Inspection and       Quarantine                                                Payments to           and Water
                                          Markets, Income,     Grading of Farm    Inspection User                                            States, National       Conservation
Balance Sheet As of September 30, 2012       and Supply            Products         Fee Account        Cooperative Work   Land Acquisition     Forests Fund             Fund
                                               12X5209             12X8015            12X5161              12X8028           12X5004             12X5201              12X5367
Fund Balance with Treasury                $             247    $             94   $             141    $            213   $             14   $            186     $            130
Investments                                                -                  -                   -                   -                  -                   -                    -
Other Assets                                            429                  26                 136                  19                 46                  3                    1
Total Assets                                            676                 120                 277                 232                 60                189                  131

Other Liabilities                                         2                 65                  85                  85                  1                 319                   31
Total Liabilities                                         2                 65                  85                  85                  1                 319                   31

Unexpended Appropriations                                 -                  -                   -                   -                  -                   -                   -
Cumulative Results of Operations                        674                 55                 192                 147                 59                (130)                100

Total Liabilities and Net Position                      676                120                 277                 232                 60                 189                 131




Statement of Net Cost For the Period
Ended September 30, 2012
Gross program costs                                     696                188                  189                 98                 48                 114                   47
Less Earned Revenue                                       -                152                  555                 92                  -                 107                    -
Net Cost of Operations                                  696                 36                 (366)                 6                 48                   7                   47




Statement of Changes in Net Position
For the period Ended September 30, 2012
Net Position Beginning of Period                        569                 53                 175                 313                 74                (123)                  94

Other Financing Sources                                 801                 38                 (349)              (160)                33                    -                  53
Net Cost of Operations                                 (696)               (36)                 366                 (6)               (48)                  (7)                (47)

Change in Net Position                                  105                  2                  17                (166)               (15)                  (7)                  6

Net Position End of Period                $             674    $            55    $            192     $           147    $            59    $           (130)    $           100




                                                                                                                              United States Department of Agriculture | 94
                                                                                                                                                   Section 2: Financial Information


Funds from Dedicated Collections


                                                 FS                  FS                  FS                 FS                 NIFA                 FSA



                                                                Restoration of      Payments to        Acquisition of     Native American
                                           Recreation Fee        Forest Lands         Counties,          Lands to           Institutions        Agricultural
                                           Demonstration             and              National        Complete Land         Endowment          Disaster Relief
Balance Sheet As of September 30, 2012        Program           Improvements         Grasslands         Exchanges               Fund             Trust Fund            Other          Total
                                              12X5268              12X5215             125896            12X5216              12X5205             12X5531
Fund Balance with Treasury                $             68     $           135     $           138    $            36     $              19   $            193     $       328    $       1,942
Investments                                               -                    -                 -                    -                143                     -             3              146
Other Assets                                             5                    2                  -                 41                     -                    8            42              758
Total Assets                                            73                 137                 138                 77                  162                 201             373            2,846

Other Liabilities                                        5                    1                 (1)                  1                    -               1,096            115            1,805
Total Liabilities                                        5                    1                 (1)                  1                    -               1,096            115            1,805

Unexpended Appropriations                                -                    -                 -                    -                  96                    -              1                 97
Cumulative Results of Operations                        68                  136               139                   76                  66                 (895)           257                944

Total Liabilities and Net Position                      73                  137               138                   77                 162                  201            373            2,846




Statement of Net Cost For the Period
Ended September 30, 2012
Gross program costs                                     71                   18                  -                   5                   -                  678            275            2,427
Less Earned Revenue                                     67                   64                 (1)                  5                   2                    -            276            1,319
Net Cost of Operations                                   4                  (46)                 1                   -                  (2)                 678             (1)           1,108




Statement of Changes in Net Position
For the period Ended September 30, 2012
Net Position Beginning of Period                        72                  170                62                   76                 148                 (203)           324            1,804

Other Financing Sources                                   -                 (80)               78                     -                 12                  (14)           (67)             345
Net Cost of Operations                                   (4)                 46                (1)                    -                  2                 (678)             1           (1,108)

Change in Net Position                                   (4)                (34)               77                     -                 14                 (692)           (66)               (763)

Net Position End of Period                $             68     $            136    $          139     $             76    $            162    $            (895)   $       258    $       1,041




                                                                                                                                   Fiscal Year 2013 Agency Financial Report | 95
                                                                                   USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 19. Suborganization Program Costs/Program Costs by Segment
     FY 2013                                                                            FSA                                  CCC                                  FAS
                                                                         Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




     Assist Rural Communities to Create Prosperity so They Are
     Self-Sustaining, Repopulating, and Economically Thriving:
     Gross Costs                                                         $            911    $        2,525   $           1,009   $        5,264   $            206    $         169
     Less: Earned Revenue                                                             142               199                   8               49                 85               (1)
     Net Costs                                                                        769             2,326               1,001            5,215                121              170

     Ensure Our National Forests and Private Working Lands Are
     Conserved, Restored, and Made More Resilient to Climate Change,
     While Enhancing Our Water Resources:
     Gross Costs                                                                      115              319                 422             1,760                   -                -
     Less: Earned Revenue                                                              18               25                  33                 2                   -                -
     Net Costs                                                                         97              294                 389             1,758                   -                -

     Help America Promote Agricultural Production and
     Biotechnology Exports as America Works to Increase Food Security:
     Gross Costs                                                                         -                -                112             2,436                 58               48
     Less: Earned Revenue                                                                -                -                152               134                 24                -
     Net Costs                                                                           -                -                (40)            2,302                 34               48

     Ensure that All of America's Children Have Access
     to Safe, Nutritious, and Balanced Meals:
     Gross Costs                                                                         -                -                   -                -                   -                -
     Less: Earned Revenue                                                                -                -                   -                -                   -                -
     Net Costs                                                                           -                -                   -                -                   -                -

     Total Gross Costs                                                               1,026            2,844               1,543            9,460                264              217
     Less: Total Earned Revenue                                                        160              224                 193              185                109               (1)
     Net Cost of Operations                                              $             866   $        2,620   $           1,350   $        9,275   $            155    $         218




                                                                                                                                        United States Department of Agriculture | 96
                                                                                                                                                  Section 2: Financial Information


FY 2013                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             67    $        7,591   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -             1,706                   -                -                   -                 -
Net Costs                                                                         67             5,885                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -               1,166          108,768                 377              911
Less: Earned Revenue                                                                -                -                   1               62                   1              213
Net Costs                                                                           -                -               1,165          108,706                 376              698

Total Gross Costs                                                                 67             7,591               1,166          108,768                 377              911
Less: Total Earned Revenue                                                         -             1,706                   1               62                   1              213
Net Cost of Operations                                              $             67    $        5,885   $           1,165   $      108,706   $             376    $         698




                                                                                                                                 Fiscal Year 2013 Agency Financial Report | 97
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2013                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             77    $         501    $             48    $         132    $             34    $          59
Less: Earned Revenue                                                               2               88                  13               92                   1               40
Net Costs                                                                         75              413                  35               40                  33               19

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 23               62                    -                -
Less: Earned Revenue                                                                -                -                  6               43                    -                -
Net Costs                                                                           -                -                 17               19                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 21               57                    -                -
Less: Earned Revenue                                                                -                -                  5               39                    -                -
Net Costs                                                                           -                -                 16               18                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                      105              682                 263              722                    -                -
Less: Earned Revenue                                                               3              120                  68              504                    -                -
Net Costs                                                                        102              562                 195              218                    -                -

Total Gross Costs                                                                182             1,183                355              973                  34               59
Less: Total Earned Revenue                                                         5               208                 92              678                   1               40
Net Cost of Operations                                              $            177    $          975   $            263    $         295    $             33    $          19




                                                                                                                                   United States Department of Agriculture | 98
                                                                                                                                                  Section 2: Financial Information


FY 2013                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $               -   $            -   $               -   $            -   $             84    $         313
Less: Earned Revenue                                                                -                -                   -                -                 29               15
Net Costs                                                                           -                -                   -                -                 55              298

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,359            5,182                656             3,465                 50              189
Less: Earned Revenue                                                              225              536                128                 6                 17                9
Net Costs                                                                       1,134            4,646                528             3,459                 33              180

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                 37              139
Less: Earned Revenue                                                                -                -                   -                -                 13                7
Net Costs                                                                           -                -                   -                -                 24              132

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                123              460
Less: Earned Revenue                                                                -                -                   -                -                 43               22
Net Costs                                                                           -                -                   -                -                 80              438

Total Gross Costs                                                               1,359            5,182                656             3,465                294             1,101
Less: Total Earned Revenue                                                        225              536                128                 6                102                53
Net Cost of Operations                                              $           1,134   $        4,646   $            528    $        3,459   $            192    $        1,048




                                                                                                                                 Fiscal Year 2013 Agency Financial Report | 99
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2013                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              31    $         660    $             13    $          20    $             73    $         141
Less: Earned Revenue                                                               47                -                   1                -                  18                4
Net Costs                                                                         (16)             660                  12               20                  55              137

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         8              172                   5                8                    -               1
Less: Earned Revenue                                                               12                -                   -                -                    -               -
Net Costs                                                                          (4)             172                   5                8                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                        10              201                   9               14                    -                -
Less: Earned Revenue                                                               14                -                   1                -                    -                -
Net Costs                                                                          (4)             201                   8               14                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         7              154                   9               13                   2                3
Less: Earned Revenue                                                               11                -                   1                -                   -                -
Net Costs                                                                          (4)             154                   8               13                   2                3

Total Gross Costs                                                                  56             1,187                 36               55                  75              145
Less: Total Earned Revenue                                                         84                 -                  3                -                  18                4
Net Cost of Operations                                              $             (28)   $        1,187   $             33    $          55    $             57    $         141




                                                                                                                                  United States Department of Agriculture | 100
                                                                                                                                                   Section 2: Financial Information


FY 2013                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,104   $          725    $             212    $        331    $            6,869   $       18,431
Less: Earned Revenue                                                              539            3,560                  329               4                 1,214            5,756
Net Costs                                                                       3,565           (2,835)                (117)            327                 5,655           12,675

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 150              235                 2,788           11,393
Less: Earned Revenue                                                                -                -                 234                3                   673              624
Net Costs                                                                           -                -                 (84)             232                 2,115           10,769

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  12               19                  259             2,914
Less: Earned Revenue                                                                -                -                  19                -                  228               180
Net Costs                                                                           -                -                  (7)              19                   31             2,734

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                  204             317                 2,256          112,030
Less: Earned Revenue                                                                -                -                  315               3                   443              924
Net Costs                                                                           -                -                 (111)            314                 1,813          111,106

Total Gross Costs                                                               4,104              725                  578             902               12,172           144,768
Less: Total Earned Revenue                                                        539            3,560                  897              10                2,558             7,484
Net Cost of Operations                                              $           3,565   $       (2,835)   $            (319)   $        892    $           9,614    $      137,284




                                                                                                                                   Fiscal Year 2013 Agency Financial Report | 101
                                                                            USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2013                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,686)   $     23,614
Less: Earned Revenue                                                             (472)          6,498
Net Costs                                                                      (1,214)         17,116

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      (999)         13,182
Less: Earned Revenue                                                             (355)            942
Net Costs                                                                        (644)         12,240

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                      (103)          3,070
Less: Earned Revenue                                                             (178)            230
Net Costs                                                                          75           2,840

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,291)        112,995
Less: Earned Revenue                                                             (314)          1,053
Net Costs                                                                        (977)        111,942

Total Gross Costs                                                              (4,079)        152,861
Less: Total Earned Revenue                                                     (1,319)          8,723
Net Cost of Operations                                              $          (2,760)   $    144,138




                                                                                                            United States Department of Agriculture | 102
                                                                                                                                                  Section 2: Financial Information


FY 2012                                                                            FSA                                  CCC                                  FAS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            926    $        1,551   $            993     $       4,919   $            224    $         177
Less: Earned Revenue                                                             186               213                 10               102                 89               (3)
Net Costs                                                                        740             1,338                983             4,817                135              180

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      112              187                 460             1,694                   -                -
Less: Earned Revenue                                                              22               26                  36                 2                   -                -
Net Costs                                                                         90              161                 424             1,692                   -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 132            2,379                 64               50
Less: Earned Revenue                                                                -                -                 298              404                 25               (1)
Net Costs                                                                           -                -                (166)           1,975                 39               51

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                   -                -
Less: Earned Revenue                                                                -                -                   -                -                   -                -
Net Costs                                                                           -                -                   -                -                   -                -

Total Gross Costs                                                               1,038            1,738               1,585            8,992                288              227
Less: Total Earned Revenue                                                        208              239                 344              508                114               (4)
Net Cost of Operations                                              $             830   $        1,499   $           1,241    $       8,484   $            174    $         231




                                                                                                                                  Fiscal Year 2013 Agency Financial Report | 103
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2012                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             73    $       19,907   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -             5,909                   -                -                   -                 -
Net Costs                                                                         73            13,998                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                528           106,125                 380              901
Less: Earned Revenue                                                                -                -                  2                67                   3              180
Net Costs                                                                           -                -                526           106,058                 377              721

Total Gross Costs                                                                 73            19,907                528           106,125                 380              901
Less: Total Earned Revenue                                                         -             5,909                  2                67                   3              180
Net Cost of Operations                                              $             73    $       13,998   $            526    $      106,058   $             377    $         721




                                                                                                                                 United States Department of Agriculture | 104
                                                                                                                                                  Section 2: Financial Information


FY 2012                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             25    $         517    $             48    $         140    $             33    $          62
Less: Earned Revenue                                                               1              104                   9               84                   1               39
Net Costs                                                                         24              413                  39               56                  32               23

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 22               66                    -                -
Less: Earned Revenue                                                                -                -                  4               40                    -                -
Net Costs                                                                           -                -                 18               26                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 21               61                    -                -
Less: Earned Revenue                                                                -                -                  4               37                    -                -
Net Costs                                                                           -                -                 17               24                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                       25              510                 266              780                    -                -
Less: Earned Revenue                                                               1              103                  49              471                    -                -
Net Costs                                                                         24              407                 217              309                    -                -

Total Gross Costs                                                                 50             1,027                357             1,047                 33               62
Less: Total Earned Revenue                                                         2               207                 66               632                  1               39
Net Cost of Operations                                              $             48    $          820   $            291    $          415   $             32    $          23




                                                                                                                                 Fiscal Year 2013 Agency Financial Report | 105
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2012                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $               -   $            -   $               -   $            -   $             82    $         340
Less: Earned Revenue                                                                -                -                   -                -                 23               13
Net Costs                                                                           -                -                   -                -                 59              327

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,411            5,530                638             3,592                 51              211
Less: Earned Revenue                                                              132              708                163                 -                 14                8
Net Costs                                                                       1,279            4,822                475             3,592                 37              203

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                 37              156
Less: Earned Revenue                                                                -                -                   -                -                 10                6
Net Costs                                                                           -                -                   -                -                 27              150

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                124              515
Less: Earned Revenue                                                                -                -                   -                -                 34               19
Net Costs                                                                           -                -                   -                -                 90              496

Total Gross Costs                                                               1,411            5,530                638             3,592                294             1,222
Less: Total Earned Revenue                                                        132              708                163                 -                 81                46
Net Cost of Operations                                              $           1,279   $        4,822   $            475    $        3,592   $            213    $        1,176




                                                                                                                                 United States Department of Agriculture | 106
                                                                                                                                                   Section 2: Financial Information


FY 2012                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              27    $         730    $             16    $          20    $             67    $         127
Less: Earned Revenue                                                               16                -                   1                -                  19               (5)
Net Costs                                                                          11              730                  15               20                  48              132

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         7              185                   6                8                    -               1
Less: Earned Revenue                                                                4                -                   -                -                    -               -
Net Costs                                                                           3              185                   6                8                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                        12              331                  11               14                    -                -
Less: Earned Revenue                                                                7                -                   1                -                    -                -
Net Costs                                                                           5              331                  10               14                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         6              165                  11               14                   2                4
Less: Earned Revenue                                                                4                -                   1                -                   1                -
Net Costs                                                                           2              165                  10               14                   1                4

Total Gross Costs                                                                  52             1,411                 44               56                  69              132
Less: Total Earned Revenue                                                         31                 -                  3                -                  20               (5)
Net Cost of Operations                                              $              21    $        1,411   $             41    $          56    $             49    $         137




                                                                                                                                  Fiscal Year 2013 Agency Financial Report | 107
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


FY 2012                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,088   $        3,241    $             187    $        327    $            6,789   $       32,058
Less: Earned Revenue                                                              431            3,432                  314               2                 1,100            9,890
Net Costs                                                                       3,657             (191)                (127)            325                 5,689           22,168

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 126              219                 2,833           11,693
Less: Earned Revenue                                                                -                -                 211                2                   586              786
Net Costs                                                                           -                -                 (85)             217                 2,247           10,907

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  13               23                  290             3,014
Less: Earned Revenue                                                                -                -                  22                -                  367               446
Net Costs                                                                           -                -                  (9)              23                  (77)            2,568

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                  169             297                 1,511          109,311
Less: Earned Revenue                                                                -                -                  284               2                   379              842
Net Costs                                                                           -                -                 (115)            295                 1,132          108,469

Total Gross Costs                                                               4,088            3,241                  495             866               11,423           156,076
Less: Total Earned Revenue                                                        431            3,432                  831               6                2,432            11,964
Net Cost of Operations                                              $           3,657   $         (191)   $            (336)   $        860    $           8,991    $      144,112




                                                                                                                                   United States Department of Agriculture | 108
                                                                                                                   Section 2: Financial Information


FY 2012                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,655)   $     37,192
Less: Earned Revenue                                                             (490)         10,500
Net Costs                                                                      (1,165)         26,692

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                    (1,046)         13,480
Less: Earned Revenue                                                             (366)          1,006
Net Costs                                                                        (680)         12,474

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                      (116)          3,188
Less: Earned Revenue                                                             (195)            618
Net Costs                                                                          79           2,570

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                      (674)        110,148
Less: Earned Revenue                                                             (283)            938
Net Costs                                                                        (391)        109,210

Total Gross Costs                                                              (3,491)        164,008
Less: Total Earned Revenue                                                     (1,334)         13,062
Net Cost of Operations                                              $          (2,157)   $    150,946




                                                                                                        Fiscal Year 2013 Agency Financial Report | 109
              USDA: Managing for Results in Performing Its Many Vital Public Functions


Note 20. Cost of Stewardship PP&E
The acquisition cost of stewardship land in FY 2013 and FY 2012 was $424 million and $521
million, respectively.

Note 21. Terms of Borrowing Authority Used
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for
the purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized
losses and debt related to foreign assistance programs. The permanent indefinite borrowing authority
includes both interest bearing and non–interest bearing notes. These notes are drawn upon daily when
disbursements exceed deposits. Notes payable under the permanent indefinite borrowing authority
have a term of one year. On January 1 of each year, USDA refinances its outstanding borrowings,
including accrued interest, at the January borrowing rate.

In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export
credit programs to finance disbursements on post-credit reform, direct credit obligations, and credit
guarantees. In accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows
from Treasury on October 1, for the entire fiscal year, based on annual estimates of the difference
between the amount appropriated (subsidy) and the amount to be disbursed to the borrower.
Repayment under this agreement may be, in whole or in part, prior to maturity by paying the principal
amount of the borrowings plus accrued interest to the date of repayment. Interest is paid on these
borrowings based on weighted average interest rates for the cohort, to which the borrowings are
associated. Interest is earned on the daily balance of uninvested funds in the credit reform financing
funds maintained at Treasury. The interest income is used to reduce interest expense on the underlying
borrowings.

USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of
Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an
unconditional USDA repayment guarantee. CBO’s outstanding with the FFB are generally secured by
unpaid loan principal balances. CBO’s outstanding are related to pre-credit reform loans and no longer
are used for program financing.

FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans.
Borrowings made to finance loans directly between the borrower and FFB mature and are repaid as the
related group of loans become due. Interest rates on the related group of loans are equal to interest
rates on FFB borrowings, except in those situations where an FFB funded loan is restructured and the
terms of the loan are modified.

Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made
on FFB CBO’s, without a penalty.

Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient
amount of its borrowing authority to purchase, at any time, all notes and other obligations evidencing
loans made by agencies and others. All bonds, notes, debentures, and similar obligations issued by the
Department are subject to approval by the Secretary of the Treasury. Reservation of borrowing
authority for these purposes has not been required for many years.

                                                      United States Department of Agriculture | 110
                                                                     Section 2: Financial Information

Note 22. Available Borrowing Authority, End of Period
Available borrowing authority at September 30, 2013 and 2012 was $33,411 million and $33,693
million, respectively.

Note 23. Apportionment Categories of Obligations Incurred: Direct vs.
Reimbursable Obligations

FY 2013
                                                         Direct             Reimbursable        Total
Apportionment by Fiscal Quarter                     $       37,662      $           2,163   $     39,825
Apportionment for Special Activities                      139,891                  20,223        160,114
Exempt from Apportionment                                     768                      1                769
Total Obligations Incurred                          $     178,321       $          22,387   $   200,708


FY 2012
                                                         Direct             Reimbursable        Total
Apportionment by Fiscal Quarter                     $      41,597       $           2,372   $    43,969
Apportionment for Special Activities                      122,359                  19,330       141,689
Exempt from Apportionment                                     843                      1                844
Total Obligations Incurred                          $     164,799       $          21,703   $   186,502




Note 24. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2013 and 2012 was $46,420
million and $49,077 million, respectively.

Note 25. Permanent Indefinite Appropriations
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit
reform programs, 2) certain costs of the crop insurance program, 3) certain commodity program costs
and 4) certain costs associated with FS programs.

The permanent indefinite appropriations for credit reform are mainly available to finance any
disbursements incurred under the liquidating accounts. These appropriations become available pursuant
to standing provisions of law without further action by Congress after transmittal of the Budget for the
year involved. They are treated as permanent the first year they become available, as well as in
succeeding years. However, they are not stated as specific amounts but are determined by specified
variable factors, such as cash needs for liquidating accounts, and information about the actual
performance of a cohort or estimated changes in future cash flows of the cohort in the program accounts.

The permanent indefinite appropriation for the crop insurance program is used to cover premium
subsidy, delivery expenses, losses in excess of premiums and research and delivery costs.

The permanent indefinite appropriation for commodity program costs is used to encourage the
exportation of agricultural commodities and products, to encourage domestic consumption of agricultural
products by diverting them, and to reestablish farmers’ purchasing power by making payments in
connection with the normal production of any agricultural commodity for domestic consumption.

                                                        Fiscal Year 2013 Agency Financial Report | 111
              USDA: Managing for Results in Performing Its Many Vital Public Functions

The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs,
Brush Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and
Improvements, Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections,
Timber Salvage Sales and Operations, and Maintenance of Quarters. Each of these permanent indefinite
appropriations is funded by receipts made available by law, and is available until expended.

Note 26. Legal Arrangements Affecting Use of Unobligated Balances
Unobligated budget authority is the difference between the obligated balance and the total unexpended
balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on
the last day of its period of availability and is no longer available for new obligations. Unobligated
balances retain their fiscal-year identity in an expired account for an additional five fiscal years. The
unobligated balance remains available to make legitimate obligation adjustments, i.e., to record
previously unrecorded obligations and to make upward adjustments in previously underestimated
obligations for five years. At the end of the fifth year, the authority is canceled. Thereafter, the
authority is not available for any purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget
authority is specifically stated by program and fiscal year in the appropriation language or in the
alternative provisions section at the end of the appropriations act.

Note 27. Explanation of Differences Between the SBR and the Budget of the
US Government
The differences between the FY 2012 Statement of Budgetary Resources and the FY 2012 actual
numbers presented in the FY 2014 Budget of the United States Government (Budget) are
summarized below.

The Budget excludes expired accounts that are no longer available for new obligations.

Adjustments were made prior to the Budget submission as follows:

FNS transferred to the General Fund amounts in excess of appropriations authorized in the Child
Nutrition Program.

RD changed when guaranteed loan subsidy is disbursed to align with unclosed loans.

The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for
use by the Department.




                                                       United States Department of Agriculture | 112
                                                                                    Section 2: Financial Information

                                                                                                Distributed
                                                                  Budgetary    Obligations      Offsetting
         FY 2012                                                  Resources     Incurred         Receipts             Net Outlays

         Combined Statement of Budgetary Resources                $ 224,982        $ 186,502    $       2,033         $ 146,086
          Reconciling items:
          Expired accounts                                          (10,478)        (647)                   -                 -
          FNS Child Nutrition Program                                   (74)           -                    -                 -
          RD Guaranteed Loan Subsidy Program                            (25)         (25)                   -                 -
          Milk Market Orders Fund                                        53           53                    -                 -
          Other                                                         (12)          (3)                   -                 8
         Budget of the United States Government                   $ 214,446    $ 185,880        $       2,033         $ 146,094



A comparison between the FY 2013 Statement of Budgetary Resources and the FY 2013 actual
numbers presented in the FY 2015 Budget cannot be performed as the FY 2015 Budget is not yet
available. The FY 2015 Budget is expected to be published in February 2014 and will be available
from the Government Printing Office.

Note 28. Incidental Custodial Collections
Custodial collections represent collections on land leases for resource extraction, National Forest Fund
receipts from the sale of timber and other forest products, miscellaneous general fund receipts such as
collections on accounts receivable related to canceled year appropriations, civil monetary penalties and
interest, and commercial fines and penalties. Custodial collection activities are considered immaterial
and incidental to the mission of the Department.


         Revenue Activity:                                                         FY 2013          FY 2012
              Sources of Collections:
              Miscellaneous                                                    $         211        $           38
         Total Cash Collections                                                          211                    38
         Accrual Adjustments                                                               4                    (4)
         Total Custodial Revenue                                                         215                    34
         Disposition of Collections:
         Transferred to Others:
              Treasury                                                                  (207)               (26)
              States and Counties                                                          -                  -
         ( Increase )/Decrease in Amounts Yet to be Transferred                           (8)                (8)
         Net Custodial Activity                                                $           -        $         -




                                                                  Fiscal Year 2013 Agency Financial Report | 113
                  USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 29. Fiduciary Activities
Rural Housing Insurance Fund (RHIF) was established by Public Law 89-117 pursuant to section 517
of title V of the Housing Act of 1949, which authorized RD to collect escrow payments on behalf of
new and existing Single Family Housing borrowers. Other fiduciary activities by RD include but are
not limited to collections from borrowers, interest paid on escrow accounts, payments to insurance
agencies and taxing authorities.


                                         Schedule of Fiduciary Activity
                           For the Years Ended September 30, 2013 and 2012


                                                                         Rural Housing                 Rural Housing
                                                                                Insurance                  Insurance
                                                                                    Fund                     Fund
                                                                                    2013                     2012
  Fiduciary net assets, beginning of year                                   $              107         $            107
    Fiduciary revenues                                                                       -                         -
    Contributions                                                                          389                      376
    Investment earnings                                                                      -                         -
    Gain (Loss) on disposition of investments, net                                           -                         -
    Administrative and other expenses                                                        -                         -
    Disbursements to and on behalf of beneficiaries                                    (395)                     (376)
  Increases/(Decrease) in fiduciary net assets                                              (6)                        -
  Fiduciary net assets, end of year                                         $              101         $            107




                                     Fiduciary Net Assets
                               As of September 30, 2013 and 2012


                                                             Rural Housing           Rural Housing
                                                                   Insurance           Insurance
                                                                     Fund                  Fund
                                                                     2013                  2012
  Fiduciary Assets
   Cash and cash equivalents                                   $            5          $          6
   Investments                                                              96                   101
   Other assets                                                                 -                  -
  Fiduciary Liabilities
   Less: Liabilities                                                            -                  -
  Total Fiduciary Net Assets                                   $         101           $         107



Note 30. Reconciliation of Budgetary Resources Obligated to Net Cost of Operations
Budgetary and proprietary accounting information are inherently different because of the types of
information and the timing of their recognition. The reconciliation of budgetary resources obligated
                                                               United States Department of Agriculture | 114
                                                                  Section 2: Financial Information

and the net cost of operations provides a link between budgetary and proprietary accounting
information. It serves not only to explain how information on net obligations relates to the net cost of
operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may
be financed by non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary
resources used may finance activities which are not components of the net cost of operations; and (3)
the net cost of operations may contain components which do not use or generate resources in the
current period.




                                                      Fiscal Year 2013 Agency Financial Report | 115
                  USDA: Managing for Results in Performing Its Many Vital Public Functions

                                                                                                             2013         2012
Resources Used to Finance Activities:
Budgetary Resources Obligated -
   Obligations Incurred                                                                                    $ 200,708    $ 186,502
   Less: Spending authority from offsetting collections and recoveries                                        43,505       40,179
   Obligations net of offsetting collections and recoveries                                                  157,203      146,323
   Less: Distributed Offsetting receipts                                                                       2,277        2,033
   Net Obligations                                                                                           154,926      144,290

Other Resources -
   Donations and forfeitures of property                                                                           1            -
   Transfers in(out) without reimbursement                                                                      (187)          86
   Imputed financing from costs absorbed by others                                                               845          913
   Other                                                                                                      (5,285)      (1,315)
   Net other resources used to finance activities                                                             (4,626)        (316)

    Total resources used to finance activities                                                               150,300      143,974

Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in undelivered orders                                                                                2,657        2,571
   Resources that fund expenses recognized in prior periods                                                  (17,113)      (4,033)
   Budgetary offsetting collections and receipts that do not affect net cost of operations -
     Credit program collections which increase liabilities for loan guarantees or allowances for subsidy      17,066       16,192
     Change in Unfilled Customer Orders                                                                        2,687        2,116
     Decrease in exchange revenue receivable from public                                                       9,356        3,071
     Other                                                                                                        48         (235)
   Resources that finance the acquisition of assets                                                          (22,571)     (21,771)
   Other resources or adjustments to net obligated resources that do not affect net cost of operations         1,103       (1,359)

    Total resources used to finance items not part of the net cost of operations                              (6,767)      (3,448)

    Total resources used to finance the net cost of operations                                               143,533      140,526

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods -
   Increase in annual leave liability                                                                            190            5
   Increase in environmental and disposal liability                                                                3            1
   Upward/Downward reestimates of credit subsidy expense                                                       2,194        2,009
   Increase in exchange revenue receivable from the public                                                         -            -
   Other                                                                                                         165        7,675
   Total components of Net Cost of Operations that will require or generate
     resources in future periods                                                                               2,552        9,690

Components not Requiring or Generating Resources -
   Depreciation and amortization                                                                                248          408
   Revaluation of assets or liabilities                                                                           4            4
   Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                                         (4,067)      (1,102)
     Cost of Goods Sold                                                                                           56            -
   Other                                                                                                       1,812        1,420
   Total components of Net Cost of Operations that will not require or generate resources                     (1,947)         730

    Total components of Net Cost of Operations that will not require or generate
     resources in the current period                                                                            605        10,420

    Net Cost of Operations                                                                                 $ 144,138    $ 150,946




                                                                         United States Department of Agriculture | 116
                                                                  Section 2: Financial Information

Note 31. Changes in Accounting Principles

Effective FY 2013, Statement of Federal Financial Accounting Standards 43: Funds from Dedicated
Collections: Amending Statement of Federal Financial Accounting Standards 27, Identifying and
Reporting Earmarked Funds modified the definition of a fund from dedicated collection clarifying that
at least one source of funds external to the federal government must exist for a fund to qualify as a
fund from dedicated collections. The Agricultural Disaster Transition Assistance Recovery Act Fund
and the Agricultural Disaster Relief Trust Fund no longer meet this definition. Consequently, the total
net position for these funds of $878 million was reclassified from funds from dedicated collections to
other funds.

Effective FY 2013, Technical Bulletin 2006-1: Recognition and Measurement of Asbestos-Related
Cleanup Costs requires agencies to estimate both friable and non-friable asbestos-related cleanup costs;
recognize a liability and related expense for those asbestos-related cleanup costs that are both probable
and reasonably estimable in the financial statements; and disclose information related to friable and
non-friable asbestos-related cleanup costs that are probable but not reasonably estimable in a note to
the financial statements. Because the real property has been in service for a substantial portion of its
estimated useful life, management elected to recognize the estimated total cleanup cost as a liability
upon implementation. The offsetting charge of $165 million for asbestos-related cleanup costs was
made to net position.




                                                     Fiscal Year 2013 Agency Financial Report | 117
                 USDA: Managing for Results in Performing Its Many Vital Public Functions

                   Required Supplementary Stewardship Information
Stewardship Investments (Unaudited)

                                                  FY 2013       FY 2012   FY 2011   FY 2010   FY 2009
                                                  Expense       Expense   Expense   Expense   Expense
  Non-Federal Physical Property:
  Food and Nutrition Service
      Supplemental Nutrition Assistance Program   $   25        $   38    $   40    $   41    $    55
      Special Supplemental Nutrition Program          13            13        17        17         15
  National Institute of Foods and Agriculture
      Extension 1890 Facilities Program               18            20        19        19         17
  Total Non-Federal Property                      $   56        $   71    $   76    $   77    $    87

  Human Capital:
  National Institute of Foods and Agriculture
      Higher Education and Extension Programs     $   503       $   536   $   547   $   559   $   547
  Food and Nutrition Service
      Supplemental Nutrition Assistance Program       81            53        45        63         19
  Agricultural Research Service
      National Agricultural Library                   21            21        21        24         23
  Risk Management Agency
      Risk Management Education                        10            13        10         6         6
  Total Human Capital                             $   615       $   623   $   623   $   652   $   595




                                                            United States Department of Agriculture | 118
                                                              Section 2: Financial Information


                                              FY 2013   FY 2012   FY 2011   FY 2010   FY 2009
                                              Expense   Expense   Expense   Expense   Expense
Research and Development:

Basic Research:
Agricultural Research Service
    Human Nutrition                           $    39   $    43   $    43   $    45   $     43
    Collaborative Research Program                  -         -         -         -          2
    Product Quality/Value Added                    47        50        52        56         54
    Livestock Production                           35        37        41        44         43
    Crop Production                               106       114       116       119        102
    Food Safety                                    49        53        53        53         53
    Livestock Protection                           35        38        40        45         42
    Crop Protection                                89        97       102       103        100
    Environmental Stewardship                      88        94       101       103        112
National Institute of Foods and Agriculture
    Land-grant University System                  232       249       274       283        256
Forest Service                                     77        80        91        94         87
Economic Research Service
    Economic and Social Science                    7         7         8         8           8
National Agricultural Statistics Service
    Statistical                                     3         3         3         3          3
Total Basic Research                          $   807   $   865   $   924   $   956   $    905

Applied Research:
Agricultural Research Service
    Human Nutrition                           $   32    $   34    $   34    $   35    $     34
    Collaborative Research Program                  -         -         -         -          1
    Product Quality/Value Added                   37        40        42        44          43
    Livestock Production                          28        30        33        35          34
    Crop Production                               84        91        93        96          82
    Food Safety                                   39        42        43        43          42
    Livestock Protection                          28        31        32        36          33
    Crop Protection                               72        77        81        82          81
    Environmental Stewardship                     70        75        80        83          90
National Institute of Foods and Agriculture
    Land-grant University System                  393       424       467       461        435
Forest Service                                    192       207       220       227        220
Economic Research Service
    Economic and Social Science                   64        71        74        74          71
National Agricultural Statistics Service
    Statistical                                     4         4         4         4           5
Total Applied Research                        $ 1,043   $ 1,126   $ 1,203   $ 1,220   $   1,171

Development:
Agricultural Research Service
    Human Nutrition                           $    8    $    8    $    9    $    9    $      8
    Product Quality/Value Added                    9        10        11        11          11
    Livestock Production                           7         8         8         9           9
    Crop Production                               21        23        23        24          20
    Food Safety                                   10        11        11        11          11
    Livestock Protection                           7         7         7         9           8
    Crop Protection                               18        19        20        20          20
    Environmental Stewardship                     17        19        20        21          23
Forest Service                                     40        32        16        17         16
Total Development                             $   137   $   137   $   125   $   131   $    126


Total Research and Development                $ 1,987   $ 2,128   $ 2,252   $ 2,307   $   2,202




                                                  Fiscal Year 2013 Agency Financial Report | 119
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by
State and local governments for the purpose of administering the SNAP. The total SNAP expense for
ADP Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-
Federal physical property also consists of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Special Supplemental Nutrition Program
for Women, Infants and Children.

National Institute of Food and Agriculture
The Extension 1890 facilities program supports the renovation of existing buildings and the
construction of new facilities as well as computers and equipment purchases that permit faculty,
students, and communities to benefit fully from the partnership between USDA and the 1890 Land-
Grant Universities.
Human Capital
National Institute of Food and Agriculture
The Higher Education programs include graduate fellowship grants, competitive challenge grants,
Secondary/2-year Post Secondary grants, Hispanic serving institutions education grants, a multicultural
scholars program, a Native American institutions program, a Native American institutions endowment
fund, an Alaska Native Serving and Native Hawaiian Serving institutions program, a resident
instruction grants and distance education grants for insular areas, and a capacity building program at
the 1890 institutions. These programs enable universities to broaden their curricula, increase faculty
development and student research projects, and increase the number of new scholars recruited in the
food and agriculture sciences. NIFA also supports extension-related work at 1862 and 1890 land-grant
institutions throughout the country through formula and competitive programs.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the SNAP. The E&T program
requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’
E&T program has placed 501,754 work registrants subject to the 3 - month SNAP participant limit and
1,454,027 work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.

Agricultural Research Service
As the Nation’s primary source for agricultural information, the National Agricultural Library (NAL)
has a mission to increase the availability and utilization of agricultural information for researchers,
educators, policymakers, consumers of agricultural products, and the public. The NAL is one of the
world’s largest and most accessible agricultural research libraries and plays a vital role in supporting
research, education, and applied agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in
1962. One of four national libraries of the U.S. (with the Library of Congress, the National Library of
Medicine, and the National Library of Education), it is also the coordinator for a national network of
                                                        United States Department of Agriculture | 120
                                                                   Section 2: Financial Information

State land-grant and USDA field libraries. In its international role, the NAL serves as the U.S. center
for the international agricultural information system, coordinating and sharing resources and enhancing
global access to agricultural data. The NAL collection of over 50 million items and its leadership role
in information services and technology applications combine to make it the foremost agricultural
library in the world.
Risk Management Agency
FCIC has formed partnerships with NIFA, the Commodity Futures Trading Commission, the USDA
National Office of Outreach, the ERS, and private industry to leverage the Federal Government’s
funding of its Risk Management Education (RME) program by using both public and private
organizations to help educate their members in agricultural risk management. RME expanded State and
Regional education partnerships; encouraged the development of information and technology-based
decision aids; facilitated local crop insurance education and risk management training workshops
throughout the nation through Cooperative Agreements with educational institutions and community-
based outreach organizations.

During fiscal years 2013 and 2012, the RME program worked toward its goals by funding risk
management sessions, most of which directly target producers. The number of producers reached
through these sessions is approximately 89,100 in fiscal year 2013 and 81,000 in fiscal year 2012. In
addition to reaching producers, some training sessions helped those who work with producers (such as
lenders, agricultural educators, and other agricultural professionals) to better understand those areas of
risk management with which they may be unfamiliar. Total RME obligations incurred by FCIC were
approximately $10 million and $12.6 million in fiscal years 2013 and 2012, respectively.


Research and Development
Agricultural Research Service
The Agricultural Research Service (ARS) mission is to conduct research to develop and transfer
solutions to agricultural problems of high national priority and provide information access and
dissemination to: ensure high quality, safe food, and other agricultural products; assess the nutritional
needs of Americans; sustain a competitive agricultural economy; enhance the natural resource base and
the environment; and provide economic opportunities for rural citizens, communities, and society as a
whole. ARS’ programs are aligned under the Department’s priorities as follows:

USDA Strategic Goal 1: Assist Rural Communities to Create Prosperity So They Are Self-
Sustaining, Repopulating, and Economically Thriving
New Products/Product Quality/Value Added – ARS has active research programs directed toward:
improving the efficiency and reducing the cost for the conversion of agricultural products into
biobased products and biofuels; developing new and improved products to help establish them in
domestic and foreign markets; and providing higher quality, healthy foods that satisfy consumer needs
in the United States and abroad. Note: Some of ARS’ Livestock and Crop Production research is
carried out under this Strategic Goal and Strategic Goal 3.

National Agricultural Library — The Library, the world’s largest library serving agriculture,
delivered more than 50 million page views and 2 million searches in FY 2013, adjusting the Library’s
statistical reporting to standard web metrics.


                                                      Fiscal Year 2013 Agency Financial Report | 121
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Buildings and Facilities — ARS has approximately 97 laboratory locations, primarily located
throughout the United States. ARS’ facilities programs are designed to meet the needs of its scientists
and support personnel to accomplish the agency’s mission.

USDA Strategic Goal 2: Ensure Our National Forests and Private Working Lands Are Conserved,
Restored, and Made More Resilient to Climate Change, While Enhancing Our Water Resources
Environmental Stewardship — ARS’ research programs emphasis is in developing technologies and
systems that support profitable production and enhance the Nation’s vast renewable natural resource
base. The agency is currently developing the scientific knowledge and technologies needed to meet the
challenges and opportunities facing U.S. agriculture in managing water resource quality and quantity
under different climatic regimes, production systems, and environmental conditions. ARS’ air
resources research is developing measurement, prediction, and control technologies for emissions of
greenhouse gases, particulate matter, ammonia, hydrogen sulfide, and volatile organic compounds
affecting air quality and land-surface climate interactions. The agency is a leader in developing
measurement and modeling techniques for characterizing gaseous and particulate matter emissions
from agriculture. In addition, ARS is evaluating strategies for enhancing the health and productivity of
soils, including developing predictive tools to assess the sustainability of alternative land management
practices. Finding mechanisms to aid agriculture in adapting to changes in atmospheric composition
and climatic variations are also important components of ARS’ research program.

ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range
lands and pasture ecosystems and agroecosystems through improved management of fire, invasive
weeds, grazing, global change, and other agents of ecological change. ARS is currently developing
improved grass and forage legume germplasm for livestock, conservation, bioenergy, and bioproduct
systems as well as grazing-based livestock systems that reduce risk and increase profitability. In
addition, the agency is developing whole system management strategies to reduce production costs and
risks.

USDA Strategic Goal 3: Help America Promote Agricultural Production and Biotechnology Exports
As America Works to Increase Food Security
Livestock Production — ARS’ program is directed toward: safeguarding and utilizing animal genetic
resources, associated genetic and genomic databases, and bioinformatic tools; developing a basic
understanding of the physiology of livestock and poultry; and developing information, tools, and
technologies that can be used to improve animal production systems. The research is heavily focused
on the development and application of genomic technologies to increase the efficiency and product
quality of beef, dairy, swine, poultry, aquaculture, and sheep systems. Current areas of emphasis
include increasing efficiency of nutrient utilization; increasing animal well being and reducing stress in
production systems; increasing reproductive rates and breeding animal longevity; developing and
evaluating non-traditional production systems (e.g., organic, natural); and evaluating and conserving
animal genetic resources.

Crop Production — ARS’ program focuses on developing and improving ways to reduce crop losses
while protecting and ensuring a safe and affordable food supply. The research program concentrates on
production strategies that are environmentally friendly, safe to consumers, and compatible with
sustainable and profitable crop production systems. Research activities are directed at safeguarding and
utilizing plant genetic resources and their associated genetic, genomic, and bioinformatic databases
that facilitate selection of varieties and/or germplasm with significantly improved traits. Current

                                                       United States Department of Agriculture | 122
                                                                 Section 2: Financial Information

research activities attempt to minimize the impacts of crop pests while maintaining healthy crops and
safe commodities that can be sold in markets throughout the world. ARS is conducting research to
discover and exploit naturally occurring and engineered genetic mechanisms for plant pest control;
develop agronomic germplasm with durable defensive traits, and transfer genetic resources for
commercial use. ARS is also providing taxonomic information on invasive species that strengthen
prevention techniques, aid in detection/identification of invasive pests, and increase control through
management tactics which restore habitats and biological diversity.

USDA Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and
Balanced Meals
Food Safety — Assuring that the United States has the highest levels of affordable, safe food requires
that the food system be protected at each stage from production through processing and consumption
from pathogens, toxins, and chemical contaminants that cause diseases in humans. The U.S. food
supply is very diverse, extensive, easily accessible, and thus vulnerable to the introduction of
biological and chemical contaminants through natural processes, intentional means, or by global
commerce. ARS’ current food safety research is designed to yield science-based knowledge on the safe
production, storage, processing, and handling of plant and animal products, and on the detection and
control of toxin producing and/or pathogenic bacteria and fungi, parasites, chemical contaminants, and
plant toxins. ARS’ research activities involve a high degree of cooperation and collaboration both
within the USDA-REE agencies as well as with USDA’s Food Safety and Inspection Service and the
Animal and Plant Health Inspection Service, and with other entities, including the Food and Drug
Administration, the Centers for Disease Control, the Department of Homeland Security, and the
Environmental Protection Agency. ARS also collaborates in international research programs to address
and resolve global food safety issues. Specific research efforts are directed toward developing new
technologies that assist ARS stakeholders and customers, including, regulatory agencies, industry, and
commodity and consumer organizations in detecting, identifying, and controlling foodborne diseases
that affect human health.

Livestock Protection — ARS’ animal health program is directed at protecting and ensuring the safety
of the Nation’s agriculture and food supply through improved disease detection, prevention, control,
and treatment. Basic and applied research approaches are used to solve animal health problems of high
national priority. Emphasis is given to methods and procedures to control animal diseases. The
research program has the following strategic objectives: develop ARS’ laboratories into a fluid, highly
effective research network to maximize use of core competencies and resources; use specialized high
containment facilities to study zoonotic and emerging diseases; develop an integrated animal and
microbial genomics research program; establish centers of excellence in animal immunology; launch a
biotherapeutic discovery program providing alternatives to animal drugs; build a technology driven
vaccine and diagnostic discovery research program; develop core competencies in field epidemiology
and predictive biology; establish a best in class training center for our Nation’s veterinarians and
scientists; and develop a model technology transfer program to achieve the full impact of ARS’
research discoveries. ARS’ current animal research program includes the following core components:
biodefense research, animal genomics and immunology, zoonotic diseases, respiratory diseases,
reproductive and neonatal diseases, enteric diseases, parasitic diseases, and transmissible spongiform
encephalopathies.

Crop Protection – ARS research is directed toward epidemiological investigations to understand pest
and disease transmission mechanisms, and to identify and apply new technologies that increase our
understanding of virulence factors and host defense mechanisms.
                                                    Fiscal Year 2013 Agency Financial Report | 123
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Currently, ARS’ research priorities include: identification of genes that convey virulence traits in
pathogens and pests; factors that modulate infectivity, gene functions, and mechanisms; genetic
profiles that provide specified levels of disease and insect resistance under field conditions, and
mechanisms that facilitate the spread of pests and infectious diseases. ARS is developing new
knowledge and integrated pest management approaches to control pest and disease outbreaks as they
occur. Its research will improve the knowledge and understanding of the ecology, physiology,
epidemiology, and molecular biology of emerging diseases and pests. This knowledge will be
incorporated into pest risk assessments and management strategies to minimize chemical inputs and
increase production. Strategies and approaches will be available to producers to control emerging crop
diseases and pest outbreaks.

Human Nutrition – Maintenance of health throughout the lifespan along with prevention of obesity
and chronic diseases via food-based recommendations are the major emphasis of ARS’ human
nutrition research program. These health-related goals are based on the knowledge that deficiency
diseases are no longer the most important public health concerns. Excessive consumption has become
the primary nutrition problem in the American population. This is reflected by increased emphasis on
prevention of obesity from basic science through intervention studies to assessments of large
populations. ARS’ research programs also actively study bioactive components of foods that have no
known requirement but have health promotion activities. Four specific areas of research are currently
emphasized: nutrition monitoring and the food supply, e.g., a national diet survey and the food
composition databank; dietary guidance specific foods, nutrients, and dietary patterns that maintain
health and prevent diseases; prevention of obesity and related diseases, including research on the
reasons for the limited use of the Dietary Guidelines for Americans; and life stage nutrition and
metabolism, in order to better define the role of nutrition in pregnancy, growth of children, and for
healthier aging.

National Institute of Food and Agriculture
NIFA participates in a nationwide land-grant university system of agriculture related research and
program planning and coordination between State institutions and USDA. It assists in maintaining
cooperation among the State institutions, and between the State institutions and their Federal research
partners. NIFA administers grants and formula payments to State institutions to supplement State and
local funding for agriculture research.
Forest Service
Forest Service R&D has an integrated portfolio that supports achievement of the agency’s strategic
goals. The Forest Service R&D structure has two components: Priority Research Areas and Strategic
Program Areas (SPAs).

The Priority Research Areas address urgent needs in seven areas: Forest Disturbances, Forest
Inventory and Analysis, Watershed Management and Restoration, Bioenergy and Biobased Products,
Urban Natural Resources Stewardship, Nanotechnology, and Localized Needs Research.

The SPAs are the long-term programs from which Priority Research Areas are funded; the SPAs are:

Wildland Fire and Fuels - R&D provides managers with the knowledge and tools to reduce negative
impacts, while enhancing the beneficial effects of wildland fire, as a natural process. This knowledge
and these tools are critical to understanding the human process of fire and fuels management on society
and the environment.
                                                       United States Department of Agriculture | 124
                                                                    Section 2: Financial Information

Research focuses on understanding and modeling fundamental fire processes; interactions of fire with
ecosystems; and the environmental, social, and economic aspects of fire, as well as evaluating the
integrated management strategies and disturbance interactions at multiple scales and the application of
fire research to address management problems.

Invasive Species — R&D provides the scientific information, methods, and technology to reduce or
eliminate the introduction, spread, and impact of invasive species and to restore or improve the
functionality of ecosystems affected by invasives species.

Research focuses on non-native plants, animals, fish, insects, diseases, invertebrates, and other species
whose introduction is likely to cause economic or environmental harm to an ecosystem.

Water, Air, and Soil — R&D enables the sustainable management of these essential resources by
providing clear air and safe drinking water, by protecting lives and property from wildlife fire and
smoke, and through adapting to climate variability and change.

The program features ecosystem services with a high level of integration between water, air, and soil
research, such as the effects of climate variability and change on water budgets or carbon sequestration
metrics from an ecosystem perspective.

Wildlife and Fish — R&D relies upon interdisciplinary research to inform policy initiatives affecting
wildlife and fish habitat on private and public lands, and the recovery of threatened or endangered species.

Scientists investigate the complex interactions among species, ecosystem dynamics and processes, land
use and management, and any emerging broadscale threats, including global climate change, loss of
open space, invasive species, and disease.

Resource Management and Use — R&D provides the scientific and technology base to sustainably
manage and use forest resources and forest fiber-based products.

Research focuses on the plant sciences, soil sciences, social sciences, silviculture, productivity, forest
and range ecology management, harvesting and operations, forest and biomass products and
utilization, economics, urban forestry, and climate change.

Outdoor Recreation — R&D promotes human and ecological sustainability by researching
environmental management, activities, and experiences that connect people with the natural world.

Research in outdoor recreation is interdisciplinary, focusing on nature-based recreation and the
changing trends in American society; connections between recreation visitors, communities, and the
environment; human benefits and consequences of recreation and nature contact; the effectiveness of
recreation management and decision-making; and sustaining ecosystems affected by recreational use.

Inventory and Monitoring — R&D provides the resource data, analysis, and tools needed to monitor
vulnerable forest ecosystems to rapid change due to threats from fire, insects, disease, natural
processes, or management actions. From their research, scientists determine the status and trend of the
health of the Nation’s forests and grasslands, and the potential impact from climate change.




                                                       Fiscal Year 2013 Agency Financial Report | 125
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Their research integrates the development and use of science, technology, and remotely sensed data to
better understand the incidences of forest fragmentation over time from changes in land use or from
insects, disease, fire, and extreme weather events.

A representative summary of FY 2013 accomplishments include the following:

      44 new interagency agreements and contracts
      2 interagency agreements and contracts continued
      3,014 articles published in journals
      446 articles published in all other publications
      2 patents granted

Economic Research Service
The Economic Research Service (ERS) provides economic and other social science research and
analysis for public and private decisions on agriculture, food, natural resources, and rural America.
Research results and economic indicators on these important issues are fully disseminated through
published and electronic reports and articles, special staff analyses, briefings, presentations and papers,
databases, and individual contacts. ERS’ objective information and analysis helps public and private
decision makers attain the goals that promote agricultural competitiveness, food safety and security, a
well-nourished population, environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the National
Agricultural Statistics Service estimation program through development of better estimators at lower
cost and with less respondent burden. This means greater efficiency in sampling and data collection
coupled with higher quality data upon which to base the official estimates. Two additional high priority
items are significance editing, or cleaning of the respondent data; and research on quality operations
for the new National Operations Center. The significance editing has potential to enhance the quality
of survey data and reduce manual operations in preparing the survey responses for summary. While the
research on quality process increases data quality through the processes of the National Operations
Center, products for data users are being improved using technologies such as remote sensing and
geographic information systems. Continued service to users will be increasingly dependent upon
methodological and technological efficiencies.




                                                          United States Department of Agriculture | 126
                                                                    Section 2: Financial Information

                         Required Supplementary Information
Deferred Maintenance and Repairs (Unaudited)
Deferred maintenance and repairs is maintenance and repair activity that was not preformed when it
should have been or was scheduled to be to and which is put off or delayed to a future period.

Maintenance and repairs are activities directed toward keeping fixed assets in an acceptable condition.
Activities include preventive maintenance; replacement of parts, systems, components; and other
activities needed to preserve or maintain the asset. Maintenance and repairs, as distinguished from
capital improvements, exclude activities directed towards expanding the capacity of an asset or
otherwise upgrading it to serve needs different from, or significantly greater than, its current use.

Forest Service
                                              Cost to Return to      Cost of Critical   Cost of Non-critical
        FY 2013
                                             Acceptable Condition     Maintenance         Maintenance


  Asset Class
      Bridges                                $               210     $           38     $              172
      Buildings                                            1,225                 81                  1,144
      Dam                                                     26                 11                     15
      Minor Constructed Features                              94                  -                     94
      Fence                                                  268                268                      -
      Handling Facility                                       22                 22                      -
      Heritage                                                21                  3                     18
      Road                                                 3,267                633                  2,634
      Trail Bridge                                             9                  3                      6
      Wastewater                                              32                 16                     16
      Water                                                   98                 51                     47
      Wildlife, Fish, TES                                      7                  5                      2
      Trails                                                 279                  5                    274
  Total Forest Service                       $             5,558     $        1,136     $            4,422


                                              Cost to Return to      Cost of Critical   Cost of Non-critical
        FY 2012
                                             Acceptable Condition     Maintenance         Maintenance
  Asset Class
      Bridges                                $               190     $           35     $              155
      Buildings                                            1,173                 84                  1,089
      Dam                                                     22                  8                     14
      Minor Constructed Features                             103                  -                    103
      Fence                                                  268                268                      -
      Handling Facility                                       22                 22                      -
      Heritage                                                20                  3                     17
      Road                                                 3,761                376                  3,385
      Trail Bridge                                             9                  3                      6
      Wastewater                                              34                 16                     18
      Water                                                  102                 56                     46
      Wildlife, Fish, TES                                      7                  5                      2
      Trails                                                 314                  6                    308
  Total Forest Service                       $             6,025     $          882     $            5,143




                                                     Fiscal Year 2013 Agency Financial Report | 127
              USDA: Managing for Results in Performing Its Many Vital Public Functions

Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets,
and stewardship land. It is also reported separately for critical and noncritical amounts of maintenance
needed to return each class of asset to its acceptable operating condition. Critical maintenance is
defined as a serious threat to public health or safety, a natural resource, or the ability to carry out the
mission of the organization. Noncritical maintenance is defined as a potential risk to the public or
employee safety or health (e.g., compliance with codes, standards, or regulations) and potential adverse
consequences to natural resources or mission accomplishment.

The FS uses condition surveys to estimate deferred maintenance on all major classes of its PP&E. Over
the past decade, the FS has implemented a national effort to collect detailed data on infrastructure
condition and maintenance and improvement needs. No deferred maintenance exists for fleet vehicles
as they are managed through the agency’s working capital fund. Each fleet vehicle is maintained
according to schedule. The cost of maintaining the remaining classes of equipment is expensed.

The agency is committed to sustaining a manageable level of infrastructure—disinvesting in
infrastructure that can no longer be managed to appropriate standards, rightsizing its asset portfolio,
and eliminating the substantial backlog of deferred maintenance.

Deferred maintenance estimates for most assets—except bridges—are based on condition surveys
performed on a 5-year maximum revolving schedule. The bridge class is on a 2-year maximum
revolving schedule. To date, surveys of all administrative buildings, dams, bridges, roads open to
passenger cars, and recreation sites have been accomplished. The agency’s deferred maintenance for
National Forest System (NFS) roads is determined annually from random sample surveys, providing an
80-percent level of confidence.

The overall condition of major asset classes range from poor to good depending on the location, age,
and type of property. The standards for acceptable operating condition for various classes of general
PP&E, stewardship, and heritage assets are as follows.

Conditions of roads and bridges within the National Forest System (NFS) road system are measured by
various standards:

      Federal Highway Administration regulations for the Federal Highway Safety Act;
      Best management practices for the nonpoint source provisions of the Clean Water Act from
       Environmental Protection Agency and States;
      Road management objectives developed through the National Forest Management Act forest
       planning process; and
      Forest Service directives—Forest Service Manual (FSM) 7730, Operation and Maintenance
       (August 25, 2005, amendment was superseded with October 1, 2008, revision); Forest Service
       Handbook (FSH) 7709.56a, Road Preconstruction, and FSH 7709.56b, Transportation
       Structures Handbook.

Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11,
Dams Management Handbook. The condition of a dam is acceptable when the dam meets current
design standards and does not have any deficiencies that threaten the safety of the structure or public.
For dams to be rated in acceptable condition, the agency needs to restore the dams to the original
functional purpose, correct unsightly conditions, or prevent more costly repairs.
                                                       United States Department of Agriculture | 128
                                                                  Section 2: Financial Information

Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety
Handbook, and the Occupational Safety Health Administration as determined by condition surveys.
These requirements are found in FSM 7310, Buildings and Related Facilities, revised November 19,
2004. The condition of administrative facilities ranges from poor to good, with approximately 35
percent needing major repairs or renovations; approximately 14 percent in fair condition; and 51
percent of the facilities in good condition.

The agency is currently developing an integrated strategy to realign our administrative facility
infrastructure to meet current organizational structure and to reduce the maintenance liability for
unneeded buildings, free up land for use by local communities and private enterprise, and provide
added funds for infrastructure maintenance and development. Forest Service anticipates maximum
benefits from a combination of appropriations, facility conveyance receipts, and decommissioning of
unneeded facilities.

Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads,
trails, water and wastewater systems, interpretive facilities, and visitor centers. These components are
included in several asset classes of the deferred maintenance exhibit. All developed sites are managed
in accordance with Federal laws and regulations (Code of Federal Regulations (CFR) 36).

Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation
Opportunities, and forest- and regional-level user guides. Quality standards for developed recreation
sites were established as Meaningful Measures for health and cleanliness, settings, safety and security,
responsiveness, and the condition of the facility.

The condition assessment for range structures (fences and stock handling facilities) is based on (1) a
determination by knowledgeable range specialists or other district personnel of whether the structure
would perform the originally intended function, and (2) a determination through the use of a protocol
system to assess conditions based on age. A long-standing range methodology is used to gather this data.

Heritage assets include archaeological sites that require determinations of National Register of Historic
Places status, National Historic Landmarks, and significant historic properties. Some heritage assets
may have historical significance, but their primary function in the agency is as visitation or recreation
sites and, therefore, may not fall under the management responsibility of the heritage program.

Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific
direction is contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH
2309.18, Trails Management Handbook.

Deferred maintenance of structures for wildlife, fish, and threatened and endangered species is
determined by field biologists using their professional judgment. The deferred maintenance is
considered critical if resource damage or species endangerment would likely occur if maintenance
were deferred much longer.

Condition of Heritage Assets and Stewardship Lands
Heritage Assets
Heritage professionals are responsible for documenting and maintaining cultural resource condition
assessments to standard. Periodic monitoring and condition assessments are the basis for applying

                                                     Fiscal Year 2013 Agency Financial Report | 129
              USDA: Managing for Results in Performing Its Many Vital Public Functions

protective measures and treatments to vulnerable, deteriorating, or threatened cultural resources. The
condition of heritage assets depends on the type of asset and varies from poor to fair.

Stewardship Land
The condition of NFS lands varies by purpose and location. The FS monitors the condition of its
stewardship lands based on information compiled by two national inventory and monitoring
programs—Forest Inventory and Analysis and Forest Health Monitoring.

Although most of the estimated 193 million acres of stewardship lands continue to produce valuable
benefits – clean air and water, habitat for wildlife, and products for human use – significant portions
are at risk to pest outbreaks or catastrophic fires.

In FY 2013, the FS developed the Invasive Species Framework to provide a vision for future agency
policies and management strategies for all invasive species. Invasive species of insects, diseases, and
plants continue to affect our native ecosystems by causing mortality to, or displacement of, native
vegetation. The agency also released the next iteration of the National Insect and Disease Risk Map in
FY 2013, providing a comprehensive public online database containing 750 forest pest hazard and risk
models to support forest management across all landscapes. This key resource is used by not only the
FS, but State and academic partners across the country.
The FY 2013 year-to-date accomplishments on NFS and State and Private Forestry lands include
treatment of 761,000 acres for invasives and 107,000 acres for native pests. These numbers should be
considered preliminary, with final amounts of acres treated for invasives and native pests on NFS lands
available in February 2014 at http://www.fs.fed.us.


Agricultural Research Service

                                           FY 2013        FY 2012
  Asset Class
     Buildings                             $    257      $     271
     Structures                                  18             19
     Heritage                                   104             90
  Total Agricultural Research Service      $    379      $     380


Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal
direction as long as the original intent or purpose of the fixed asset is not changed. Also includes work
performed to bring an asset up to present environmental standards or correction of safety problems.
Critical DM is DM that is identified for critical systems including HVAC, electrical, roofing, and
plumbing tasks. Non-critical DM is all other systems. DM is reported for buildings, structures and
heritage assets.

Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and
plan for their full life cycle management. The Condition Index (CI) is a general measure of the
constructed asset’s condition at a specific point in time. It is calculated as the ration of repair needs, or
DM, to plant replacement value (PRV). PRV can be calculated systematically and without much effort.
The condition of the constructed asset is a more difficult figure to determine. A repair need is the
amount necessary to ensure a constructed asset is restored to a condition substantially equivalent to the

                                                        United States Department of Agriculture | 130
                                                                 Section 2: Financial Information

originally intended and designed capacity, efficiency or capability. Ideally, with enough money and
time, repair needs would be determined for each asset by inspection, evaluation of the repairs required,
and consistent estimating of the repairs throughout ARS. ARS does not have available manpower in-
house to complete this type of inspection and estimating, nor the funding to contract. ARS looked at
approaches to model ARS assets and evaluate the results for management purposes.

Whitestone Research is a company that estimates DM based on the age of the facility, geographic
location, typical major components and size of the structure. Whitestone first inspected a sample of
1,107 buildings from 38 ARS sites and used parametric models to estimate DM and PRV. The
Whitestone Report only addresses Existing Active – Real Property and excludes excess and inactive
property. The results were generalized to the entire population of ARS facilities. Assuming a PRV of
$4 billion, the CI ratio (1 - $DM/PRV) is 92.6 percent, an outcome commonly classified as “adequate.




                                                     Fiscal Year 2013 Agency Financial Report | 131
                                                                                                   USDA: Managing for Results in Performing Its Many Vital Public Functions

Statement of Budgetary Resources (Unaudited)


   FY 2013                                                                                   FSA                        CCC                 FAS          RMA             FNS            FSIS           AMS           APHIS          GIPSA
                                                                                            Non-Budgetary              Non-Budgetary
                                                                                              Financing                  Financing
                                                                                  Budgetary    Accounts      Budgetary   Accounts       Budgetary    Budgetary      Budgetary       Budgetary      Budgetary     Budgetary      Budgetary

   Budgetary Resources:
   Unobligated balance, brought forward, October 1:                               $   1,746 $         527    $    1,214 $        341    $     579    $      567     $    18,364     $       40     $      127    $       354    $       17
   Recoveries of prior year unpaid obligations                                           61            83           372           41           30             2             987             16             16             42             1
   Other changes in unobligated balance (+ or -)                                        (60)         (448)         (195)        (107)          (3)           (1)           (387)            (7)            (1)            (1)            -
   Unobligated balance from prior year budget authority, net                          1,747           162         1,391          275          606           568          18,964             49            142            395            18
   Appropriations (discretionary and mandatory)                                       1,833             -         2,450            -          346        12,274         111,115            988          1,034          1,020            37
   Borrowing authority (discretionary and mandatory)                                  1,506         1,566        16,117          270            -             -               -              -              -              -             -
   Spending authority from offsetting collections (discretionary and mandatory)         440           936         2,589          291           19         8,809             173            202            121            241            50
   Total budgetary resources                                                          5,526         2,664        22,547          836          971        21,651         130,252          1,239          1,297          1,656           105

   Status of Budgetary Resources:
   Obligations Incurred (Note 23)                                                     5,046         2,046        21,481         460           497        21,083         110,042          1,164          1,157          1,202            88
   Unobligated balance, end of year:
   Apportioned                                                                          318           383           215         168           223           566           4,789             54            126            419            31
   Exempt from apportionment                                                              -             -           303           8             -             -               -              -              -              -             -
   Unapportioned                                                                        162           235           548         200           251             2          15,421             21             14             35           (14)
   Total unobligated balance, end of year                                               480           618         1,066         376           474           568          20,210             75            140            454            17
   Total budgetary resources                                                          5,526         2,664        22,547         836           971        21,651         130,252          1,239          1,297          1,656           105

   Change in Obligated Balances:
   Unpaid obligations:
   Unpaid obligations, brought forward, October 1                                        425          372         11,358         173          199          3,251           7,196            184           242            423            12
   Obligations incurred                                                                5,046        2,046         21,481         460          497         21,083         110,042          1,164         1,157          1,202            88
   Outlays (gross)(-)                                                                 (5,083)      (2,076)       (20,870)       (383)        (370)       (22,616)       (109,013)        (1,195)       (1,169)        (1,226)          (89)
   Recoveries of prior year unpaid obligations (-)                                       (61)         (83)          (372)        (41)         (30)            (2)           (987)           (16)          (16)           (42)           (1)
   Unpaid obligations, end of year                                                       327          259         11,597         209          296          1,716           7,238            137           214            357            10
   Uncollected payments:                                                                   -            -              -           -            -              -               -              -             -              -             -
   Uncollected payments, Federal sources, brought forward, October 1 (-)                 (62)         (18)          (134)       (157)        (580)             -               -            (31)          (15)          (139)           (7)
   Change in uncollected payments, Federal sources (+ or -)                               21            6             86           -          194              -               -            (14)           (3)           (69)            -
   Uncollected payments, Federal sources, end of year (-)                                (41)         (12)           (48)       (157)        (386)             -               -            (45)          (18)          (208)           (7)
   Memorandum (non-add) entries:                                                           -            -              -           -            -              -               -              -             -              -             -
   Obligated balance, start of year (+ or -)                                             363          354         11,224          16         (381)         3,251           7,196            153           227            284             5
   Obligated balance, end of year (+ or -)                                               286          247         11,549          52          (90)         1,716           7,238             92           196            149             3

   Budget Authority and Outlays, Net                                                      -             -              -           -            -             -               -              -              -              -             -
   Budget authority, gross (discretionary and mandatory)                              3,779         2,502         21,155         561          365        21,083         111,289          1,190          1,155          1,261            87
   Actual offsetting collections (-) (discretionary and mandatory)                     (611)       (2,036)       (10,133)       (527)        (213)       (8,809)           (173)          (187)          (118)          (172)          (50)
   Change in uncollected customer payments from Federal sources                          21             6             86           -          194             -               -            (14)            (3)           (69)            -
      (discretionary and mandatory)
   Anticipated offsetting collections (+ or -) (discretionary and mandatory)              -            -              -           -             -             -               -              -              -              -             -
   Budget authority, net (discretionary and mandatory)                                3,189          472         11,108          34           346        12,274         111,116            989          1,034          1,020            37

   Outlays, gross (discretionary and mandatory)                                       5,083         2,076       20,870           383          370      22,616         109,013            1,195          1,169          1,226            89
   Actual offsetting collections (discretionary and mandatory) (-)                     (611)       (2,036)     (10,133)         (527)        (213)     (8,809)           (173)            (187)          (118)          (172)          (50)
   Outlays, net (discretionary and mandatory)                                         4,472            40       10,737          (144)         157      13,807         108,840            1,008          1,051          1,054            39
   Distributed offsetting receipts (-)                                                   (1)         (203)           -          (102)          23           -               3              (13)          (162)           (15)            -
   Agency outlays, net (discretionary and mandatory)                              $   4,471 $        (163)   $ 10,737 $         (246)   $     180    $ 13,807       $ 108,843       $      995     $      889    $     1,039    $       39




                                                                                                                                                                  United States Department of Agriculture | 132
                                                                                                                                                                                       Section 2: Financial Information




FY 2013                                                                            FS            NRCS           ARS           NIFA           ERS             NASS                 RD                   DO                 TOTAL
                                                                                                                                                                                  Non-Budgetary                            Non-Budgetary
                                                                                                                                                                                    Financing                                Financing
                                                                               Budgetary     Budgetary      Budgetary     Budgetary      Budgetary       Budgetary      Budgetary   Accounts       Budgetary     Budgetary   Accounts

Budgetary Resources:
Unobligated balance, brought forward, October 1:                               $   1,391     $    2,438     $       65    $      241     $          3    $       1      $    5,920 $      4,286    $     259     $    33,326 $     5,154
Recoveries of prior year unpaid obligations                                           21            551             22           113               20           15             264          815           42           2,575         939
Other changes in unobligated balance (+ or -)                                          2            (11)            (6)           (7)              (2)           1          (1,032)      (1,711)         (12)         (1,722)     (2,266)
Unobligated balance from prior year budget authority, net                          1,414          2,978             81           347               21           17           5,152        3,390          289          34,179       3,827
Appropriations (discretionary and mandatory)                                       5,653          4,370          1,049         1,157               71          167           4,672            -          539         148,775           -
Borrowing authority (discretionary and mandatory)                                      -              -              -             -                -            -               -        9,520            -          17,623      11,356
Spending authority from offsetting collections (discretionary and mandatory)         712            155            133            44                4           23           2,409        9,117          969          17,093      10,344
Total budgetary resources                                                          7,779          7,503          1,263         1,548               96          207          12,233       22,027        1,797         217,670      25,527

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                     6,692          4,452          1,202         1,253               95          206           6,750       14,263        1,529         183,939      16,769
Unobligated balance, end of year:
Apportioned                                                                          816            665             47           280                -            -           2,468        4,213          263          11,280       4,764
Exempt from apportionment                                                              -              -              -             -                -            -               -            -            -             303           8
Unapportioned                                                                        271          2,386             14            15                1            1           3,015        3,551            5          22,148       3,986
Total unobligated balance, end of year                                             1,087          3,051             61           295                1            1           5,483        7,764          268          33,731       8,758
Total budgetary resources                                                          7,779          7,503          1,263         1,548               96          207          12,233       22,027        1,797         217,670      25,527

Change in Obligated Balances:
Unpaid obligations:
Unpaid obligations, brought forward, October 1                                      2,557          4,514           457          2,128           38               42          6,292       25,725           498          39,816     26,270
Obligations incurred                                                                6,692          4,452         1,202          1,253           95              206          6,750       14,263         1,529         183,939     16,769
Outlays (gross)(-)                                                                 (6,876)        (3,991)       (1,246)        (1,273)         (82)            (196)        (8,056)     (14,632)       (1,569)       (184,920)   (17,091)
Recoveries of prior year unpaid obligations (-)                                       (21)          (551)          (22)          (113)         (20)             (15)          (264)        (815)          (42)         (2,575)      (939)
Unpaid obligations, end of year                                                     2,352          4,424           391          1,995           31               37          4,722       24,541           416          36,260     25,009
Uncollected payments:                                                                   -              -             -              -            -                -              -            -             -               -          -
Uncollected payments, Federal sources, brought forward, October 1 (-)                (531)          (306)         (180)          (131)          (7)              (6)           (20)        (900)         (427)         (2,576)    (1,075)
Change in uncollected payments, Federal sources (+ or -)                               72             68            (3)            29           (1)              (3)             -          157            32             409        163
Uncollected payments, Federal sources, end of year (-)                               (459)          (238)         (183)          (102)          (8)              (9)           (20)        (743)         (395)         (2,167)      (912)
Memorandum (non-add) entries:                                                           -              -             -              -            -                -              -            -             -               -          -
Obligated balance, start of year (+ or -)                                           2,026          4,208           277          1,997           31               36          6,272       24,825            71          37,240     25,195
Obligated balance, end of year (+ or -)                                             1,893          4,186           208          1,893           23               28          4,702       23,798            21          34,093     24,097

Budget Authority and Outlays, Net                                                      -              -              -             -                -            -               -            -             -              -           -
Budget authority, gross (discretionary and mandatory)                              6,365          4,525          1,182         1,201               75          190           7,081       18,637         1,508        183,491      21,700
Actual offsetting collections (-) (discretionary and mandatory)                     (785)          (223)          (130)          (72)              (3)         (20)         (4,041)     (11,258)       (1,001)       (26,741)    (13,821)
Change in uncollected customer payments from Federal sources                          72             68             (3)           29               (1)          (3)              -          157            32            409         163
   (discretionary and mandatory)
Anticipated offsetting collections (+ or -) (discretionary and mandatory)              -              -              -             -                -            -               -            -            -               -           -
Budget authority, net (discretionary and mandatory)                                5,652          4,370          1,049         1,158               71          167           3,040        7,536          539         157,159       8,042

Outlays, gross (discretionary and mandatory)                                       6,876          3,991          1,246         1,273               82          196           8,056       14,632         1,569      184,920        17,091
Actual offsetting collections (discretionary and mandatory) (-)                     (785)          (223)          (130)          (72)              (3)         (20)         (4,041)     (11,258)       (1,001)     (26,741)      (13,821)
Outlays, net (discretionary and mandatory)                                         6,091          3,768          1,116         1,201               79          176           4,015        3,374           568      158,179         3,270
Distributed offsetting receipts (-)                                                 (693)            (9)           (31)           (6)              (1)          (3)              -       (1,058)           (6)        (914)       (1,363)
Agency outlays, net (discretionary and mandatory)                              $   5,398     $    3,759     $    1,085    $    1,195     $         78    $     173      $    4,015 $      2,316    $      562    $ 157,265 $       1,907




                                                                                                                                                                       Fiscal Year 2013 Agency Financial Report | 133
                                                                                                USDA: Managing for Results in Performing Its Many Vital Public Functions




FY 2012                                                                                   FSA                        CCC                 FAS           RMA             FNS            FSIS           AMS           APHIS          GIPSA
                                                                                         Non-Budgetary              Non-Budgetary
                                                                                           Financing                  Financing
                                                                               Budgetary    Accounts      Budgetary   Accounts       Budgetary     Budgetary      Budgetary       Budgetary      Budgetary     Budgetary      Budgetary

Budgetary Resources:
Unobligated balance, brought forward, October 1:                               $   2,780 $       1,053    $    1,870 $        656    $      455    $      565     $    10,726     $       17     $      126    $       324    $       20
Recoveries of prior year unpaid obligations                                          215            85         1,199           29            48             3             817             11             19             39             1
Other changes in unobligated balance (+ or -)                                        (85)         (922)          (50)        (437)          (90)           (1)         (3,262)            (1)            (2)            (4)           (1)
Unobligated balance from prior year budget authority, net                          2,910           216         3,019          248           413           567           8,281             27            143            359            20
Appropriations (discretionary and mandatory)                                       1,003             -         2,504            -           370         7,681         117,370          1,015          1,123          1,103            38
Borrowing authority (discretionary and mandatory)                                    400         1,970        11,267          220             -             -               -              -              -              -             -
Spending authority from offsetting collections (discretionary and mandatory)         468           639         5,716          283           365         5,000             117            171            115            202            50
Total budgetary resources                                                          4,781         2,825        22,506          751         1,148        13,248         125,768          1,213          1,381          1,664           108

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                     3,035         2,298        21,292         410           569         12,681         107,404          1,173          1,254          1,310            91
Unobligated balance, end of year:
Apportioned                                                                          425           240           200         217            157           564           5,581             18             86             47            12
Exempt from apportionment                                                            769             -           355           5              -             -               -              -              -              -             -
Unapportioned                                                                        552           287           659         119            422             3          12,783             22             41            307             5
Total unobligated balance, end of year                                             1,746           527         1,214         341            579           567          18,364             40            127            354            17
Total budgetary resources                                                          4,781         2,825        22,506         751          1,148        13,248         125,768          1,213          1,381          1,664           108

Change in Obligated Balances:
Unpaid obligations:
Unpaid obligations, brought forward, October 1                                        652          438          9,925         210           235           460            6,661            185           222            422            10
Obligations incurred                                                                3,035        2,298         21,292         410           569        12,681          107,404          1,173         1,254          1,310            91
Outlays (gross)(-)                                                                 (3,048)      (2,277)       (18,659)       (418)         (556)       (9,888)        (106,052)        (1,163)       (1,215)        (1,270)          (88)
Recoveries of prior year unpaid obligations (-)                                      (215)         (85)        (1,199)        (29)          (49)           (3)            (817)           (11)          (19)           (39)           (1)
Unpaid obligations, end of year                                                       425          372         11,358         173           199         3,251            7,196            184           242            423            12
Uncollected payments:                                                                   -            -              -           -             -             -                -              -             -              -             -
Uncollected payments, Federal sources, brought forward, October 1 (-)                (125)         (22)           (53)       (158)         (336)            -                -            (28)           (5)           (75)           (5)
Change in uncollected payments, Federal sources (+ or -)                               63            3            (81)          -          (244)            -                -             (3)          (11)           (64)           (2)
Uncollected payments, Federal sources, end of year (-)                                (62)         (18)          (134)       (157)         (580)            -                -            (31)          (15)          (139)           (7)
Memorandum (non-add) entries:                                                           -            -              -           -             -             -                -              -             -              -             -
Obligated balance, start of year (+ or -)                                             527          416          9,872          52          (101)          460            6,661            157           217            347             5
Obligated balance, end of year (+ or -)                                               363          354         11,224          16          (381)        3,251            7,196            153           227            284             5

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                              1,871         2,609        19,486          503           735        12,681         117,488          1,186          1,238          1,305            88
Actual offsetting collections (-) (discretionary and mandatory)                     (711)       (2,032)       (9,437)        (562)         (120)       (5,001)           (116)          (167)           (78)          (137)          (48)
Change in uncollected customer payments from Federal sources                          63             3           (81)           -          (244)            -               -             (3)           (11)           (64)           (2)
   (discretionary and mandatory)
Anticipated offsetting collections (+ or -) (discretionary and mandatory)              -            -              -            -            -              -               -              -              -              -             -
Budget authority, net (discretionary and mandatory)                                1,223          580          9,968          (59)         371          7,680         117,372          1,016          1,149          1,104            38

Outlays, gross (discretionary and mandatory)                                       3,048         2,277        18,659          418           556         9,888       106,052            1,163          1,215          1,270            88
Actual offsetting collections (discretionary and mandatory) (-)                     (711)       (2,032)       (9,437)        (562)         (120)       (5,001)         (116)            (167)           (78)          (137)          (48)
Outlays, net (discretionary and mandatory)                                         2,337           245         9,222         (144)          436         4,887       105,936              996          1,137          1,133            40
Distributed offsetting receipts (-)                                                    -          (209)            -          (74)          (26)            -             1              (11)          (147)            (9)            -
Agency outlays, net (discretionary and mandatory)                              $   2,337 $          36    $    9,222 $       (218)   $      410    $    4,887     $ 105,937       $      985     $      990    $     1,124    $       40




                                                                                                                                                                United States Department of Agriculture | 134
                                                                                                                                                                                       Section 2: Financial Information


FY 2012                                                                            FS            NRCS           ARS           NIFA           ERS             NASS                 RD                   DO                 TOTAL
                                                                                                                                                                                  Non-Budgetary                            Non-Budgetary
                                                                                                                                                                                    Financing                                Financing
                                                                               Budgetary     Budgetary      Budgetary     Budgetary      Budgetary       Budgetary      Budgetary   Accounts       Budgetary     Budgetary   Accounts

Budgetary Resources:
Unobligated balance, brought forward, October 1:                               $   1,907     $    1,873     $       57    $      277     $          4    $       5      $    4,032 $      3,895    $     200     $    25,238 $     5,604
Recoveries of prior year unpaid obligations                                          131            463             28           157                5           15             317        1,705           65           3,533       1,819
Other changes in unobligated balance (+ or -)                                         (2)           (12)            (4)           (6)              (2)           -             (64)      (3,083)          (7)         (3,593)     (4,442)
Unobligated balance from prior year budget authority, net                          2,036          2,324             81           428                7           20           4,285        2,517          258          25,178       2,981
Appropriations (discretionary and mandatory)                                       5,296          4,485          1,125         1,347               78          159           4,685            -          534         149,916           -
Borrowing authority (discretionary and mandatory)                                      -              -              -             -                -            -               -        9,441            -          11,667      11,631
Spending authority from offsetting collections (discretionary and mandatory)         757            231            143            41                2           22           2,052        6,185        1,050          16,502       7,107
Total budgetary resources                                                          8,089          7,040          1,349         1,816               87          201          11,022       18,143        1,842         203,263      21,719

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                     6,698          4,602          1,284         1,575               84          200           5,102       13,857        1,583         169,937      16,565
Unobligated balance, end of year:
Apportioned                                                                          800            425             48           244                1            -           1,153        1,877          217           9,978       2,334
Exempt from apportionment                                                              -              -              -             -                -            -               -            -            -           1,124           5
Unapportioned                                                                        591          2,013             17            (3)               2            1           4,767        2,409           42          22,224       2,815
Total unobligated balance, end of year                                             1,391          2,438             65           241                3            1           5,920        4,286          259          33,326       5,154
Total budgetary resources                                                          8,089          7,040          1,349         1,816               87          201          11,022       18,143        1,842         203,263      21,719

Change in Obligated Balances:
Unpaid obligations:
Unpaid obligations, brought forward, October 1                                      2,771          4,254           494          2,136           40               44          7,664       27,884           462          36,637     28,532
Obligations incurred                                                                6,698          4,602         1,284          1,575           84              200          5,102       13,857         1,583         169,937     16,565
Outlays (gross)(-)                                                                 (6,781)        (3,878)       (1,294)        (1,425)         (82)            (188)        (6,157)     (14,312)       (1,481)       (163,225)   (17,007)
Recoveries of prior year unpaid obligations (-)                                      (131)          (463)          (27)          (157)          (5)             (15)          (317)      (1,705)          (65)         (3,533)    (1,819)
Unpaid obligations, end of year                                                     2,557          4,514           457          2,128           38               42          6,292       25,725           498          39,816     26,270
Uncollected payments:                                                                   -              -             -              -            -                -              -            -             -               -          -
Uncollected payments, Federal sources, brought forward, October 1 (-)                (485)          (159)         (154)          (118)          (6)              (7)           (15)        (767)         (448)         (2,019)      (947)
Change in uncollected payments, Federal sources (+ or -)                              (46)          (147)          (26)           (14)           -                1             (5)        (132)           22            (557)      (129)
Uncollected payments, Federal sources, end of year (-)                               (531)          (306)         (180)          (131)          (7)              (6)           (20)        (900)         (427)         (2,576)    (1,075)
Memorandum (non-add) entries:                                                           -              -             -              -            -                -              -            -             -               -          -
Obligated balance, start of year (+ or -)                                           2,286          4,095           340          2,018           34               37          7,649       27,117            14          34,618     27,585
Obligated balance, end of year (+ or -)                                             2,026          4,208           277          1,997           31               36          6,272       24,825            71          37,240     25,195

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                              6,053          4,716          1,268         1,388               80          181           6,737       15,626         1,584        178,085      18,738
Actual offsetting collections (-) (discretionary and mandatory)                     (712)           (85)          (117)          (28)              (2)         (24)         (3,627)     (10,071)       (1,071)       (21,481)    (12,665)
Change in uncollected customer payments from Federal sources                         (46)          (147)           (26)          (14)               -            1              (5)        (132)           22           (557)       (129)
   (discretionary and mandatory)
Anticipated offsetting collections (+ or -) (discretionary and mandatory)              -              -              -             -                -            -               -            -            -               -           -
Budget authority, net (discretionary and mandatory)                                5,295          4,484          1,125         1,346               78          158           3,105        5,423          535         156,047       5,944

Outlays, gross (discretionary and mandatory)                                       6,781          3,878          1,294         1,425               82          188           6,157       14,312         1,481      163,225        17,007
Actual offsetting collections (discretionary and mandatory) (-)                     (712)           (85)          (117)          (28)              (2)         (24)         (3,627)     (10,071)       (1,071)     (21,481)      (12,665)
Outlays, net (discretionary and mandatory)                                         6,069          3,793          1,177         1,397               80          164           2,530        4,241           410      141,744         4,342
Distributed offsetting receipts (-)                                                 (529)            12            (30)           (4)               1            -               1       (1,027)           18         (723)       (1,310)
Agency outlays, net (discretionary and mandatory)                              $   5,540     $    3,805     $    1,147    $    1,393     $         81    $     164      $    2,531 $      3,214    $      428    $ 141,021 $       3,032




                                                                                                                                                                       Fiscal Year 2013 Agency Financial Report | 135
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Risk Assumed Information (Unaudited)
Risk assumed is generally measured by the present value of unpaid expected losses net of
associated premiums based on the risk inherent in the insurance or guarantee coverage in force.
Risk assumed information is in addition to the liability for unpaid claims from insured events
that have already occurred. The assessment of losses expected based on the risk assumed are
based on actuarial or financial methods applicable to the economic, legal and policy environment
in force at the time the assessments are made. The FCIC has estimated the loss amounts based on
the risk assumed for its programs to be $4,496 million and $18,287 million as of September 30,
2013 and 2012, respectively.




                                               United States Department of Agriculture | 136
                                                                            Section 3: Other Information


Section 3: Other Information
Schedule of Spending
The Schedule of Spending (SOS) presents an overview of how and where agencies are spending
(i.e. obligating) money for the reporting period. The data used to populate this schedule is the
same underlying data used to populate the Statement of Budgetary Resources (SBR). The “Total
Amounts Agreed to be Spent” line item of the schedule should reconcile to the “Obligations
Incurred” line in the SBR. These amounts may not reconcile to USAspending.gov because the
SOS and the website have different reporting requirements.
                                           For The Year Ended September 30, 2013
                                                         (In Millions)
                                                                                                  Non-Budgetary
                                                                                                   Credit Reform
                                                                                 Budgetary      Financing Accounts
 What Money is Available to Spend?
 Total Resources                                                             $       217,670    $           25,527
 Less Amount Available but Not Agreed to be Spent                                     11,583                 4,772
 Less Amount Not Available to be Spent                                                22,148                 3,986
 Total Amounts Agreed to be Spent                                                    183,939                16,769

 How was the Money Spent/Issued?

 Assist Rural Communities to Create Prosperity so They Are
 Self-Sustaining, Repopulating, and Economically Thriving:

 Personnel Compensation and Benefits                                                   2,338                   -
 Travel and transportation                                                                72                   -
 Rent, communications, and utilities                                                     315                   -
 Other contractual services                                                            3,645                 1,974
 Supplies and materials                                                                  358                   -
 Equipment, land, and structures                                                          65                   -
 Investments and loans                                                                 7,407                10,294
 Grants, subsidies, and contributions                                                 16,690                   -
 Insurance claims and indemnities                                                     20,496                   -
 Interest, dividends, and refunds                                                        134                 4,109
 Other                                                                                    20                   -
 Total                                                                                51,540                16,377

 Ensure Our National Forests and Private Working Lands Are Conserved,
 Restored, and Made More Resilient to Climate Change, While
 Enhancing Our Water Resources:

 Personnel Compensation and Benefits                                                   4,376                   -
 Travel and transportation                                                               201                   -
 Rent, communications, and utilities                                                     343                   -
 Other contractual services                                                            2,802                     4
 Supplies and materials                                                                  292                  -
 Equipment, land, and structures                                                         636                  -
 Investments and loans                                                                   -                    173
 Grants, subsidies, and contributions                                                  5,716                  -
 Insurance claims and indemnities                                                        134                  -
 Interest, dividends, and refunds                                                        (11)                   52
 Other                                                                                   342                  -
 Total                                                                                14,831                  229




137       150th Anniversary | United States Department of Agriculture
            USDA: Managing for Results in Performing Its Many Vital Public Functions

                                           Schedule of Spending (continued)
                                                For The Year Ended September 30, 2013
                                                              (In Millions)

                                                                                                Non-Budgetary
                                                                                                 Credit Reform
                                                                              Budgetary       Financing Accounts

Help America Promote Agricultural Production and Biotechnology
Exports as America Works to Increase Food Security:

Personnel Compensation and Benefits                                                    196                  -
Travel and transportation                                                                 9                 -
Rent, communications, and utilities                                                      19                 -
Other contractual services                                                             196                  -
Supplies and materials                                                                   14                 -
Equipment, land, and structures                                                           8                 -
Investments and loans                                                                     3                 163
Grants, subsidies, and contributions                                                 3,116                  -
Insurance claims and indemnities                                                       -                    -
Interest, dividends, and refunds                                                       -                    -
Other                                                                                    13                 -
Total                                                                                3,574                  163

Ensure that All of America's Children Have Access to Safe,
Nutritious, and Balanced Meals:

Personnel Compensation and Benefits                                                  2,237                   -
Travel and transportation                                                                89                  -
Rent, communications, and utilities                                                    198                   -
Other contractual services                                                             904                   -
Supplies and materials                                                               1,977                   -
Equipment, land, and structures                                                          83                  -
Investments and loans                                                                  -                     -
Grants, subsidies, and contributions                                               108,472                   -
Insurance claims and indemnities                                                          4                  -
Interest, dividends, and refunds                                                       -                     -
Other                                                                                    30                  -
Total                                                                              113,994                   -

USDA

Personnel Compensation and Benefits                                                  9,147                   -
Travel and transportation                                                              371                   -
Rent, communications, and utilities                                                    875                   -
Other contractual services                                                           7,547                 1,978
Supplies and materials                                                               2,641                   -
Equipment, land, and structures                                                        792                   -
Investments and loans                                                                7,410                10,630
Grants, subsidies, and contributions                                               133,994                   -
Insurance claims and indemnities                                                    20,634                   -
Interest, dividends, and refunds                                                       123                 4,161
Other                                                                                  405                   -
Total Amounts Agreed to be Spent                                                   183,939                16,769

Who did the Money go to?
Federal                                                                             12,980                 5,788
Non-Federal                                                                        170,959                10,981
Total Amounts Agreed to be Spent                                                   183,939                16,769


                                                                 Fiscal Year 2013 Agency Financial Report | 138
                                                              Section 3: Other Information


Response to Management Challenges
The Reports Consolidation Act of 2000 requires the U.S. Department of Agriculture (USDA)
Office of Inspector General (OIG) to report annually on the most serious management challenges
USDA and its agencies face. To identify these Departmental challenges, OIG examined
previously issued audit reports where corrective actions have yet to be taken. It also assessed
ongoing investigative and audit work to ascertain significant vulnerabilities, and analyzed new
programs and activities that could pose significant challenges due to their range and complexity.
Ten challenges were included in OIG’s report this year.

This year, OIG broadened three of their challenges to include additional concerns associated with
these areas. Challenge 4, formerly addressing USDA’s civil rights efforts, now includes a
discussion on the Department’s general outreach efforts. Challenge 6 incorporated not only the
Forest Service’s role in improving the stewardship of natural resources, but the Natural
Resources Conservation Service’s efforts as well. Challenge 9, which previously focused on
succession planning, has been expanded to address the training of human resources as USDA
moves to a more streamlined workforce.

One new challenge was added concerning fraud in the Supplemental Nutrition Assistance
Program (SNAP), more commonly known as “food stamps.” Participation in SNAP has grown,
and the Department must strengthen its efforts to prevent misuse as the program increases in
size. Finally, OIG discussed several emerging issues that may develop into significant
concerns: the Animal and Plant Health Inspection Service’s (APHIS) animal care; potentially
redundant Federal programs and operations; USDA’s performance measures; and the Risk
Management Agency’s (RMA) policies.

The following narratives summarize:
   management challenges;
   USDA’s fiscal year (FY) 2013 agency accomplishments, and
   FY 2014 planned actions to address these management challenges.

CHALLENGE 1: Interagency Communication, Coordination, and Program
Integration Need Improvement
Like many departments within the Federal Government, USDA faces a challenge in coordinating
the efforts of various agencies and programs within its purview. This challenge is particularly
pressing for USDA, as the Department divides responsibilities for such matters as food safety
among several agencies that jointly provide oversight of key mission areas. This requires a high
degree of intradepartmental cooperation, and USDA agencies must better understand their
interrelationships in order to create a cohesive, integrated system of program administration.
Such an approach should increase organizational communication; streamline operations; reduce
spending; and improve program efficiency, compliance, and integrity.




                                               United States Department of Agriculture | 139
        USDA: Managing for Results in Performing Its Many Vital Public Functions

OIG determined the following:
   The lack of coordination within USDA, and between the Department and the Food and
    Drug Administration (FDA), prevented crucial information from getting to agencies that
    could have potentially limited the scope of the recall and related illnesses;
   The Agricultural Marketing Service (AMS) conducted its grading activities without
    ensuring that the Food Safety and Inspection Service (FSIS), FDA, or the shell egg
    companies informed AMS graders of possible Salmonella enteritidis contamination;
   Agencies need to better coordinate their efforts when working in the field; and
   AMS and FSIS have a memorandum of understanding (MOU) that sets forth the basic
    framework for cross-utilization of AMS graders and FSIS inspectors. However, OIG’s
    review found that this MOU is 30-years old and out of date.

Corrective Actions:
FSIS will complete assessing and documenting the existing coordination efforts within USDA
and with FDA and will develop a plan to improve existing coordination. FSIS will complete its
analyses on the current level of sanitation issues at shell egg packing companies nationwide, and
continue to coordinate with FDA on sanitation issues. FSIS will evaluate the use of cross-
utilization with AMS to determine whether there are circumstances where the MOU would be
beneficial. If the evaluation results in a determination that an MOU for cross-utilization is not an
efficient option for FSIS, the MOU will be cancelled. If the evaluation results in a decision to
revise the MOU, FSIS will draft a plan with appropriate milestones and timelines for the MOU
revision as well as update the appropriate directives. If necessary, FSIS will perform an
assessment to determine whether specific Web-based time and attendance (WebTA) time codes
need to be developed for the Agency to use in order to reflect cross-utilization time for billing
purposes.

CHALLENGE 2: USDA Needs to Create Strong, Integrated Internal Control
Systems Across Programs
USDA managers oversee critical elements of our Nation’s agriculture, nutrition, and natural
resources policy. In order to bring about desired results—such as disbursing payments
accurately, and only to eligible persons—they must design effective internal systems for program
implementation. These internal controls are comprised of the policies, procedures, and
organizational structures that collectively determine how a program is managed and how its
requirements are met. In effect, internal controls are the tools managers use to ensure that
programs achieve intended results efficiently and effectively; they provide for program integrity
and proper stewardship of resources. Since systemic control flaws can yield systemic program
weaknesses—e.g., unrealized objectives and improper payments—managers must continuously
assess and improve their internal control systems. When they identify a widespread deficiency,
they must fix the problem before it undermines the program.




                                                Fiscal Year 2013 Agency Financial Report | 140
                                                                  Section 3: Other Information

OIG determined the following:
   NRCS performs some compliance activities, but it has not implemented a comprehensive,
    integrated compliance strategy;
   The review of the Special Supplemental Nutrition Program for Women, Infants, and
    Children (WIC) program determined that the Food and Nutrition Service’s (FNS) controls
    in two State offices were not sufficient to identify and disqualify vendors who violated
    program guidelines and that one State agency did not conduct compliance investigations on
    24 of its 35 high-risk vendors, and did not treat smaller vendors in an equitable manner
    with large chain stores; and
   The Smuggling, Interdiction and Trade Compliance (SITC) unit is part of the APHIS Plant
    Protection and Quarantine Program. The SITC’s control environment did not include a
    system of management accountability that fostered efficiency, adequacy, or accuracy in
    either achieving its core mission or in reporting its results.

Corrective Actions:
NRCS led a cross-functional team to develop a comprehensive integrated compliance strategy.
The strategy includes goals, objectives, initiatives, and measures that focus on strengthening
internal controls across all Agency programs and operations. The NRCS compliance strategy
will be completed and rolled out to the agency in FY 2014. The finalized plan will include a plan
for the implementation of strategic initiatives that span the next three years.
FNS revised the vendor management section of the Management Evaluation (ME) tool and
provided training for staff in January 2013. Over 60 FNS staff participated in the training. This
guidance was uploaded to the ME tool in May 2013. The FNS Midwest Regional Office worked
with the State of Illinois to ensure that any of the vendors identified in the OIG audit report titled
Vendor Management in the Food and Nutrition Service’s Special Supplemental Nutrition
Program for Women, Infants, and Children (WIC) (27601-0038-Ch, March 2013), were
disqualified for the required time period. The Southeast Regional Office is currently working
with Florida to obtain confirmation of the final disposition of their vendors in question. FNS
required the Illinois State agency to disqualify three WIC vendors, also identified in the report
for the same period as their SNAP disqualifications. The State implemented controls to ensure
that disqualified SNAP vendors are being disqualified from the WIC Program, as required. The
Florida WIC State Agency’s State Plan/Procedure Manual for FY 2014 has been updated to
include a description of the necessary controls.
FNS plans to reevaluate the other eight functional areas of the ME tool, including all applicable
guidance, by December 2014. FNS also plans to reevaluate all functional areas of the ME tool on
an annual basis.
FNS is scheduled to deploy a new training environment for the ME tool. All regional staff will
receive training prior to conducting actual ME reviews. FNS will continue to identify ways to
ensure compliance with Federal requirements regarding reciprocal WIC and SNAP
disqualifications. FNS will review best practices, evaluate the appropriate controls needed, and
issue guidance to the States by December 2013.


                                                  United States Department of Agriculture | 141
        USDA: Managing for Results in Performing Its Many Vital Public Functions

APHIS implemented guidance and a checklist for SITC personnel to further educate staff on the
SITC mission and objectives. The guidance requires SITC managers to exercise sufficient
oversight to ensure that the program’s mission is achieved and that duties and expectations of
managers and supervisors are described. Using their checklist, APHIS did the following:
   performed secondary reviews of nearly 2,000 previous seizures to ensure that found
    prohibited items do not identify as another entry pathway for items to enter the United
    States;
   implemented an operational process for closing an entry pathway for prohibited items and
    steps for staff to take to notify external parties of the closure;
   implemented actions to ensure that the national database is officially incorporated into
    APHIS’ technology portfolio, and also to ensure that the information in the national
    database undergoes integrity and quality control; and
   established analytical methodologies for the reports from the national database.
  The outstanding action regarding the SITC program is the development and implementation
  of a time-phased action plan that will identify procedures for the Plant Protection Quarantine
  staff and SITC management on the benchmarks and expectations of the SITC program. These
  actions will be completed during FY 2014.

CHALLENGE 3: Information Technology Security Needs Continuing
Improvement
Typically, USDA’s work is thought of in terms of the benefits and services the Department
provides, which touch almost every aspect of American life. To accomplish these missions,
USDA must manage vast amounts of data associated with its many programs and operations.
This critical information ranges from agricultural statistics that drive domestic and global
markets to data-driven inspection systems that help ensure our food is safe. Department
employees must be able to access, manipulate, and communicate this information to deliver
programs effectively. Additionally, the general public can apply for many program benefits and
other services via the Internet. It is, therefore, critical that the Department protect the security,
confidentiality, and integrity of its information technology (IT) infrastructure.

OIG determined the following:
   The current security program does not have a solid foundation because the Department has
    not fully deployed basic analytic tools that determine accurate system inventories, or
    performed appropriate risk assessments and timely vulnerability scans;
   USDA is not as prepared as it needs to be to prevent or respond to emergencies because it
    lacks adequate mechanisms to continuously monitor systems and recover from disasters;
   The Department has not: established a continuous program for monitoring IT security or
    contractor systems (including systems residing in the cloud); ensured that agencies securely
    configure their computers; mandated user multi-factor authentication; consistently reported
    security incidents; implemented a risk-based framework for handling security issues;


                                                 Fiscal Year 2013 Agency Financial Report | 142
                                                                Section 3: Other Information

     adequately remediated weaknesses; implemented adequate contingency policies and
     procedures; and adequately planned for security costs;
   The Office of the Chief Information Officer (OCIO) did not strategically plan, prioritize,
    and manage its efforts to improve USDA’s IT systems;
   Several of OCIO’s projects did not meet the purposes outlined in its request to Congress for
    additional funding or address the Department’s most critical IT security concerns;
   OCIO needs to adequately develop oversight mechanisms, communicate and coordinate
    internally, plan projects, and determine how to effectively utilize it resources;
   Controls over the Department’s eAuthentication system, which the Department uses to
    electronically authenticate employee access to its systems, do not meet some of the
    National Institute of Standards and Technology (NIST) requirements, and the Department
    did not incorporate them when maintaining the eAuthentication system.

Corrective Actions:
OCIO efforts toward continuous monitoring (CM) have been focused on continuous
vulnerability assessment. OCIO continued to refine the security stack array (SSA), used to
monitor network traffic, through implementation of security rules and conditions to proactively
identify true attacks and compromises, and has greatly reduced the number of false positive scan
results. In December 2012, USDA matured its traditional certification and accrediation (C&A)
program to include an ongoing Assessment and Authorization (A&A) model in accordance with
NIST Special Publications (SP) 800-37 Revision 1. USDA’s ongoing A&A model includes an
enterprisewide set of NIST controls. This set of controls includes the varied level of information
security risks derived from the diverse business and mission objectives across the USDA
enterprise.
In FY 2013, OCIO established clear objectives to remediate the longstanding compliance issues
related to the USDA cybersecurity policies. Objectives established included the following:
reduce the number of cybersecurity policies and manage them through a policy lifecycle;
leverage existing OCIO and agency policy and include agencies and offices in the policy
development reviews; focus on the corporate, enterprisewide mission, enabling interpretation by
agencies and offices based on individual mission protection requirements; and set the foundation,
and OCIO expectations, for agencies and offices to implement cybersecurity.
Key initiatives completed in FY 2013 include the following:
   establishing a 24/7 Operations and Threat Analysis Center;
   developing situational awareness capability for USDA;
   continuing efforts to fully staff the Monitoring and Analysis Division with highly technical
    support;
   correlating data from network and endpoint sensors; and
   conducting daily analysis and risk-based assessments of impact based on security profiles.
The Department published the Incident Management Playbook (Standard Operating Procedures),
which details the steps for analyzing cybersecurity incident-related data and determining the

                                                United States Department of Agriculture | 143
        USDA: Managing for Results in Performing Its Many Vital Public Functions

appropriate responses for each incident in accordance with NIST guidance. USDA is actively
engaged with the Department of Homeland Security (DHS) Continuous Diagnostics &
Mitigation initiative. USDA is selecting a component agency to complete the comprehensive
survey detailing USDA’s environment, security tools, information assurance capbilities, and
other IT management tasks.
OCIO issued the Risk Management Framework (RMF), which outlined the Department’s
program initiative for implementing the Continuous A&A of IT systems. USDA began
transitioning its IT systems from the 3-year C&A cycle to the continuous assessment and
authorization RMF model. Security controls are being monitored on a consistent basis in the
following five domain areas: (1) vulnerability management—application version;
(2) configuration management—U.S. Government Configuration Baseline (USGCB)
compliance; (3) patch management—windows patch compliance; (4) malware detection—
 signature definition status; and (5) asset management—enumerate USDA assets.
In FY 2014, the Department will use business intelligence tools to aggregate and better leverage
enterprise data to provide near real-time views of USDA’s security posture and more quickly
respond to potential and actual security threats. OCIO will continue the cybersecurity
remediation process and development of a policy lifecycle management process to ensure
continuous monitoring of compliance for cybersecurity policies. These actions by OCIO will
include further revisions, additions, or retiring outdated cybersecurity-related policies.
The Department plans to continue addressing the longstanding OIG suggestion to properly plan
and prioritize efforts to remediate the weaknesses with the highest risk to the Department. At the
same time, it is essential for the Department to address the day-to-day demands of cybersecurity,
as well as the requirements of the Office of Management and Budget (OMB), DHS and NIST.
Collectively, OCIO and agencies will continue to collaborate in this effort to mitigate the
ongoing IT security material weakness, and consequently improve the Department’s overall IT
security posture and FISMA compliance in FY 2014.
One of OCIO’s primary activities for FY 2014 is the Operational Security Assessment project.
This project is designed to analyze an agency’s information architecture and related processes to
develop a threat profile for the agency’s IT security components, or its layers and sub-layers of
security.
USDA’s OCIO completed deployment of eAuth 2.0 (also known as Level 2 eAuth), which the
Department uses to electronically authenticate employee access to its Web applications and is in
the process of assisting USDA agencies in migrating their Web applications to the new
infrastructure. eAuth 2.0 is compliant with NIST requirements. Once all agency applications
have been migrated, eAuth 1.0 (also known as Level 1 eAuth), will be decommissioned in the
2nd Quarter of FY 2014.

CHALLENGE 4: Departmental Outreach Efforts Need to be More
Transparent
USDA is dedicated to ensuring that its programs and benefits are accessible to all communities it
serves. As the Department has vigilantly worked with affected communities to address past civil
rights issues, an April 2009 memorandum from the Secretary of Agriculture to all USDA
employees reiterated the importance of civil rights, emphasizing that there was significant

                                               Fiscal Year 2013 Agency Financial Report | 144
                                                                 Section 3: Other Information

progress to be made. The Department has received public attention with respect to various
discrimination complaints that have been filed in Federal district court including Pigford I, the
Black Farmers Discrimination Lawsuit (BFDL), Keepseagle, and Garcia/Love. Settlements have
been reached in Pigford I, BFDL, and Keepseagle, and a voluntary administrative claims process
for Hispanic and female farmer claimants has been established.

OIG determined the following:
   The applicants that OAO initially selected to receive program grants may not have been the
    most meritorious and deserving candidates;
   OAO had no documentation to support their decisions and could not explain why some
    applicants that appeared more deserving were not selected to receive grant funds; and
   Officials were not monitoring how grant recipients used funds that were awarded in
    2010 and 2011, primarily because they had not assigned monitoring duties to personnel and
    did not have procedures in place.

Corrective Actions:
OAO incorporated clearly defined roles and responsibilities into the Socially Disadvantaged
Farmers and Ranchers Grant Program Staff position descriptions. The Program Director’s
position description has been modified to include a requirement to monitor staff in the
performance of their specific program duties and responsibilities. Specific language has been
added to the recommendation memorandum to the Secretary certifying the eligibility of each
recommended grantee and is signed by the OAO Director.
The Standard Operating Procedures (SOPs) were revised during FY 2013 to incorporate the
regulatory citations that authorized the operation of the Socially Disadvantaged Farmers and
Ranchers Grant Program. The SOPs also include the requirement for the Director’s signature to
indicate final review and approval of any changes contained within new SOPs.
The SOPs have been revised to include the requirements as follows: 1) the requirement for the
Funding Opportunity Announcement (FOA) must disclose any special criteria factored into the
evaluation process; the maximum number of points available under the evaluation process,
including the number of discretionary points that may be awarded as a result of a Secretarial
initiative; 2) the requirement to review each Applicant’s eligibility initially upon receipt of the
application by the Grants Staff. A second review of eligibility is performed during the grant
review process by the Independent Evaluation Review Panel and final certification of eligibility
is performed by the Director of OAO; 3) the requirement to use an independent Evaluation
Review Panel to perform the ratings and rankings of all applicants; 4) the requirement for the
review panel and/or the lead panelist to inform the Director of any attempts to interfere with the
review process by external sources; 5) the requirement for a detailed written rationale for any
deviation from program guidance, which must include supporting documentation provided by
external sources to the review panel; 6) the requirement for a second-level review of all
mathematical computations used in the evaluating process and a final sample review by the
Director or a designated representative; and 7) the requirement for a written final selection report
detailing the review process used; written justification for point distribution, and a written
rationale for the recommended funding amounts.

                                                 United States Department of Agriculture | 145
        USDA: Managing for Results in Performing Its Many Vital Public Functions

CHALLENGE 5: A Proactive, Integrated Strategy Is Necessary To Increase
Agricultural Commerce and Trade
Given the importance of U.S. agriculture to the economy—in 2012, the Nation’s farms and
ranches produced $436 billion in goods—USDA has a deeply rooted and longstanding interest in
promoting the export of our commodities worldwide. Over the last few years, the monetary total
of U.S. agricultural exports has risen significantly because of several factors, including adverse
weather conditions in major agricultural areas; the U.S. dollar’s declining value, and increased
demand in countries such as India and China. The value of U.S. agricultural exports has grown
from $96.3 billion in FY 2009 to more than $135.7 billion in FY 2012.

OIG determined the following:
   USDA had not integrated its current country-specific marketing strategies into a focused,
    global strategy capable of responding effectively to international market trends; and
   The Foreign Agricultural Service’s (FAS) updated Strategic Plan did include measurable
    goals and objectives; these goals and objectives (which measure the dollar value of exports)
    do not present the whole picture of how FAS’ actions are affecting the global market for
    American agricultural goods.

Corrective Actions:
FAS will consult with the appropriate congressional committees to determine a collection of
measures that together provide a more accurate illustration of how FAS’ efforts are affecting
global markets. In FY 2014, FAS will incorporate the new measures into agency planning
sessions to better assess the effectiveness of FAS strategies and activities. FAS will incorporate
clear, outcome-based performance measures into Country Strategy Statements. Written guidance
that includes the recommended measures will be issued by March 2014. FAS will coordinate
with the Department to update the current Global Market Strategy (GMS) primarily to reflect the
two FAS strategic pillars relating to marketing and trade, and to provide discussion of the third
pillar regarding capacity building. FAS will introduce the revised GMS into the Intra-
Departmental Coordination Committee on International Affairs process by December 31, 2013.

CHALLENGE 6: Action Needed to Improve Natural Resources Stewardship
One of USDA’s mission areas is ensuring the health of the land through sustainable management
and conservation of the Nation’s natural resources. Over the years, USDA’s agencies,
particularly the Forest Service (FS) and NRCS, have had to balance budgetary concerns with the
increasing demands placed on our Nation’s public lands. They also have logistical issues related
to the management of vast and geographically diverse natural resources. These agencies now
face growing concerns such as climate change, increasing land development, conservation
measures that affect human safety, and drilling for oil and gas on National Forest System (NFS)
land. Successfully managing these demands will continue to pose a challenge in future years.




                                               Fiscal Year 2013 Agency Financial Report | 146
                                                              Section 3: Other Information

OIG determined the following, regarding the Forest Service:
   FS allocated American Recovery and Reinvestment Act (ARRA) grants for wildland fire
    management (WFM) activities such as hazardous fuels reduction, forest health, and
    ecosystem improvements, without the necessary controls to ensure that the grant funds
    were both properly accounted for and used for their intended purpose;
   FS did not enhance its existing controls, despite the ARRA’s requirements for greater
    transparency and accountability;
   FS staff did not take necessary steps to ensure that the Agency met the ARRA’s overall
    objective of maximizing job creation and retention in the most cost-effective manner
    possible;
   FS needs to make greater improvements in managing the growing practice of drilling for
    oil and gas on NFS land;
   FS was not adequately safeguarding against environmental damage;
   FS could not validate whether all well sites were being inspected annually, as required;
   FS does not require operators to submit a spill plan that would ensure that operators are
    prepared to quickly respond to any spills;
   FS needs to work more closely with the Bureau of Land Management (BLM) in the
    Department of the Interior to regulate drilling operations including establishing a more
    formal means of communication;
   Without strong controls in place to ensure compliance and effective program operations,
    NRCS cannot ensure that its budget for conservation efforts — $4.34 billion in FY 2012 —
    is used efficiently or correctly;
   NRCS did not have the necessary controls in place, it did not always target funds to those
    easements most in line with program goals, or ensure easements were maintained
    consistent with conservation program goals; and
   NRCS did not always adequately communicate program rules to landowners, such as
    actions prohibited on easements.

Corrective Actions:
FS implemented several actions during FY 2013 to monitor grants provided under ARRA and to
improve grant administration. FS reviewed ARRA equipment purchases and certified that the
purchases of the equipment were necessary and that they were used primarily for the projects to
which they had been charged. FS reviewed all active ARRA grant agreements to determine
whether the required ARRA provisions were included, and if they were not, revised the
agreements to include the provisions. FS also reviewed all existing non-Federal WFM ARRA
and non-ARRA-funded grants to ensure that grant recipients claiming indirect costs had the
OMB required approvals and supporting documentation. FS provided training for Program
Managers, Grants and Agreements (G&A) Specialists, and agency partners. Training included
webinars on financial management systems review, indirect costs, and A-133 audits; a webinar
on the proper distribution of salary; and 3 week-long training sessions covering Uniform

                                               United States Department of Agriculture | 147
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Administrative Requirements; cost principles, and basic grant management in multiple locations
around the country. The agency worked closely with the Wyoming State Forestry Division to
improve its controls over sub-grant administration to ensure they reflect Federal requirements.

In FY 2014, FS will improve grant recipients’ use of funds by enhancing pre-award and
post-award controls and conducting training for staffs and grant recipients. FS will complete
various reviews to determine whether recipient costs were charged to ARRA and Non-ARRA
grants appropriately. FS will establish controls to correct processes that resulted in inadequate
accounting, unsupported salaries, non-competitive procurements, and unauthorized indirect
costs.

To enhance the exploration and development of FS oil and gas resources on NFS land, FS has
taken steps to improve coordination with the BLM. FS Minerals and Geology staff began
monthly meetings with the BLM to discuss the status of the oil and gas program and issues.
These meetings will ensure better coordination and communication with the BLM to improve
management of the FS oil and gas program. FS has requested access to the BLM’s Automated
Fluid Mineral Support System (AFMSS) to track FS nominations for oil and gas leasing, which
will improve timeliness of processing lease nominations, track inspections, and incorporate fields
to facilitate retrieval of information in AFMSS. FS will implement a training plan for their
officials that will have access to the system. FS also issued a letter to the Regional Foresters,
reiterating the guidance contained in the FS Manual, Section 2165 –Response to Hazardous
Material Releases, to develop spill response plans.

To continue to improve management of the Oil and Gas Program, FS will work with the BLM to
assess how well cooperative efforts are reducing leasing, permitting backlogs, and ensuring
surface compliance. FS will update the existing regional mineral leasing file databases to
generate a report that will do the following: identify the number of requests (lease offers and
expressions of interest) for leasing NFS lands; record the acreage associated with each request;
and track critical dates associated with individual nominations. FS will track leasing and permit
processing times in the various program databases and use average processing times as a
managerial tool for monitoring processing efficiency from year to year.

NRCS has updated the Emergency Watershed Protection Program Floodplain Easements
(EWPP-FPE) Manual to provide guidance on the definition of “natural condition” as it relates to
easement restoration; restoration measures that require future maintenance; significant
differences in preliminary and final restoration plans; land eligibility determinations; EWPP-FPE
applications for funding outside of strict rank order; and landowner offer.

NRCS issued easement monitoring policy in FY 2013. The National Easement Staging Tool
(NEST) was upgraded to allow NRCS to enter and track easements electronically. This will aid
in the detection and tracking of prohibited activities on EWPP-FPE easements. NRCS will
review 100 percent of the closed and restored EWPP-FPE easements in FY 2013. This will
include a review of the Warranty Easement Deed.




                                                Fiscal Year 2013 Agency Financial Report | 148
                                                               Section 3: Other Information

A new module was developed for NEST that will improve the tracking of landowner offers and
will require users to review, adjust, and verify final acreage and payment amounts to help
safeguard against improper payments. This module will be deployed when system upgrades are
installed in FY 2014.

In FY 2014, NRCS will update the EWPP Manual to include the definitions and documentary
support required for EWPP applications. The manual will include guidance on final ranking
criteria to use in the final project selection process. NRCS will provide training on
communicating the terms of the deeds to landowners and will implement upgrades to the NEST.

CHALLENGE 7: Food Safety Inspection Systems Need Improved Controls
Because foodborne pathogens and food contamination can put consumer health in jeopardy,
USDA inspection systems work to protect the safety of the U.S. food supply. The Department
provides a range of safety measures, from placing qualified inspectors in livestock slaughtering
facilities to creating comprehensive inspection and testing programs that pinpoint likely risks at
processing facilities. Additionally, the USDA grademark has come to stand as a symbol of safety
and quality. To maintain the confidence of consumers, Congress, and other stakeholders, FSIS
and AMS will continue to improve their technology systems, inspection processes, and
enforcement efforts to accurately assess risk and effectively prevent contamination. USDA’s
challenge is to remain vigilant to ensure that American consumers receive safe, wholesome,
properly labeled foods.

OIG determined the following:
   FSIS’ shell egg refrigeration policy was not sufficient to decrease the risk of Salmonella
    enteritidis (SE) contamination in shell eggs;
   AMS had been placing the USDA grademark for quality on shell eggs without knowing
    whether or not the shell eggs were potentially adulterated with SE;
   FSIS has a comprehensive system for testing raw ground beef products or product likely to
    become raw ground beef, but it needs to reevaluate its Escherichia coli (E. coli) testing
    methodology as it relates to the downstream processing of boxed beef products;
   Retail exempt establishments, such as grocery stores and butcher shops, grind their own
    ground beef; but unlike federally-inspected plants, FSIS does not sample and test trim at
    these establishments for E. coli. Likewise, despite several recent recalls, FSIS does not test
    tenderized meat products for E. coli;
   FSIS enforcement policies do not deter swine slaughter plants from becoming repeat
    violators; and
   FSIS initiated a pilot program, the Hazard Analysis and Critical Control Point-based
    Inspection Models Project (HIMP), in order to streamline the inspection process and
    improve food safety. FSIS has never assessed whether HIMP plants have been successful
    in improving food safety.




                                                United States Department of Agriculture | 149
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Corrective Actions:
During FY 2014, FSIS will complete its assessment on the effect of temperature deviations, time,
or other factors affecting the safety of shell eggs packed for the consumer and revise its
directives to strengthen its shell egg surveillance and enforcement activities.

FSIS will clarify its procedures for sampling boxed beef as trim by revising FSIS Directive
10.010.1, Verification Activities for Escherichia coli O157:H7 in Raw Beef Products and issue
relevant AskFSIS questions and answers. FSIS will also consider adjusting sampling frequencies
when grinders maintain their own testing programs. FSIS will perform a survey using the Public
Health Information System (PHIS) to identify establishments that grind whole primal or
sub-primal cuts and update plant profiles as appropriate. FSIS will also conduct an assessment
that will compare the level of Shiga toxin-producing Escherichia coli (STEC) O157
contamination in ground beef produced from boxed beef to the level of STEC O157 in ground
beef produced from trim. This assessment will evaluate the likelihood of detecting positive lots
of product under various testing schemes. If there is a significant amount of risk associated with
grinding of boxed beef and store-generated bench trim in retail establishments, FSIS will develop
a plan for a testing program. The plan will include milestones and reasonable timeframes to
implement a testing program to sample and test bench trimmings. FSIS will also complete the
non-intact beef risk assessment, the industry survey on industry practices related to tenderized
products, and analyze the risk of tenderized products. If FSIS finds a significant amount of risk
associated with the consumption of mechanically tenderized beef products, FSIS will develop a
sampling and testing program for tenderized products or their components. FSIS will develop a
plan to conduct annual reviews of its pathogen sampling databases and the procedures. FSIS will
develop a report that lists the sampling programs for which an establishment is eligible based on
its production and revise its policy. FSIS will ascertain the most common profile errors that are
causing establishments to be placed in inappropriate sampling programs and revise agency policy
to include a list of most common errors. FSIS will publish a proposed rule establishing
requirements for all official establishments and retail stores that grind raw beef products for sale
in commerce to maintain grinding logs. Should the grinding logs proposed rule become final,
FSIS will develop procedures to verify that grinding logs can be used to trace back implicated
product to the source supplier in the event that adulterated product has been produced, and FSIS
will also develop actions to take when the logs are inadequate.

FSIS is developing a strategy for taking progressively stronger enforcement actions against
plants with serious or repetitive violations to identify establishments that should be prioritized
for food safety assessment. FSIS will issue a notice or directive with instructions on the Rules of
Practice and decision criteria to enforce the public health decision criteria.

FSIS will update its training manual to document noncompliance and revise notices or directives
on the regulatory requirements of 9 CFR 416(2). The FSIS Directive 5020.1 Verification of
Salmonella Initiative Program will be updated to instruct inspectors to terminate waivers of




                                               Fiscal Year 2013 Agency Financial Report | 150
                                                                Section 3: Other Information

regulations for repetitive noncompliance. FSIS will also update the policy on visual and manual
inspections of viscera and develop the situation-based humane handling training modules for
inspectors. There will be a database to track the review of noncompliance records, suspensions,
and Notices of Intended Enforcement.

AMS will develop a revised definition of “condition” as it applies to shell eggs. The revision will
plainly state whether it relates to quality, is fit for human food, or both.

CHALLENGE 8: Identifying, Reporting, and Reducing Improper Payments
Can Strengthen USDA Programs
USDA delivers approximately $144 billion in public services annually through more than
300 programs. In FY 2012, USDA reported that 16 of its programs were vulnerable to significant
improper payments (“high risk” programs) and estimated that there were $5.5 billion in improper
payments for that year—a 5.11 percent error rate. While this represents a reduction from
FY 2011’s 5.37 percent error rate, the Department will continue to realize considerable cost
savings by identifying root causes, implementing corrective actions, and reducing its improper
payments.

OIG determined the following:
   USDA needs to fully comply, particularly with requirements involving USDA’s reporting
    practices and preventative measures;
   USDA agencies need to complete several actions (such as FNS completing its review of the
    National School Lunch Program’s (NSLP) error rate calculation methods) which would
    better assess results and achieve compliance;
   USDA’s FY 2012 quarterly reports on high-dollar overpayments and related actions did not
    always provide accurate, complete, and timely information;
   Quarterly reports included errors, did not include all reportable high-dollar overpayments,
    and were submitted to OIG after the due date;
   Many improper payments have occurred because of a lack of internal controls. FSA farm
    assistance payments identified 12 errors that led to $80,480 in improper payments which
    projects to about $17 million in potential improper payments; and
   The Farm Service Agency (FSA) needs to strengthen internal controls—particularly for the
    Supplemental Revenue Assistance Payments Program, which is the largest of its farm
    assistance programs. FSA needs to better protect against and identify manual payment
    calculation and input errors.

Corrective Actions:
USDA revised and strengthened improper payments guidance and worked with agencies to
improve the accuracy of reporting on improper payments, corrective actions, categorizing root
causes, and performing risk assessments. The Department published measurable milestones and


                                                United States Department of Agriculture | 151
        USDA: Managing for Results in Performing Its Many Vital Public Functions

completion dates for corrective actions in the USDA 2012 Agency Financial Report (AFR).
USDA revised the Corrective Action Plan Guidance to provide examples of categorizing root
causes of improper payments.

During FY 2013, USDA did the following:
   Conducted quarterly status meetings with managers of high-risk programs to discuss
    IPERA compliance requirements and reducing improper payments. Agencies developed an
    IPERA Compliance Plan and designated an accountable official;
   Provided IPERA compliance plans, timelines, and corrective actions to the Senate
    Homeland Security and Governmental Affairs Committee;
   Completed a secondary review of improper payment risk assessments;
   Revised the High-Dollar Overpayment Guidance to strengthen the reporting process;
    training in this guidance was provided to agencies;
   Required agencies with high-risk programs to document their High-Dollar Reporting
    process;
   Awarded a Supplier Credit Recovery Auditing (SCRA) services contract, which involved
    analyzing external vendor documentation to identify overpayment. USDA collected
    overpayments in three high-risk programs in the first phase of implementation; and
   Coordinated the Do Not Pay (DNP) on-boarding questionnaire process with agencies to
    obtain access to the DNP Portal for checking pre-award/eligibility. USDA received
    prepayment monthly results from the DNP Portal match against the public Death Master
    File and Excluded Parties List System. USDA is working on an efficient process to
    adjudicate the matches.
In FY 2014, USDA will strengthen the quality review process for accurate and complete agency
information in the Improper Payments section of the AFR. This report will include the timeframe
for overpayments recaptured and measurable milestones and completion dates for corrective
actions that address root causes of improper payments. USDA will evaluate reasons for unmet
reduction targets and will revise the risk assessment guidance to provide an adequate sample size
for test of transactions. USDA will improve the timeliness for the High-Dollar Overpayment
Quarterly Report and will work with OMB/Treasury to streamline the adjudication process for
the Do Not Pay monthly prepayment matches.

During FY 2013, FSA provided program information and guidance to contractors regarding
testing of two pilot programs: the Conservation Reserve Program (CRP) and Non-insured Crop
Disaster Assistance Program (NAP). FSA conducted briefing sessions with program managers,
financial managers, and information technology staff to enable contractors to start overpayment
recovery efforts. FSA conducted a 2-day video teleconference.

FSA held a video teleconference call with State offices, alerting States of the importance of
second-party reviews and highlighted the four areas of concern: share, acres, National Average
Market Price, and data discrepancies for the Supplemental Revenue Assistance Program.



                                              Fiscal Year 2013 Agency Financial Report | 152
                                                               Section 3: Other Information

CHALLENGE 9: USDA Needs to Increase Efforts for Appropriately
Training and Preparing Human Resources
In the current economic climate, USDA, like most of the Federal Government, has been asked to
accomplish more with fewer employees. For many agencies, this means appropriately training
and utilizing their available staff. As USDA faces significant staff reductions that restrict the
hiring of new employees, the Secretary announced in January 2012 that several agencies would
soon be undergoing a major restructuring intended to build an efficient and modern agency by
consolidating offices and reducing staff. While these decisions respond to the realities of
USDA’s current and future budgetary circumstances, as well as to changing demographics,
agencies will be expected to accomplish an increasing number of program objectives with fewer
employees—this may have significant consequences.

OIG determined the following:
   The review of the Recovery Act Rural Business Enterprise Grant (RBEG) program found
    that because the RBEG program is relatively small in comparison to other RBS programs,
    RBEG-specific information was not heavily emphasized during RBS staff training.
    Individuals responsible for administering the program were unaware of key program
    requirements. When personnel had to expeditiously disburse over $15.3 million in ARRA
    funding for 145 first-round RBEG projects, they did not sufficiently review projects and
    documentation—primarily because they were unfamiliar with all requirements;
   Issues with the Single Family Housing (SFH) Direct Loan Program were due to a lack of
    sufficient training and guidance. The field-level personnel were not sufficiently trained on
    conducting and documenting proper determinations, did not have an effective second-party
    review process, and did not have sufficient guidance on property eligibility; and
   The National School Lunch Program (NSLP), State agencies (SA) and school food
    authorities (SFAs) were unprepared to carry out their administrative functions due to a lack
    of guidance, information, and proper training.

Corrective Actions:
The Rural Business-Cooperative Service (RBS) recovered $14,940, but recovery of $18,228 is
not possible since the recipient is no longer in business. State offices have supported
disbursement of funds. The National Office provided training to all State Office Program
Directors and Specialists concerning grant servicing that covered documentation, quarterly
performance reports, and SF-270s for grants. SFH provided Direct Loan underwriting training
along with sessions about data integrity, construction issues, and funds management. A series of
presentations has been posted to the SFH Direct Training Hub SharePoint site. Rural Housing
Service (RHS) has discussed new regulations, policies, and procedures during monthly
teleconferences with housing staff nationwide. Transcripts of these teleconferences were posted
to the SharePoint site.




                                                United States Department of Agriculture | 153
        USDA: Managing for Results in Performing Its Many Vital Public Functions

RHS has revised Handbook-1-3550, Direct Single Family Housing (SFH) Loans and Grants to
address how to determine and document the acceptability of seller completed repairs prior to
loan closing and for publication during FY 2014.

FNS issued SP-23-2013 Guidance Reaffirming the Requirement that State agencies and School
Food Authorities Periodically Review the Food Service Management Company
Cost-Reimbursable Contracts and Contracts Associated with USDA Foods. This memorandum
sets forth the requirements that SFAs must properly account for, and receive credit on, invoices
for USDA-donated foods provided to Food Service Management Companies (FSMCs). SA must
monitor SFAs to ensure compliance with FSMCs, providing supporting documentation of all
credits received. SFAs are required to obtain documentation to allow it to identify allowable and
unallowable costs, and reconcile the amount of all rebate credits and the value of USDA foods
received on invoices presented for payment to the SFA. The memorandum also emphasizes the
importance of procurement training, reminds States of the availability of FNS’ Web-based
training modules, and suggests that State and SFA officials establish a periodic training schedule
for their staff with procurement responsibilities. FNS plans to issue periodic guidance to SAs to
complete the Web-based procurement training tool.

FNS is currently working with USDA’s Office of General Counsel to staff the working group
and develop a work plan that will include collecting current FSMC practices and offering
suggestions to improve compliance and oversight. FNS will develop an action plan to propose
minimum requirements for SAs to follow, including alternative review methods for FNS regional
and State agency officials to assess this operational area and make better use of limited
resources. A new training module will provide technical assistance and guidance for the
oversight and monitoring of FSMC contracts. FNS will mandate procurement training to assist
SAs and SFAs in their oversight and monitoring of FSMC contracts. This requirement is
included in the Child Nutrition Program Integrity Proposed Rule, which is currently going
through the clearance process.

FNS will review SA prototype contracts during the Management Evaluation (ME) process. FNS
will require the SAs to take corrective action to comply with specified timeframes. SAs will
develop contracts in accordance with Federal and State regulations. These actions will be
required and documented in the FY 2014 ME of the SA National School Lunch Program (NSLP)
and the School Breakfast Program (SBP) Operations Guidance.

CHALLENGE 10: FNS Needs to Strengthen SNAP Management Controls
By far the largest program within USDA, SNAP provides monthly food assistance and nutrition
for the health and well-being of more than 47 million low-income individuals. Due to the
economic downturn, program participation has grown by 80 percent since 2007 and the program
disbursed over $74.5 billion in benefits in FY 2012. Given the program’s significance, fraud
committed by both SNAP recipients and the retailers that redeem SNAP benefits is a critical




                                               Fiscal Year 2013 Agency Financial Report | 154
                                                                                           Section 3: Other Information

concern. With increased participation comes increased risk, and past audit work has found that
FNS needs to redouble its efforts not only to enforce its policies against such fraud as
trafficking,38 but also to establish strong internal controls to prevent it.

In recent years, FNS has taken measures to strengthen its oversight of SNAP in three key areas:
(1) reducing improper payments and errors, (2) combating the abuse and misuse of benefits, and
(3) better pursuing recipient and retailer fraud. FNS’ efforts have included improvements to its
anti-fraud retailer data system, further plans to upgrade retailer surveillance technology, and
promotion of a trafficking hotline number. Moreover, FNS is in the process of developing
stronger penalties and sanctions for small retailers. FNS has also sent letters to State
Commissioners and Governors in 2011 expressing the importance of addressing recipient
integrity issues.

While FNS has made progress, further efforts are needed to fully utilize available resources. OIG
recently analyzed SNAP-related databases at Federal and State levels to identify potentially
ineligible recipients. We found that 27,044 recipients (0.2 percent) in 10 States were receiving
approximately $3.7 million a month in SNAP benefits, even though they were potentially
ineligible. We attributed many of these issues to the fact that States do not make full use of tools
and databases available to them for ensuring applicant eligibility and detecting fraud—primarily
because FNS has not required their use. Also, States consider some databases’ information to be
unreliable, and must conduct further research before acting on data contained within them.
Additionally, while research is often conducted by the States’ fraud detection and prevention
units, FNS officials stated that States face significant resource challenges and are relying on
staffing cuts, as well as furloughs, to meet current financial challenges.39 We also found that
although FNS has a methodology for estimating a retailer trafficking rate, the method is based on
a judgmental rather than statistical sample, and the results may not be representative of the
retailer population. Therefore, the actual extent of trafficking could be over or underestimated. In
addition, the agency has not established a process to identify or estimate the total amount of
SNAP fraud occurring nationwide, either by recipients or by retailers.

As a result, FNS does not have the ability to effectively measure a total SNAP fraud rate over
time. We recommended that FNS specify a set of tools that States are required to use, and
establish associated guidelines. FNS has been responsive to our recommendations, reminding
States of the importance of data matching and issuing guidance encouraging States to make
greater use of USDA fraud data. FNS is also in the process of upgrading its technology to
increase data reliability and enhance functionality for the States.

In many ways, FNS’ technological advances have greatly improved FNS’ ability to detect and
prevent improper payments and fraud. However, as FNS updates this technology, FNS must
ensure that it is making full use of gathered data, and that its agency policies and employee skill
sets sufficiently supplement these automated efforts. For example, in a recent audit, OIG also
38
     Trafficking is the exchange of benefits for cash or other compensation.
39
     Analysis of FNS’ Supplemental Nutrition Assistance Program Fraud Prevention and Detection Efforts (27002-0011-13, September 2012)




                                                                          United States Department of Agriculture | 155
              USDA: Managing for Results in Performing Its Many Vital Public Functions

determined that FNS does not have clear procedures and guidance to carry out key oversight and
enforcement to address SNAP retailer fraud, or adequate authority to prevent multiple instances
of fraud either by a particular owner or within a particular location. In addition, FNS regional
offices put their limited resources towards other activities, such as retailer authorization, rather
than assessing and enforcing retailer penalties.

Overall, these issues have occurred because FNS has not yet comprehensively updated its
regulations and guidance to reflect the transition from a stamp-based benefit system to the
electronic benefit transfer system. Finally, FNS does not require retailers to undergo criminal
background checks. If FNS does not consistently provide deterrents for trafficking, the integrity
of SNAP is at risk, and taxpayer dollars may go to fraudulent retailers. In January 2013, FNS
reorganized its retailer management functions to streamline and enhance authorization,
reauthorization, and compliance activities. We view these efforts as a positive step in
strengthening enforcement, and believe FNS must also take a comprehensive look at its
regulations and guidance related to retailer authorization and fraud to ensure that these are clear,
effective, and updated.

Because we recognize that FNS cannot further strengthen its enforcement and detection efforts
without some financial investment, we believe FNS could improve its compliance efforts if it
were able to retain a portion of retailer penalties as a supplement to annual appropriations. We
recommended that FNS comprehensively review its policies, procedures, and guidance; require
background checks for retailers; make improvements to its automated retailer data system; create
and strengthen safeguards for high-risk stores; and require more supervisory reviews. We
reached management decision on 12 of the 20 recommendations; however, further action from
the agency is needed to reach management decision on the other recommendations.40

Investigating SNAP fraud continues to be a priority for OIG based upon the level of funding this
program receives. OIG has significantly increased the level of investigative resources allocated
to combating SNAP fraud from 37 percent in FY 2010 to 52 percent in FY 2012. With this
increase has come a high percentage of success: the conviction rate for investigations of SNAP
fraud was 89 percent for FY 2012.

Typically, the focus of OIG’s investigations has centered on retailers engaging in SNAP
trafficking. After careful analysis of our investigative work and discussions with FNS, we
concluded that in order to address fraud more effectively and ultimately protect USDA funds,
States must also make a concentrated effort to deal with recipient trafficking. With this goal in
mind, OIG is working with FNS on an initiative to address both the retailers and recipients
identified through our investigations as engaging in SNAP trafficking. As we continue to review
SNAP fraud detection and prevention efforts and investigate instances of fraud, we are dedicated
to working with FNS to strengthen SNAP’s internal controls.




40
     Controls for Authorizing Supplemental Nutrition Assistance Program (SNAP) Retailers (27601-0001-31, July 2013).




                                                                     Fiscal Year 2013 Agency Financial Report | 156
                                                                Section 3: Other Information

Corrective Actions:
The retailer management function was centralized at the FNS headquarters in January 2013. The
potential number of ineligible SNAP recipients identified by OIG in their audits of 10 states,
referenced above, represented 0.20 percent of the total sample of cases reviewed by the audit
team. Subsequently, when each state followed up on the identified cases, it was determined that
actual errors again turned out to be a small fraction again of the initial 0.20 percent of cases
identified as potential anomalies. Where these actual errors were identified, the state pursued
recovery of the improper payment. FNS takes program integrity very seriously. Any errors are of
concern; however, FNS notes that the findings in these reports constitute an actual error rate well
below 0.20 percent of the caseload, which suggests that while current processes can be
improved, they are, in fact, working. FNS is committed to our continuing collaboration with our
state partners to further reduce errors.

FNS released the Recipient Integrity Management Evaluation Module, and FNS conducted
reviews of every State in FY 2013. The module is used by FNS to examine SA and local SNAP
offices to determine compliance with Federal requirements governing recipient and benefit
integrity. The ME Module focuses on four areas of recipient integrity, including the following:
investigations, administrative disqualification hearings, prosecutions, and reporting. FNS will
determine whether to create a uniform methodology for States to calculate their recipient fraud
rate, to be incorporated into a national recipient fraud rate.

The retailer management function was centralized at the FNS headquarters in January 2013. The
National Standard Operating Procedures provide a clear line of responsibility for all retailer
management functions as of February 1, 2013.

The retailer management policy handbook will be replaced by issue-specific policy memoranda.
A Quality Assurance Branch will be formed to address retailer management issues. The quality
assurance process will be integrated into the retailer management function in FY 2014. FNS is
working with its system contractor to address technology, security, and data integrity
improvements to the Electronic Disqualified Recipient System. FNS plans to conduct a full
Recipient Integrity ME review of all States in FY 2014.

Senior OIG officials have acknowledged that FNS has no statutory authority to directly access
the National Crime Information Center (NCIC) directly for the purpose of obtaining criminal
background checks for retailers. That being the case, FNS has agreed to initiate a proposed rule
that would require any new high-risk applicants and current high-risk retailers being authorized
who have not already completed such certification to provide FNS with a self-initiated NCIC
background check prior to authorization or reauthorization. The requisite work plan to initiate
this proposed rule will be completed in FY 2014.




                                                United States Department of Agriculture | 157
          USDA: Managing for Results in Performing Its Many Vital Public Functions


Summary of Financial Statement Audit and Management
Assurances
Summary of Existing Material Weaknesses
The U.S. Department of Agriculture’s material weaknesses and financial system non-conformance,
as related to management’s assurance for the Federal Managers’ Financial Integrity Act (FMFIA)
and the certification for the Federal Financial Management Improvement Act (FFMIA), are listed in
Exhibits 21 and 22.

Exhibit 21: Summary of Financial Statement Audit

        Audit Opinion                                                   Unmodified

         Restatement                                                        No

                                    Beginning                                                                  Ending
     Material Weakness                              New     Resolved       Consolidated       Reassessed
                                     Balance                                                                   Balance
Improvement Needed in Overall
                                           1                                                                      1
Financial Management*
Improvement Needed in
Information Technology Security            1                                                                      1
and Controls
TOTAL MATERIAL
                                           2                                                                      2
WEAKNESSES
* USDA reports Improvements Needed in Overall Financial Management as a financial system non-conformance in Exhibit 22.


Exhibit 22: Summary of Management Assurances

              EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING
                                       (FMFIA § 2)
 Statement of Assurance                                                 Qualified

                                  Beginning                                                                   Ending
    Material Weakness                             New     Resolved       Consolidated       Reassessed
                                   Balance                                                                    Balance
Information Technology                 1                                                                          1
Estimated Losses for Insurance
                                                    1                                                             1
Claims Calculation
TOTAL MATERIAL
                                       1                                                                          2
WEAKNESSES

             EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
 Statement of Assurance                                                Unqualified

                                  Beginning                                                                   Ending
    Material Weakness                             New     Resolved       Consolidated       Reassessed
                                   Balance                                                                    Balance
TOTAL MATERIAL
                                       0                                                                          0
WEAKNESSES



                                                          Fiscal Year 2013 Agency Financial Report | 158
                                                                           Section 3: Other Information



                             CONFORMANCE WITH FINANCIAL MANAGEMENT
                                  SYSTEM REQUIREMENTS (FMFIA § 4)
   Statement of Assurance             Systems do not conform to financial management system requirements
                                     Beginning                                                              Ending
      Material Weakness                              New     Resolved    Consolidated      Reassessed
                                      Balance                                                               Balance
Funds Control Management*                1                                                                     1
TOTAL
                                         1                                                                     1
NON-CONFORMANCES

                                         COMPLIANCE WITH FFMIA
                                                  Agency                                  Auditor
1. System Requirements                   No noncompliance noted                    No noncompliance noted
2. Accounting Standards                      Noncompliance noted                    Noncompliance noted
3. U.S. Standard General Ledger at           Noncompliance noted                    Noncompliance noted
Transaction Level
* USDA also reports this Funds Control Management weakness as noncompliance with FFMIA.




Improper Payments
Since fiscal year (FY) 2000, agencies have reported efforts to reduce improper payments through
the Office of Management and Budget’s (OMB) Circular No. A-11, “Preparation, Submission, and
Execution of the Budget.” Under the Improper Payments Information Act of 2002 (IPIA), as
amended by the Improper Payments Elimination and Recovery Act of 2010 (IPERA) and the
Improper Payments Elimination and Recovery Improvement Act of 2012 (IPERIA), executive
agencies must identify any of their programs that may be susceptible to significant improper
payments, estimate the annual amount of improper payments, and submit those estimates to
Congress. A program with significant improper payments (a high-risk program) has both a
2.5-percent improper payment rate of the total program outlays, and at least $10 million in
improper payments, or exceeds $100 million dollars in improper payments. Implementing
guidance for IPERA is located in OMB Circular No. A-123, “Management’s Responsibility for
Internal Control,” Appendix C, “Requirements for Effective Measurement and Remediation of
Improper Payments.”

Measuring and reporting improper payments is mandatory for five high-risk programs under the
former Section 57 of OMB Circular No. A-11. The U.S. Department of Agriculture (USDA) also
has identified an additional 11 high-risk programs through its risk-assessment process. This
risk-assessment process is used to review USDA programs and activities, and identify those
susceptible to significant improper payments.




                                                           United States Department of Agriculture | 159
        USDA: Managing for Results in Performing Its Many Vital Public Functions

Fiscal Year 2013 Results
The Department’s improper payment rate increased to 5.36 percent for FY 2013 from
5.11 percent for FY 2012. Outlays for the high-risk programs increased $7.3 billion from
FY 2012 to FY 2013. The largest increase in outlays was attributable to the Federal Crop
Insurance Corporation Program, which increased outlays by over $6 billion. The food and
nutrition assistance programs increased outlays by over $4 billion. USDA improper payment
measurement FY 2013 results are as follows:
   Six USDA high-risk programs reported improper payment rates for FY 2013 that met the
    programs’ reduction targets for FY 2013.
   Four USDA high-risk programs reported improper payment rates for FY 2013 that were
    below the programs’ improper payment rates reported for FY 2012.
   The Forest Service’s (FS) Wildland Fire Suppression Management Program reported an
    improper payment rate of 0.00 percent — less than the FY 2013 reduction target of
    0.02 percent.
   The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program
    (SNAP) reported an improper payment rate of 3.42 percent — less than the FY 2013
    reduction target of 3.81 percent, and less than the 3.80 percent improper payment rate
    reported for FY 2012. The SNAP improper payment rate is a historic low for the program.
   The Farm Service Agency’s (FSA) Market Assistance Loan Program reported an improper
    payment rate of 0.34 percent — less than the FY 2013 reduction target of 0.49 percent.
   FSA’s Noninsured Assistance Program (NAP) reported an improper payment rate of
    5.23 percent — less than the 7.00 percent improper payment rate reported for FY 2012.
   FSA’s Milk Income Loss Contract (MILC) reported an improper payment rate of
    0.17 percent — less than the FY 2013 reduction target of 1.80 percent, and less than the
    improper payment rate of 2.00 percent for FY 2011, the last year the program was
    measured.
   FNS’ Child and Adult Care Food Program (CACFP) reported an improper payment rate of
    1.09 percent, which met the FY 2013 reduction target and was less than the 1.53 percent
    improper payment rate reported for FY 2012.
   Rural Development’s (RD) Rental Assistance Program (RAP) reported an improper
    payment rate of 1.79 percent — less than the FY 2013 reduction target of 2.50 percent, and
    less than the 3.44 percent improper payment rate reported for FY 2012.
The root causes of USDA’s improper payments are summarized into the categories of
verification, authentication, and administration. Verification errors relate to verifying such
recipient information as earnings, income, assets, and work status. Authentication errors relate to
authenticating the accuracy of qualifying for program-specific requirements, criteria, or
conditions. Administration errors relate to the accuracy of the program staff’s entry,
classification, or processing of information associated with applications, supporting documents,
or payments.



                                               Fiscal Year 2013 Agency Financial Report | 160
                                                                 Section 3: Other Information

For FY 2013, the root causes of USDA’s improper payments were categorized as follows:
   More than 93 percent attributable to administrative error.
   More than 7 percent attributable to verification error.
In FY 2013, the Department took the following actions to address improper payments:
   Awarded a Supplier Credit Recovery Auditing (SCRA) services contract to a private sector
    recovery auditing contractor to identify vendor unapplied credits owed to USDA.
   Recovered RD’s RAP overpayments identified through the PRRA initiative, continued the
    testing phase of two FSA programs in Phase One implementation, and began requirement
    gathering for programs in Phase Two of the PRRA initiative.
   Enrolled USDA agencies with the Do Not Pay Portal through the on-boarding process for
    pre-award and eligibility checks at an applicable point in the program’s business process to
    prevent improper payments.
   Developed a process to adjudicate and report on Do Not Pay Portal prepayment matches to
    identify ineligible recipients and establish processes and business rules to prevent future
    improper payments.
   Revised its High-Dollar Quarterly Report guidance to provide additional clarification and
    transparency, held training for USDA agencies, and requested agency documentation of
    their high-dollar overpayment reporting processes.
   Provided semi-annual reporting of additional error measurements for USDA’s two
    high-priority programs, SNAP and National School Lunch Program (NSLP).
   Provided its improper payments information for the governmentwide
    PaymentAccuracy.gov Web site that includes key indicators and statistics by program.
   Completed risk assessments for 39 programs in FY 2013 as scheduled on a 3-year cycle.
    No new programs were declared high-risk as a result of the risk assessments.
USDA plans to continue reducing improper payments and expand the implementation of the
PRRA initiative during FY 2014. In addition to meeting requirements and addressing issues of
IPERA, the Department will continue to implement the requirements of IPERIA.

USDA’s FY 2014 actions planned to address improper payments include the following:
   Complete the implementation of Phase One of the PRRA initiative to identify, prevent, and
    recover overpayments made in the applicable agency programs.
   Develop and implement PRRA Phase Two programs, and identify additional agency
    programs and gather requirements for implementation of future phases of the PRRA
    initiative.
   Continue the implementation of the SCRA initiative to perform recovery auditing on
    vendor contract payments.
   Refine the adjudication and reporting of Do Not Pay pre-payment monthly matches and
    work with agencies to establish processes and business rules to prevent future improper
    payments.


                                                United States Department of Agriculture | 161
        USDA: Managing for Results in Performing Its Many Vital Public Functions

   Create aggressive correction action plans that target the root causes of improper payments
    and address internal control issues for each program by meeting quarterly with agency
    Chief Financial Officers on the status of each action.
Compliance with IPERA Requirements
The Office of Inspector General (OIG) conducts a compliance review of IPERA requirements
annually. OIG’s initial USDA IPERA Compliance Review for FY 2011 found that USDA
agencies did not fully comply with four of seven IPERA requirements. Information on the
findings, accomplishments, and planned actions by agency were included in the USDA FY 2012
Agency Financial Report (AFR), Section 1: Management’s Discussion and Analysis (MD&A),
Compliance with Laws and Regulations.

OIG’s USDA IPERA Compliance Review for FY 2012, dated March 14, 2013, found that
USDA agencies did not fully comply with three of seven IPERA requirements. Information on
the findings, accomplishments, and planned actions by agency are included in Section 1:
MD&A, Compliance with Laws and Regulations of this report (USDA FY 2013 AFR).

IPERA requires a graduated progression of actions for IPERA non-compliant programs to
become compliant over a 3-year period. Programs non-compliant for one fiscal year must submit
a plan to Congress describing the actions that the agency will take to become compliant. For
programs non-compliant for 2 consecutive fiscal years, OMB is to review the program and
determine if additional funding would help the agency come into compliance. For programs that
are non-compliant for 3 consecutive fiscal years, the agency must submit to Congress a
reauthorization proposal for each discretionary program or proposed statutory changes necessary
to bring the mandatory program into compliance.

FY 2013 Status of Non-Compliant Programs Based on USDA Agency Information
Provided for USDA FY 2013 Annual Financial Report
Based on information provided by the program agencies for the FY 2013 AFR, it appears that
USDA will be non-compliant for three of the seven IPERA requirements for FY 2013. The
programs are listed below by whether they were non-compliant for one fiscal year, two
consecutive fiscal years, or three consecutive fiscal years. OIG will conduct the USDA IPERA
Compliance Review for FY 2013 and publish their determination on compliance with the seven
IPERA requirements during FY 2014.

  1. Two programs did not report sufficient improper payment estimates.
      a. Non-compliant for two consecutive fiscal years:
          i. RMA’s FCIC Program.
      b. Non-compliant for three consecutive fiscal years:
          i. FNS’ CACFP.
  2. Eight programs did not meet their annual reduction targets.
      a. Non-compliant for one fiscal year:
          i. FNS’ NSLP.
          ii. FSA’s Conservation Reserve Program (CRP).
          iii. FSA’s Miscellaneous Disaster Programs (MDP).
          iv. RMA’s FCIC Program.

                                             Fiscal Year 2013 Agency Financial Report | 162
                                                                             Section 3: Other Information

           v. NRCS’ Farm Security and Rural Investment Program.
       b. Non-compliant for three consecutive fiscal years:
           i. FNS’ SBP.
           ii. FNS’ WIC.
           iii. FSA’s NAP.
   3. Two programs did not report improper payment rates of less than 10 percent.
       a. Non-compliant for three consecutive fiscal years:
           i. FNS’ NSLP.
           ii. FNS’ SBP.

I. Risk Assessment.
The Office of the Chief Financial Officer (OCFO) issued detailed guidance for the risk-assessment
process, including templates, and performed extensive reviews of drafts. Programs with larger
outlays were required to perform more detailed assessments than smaller programs.

For USDA’s largest programs, the risk-assessment process includes the following:
    Amount of improper payments needed to meet the reporting standards.
    Description of the program including purpose and basic eligibility requirements.
    Definition of improper payments specific to the program.
    Program vulnerabilities linked to improper payments.
    Internal controls designed to offset the program vulnerabilities.
    Internal controls testing for selected programs.
    Listing of significant reviews and audits.
    Final determination of risk level.
    Planned future enhancements.
    Description of how improper payments are recovered.
USDA has identified the following 16 programs as susceptible to significant improper payments.

Exhibit 23: Programs Susceptible to Improper Payments

       Selection Methodology                           Agency                                Program
Former Section 57 of Office of            Farm Service Agency (FSA),
                                                                              Marketing Assistance Loan (MAL)
Management and Budget (OMB) Circular      Commodity Credit Corporation
                                                                              Program
No. A-11, “Preparation, Submission, and   (CCC)
Execution of the Budget” (Circular
No. A-11).                                                                    Supplemental Nutrition Assistance
                                                                              Program (SNAP)
                                                                              National School Lunch Program (NSLP)
                                          Food and Nutrition Service (FNS)
                                                                              School Breakfast Program (SBP)
                                                                              Special Supplemental Nutrition Program
                                                                              for Women, Infants, and Children (WIC)
USDA Identified as Susceptible to         FSA, CCC                            Milk Income Loss Contract (MILC)

                                                          United States Department of Agriculture | 163
          USDA: Managing for Results in Performing Its Many Vital Public Functions

       Selection Methodology                  Agency                            Program
Significant Improper Payments                                    Program
                                                                 Loan Deficiency Payments (LDP)
                                                                 Direct and Counter-Cyclical Payments
                                                                 (DCP)
                                                                 Conservation Reserve Program (CRP)
                                                                 Miscellaneous Disaster Programs (MDP)
                                                                 Noninsured Assistance Program (NAP)
                                                                 Child and Adult Care Food Program
                                FNS
                                                                 (CACFP)
                                                                 Wildland Fire Suppression Management
                                Forest Service (FS)
                                                                 (WFSU)
                                Rural Development (RD)           Rental Assistance Program (RAP)
                                                                 Federal Crop Insurance Corporation
                                Risk Management Agency (RMA)
                                                                 (FCIC) Program Fund
                                Natural Resources Conservation   Farm Security and Rural Investment Act
                                Service (NRCS)                   Programs (FSRIP)




                                               Fiscal Year 2013 Agency Financial Report | 164
                                                                            Section 3: Other Information

II. Statistical Sampling.
An exhibit describing each program’s sampling process is below:

Exhibit 24: Program Sampling Process

       Agency              Program                                       Sampling Process
Farm Service Agency   Marketing              MAL information reported for FY 2013 is based on FY 2012 outlays. A
(FSA)/Commodity       Assistance Loan        statistical sample of high-risk programs is conducted by the FSA County
Credit Corporation    (MAL) Program          Office Review Program (CORP) under the direction of the Operations
(CCC)                                        Review and Analysis Staff (ORAS).
                                              Testing is conducted using statistically valid samples. A professional
                                               statistician, under contract to FSA, designs the sampling approach, defines
                                               the sample size, and identifies the sample items. Sample size is chosen to
                                               achieve a 90 percent confidence level.
                                              The list of selected payments is provided to FSA County Operations
                                               Reviewers who verify whether the payments were properly issued based
                                               on applicable program. Findings of non-adherence to the criteria related to
                                               the individual contracts, loans, or payments in the sample will identify
                                               potential improper payments made. The results of that review are
                                               summarized and submitted to ORAS to be analyzed. The improper
                                               payment rates are determined by the statistician using the data provided by
                                               ORAS

Food and Nutrition    Supplemental           SNAP information reported for FY 2013 is based on FY 2012 outlays. The
Service (FNS)         Nutrition Assistance   improper payment rate calculation process was described in the FY 2011
                      Program (SNAP)         PAR, which can be found at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
FNS                   National School         The NSLP information reporting for FY 2013 is based on the improper
                      Lunch Program            payment rate for School Year (SY) 2011-12 times the FY 2012 outlays.
                      (NSLP)                  The NSLP sampling process information was described in the FY 2011
                                               PAR, which can be found at
                                               http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.

FNS                   School Breakfast        The SBP information reporting for FY 2013 is based on the improper
                      Program (SBP)            payment rate for SY 2011-2012 times the FY 2012 outlays.
                                              The statistical sampling process for this program is similar to NSLP. See
                                               the NSLP description.

FNS                   Special                WIC information reported for FY 2013 is based on FY 2012 outlays and on
                      Supplemental           two components of the program:
                      Nutrition Program       Vendor Error — The vendor error sampling process was described in the
                      for Women, Infants,      FY 2011 PAR, which can be found at
                      and Children (WIC)       http://www.ocfo.usda.gov/usdarpt/usdarpt.htm; and
                                              Certification Error — The WIC certification error sampling process was
                                               described in the FY 2011 PAR, which can be found at
                                               http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.

FNS                   Child and Adult        CACFP information reported for FY 2013 is based on FY 2012 outlays. The
                      Care Food Program      CACFP sampling process information was described in the FY 2011 PAR,
                      (CACFP)                which can be found at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
FSA, CCC              Milk Income Loss       The same sampling process used for MAL was used to measure this
                      Contract Program       program.
                      (MILC)
FSA, CCC              Loan Deficiency        FSA did not perform a statistical sample for FY 2013 reporting because of
                      Payments (LDP)         very low volume of outlays and consistent improved performance leading to
                                             low improper payment rates during previous years. OMB and USDA will
                                             evaluate LDP annually to determine the type of measurement and Agency
                                             Financial Report (AFR) reporting to be done for a specific fiscal year.




                                                        United States Department of Agriculture | 165
           USDA: Managing for Results in Performing Its Many Vital Public Functions

        Agency              Program                                     Sampling Process

FSA, CCC               Direct and Counter-   FSA did not perform a statistical sample for FY 2013 reporting because of
                       Cyclical Payments     the uncertainty of the Farm Bill. DCP authority was to end on September 30,
                       Program (DCP)         2012. The authority was later extended.

FSA, CCC               Conservation          The same sampling process used for MAL was used to measure this
                       Reserve Program       program, except the statistical sample was drawn from program payments
                       (CRP)                 made from October 2012 through December 2012.

FSA, CCC               Miscellaneous         The MDP sampling process information was described in the FY 2011 PAR,
                       Disaster Programs     which can be found at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm. The
                       (MDP)                 same sampling process used for MAL was used for this program, except the
                                             statistical sample was drawn for the Livestock Forage Disaster program
                                             (LFP) payments made from October 2011 through September 2012,
                                             representing 12 percent of the MDP annual outlays and the Supplemental
                                             Revenue Assistance Payments (SURE) program payments made from
                                             October 2011 through September 2012, representing 82 percent of the MDP
                                             annual outlays. OMB and USDA will evaluate MDP components annually to
                                             determine if measurement and AFR reporting will be done for a specific
                                             fiscal year.

FSA, CCC               Noninsured            The same sampling process used for MAL was used to measure this
                       Assistance Program    program.
                       (NAP)

Forest Service (FS)    Wildland Fire         FS information reported for FY 2013 is based on FY 2012 outlays. The FS
                       Suppression           sampling process information was described in the FY 2011 PAR, which can
                       Management            be found at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                       (WFSU)

Rural Development      Rental Assistance     RAP FY 2013 reporting is based on FY 2012 outlays. The RAP sampling
(RD)                   Program (RAP)         process information was described in the FY 2012 AFR, which can be found
                                             at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.

Risk Management        Federal Crop          RMA completed the measurement of 2009, 2010, and 2011 crop year
Agency (RMA)           Insurance             indemnities reviewed during 2010, 2011, and 2012. For FY 2013 reporting,
                       Corporation (FCIC)    RMA sampled and reviewed the 2011 crop year, using those results to
                       Program Fund          replace the 2008 crop year results. The RMA sampling process information
                                             was described in the FY 2012 AFR, which can be found at
                                             http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.

Natural Resources      Farm Security and     NRCS information reported for FY 2013 is based on FY 2012 outlays. The
Conservation Service   Rural Investment      NRCS sampling process information was described in the FY 2012 AFR,
(NRCS)                 Act Programs          which can be found at http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                       (FSRIA)




                                                      Fiscal Year 2013 Agency Financial Report | 166
                                                                             Section 3: Other Information

III.    Corrective Actions.
Each program is required to develop a Corrective Action Plan. The following exhibit describes
actions taken and planned.

Exhibit 25: Program Corrective Action Plans

       Agency             Program                                       Corrective Actions
Farm Service Agency   Marketing            All of the estimated $7.9 million in MAL improper payments were attributable
(FSA)/Commodity       Assistance Loan      to administrative and documentation errors.
Credit Corporation    Program (MAL)        Causes of improper payments include:
(CCC)                                       Signature on note obtained after loan disbursement;
                                            Note not signed by producer or producer’s representative; and
                                            Incorrect loan rate used.
                                           Actions planned to reduce improper payments:
                                           Issue a notice to remind field offices of policy regarding required signatures
                                           before MAL disbursement.
                                           Completion Date: September 2013.
                                           Issue a notice to remind field offices of policy regarding acceptable signatures.
                                           Completion Date: September 2013.
                                           Issue a notice to remind field offices of policy regarding the applicable MAL
                                           rate. The correct MAL rate is where the commodity is stored when the initial
                                           MAL is disbursed. Completion Date: September 2013.
FNS                   Supplemental         All of the estimated $2.5 billion in SNAP improper payments were attributable
                      Nutrition            to administrative and documentation error.
                      Assistance Program   Causes of improper payments include:
                      (SNAP)               An improper payment occurs when a participating household is certified for
                                           too many or too few benefits compared to the level for which they are eligible.
                                           This can result from incomplete or inaccurate reporting of income and/or
                                           assets by participants at the time of certification and from changes subsequent
                                           to certification, or errors in determining eligibility or benefits by caseworkers.
                                           Eligibility worker delays in action or inaction taken on client reported changes
                                           are also a cause of improper payments. An analysis of the FY 2012 completed
                                           statistical sample revealed that approximately 70.16 percent of all variances
                                           occurred before or at the most recent certification/recertification. In addition,
                                           65.92 percent of the errors were agency-caused. More than half of the errors
                                           (56.13 percent) were income related and were caused by misreporting by the
                                           client or misapplying the reported income by the agency. Misreporting or
                                           misapplying deductions was the second largest source of errors at 28.53
                                           percent.
                                           Actions planned to reduce improper payments:
                                           States with a high error rate will develop a quality control corrective action
                                           plan to address deficiencies revealed through an analysis of its own quality
                                           control data. States with an excessive error rate will invest a specified amount
                                           designated specifically to program improvements. Completion Date: Annually
                                           FNS will develop a pilot system that will allow States to detect duplicate
                                           participation in SNAP across State boundaries and within the same State.
                                           Completion Date: September 2013.




                                                        United States Department of Agriculture | 167
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      Agency         Program                                    Corrective Actions
FNS              National School   All of the estimated $1.8 billion in NSLP improper payments were attributable
                 Lunch Program     to administrative and documentation error.
                 (NSLP)            Causes of improper payments include the following:
                                    Misclassification by the schools of the meal eligibility status of participating
                                     students (certification error); and
                                    Improper meal counting and meal claiming by schools and school districts
                                     (non-certification error).
                                   Actions taken to reduce improper payments are as follows:
                                    FNS issued applications and other materials for households with limited
                                     English proficiency. The translated materials are now available in 33 other
                                     languages and lead to greater accuracy in application data and fewer
                                     certification errors. Completion Date: 2011.
                                    FNS issued a revised Eligibility Manual that contains information on
                                     determining students’ eligibility for free and reduced-price meals for the
                                     NSLP and the SBP. Completion Date: August 2012.
                                    FNS issued an updated Coordinated Review Effort (CRE) Procedures
                                     Manual and Forms and Instructions in January 2012. The CRE guidance was
                                     updated in 2013 to include current procedures used during the CRE reviews.
                                     This update reflects recent legislation and policy aimed at strengthening the
                                     monitoring process. Completion date: Manual, January 2012. Guidance,
                                     2013.
                                    FNS required annual training for schools on certification and accountability
                                     issues. Completion Date: SY 2012-2013.
                                    FNS established the Child Nutrition (CN) Division’s State Systems Support
                                     Branch to provide support and technical assistance to State Agencies to assist
                                     them in working toward successful program outcomes in the implementation
                                     of automated systems to improve: (1) CN program administration and
                                     performance; (2) access to CN program benefits through direct certification,
                                     direct verification, and other automated means to establish children’s
                                     eligibility for free and reduced-price meals; and (3) Federal reporting on
                                     program outcomes. Completion Date: 2010.
                                    FNS contracted with consultants to provide technical assistance directly to
                                     States in the areas of training and automation to assist States in identifying
                                     and targeting LEAs that are at high risk for operational errors. Completion
                                     Date: February 2011.
                                    FNS awarded a contract to provide technical assistance to support States in
                                     the area of direct certification improvements, including the collecting and
                                     sharing of State and Local Education Agency (LEA) best practices.
                                     Completion Date: August 2012.
                                    FNS provided funding to State agencies to implement the new meal pattern
                                     requirements. The funding was used to support training, technical assistance,
                                     and conducting performance-based reimbursement certification activities and
                                     validation reviews, and administrative reviews. Completion date: FY 2012-
                                     2013.
                                    FNS issued a policy memo detailing the school district’s ability and
                                     responsibilities to verify NSLP applications beyond the required sample size
                                     when there is cause. Completion Date: 2012.
                                   Actions planned to reduce improper payments are as follows:
                                    FNS will provide performance awards for States making the greatest
                                     improvement in the rate of children in SNAP households who are directly
                                     certified for School Years (SY) 2011-2012 and SY 2012-2013. Estimated
                                     Completion Date: SY 2013-2014.
                                    FNS will require annual training for schools on certification and
                                     accountability issues. Estimated Completion Date: SY 2013-2014.
                                    FNS will review requests for funding to SAs to perform administrative
                                     reviews and training in local education agencies that demonstrated a high
                                     level of administrative error, or who are at high risk for administrative error,
                                     in NSLP. Estimated Completion Date: Fall 2013.
                                    FNS will establish professional standards for school food service personnel,
                                     requiring professional education and training standards for certification of
                                     local school food service directors and staff, and criteria and standards for
                                     the selection of State Directors. Estimated Completion Date: 2013.
                                    FNS will allow for State agencies to fine local program operators and FNS to
                                     fine both State agencies and local program operators for gross


                                              Fiscal Year 2013 Agency Financial Report | 168
                                                                       Section 3: Other Information

      Agency       Program                                        Corrective Actions
                                       mismanagement and violation of program requirements. Estimated
                                       Completion Date: 2013.
                                      FNS will strengthen program compliance by prohibiting any school,
                                       institution, or individual that is terminated from one of the Child Nutrition
                                       Programs and on a list of disqualified institutions and individuals from
                                       participating in or administering any of the Child Nutrition Programs.
                                       Estimated Completion Date: 2013.
                                      FNS will provide alternatives to paper application systems in low-income
                                       areas. Community Eligibility is an alternative to collecting household
                                       applications and is being phased in over a period of 3 years in a limited
                                       number of States selected by FNS. Estimated Completion Date:
                                       SY 2014-2015.
                                      FNS will reinforce requirements on the monitoring of SFAs to ensure
                                       accuracy of household applications, application processing, meal count
                                       tabulation, and the identification of a reimbursable meal by requiring the
                                       development of a unified monitoring system to review NSLP and SBP,
                                       including a nutritional assessment for both programs; and States to conduct
                                       administrative reviews of all SFAs on a 3-year cycle. Estimated Completion
                                       Date: Unified monitoring system, late 2013 and State administrative
                                       reviews, SY 2013-2014.
                                      FNS will implement a State monitoring process to determine an SFA’s
                                       compliance with school meal programs’ requirements, which includes review
                                       instruments and training to headquarters, regional office, and State agency
                                       staff on the new monitoring process. Estimated Completion Date:
                                       SY 2013-2014.
                                      FNS will require an independent review of applications in order to increase
                                       the accuracy of eligibility determinations in school districts that demonstrate
                                       high levels of administrative error. Estimated Completion Date:
                                       SY 2014-2015.
                                      FNS will implement a revised FNS-742 “Verification Summary Report”
                                       form that requests additional data, simplifies the form’s instructions, and
                                       provides a more user-friendly layout. The revised form also captures direct
                                       certification data broken out by type, data on direct verification, and
                                       additional information related to verification and program participation, as
                                       well as data on verifications for cause. Estimated Completion Date:
                                       SY 2013-2014.
                                      FNS will implement a phased-in project to test the potential of direct
                                       certification using Medicaid data. Estimated Completion Date: 10 percent of
                                       students will be certified for free and reduced price meals nationwide by
                                       SY 2014-2015 and ongoing.

FNS            School Breakfast      All of the estimated $831 million in SBP improper payments were attributable
               Program (SBP)         to administrative and documentation error.
                                     Causes of improper payments include the following:
                                     The causes for this program are similar to NSLP. See the NSLP description.
                                     Actions taken and planned to reduce improper payments are as follows:
                                     The corrective actions for this program are similar to NSLP. See the NSLP
                                     description.
FNS            Special               All of the estimated $198.2 million in WIC improper payments were
               Supplemental          attributable to administrative and documentation error.
               Nutrition Program     Causes of improper payments include the following:
               for Women, Infants,    Participant is certified erroneously (i.e. deemed eligible though the
               and Children (WIC)      participant’s actual income was not within eligibility guidelines); and
                                      Overpayments and underpayments to WIC vendors.
                                     Actions taken to reduce improper payments are as follows:
                                     FNS conducted a vendor training that covered fundamental WIC vendor
                                     management requirements and practices. This vendor traning included the
                                     following: vendor selection criteria; peer group definitions and classifications;
                                     guidelines/criteria for setting competitive prices and maximum allowable
                                     reimbursement rates; and effective vendor monitoring. Completion Date:
                                     August 2012.
                                     Actions planned to reduce improper payments are as follows:
                                     Vendor monitoring will be the priority functional area for management


                                                  United States Department of Agriculture | 169
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      Agency         Program                                      Corrective Actions
                                     evaluations of WIC SAs. Program integrity training and oversight efforts are
                                     designed to strengthen WIC SA vendor management weaknesses, and discourage
                                     vendor attempts to defraud or overcharge the program. Estimated Completion
                                     Date: Late FY 2014.
FNS              Child and Adult     All of the estimated $10 million in CACFP improper payments were
                 Care Food Program   attributable to administrative and documentation error.
                 (CACFP)             Causes of improper payments include the following:
                                     Family Day Care Homes (FDCH) improper payments are caused by sponsor
                                     error in determining a participating home’s reimbursement tier (tiering error),
                                     or by FDCH error in reporting the number of meals that are eligible for
                                     reimbursement (claiming error).
                                     Overall actions taken to reduce improper payments include the following:
                                     FNS conducted a study relating to the CACFP, examining best practices of
                                     States in soliciting sponsors for an afterschool supper program. This study will
                                     strengthen the financial integrity process and work toward improving the
                                     balance of erroneous payments. Completion Date: November 2011.
                                     Actions taken to reduce improper payments are as follows:
                                      FNS implemented the Targeted Management Evaluation (TME) process to
                                       examine State agency administration of the CACFP in identified areas of
                                       management weakness. One aspect of the TME process involves Regional
                                       Office staff reviewing the State agency’s implementation of previously
                                       required corrective action and following up on suggestions made in previous
                                       management evaluations. A database was created to serve as a tool to enable
                                       FNS to review and report on many TMEs over an extended period of time
                                       and evaluate trends in the TME data. This allows FNS to highlight areas in
                                       need of improvement and/or focus on data in any specific areas within a
                                       TME. Completion Date: FY 2010-2011.
                                      FNS implemented changes from the Final CACFP Integrity Rule that affect
                                       institutions by clarifying application requirements as they pertain to funding,
                                       who comprises its board of directors, and what must be in the budget. The
                                       changes also modify the monitoring process to enable institutions to better
                                       identify problematic facilities and makes changes to the serious deficiency
                                       process by defining new unappealable actions and clarifying certain steps in
                                       the process. Completion Date: July 2011.
                                      FNS developed a 2-year work plan to address ongoing integrity concerns in
                                       the CACFP. The plan recognized that results from FNS’ TME approach can
                                       be used to develop resources and training for CACFP State and local
                                       agencies. This plan combined monitoring and resource development
                                       activities to address program weaknesses. In addition, Regional Office staff
                                       followed up on all 2010 and 2011 CACFP TMEs to ensure State agencies
                                       had properly implemented the required corrective actions. Completion date:
                                       FY 2012-2013.
                                      FNS required sponsoring organizations to conduct periodic unannounced site
                                       visits at not less than 3-year intervals to sponsored child and adult care and
                                       family or group day care homes; at least one scheduled site visit each year at
                                       these centers and homes; and that the timing of unannounced reviews be
                                       varied in such a way that it makes the reviews unpredictable to sponsored
                                       facilities. Completion Date: April 2011.
                                      FNS simplified area eligibility determinations in CACFP, allowing the use of
                                       all levels of school data (elementary and secondary) for tiering
                                       determinations. Completion Date: February 2013.
                                      FNS issued policy memos, which are intended to minimize errors in meal
                                       count and claiming, thus decreasing improper payments:
                                          Guidance on income eligibility determinations and the duration of
                                            eligibility, issued 2/10/11;
                                          Eligibility based on census data, issued 2/21/13;
                                          Eligibility based on school data, issued 11/23/12;
                                          FDH administrative reimbursements and carryover reporting, issued
                                            3/19/12;
                                          Guidance on reallocation of CACFP audit funds and SAE funds, issued
                                            3/21/12;
                                          Tax exempt status for private non-profit organizations, issued 1/24/13;
                                          Guidance on requirements for additional state agency requirements,

                                                Fiscal Year 2013 Agency Financial Report | 170
                                                     Section 3: Other Information

Agency   Program                                Corrective Actions
                         issued 3/29/13;
                        Automatic revocation of tax exempt status, issued 7/25/11;
                        Clarification of the eligibility status of children evacuated from Japan and
                         Bahrain, issued 4/01/11;
                        Categorical eligibility of foster children, revision issued 4/16/13;
                        Area eligibility for FDCHs, issued 12/22/10;
                        Categorical eligibility for participants of Temporary Assistance to Needy
                         Families (TANF), issued 4/19/10;
                        Extending categorical eligibility to additional children in a household,
                         issued 5/03/10; and
                        Meal disallowance policies for FDCHs and record maintenance
                         requirements for FDCH providers, issued 3/31/09 and 2/24/09.
                   Actions planned to reduce improper payments:
                   FNS workgroups are developing guidance materials to expand existing
                   regulation, policy, and instruction, in order to provide resources to new
                   Program staff and to assist States, and institutions in developing or improving
                   existing policies and resources. Guidance materials being developed are
                   focused on the following areas:
                    Multi-State sponsors instruction;
                    Effective monitoring (SA level only; local monitoring guidance is in
                     process);
                    Serious deficiency guidance (includes SA and sponsoring organization
                     implementation);
                    Budget review and approval guidance;
                    A revision of FNS Instruction 796-2, Financial Management: Child and
                     Adult Care Food Program;
                    Independent center handbook; and
                    Management evaluation guidance.
                   FNS, with the assistance of State agency staff, will conduct orientation and
                   refresher training on the guidance handbooks. The training will provide an
                   overview of the guidance handbooks, refresher training on critical
                   requirements of the Program, and post-implementation discussions.
                   Discussion, Q&As, scenarios, and case studies will be used to provide State
                   agencies the opportunity to share administrative strengths and work through
                   operational weaknesses. Estimated Completion Date: FY 2014.
                   Provide more CACFP audit funding in FY 2016, making additional monies
                   available to State agencies for program improvement. The State agency must
                   demonstrate it can effectively utilize this funding for program improvement.
                   Estimated Completion Date: This provision will be addressed in a proposed
                   rule to be published in Fall 2013.
                   ROs will conduct management evaluations of each State agency to ensure
                   successful implementation of TME corrective actions and/or to address State
                   agency compliance with the Healthy, Hunger-Free Kids Act of 2010 and the
                   Integrity Rule provisions and new issues of concern that have surfaced and
                   impact the integrity of State agency CACFP operations. Estimated Completion
                   Date: FY 2014-2015.
                   Actions planned to reduce improper payments:
                   The first 7 work products were completed by December 31, 2012. The
                   management evaluation guidance and regional office site training was
                   completed by September 30, 2013. FNS workgroups drafted guidance
                   materials on the following areas:
                    Multi-State sponsors instruction;
                    Effective monitoring (SA level only as local monitoring guidance is in
                     process);
                    Serious deficiency guidance (includes SA and sponsoring organization
                     implementation);
                    Budget review and approval guidance;
                    A revision of FNS Instruction 796-2, “Financial Management: Child and
                     Adult Care Food Program;”



                                United States Department of Agriculture | 171
       USDA: Managing for Results in Performing Its Many Vital Public Functions

     Agency         Program                                        Corrective Actions
                                       Independent center handbook;
                                       Sponsored center handbook; and
                                       During FY 2013, regional offices (ROs) will provide onsite training and
                                        technical assistance visits for State agency (SA) and local agency staff, as
                                        needed, to ensure successful implementation of targeted management
                                        evaluations (TME), corrective actions, and/or address new issues of concern
                                        that have surfaced and impact the integrity of SA CACFP operations.
                                        Monthly RO/Child Nutrition Division (CND) CACFP conference calls
                                        (facilitated by ROs) will include TME corrective actions as an agenda item to
                                        allow ROs/CND to discuss findings/corrective actions by category to
                                        promote implementation of best practices and consistency across regions.
                                       Management evaluation guidance.
                                      Beginning in FY 2013, FNS required sponsoring organizations to conduct
                                      periodic, unannounced site visits at not less than 3-year intervals to sponsored
                                      child and adult care and family or group day care homes, and at least 1
                                      scheduled site visit annually at these centers and homes. The timing of
                                      unannounced reviews will be varied in such a way that the reviews will be
                                      unpredictable to sponsored facilities.
FSA, CCC        Milk Income Loss      All of the estimated $0.7 million in MILC improper payments were
                Contract (MILC)       attributable to administrative and documentation errors.
                Program               Cause of improper payments include the following:
                                      Start month is unauthorized based on rules.
                                      Actions taken to reduce improper payments are as follows:
                                      Provided a notice to State and county offices providing detailed findings
                                      including referencing established policy and procedure for each finding.
                                      Completion date: August 2013.
FSA, CCC        Loan Deficiency       FSA did not perform a statistical sample for FY 2013 reporting because of
                Payments (LDP)        very low volume of outlays and consistent improved performance leading to
                                      low improper payment rates during previous years. OMB and USDA will
                                      evaluate LDP annually to determine the type of measurement and AFR
                                      reporting to be done for a specific fiscal year.
FSA, CCC        Direct and Counter-   FSA did not perform a statstical sample for FY 2013 reporting because of the
                Cyclical Payments     uncertainty of the Farm Bill. DCP authority was to end on September 30, 2012.
                (DCP)                 The authority was later extended.
FSA, CCC        Conservation          All of the estimated $6.3 million in CRP improper payments was attributable
                Reserve Program       to administrative and documentation errors.
                (CRP)                 Causes of improper payments include the following:
                                       Applicable payment reduction was not made;
                                       Incorrect rental rate was used;
                                       Payee exceeds Adjusted Gross Income (AGI) limitation; and
                                       No valid CRP contract was on file.
                                      Actions planned to reduce improper payments are as follows:
                                      Issue a notice to State and county offices providing detailed findings including
                                      referencing established policy and procedures for each finding. Estimated
                                      Completion date: September 2013.
                                      All certifications made by participants of compliance with the average
                                      Adjusted Gross Income (AGI) limitations are subject to a verification process
                                      with the Internal Revenue Service (IRS). This verification process does not
                                      provide USDA with specific income information; instead, IRS indicates to
                                      USDA whether it appears that an individual or entity may have exceeded an
                                      average AGI limitation. If, upon further FSA review of a case questioned
                                      through the IRS process, it is determined an individual or entity did, in fact,
                                      exceed the applicable AGI limitation, the individual or entity will be
                                      determined ineligible, unless the exception or waiver applies in regard to a
                                      conservation program. Although a notice was disbursed March 2013, these
                                      activities are a part of the normal compliance procedures and are ongoing.
FSA, CCC        Miscellaneous         All of the estimated $22 million in SURE improper payments were attributable


                                                 Fiscal Year 2013 Agency Financial Report | 172
                                                                      Section 3: Other Information

     Agency       Program                                       Corrective Actions
              Disaster Programs    to administrative and documentation errors. All of the $2.3 million in LFP
              (MDP)                improper payments were attributable to administrative and documentation
                                   errors.
                                   Causes of improper payments include the following:
                                    Workbook entries were incorrect (SURE);
                                    Payment was based on incorrect forage information (LFP);
                                    Producer did not meet Risk Management Purchase Requirement (LFP);
                                    Documentation was not on file to support grazing losses (LFP);
                                    Payee exceeded applicable Adjusted Gross Income limitation (LFP); and
                                    Monthly feed cost was calculated incorrectly (LFP).
                                   Actions taken to reduce improper payments are as follows:
                                   A handbook amendment directive was issued reminding State and county
                                   offices of the importance of second-party reviews. A National notice was
                                   issued that emphasized reviewing requirements of second-party review to help
                                   prevent improper payments. A video teleconference was held with all State
                                   offices pertaining to data load errors (SURE). Completion date: May 2013.
                                   Actions planned to reduce improper payments are as follows:
                                   A notice will be issued to field offices to reinforce program policies and
                                   procedures (LFP). Completion date: September 2013.
                                   All certifications made by participants of compliance with the average AGI
                                   limitations are subject to a verification process with the Internal Revenue
                                   Service (IRS). This verification process does not provide USDA with specific
                                   income information; instead, IRS indicates to USDA whether it appears that an
                                   individual or entity may have exceeded an average AGI limitation. If, upon
                                   further FSA review of a case questioned through the IRS process, it is
                                   determined that an individual or entity did, in fact, exceed the applicable AGI
                                   limitation, the individual or entity will be determined ineligible, unless the
                                   exception or waiver applies in regard to a conservation program. Although a
                                   notice was disbursed March 2013, these activities are a part of the normal
                                   compliance procedures and are ongoing.
FSA, CCC      Noninsured           All of the estimated $13.4 million in NAP improper payments were
              Assistance Program   attributable to administrative and documentation errors.
              (NAP)                Causes of improper payments include the following:
                                    Application for payment was not signed by producer before payment was
                                     issued;
                                    Unit yield is not properly calculated;
                                    Incorrect crop acreage used to calculate payment;
                                    Incorrect total production is used to calculate payment;
                                    Notice of loss filed late;
                                    Application for payments is not on file;
                                    Payee exceeded AGI requirements;
                                    Application for coverage is not on file;
                                    Incorrect crop type used to calculate payment;
                                    Payee share is incorrect; and
                                    Acceptable production evidence is not on file.
                                   Actions taken to reduce improper payments are as follows:
                                   Enhance payment software to retrieve acres information from the automated
                                   acre reporting data file. Completion date: June 2012.
                                   A notice will be issued to field offices to reinforce current program policies
                                   and procedures. Completion date: August 2013
                                   Actions planned to reduce improper payments are as follows:
                                   All certifications made by participants of compliance with the average AGI
                                   limitations are subject to a verification process with the IRS. This verification
                                   process does not provide USDA with specific income information; instead, the
                                   IRS indicates to USDA whether it appears that an individual or entity may
                                   have exceeded an average AGI limitation. If, upon further FSA review of a
                                   case questioned through the IRS process, it is determined an individual or
                                   entity did, in fact, exceed the applicable AGI limitation, the individual or entity


                                                United States Department of Agriculture | 173
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      Agency         Program                                       Corrective Actions
                                      will be determined ineligible, unless the exception or waiver applies in regard
                                      to a conservation program. Although a notice was disbursed March 2013, these
                                      activities are a part of the normal compliance procedures and are ongoing.

FS               Wildland Fire        FS corrective actions have reduced the potential for errors, resulting in the
                 Suppression          WFSU reporting a 0-percent improper payment rate. These actions include the
                 Management           following: improved internal controls; internal monitoring and reviews for
                 (WFSU)               potential improper payments; centralization of accounting functions; improved
                                      communications; and follow-up prior to payment authorization.
RD               Rental Assistance    All of the estimated $19.9 million in RAP improper payments were attributable
                 Program (RAP)        to administrative and documentation error.
                                      Causes of improper payments include the following:
                                       Documents that were not signed or dated; and
                                       Borrower/agent calculation errors.
                                      Actions taken to reduce improper payments are as follows:
                                      RD met with key industry groups to discuss this year’s audit findings.
                                      Completion date: July 2013.
                                      Actions planned to reduce improper payments are as follows:
                                       RD State office staff is required to follow up on each instance of error found
                                        in the audit, and either obtain appropriate supporting documentation for the
                                        subsidy amount paid, or begin recovery of unauthorized assistance amounts.
                                        Estimated Completion Date: December 2013.
                                       RD will participate with key industry groups’ training sessions to discuss
                                        typical IPIA errors. Estimated Completion Date: September 2014.

RMA              Federal Crop         Of the estimated $566.3 million in FCIC improper payments, a total of
                 Insurance            $453 million or 80 percent were attributable to verfication error, and a total of
                 Corporation (FCIC)   $113.3 million or 20 percent were attributable to administrative and
                 Program Fund         documentation error.
                                      Causes of improper payments include the following:
                                       Producer miscertification of yield, acreage, share, and other insurance data
                                        submitted in error; and
                                       Improper processing of producer-supplied information that includes data
                                        entry, calculation, and other third-party errors.
                                      Actions taken to reduce improper payments are as follows:
                                      RMA will monitor producers, administrative actions, and potential penalties
                                      for reinsurance company noncompliance. Completion Date: July 2013.
                                      Actions planned to reduce improper payments are as follows:
                                      Implement new actual production history procedures. Estimated Completion
                                      Date: 2015.




                                                 Fiscal Year 2013 Agency Financial Report | 174
                                                                     Section 3: Other Information

       Agency       Program                                     Corrective Actions
NRCS            Farm Security and   Of the estimated $157.9 million in FSRIP improper payments, a total of
                Rural Investment    $4.7 million or 3 percent were attributable to verfication error, and a total of
                Act Programs        $153.1 million or 97 percent were attributable to administrative and
                (FSRIP)             documentation error.
                                    Causes of improper payments were the following:
                                     Modification to extend period of performance was not executed in a timely
                                      manner;
                                     Entity participants not registered in SAM; and
                                     Funds to closing agents released prior to 7 days before anticipated closing
                                      date.
                                    Actions taken to reduce improper payments are as follows:
                                     NRCS conducted training for program staff, reminding them that all entity
                                      participants must be registered in SAM and that their registration must
                                      remain current. Completion date: June 2013.
                                     NRCS conducted reminder training for program staff on the current easement
                                      policy regarding advance payments. Completion date: June 2013.
                                     NRCS issued a National Bulletin requiring states to review all open easement
                                      obligations and to process modifications necessary to prevent period of
                                      performance expirations. Completion date: August 2013.
                                     NRCS provided training to financial management and program staff on
                                      newly issued National Bulletin, and instructed staff on how to populate the
                                      period of performance data element in FMMI. Completion date: August
                                      2013.
                                     NRCS drafted revised Wetland Reserve Program (WRP) policy to align with
                                      other advance payment policies. Completion date: September 2013.
                                    Actions planned to reduce improper payments are as follows:
                                     NRCS will work with the Department to ensure that the period of
                                      performance data element is available for all payment types and is available
                                      when reports are run and viewed; Develop and implement easement
                                      payment checklist that includes checking the status of obligations prior to
                                      payment; Publish revised WRP policy. Estimated Completion Date: March
                                      2014
                                     NRCS will conduct training on revised policy for program and financial
                                      management staff. Estimated Completion Date: December 2013




                                                 United States Department of Agriculture | 175
          USDA: Managing for Results in Performing Its Many Vital Public Functions

IV. Improper Payment Reporting
The following exhibit shows USDA’s high-risk programs. See the notes for an explanation of the
program’s measurement period and other applicable information.

Exhibit 26: Improper Payments Reporting Results

                                Improper Payments (IP) Reporting Results ($millions)
                                                      Results                                    Results
                                                Reported in FY 2012                        Reported in FY 2013

                                      Target                                      Target
             Program                  IP %       Outlays      IP %     IP $       IP %      Outlays    IP %      IP $
Marketing Assistance Loan Program,
                                        0.51%       2,878     0.08%           2    0.49%       2,344   0.34%            8
FSA/CCC [Note #3]
Supplemental Nutrition Assistance
                                        3.81%      71,813     3.80%    2,729       3.81%      74,639   3.42%     2,553
Program, FNS [Note #8]
National School Lunch Program,
FNS [Note #1]
  Total Program                        15.53%      10,024     15.53%   1,557      15.10%      11,304   15.69%    1,774
  Certification Error                                         8.65%      867                           8.81%       996
  Counting/Claiming Error                                     6.88%      690                           6.88%       778
School Breakfast Program, FNS
[Note #1]
  Total Program                        24.15%       2,987     25.18%     752      24.36%       3,290   25.26%      831
  Certification Error                                         9.39%      280                           9.47%       312
  Counting/Claiming Error                                     15.79%     472                           15.79%      519
Women, Infants, and Children, FNS
[Note #2]
  Total Program                         4.05%       4,886     4.13%      202       4.00%       4,520   4.38%       198
  Certification Error                                         2.98%      146                           2.97%       134
  Vendor Error                                                1.15%       56                           1.41%        64
Child and Adult Care Food Program,
FNS [Note #2]
  Total Program                         1.48%       2,653       N/A     N/A        1.53%       2,817     N/A      N/A
  FDC Homes – Tiering Decisions                       900     1.58%       14                     917   1.09%        10
  FDC Homes – Meal Claims                                       N/A     N/A                              N/A      N/A
Milk Income Loss Contract Program,      1.90%           1       N/A     N/A        1.80%         401   0.17%            1
FSA
Loan Deficiency Payments, FSA           0.44%         0.1       N/A     N/A        0.40%         0.1     N/A      N/A
[Note #5]
Direct and Counter-Cyclical             0.05%       3,867     0.50%       19       0.35%           0     N/A      N/A
Payments, FSA [Note #4]
Conservation Reserve Program, FSA       0.69%       1,686     0.36%           6    0.35%       1,651   0.38%            6
[Note #3]


                                                            Fiscal Year 2013 Agency Financial Report | 176
                                                                                 Section 3: Other Information

                                Improper Payments (IP) Reporting Results ($millions)
                                                      Results                                    Results
                                                Reported in FY 2012                        Reported in FY 2013

                                      Target                                      Target
             Program                  IP %       Outlays     IP %     IP $        IP %      Outlays    IP %      IP $
Miscellaneous Disaster Programs,
FSA [Note #6]
  Total Program                         2.80%         477    2.16%       10        2.10%         655   3.78%        24
  Livestock Forage Disaster
                                                      477    2.16%       10                       85   2.72%            2
  Program (LFP)
  Supplemental Revenue Assistance
                                                     N/A       N/A     N/A                       570   3.94%        22
  Payments (SURE)

Noninsured Assistance Program,          6.97%          69    7.00%           5     4.97%         256   5.23%        13
FSA [Note #3]

Wildland Fire Suppression               0.02%         694    0.00%      0.0        0.02%         835   0.00%       0.0
Management, FS [Note #11]

Rental Assistance Program, RD           1.45%       1,078    3.44%       37        2.50%       1,108   1.79%        20
[Note #9]

Federal Crop Insurance Corporation      4.40%       4,249    4.08%      173        4.00%      10,828   5.23%       566
Program Fund, RMA [Note #7]

Farm Security and Rural Investment      0.03%       2,088    0.02%      0.4        0.03%       2,277   6.93%       158
Act Programs, NRCS [Note #9]

USDA Total                              5.25%     107,696    5.11%    5,507        5.04%     115,024   5.36%     6,163




                                                            United States Department of Agriculture | 177
             USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit shows USDA’s high-risk programs and provides a detailed breakdown of
the annual amount of improper payments. It shows overpayments and underpayments, improper
payments due to disbursement errors, and incomplete paperwork. See the notes for an
explanation of the program’s measurement period and other applicable information.

Exhibit 27: Detailed Breakout of Improper Payments Reporting

                                   Detailed Breakout of Improper Payments Reporting for FY 2013
                  Total                                                          Incorrect   Incorrect
                Improper              Over-       Over-     Under-      Under-   Disburse-   Disburse-     Incomplete   Incomplete
                Payments             Payment     Payment   Payment     Payment     ment        ment        Paperwork    Paperwork
                $millions   IP %     $millions      %      $millions      %      $millions      %           $millions       %
Marketing
Assistance
Loan
                        8   0.34%            8     0.34%           0     0.00%           4        0.17%             4       0.17%
Program,
FSA/CCC
[Note #3]
Supplemental
Nutrition
Assistance          2,553   3.42%        2,068     2.77%        485      0.65%       2,553        3.42%             0       0.00%
Program, FNS
[Note #8]
National
School Lunch
                    1,774 15.69%         1,347    11.91%        427      3.78%       1,774        15.69%            0       0.00%
Program, FNS
[Note #1]
School
Breakfast
                     831 25.26%            716    21.77%        115      3.49%         831        25.26%            0       0.00%
Program, FNS
[Note #1]
Special
Supplemental
Program for
Women,
Infants, and         198    4.38%          147     3.25%          51     1.13%         198        4.38%             0       0.00%
Children,
FNS
[Note #2]
Child and
Adult Care
Food                   10   1.09%           10     1.09%           0     0.00%          10        1.09%             0       0.00%
Program, FNS
[Note #2]
Milk Income
Loss Contract           1   0.17%            1     0.17%           0     0.00%           1        0.17%             0       0.00%
Program, FSA
Loan
Deficiency
Payments,            N/A     N/A          N/A        N/A        N/A        N/A        N/A           N/A          N/A          N/A
FSA
[Note #5]




                                                              Fiscal Year 2013 Agency Financial Report | 178
                                                                                   Section 3: Other Information

                                   Detailed Breakout of Improper Payments Reporting for FY 2013
                  Total                                                          Incorrect   Incorrect
                Improper              Over-       Over-     Under-      Under-   Disburse-   Disburse-    Incomplete   Incomplete
                Payments             Payment     Payment   Payment     Payment     ment        ment       Paperwork    Paperwork
                $millions   IP %     $millions      %      $millions      %      $millions      %          $millions       %
Direct and
Counter-
Cyclical             N/A     N/A          N/A        N/A        N/A        N/A        N/A          N/A          N/A          N/A
Payments,
FSA [Note#4]
Conservation
Reserve
                        6   0.38%            6     0.38%           0     0.00%           6        0.38%            0       0.00%
Program, FSA
[Note #3]
Miscellaneous
Disaster
Programs,
FSA
[Note #6]              24   3.78%           17     2.66%           7     1.12%          22        3.75%            2       0.05%
LFP                     2   2.72%            2     2.43%         0.3     0.29%         0.3        0.29%            2       2.43%
SURE                   22   3.94%           15     2.70%           7     1.24%          22        3.94%            0       0.00%
Noninsured
Assistance
                       13   5.23%           10     4.11%           3     1.11%          13        5.23%            0       0.00%
Program, FSA
[Note #3]
Wildland Fire
Suppression
                        0   0.00%            0     0.00%           0     0.00%           0        0.00%            0       0.00%
Management,
FS [Note #11]
Rental
Assistance
                       20   1.79%           17     1.55%           3     0.24%          13        1.18%            7       0.61%
Program, RD
[Note #9]
Federal Crop
Insurance
Corporation
                     566    5.23%          524     4.84%          42     0.39%         566        5.23%            0       0.00%
Program
Fund, RMA
[Note #7]
Farm Security
and Rural
Investment
                     158    6.93%          158     6.93%           0     0.00%          10        0.43%          148       6.50%
Program,
NRCS
[Note #9]




                                                               United States Department of Agriculture | 179
          USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit shows future year outlays and improper payment estimates for USDA’s
high-risk programs.
Exhibit 28: Improper Payments Reduction Outlook

                                 Improper Payment Reduction Outlook ($millions)
                                    FY 2014 Reporting           FY 2015 Reporting          FY 2016 Reporting
          Program                Outlays    IP %     IP $     Outlays   IP %     IP $    Outlays   IP %     IP $
Marketing Assistance Loan
Program, FSA/CCC                       28    0.48%       1         28   0.40%       1         28   0.39%       1
[Note #10]
Supplemental Nutrition
Assistance Program, FNS            79,880    3.80%   3,035     79,471   3.80%    3,020    77,624   3.80%    2,950
[Note #8]
National School Lunch
                                   12,683   15.30%   1,941     12,682   15.17%   1,924    12,798   14.79%   1,893
Program, FNS
School Breakfast Program, FNS       3,700   24.43%      904     3,809   23.62%    900      3,973   22.84%    907
Women, Infants, and Children,
                                    4,467    4.28%      191     4,887   4.18%     204      5,081   4.08%     207
FNS
Child and Adult Care Food
Program, FNS                          936    1.48%       14       956   1.43%       14       957   1.38%       13
[Note #2]
Milk Income Loss Contract
                                      370    1.80%       7          0   1.80%       0          0   1.80%       0
Program, FSA [Note 13]
Loan Deficiency Payments, FSA
                                        0    0.40%       0          0   0.40%       0          0   0.40%       0
[Note #5]
Direct and Counter-Cyclical
                                    4,958    0.33%       16     4,958   0.31%       16     4,958   0.31%       16
Payments, FSA [Note #4]
Conservation Reserve Program,
                                    2,153    0.34%       7      2,160   0.33%       7      2,160   0.32%       7
FSA
Miscellaneous Disaster
                                      911    3.50%       32      NA        NA     NA        NA        NA     NA
Programs, FSA [Note #6]
                                        0    2.05%        0        0    2.04%       0         0    2.03%       0
LFP
                                      911    3.50%       32      N/A      N/A     N/A       N/A      N/A     N/A
SURE
Noninsured Assistance Program,
                                      225    4.97%       11       168   4.90%       8        168   4.80%       8
FSA
Wildland Fire Suppression
Management, FS                        993    0.02%       0      1,016   0.02%       0      1,036   0.02%       0
[Note #11]
Rental Assistance Program, RD       1,163    1.70%       20     1,221   1.60%       20     1,283   1.50%       19
Federal Crop Insurance
Corporation Program Fund,          10,145    5.15%      522     9,716   5.08%     494      8,017    5.0%     401
RMA
Farm Security and Rural
Investment, NRCS                    2,844    6.70%      191     2,759   6.50%     179      3,084   6.20%     191
[Note #12]

Note #1: Information has not been adjusted for interaction between the different sources of
certification error and counting/claiming error. NSLP and SBP estimated improper payment


                                                     Fiscal Year 2013 Agency Financial Report | 180
                                                               Section 3: Other Information

amounts reported for FY 2013 are based on improper payment rates for School Year (SY)
2011/2012, multiplied by the FY 2012 outlays.

Note #2: WIC and CACFP currently test components of their programs measuring FY 2012
outlays for FY 2013 reporting. CACFP currently tests and reports on the FDCH tiering decision
component of the payment process. FNS continues to evaluate the measurement processes for the
CACFP meal claim component. FNS has not set a date for measurement and reporting. A
CACFP reduction target lower than the improper payment rate of 1.09% is not realistic and
likely not achievable for CACFP in future years.

Note #3: MAL and NAP information for FY 2013 reporting is based on total outlays for
FY 2012. CRP information for FY 2013 reporting is based on January 2012 through
December 2012 outlays. The estimated improper payment dollar amounts for MAL, CRP, and
NAP may reflect variances from the relationship between the improper payment percentage and
the outlays amount. These variances result from the stratified, single-stage statistical sampling
methodology developed by the contract statistician in calculating the independent projections of
the dollars and percentages in error. The variances represent a complex ratio estimate weighted
with respect to the payments within their applicable county stratification. They reflect the
variability within the payment data and occur with a 90-percent confidence level.

Note #4: FSA did not perform a statistical sample for FY 2013 reporting because of the
uncertainty of the Farm Bill. DCP authority was to end on September 30, 2012. The authority
was later extended. OMB and USDA will evaluate DCP annually to determine the type of
measurement and AFR reporting to be done for a specific fiscal year.

Note #5: An LDP statistical sample was not performed due to low outlays during FY 2012 and
low improper payment rates in previous years, and the justification for not measuring LDP was
discussed with OMB. OMB and USDA will evaluate LDP activity annually to determine if
measurement for a specific fiscal year is cost effective.

Note #6: FSA measured two components of the several MDP components for FY 2013
reporting. A full statistical sample of all MDP components was not cost effective. The
Supplemental Revenue Assistance Payments (SURE) and Livestock Forage Disaster Program
(LFP) FY 2012 outlays (94 percent of all MDP outlays) were statistically sampled. MDP
program components are reported separately to provide detail error rate trends for specific
program components. The authority for LFP was limited to disaster events that occurred through
9/30/2011. It is anticipated that program activity will continue with the passage of the new Farm
Bill. There has been no statutory authority to issue SURE payments in FY 2015 and FY 2016. To
date, the Farm Bill signed by the U.S. Senate and the Farm Bill passed by the House both
eliminate the SURE program.

Note #7: RMA uses a 3-year running average to calculate its improper payment rate. FY 2012 is
based on the measurement of 2009, 2010, and 2011 crop year outlays.

Note #8: SNAP FY 2013 reporting information is based on FY 2012 outlays. SNAP reduction
targets may be reduced and adjusted in consideration of increased need resulting from further
growth in the program, which has been unprecedented during the past few years, and which has

                                                United States Department of Agriculture | 181
        USDA: Managing for Results in Performing Its Many Vital Public Functions

been affected by State budget constraints, and other related factors. The SNAP improper
payment rate trend line goes from 5.99 percent in FY 2007 to 3.42 percent in FY 2013. Due to
the above issues, it is not realistic and likely not achievable for SNAP to consistently have an
improper payment rate of 3.42 percent or less for future years. The SNAP reduction target rates
for FY 2014, FY 2015, and FY 2016 in Exhibit 28, are more realistic and achievable in
relationship to the SNAP trend line from FY 2007 through FY 2012.

Note #9: The FSRI, RAP, and WFSU programs’ information for FY 2013 reporting is based on
FY 2012 outlays.

Note #10: The MAL improper payment rate trend line goes from 7.52 percent in FY 2007 to
0.08 percent in FY 2012. The 0.34 percent rate for FY 2013 is an outlier compared to rates of the
previous 5 years. Due to the inherent variables in the statistical sampling measurement process, a
FY 2014 reduction lower than 0.34 percent is not realistic and likely not achievable. The MAL
reduction target rates for FY 2014, FY 2015, and FY 2016 in Exhibit 28 are more realistic and
achievable in relationship to the MAL trend line from FY 2007 through FY 2012.

Note #11: The WFSU program has reported a 0.00 percent improper payment rate for the past
5 years. Due to the inherent variables in the statistical sampling measurement process, it is not
realistic and likely not achievable for the WFSU program to consistently have a 0.00 percent
improper payment rate for future years.

Note #12: The FSRI program adjusted its testing criteria to include testing for registration of
participants in the System for Award Management (SAM), payments made too far in advance of
the anticipated easement closing date, and easements closed after the period of performance of
the purchase agreement. Due to these changes in the testing criteria, the FSRI program
experienced an increased error rate, and therefore, the future year reduction targets were adjusted
to reflect the changes made in the testing criteria.

Note #13: A MILC reduction target lower than the improper payment rate of 0.17% is not
realistic and likely not achievable for the program to consistently reduce improper payment rates
in future years.




                                               Fiscal Year 2013 Agency Financial Report | 182
                                                              Section 3: Other Information

V. Recapture of Improper Payments Reporting.
The Department awarded a payment recapture/recovery auditing (PRRA) services contract in
FY 2012 and a supplier credit recovery audit (SCRA) services contract in FY 2013 to private
sector contractors to identify program overpayments.

Under USDA’s phased implementation of the PRRA initiative, Phase One consisted of three
Department programs: the Farm Service Agency’s (FSA) Conservation Reserve and Noninsured
Assistance Programs, and Rural Development’s Rental Assistance Program (RAP). FSA and RD
worked with contractor staff to help them understand how the programs operate and how
improper payments occur within each program. It allowed the contractor to tailor its software to
each program to reduce false positives and assist in identifying overpayments made to ineligible
recipients. USDA plans to implement additional agency programs to the PRRA initiative during
FY 2014.

RAP is the only Phase One program that identified improper payments and recovered
overpayments in 2013, which are shown in Exhibit 29. FSA Phase One programs continue to
work with the contractor to identify improper payments. USDA anticipates reporting FSA
recovery information in future AFRs. The Department is developing a process to report
information on PRRA/SCRA for Exhibit 31, Aging of Outstanding Overpayments; and
Exhibit 32, Disposition of Recaptured Funds. USDA anticipates reporting aging of outstanding
overpayments and disposition of recaptured funds in future AFRs. The SCRA became active in
August 2013, and, therefore, has no collection activity to report. USDA expects to include SCRA
recovery information in future AFRs.

The following exhibits are designed to illustrate payment recapture audit (or recovery
auditing) efforts.




                                               United States Department of Agriculture | 183
                                                          USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit shows how recovery payments are reported for audits.
Exhibit 29: Payment Recapture Audit Reporting

                                                        Payment Recapture Audit Reporting ($ in millions)
 Program           Type of           Amount Subject          Actual           Amount             Amount         % of Amount           Amount             % of Amount
or Activity        Payment            to Review for         Amount          Identified for      Recovered      Recovered out         Outstanding        Outstanding out
                  (contract,          Calendar Year         Reviewed          Recovery            (CY)           of Amount              (CY)              of Amount
                grant, benefit,      (CY) Reporting            and              (CY)                           Identified (CY)                            Identified
                loan, or other)                             Reported                                                                                         (CY)
                                                              (CY)
Rental              Benefit               $1,108              $0.323            $0.174            $0.106            60.78%               $0.068              39.22%
Assistance
Program*



                                                        Payment Recapture Audit Reporting ($ in millions)
    Amount              % of Amount               Amounts               Amount            Cumulative          Cumulative          Cumulative             Cumulative
Determined Not        Determined Not to         Identified for         Recovered           Amount              Amount               Amount                 Amount
to be Collectible    be Collectible out of       Recovery in             (PYs)           Identified for       Recovered           Outstanding         Determined Not to
      (CY)            Amount Identified        Previous Years                              Recovery           (CY+PYs)             (CY+PYs)             be Collectible
                            (CY)                   (PYs)                                  (CY+PYs)                                                        (CY+PYs)
        $0                    0.0%                    N/A                N/A                 $0.174              $0.106               $0.068                   $0

*Exhibit 29 represents the one-year period September 1, 2012 – August 31, 2013. The column titled “Amount Subject to Review for CY Reporting” represents the FY 2012
program outlays. The column titled “Actual Amount Reviewed and Reported (CY)” represents the amount the recovery auditing contractor reported as potential improper
payments.




                                                                                                           Fiscal Year 2013 Agency Financial Report | 184
                                                                                                            SECTION 3: Other Information

The following exhibit shows how these annual targets, based on the rate of recovery, are used to drive performance.
Exhibit 30: Payment Recapture Audit Targets

                                                         Payment Recapture Audit Targets
Program or          Type of Payment     CY Amount      CY Amount       CY Recovery Rate (Amount           CY +1           CY + 2          CY +3
 Activity           (contract, grant,    Identified    Recovered          Recovered/Amount               Recovery      Recovery Rate     Recovery
                    benefit, loan, or                                         Identified)               Rate Target       Target        Rate Target
                         other)
Rental                   Benefit           $0.174         $0.106                 60.78%                     65%             70%            75%
Assistance
Program


The following exhibit shows an aging schedule of outstanding overpayments and 6-month periods.
Exhibit 31: Aging of Outstanding Overpayments

                                                          Aging of Outstanding Overpayments
    Program or           Type of Payment (contract, grant, benefit,       CY Amount              CY Amount            CY Amount Outstanding (over
     Activity                        loan, or other)                      Outstanding            Outstanding                   1 year)

                                                                        (0 – 6 months)        (6 months to 1 year)

Rental Assistance                        Benefit                            $0.068                    N/A                         N/A
Program




                                                                                              United States Department of Agriculture | 185
                                                 USDA: Managing for Results in Performing Its Many Vital Public Functions

The following exhibit shows a summary of how recovered amounts have been used.
Exhibit 32: Disposition of Recaptured Funds

                                                        Disposition of Recaptured Funds
Program or     Type of Payment          Agency Expenses to    Payment               Financial          Original   Office of   Returned to
 Activity       (contract, grant,         Administer the      Recapture           Management           Purpose    Inspector    Treasury
             benefit, loan, or other)       Program          Auditor Fees         Improvement                      General
                                                                                    Activities
Rental               Benefit                   N/A                N/A                     N/A            N/A         N/A          N/A
Assistance
Program


Exhibit 32 shows disposition of recaptured funds as Not Applicable (N/A) because recoveries reported in Exhibit 29 for the one-year
period September 1, 2012 – August 31, 2013, had not been disbursed as of August 31, 2013.




                                                                                           Fiscal Year 2013 Agency Financial Report | 186
                                                               SECTION 3: Other Information

The following exhibit includes amounts of USDA improper payments identified and recovered
by source from 4th Qtr FY 2012 to 3rd Qtr FY 2013, prior years, and cumulative. The prior year’s
column includes recoveries from FY 2004 through FY 2012.

Exhibit 33: Overpayments Recaptured

                     Overpayments Recaptured Outside of PRRA Initiative ($millions)
  Agency         FY 2013       FY 2013      Prior Years     Prior        Cumulative     Cumulative
  Source         Amount        Amount         Amount        Years        (Current &     (Current &
                Identified    Recovered      Identified    Amount        Prior Years)   Prior Years)
                                                          Recovered        Amount         Amount
                                                                          Identified     Recovered
Statistical
Samples           $12.88         $1.23        $894.62       $892.57         $907.50       $893.80
Under IPIA
Identified
Internally &
                 $207.43        $181.97       $547.06       $516.22         $754.49       $698.19
Post Payment
Reviews
Identified by
OIG & GAO         $91.77         $0.00         $10.07        $0.13          $101.84        $0.13
Audits
Self-reported
                  $0.23          $0.11         $0.00         $0.00           $0.23         $0.11
by recipient
Reports from
                  $0.01          $0.01         $6.06         $6.00           $6.07         $6.01
the Public
Other
                  $2.03          $1.80         $3.79         $3.32           $5.82         $5.12
Sources
USDA Total       $314.35        $185.12       $1,461.60    $1,418.24       $1,775.95     $1,603.36



VI. Accountability.
The following steps were taken to ensure that agency managers are held accountable for reducing
and recovering improper payments:

FSA
    FSA operates a performance-management program designed to improve individual and
     organizational effectiveness in accomplishing its mission and goals. This program provides
     for improper payments to be included in the State Executive Directors Performance Plan;
    National and State office (STO) managers are held accountable for ensuring that program
     policies and procedures are provided to the STO and county office (COF) employees
     accurately and in a timely manner. National office managers are also held accountable, as
     reflected in the performance-based rating measures, for overall program administration.
     FSA employees’ performance elements are directly related to its strategic plan;
    COF employees, including the county executive director, must pay producers and follow
     all administrative steps in doing so. Employees will be evaluated on program delivery, as
                                                   United States Department of Agriculture | 187
        USDA: Managing for Results in Performing Its Many Vital Public Functions

      well as compliance with regulations, policies, and procedures through their performance
      plans;
   In order to effectively prevent improper payments, SEDs’ having field offices with high
    improper payment error rates may require, within specific field offices, additional:
       Supervisory follow-up or performance actions;
       Payment review or approval levels; and
       County Office Review Program reviews targeting MAL beginning with FY 2014.
   The Deputy Administrator of Field Operations will facilitate meetings with the program
    areas to discuss any additional action necessary for senior management to address
    accountability; and
   FSA has incorporated the priority of reducing improper payments into its FY 2012-2016
    Strategic Plan, in accordance with USDA’s effort to develop comprehensive internal
    controls, quality assurance processes and systems, and comply with IPIA.
   The FSA Financial Services system was enhanced to include role-based security. The role-
    based functionality was implemented in December of 2008 to differentiate roles between
    those individuals responsible for creating/revising producer personal data from those
    having access to update any other program/payment application.

FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific
goals applicable to programs at high-risk for improper payments. The goal for SNAP is to maintain
a high standard of integrity in SNAP. The goal for CACFP and WIC is to reduce the improper
payment rates by continuing management improvements. The goal of NSLP and SBP is to improve
the accuracy of school administration processes that certify children for school meals. The agency
goals and priorities are incorporated into each manager’s performance plan.

FS
Management will be made aware of improper payments and held accountable for reduction and
recoveries of improper payments. The FS handbook directs managers and payment staffs to
manage and monitor the implementation of payment policies in accordance with direction issued
by the Chief Financial Officer in order to provide an appropriate control environment that
effectively prevents, detects, and recovers improper payments. The FS utilizes IPIA statistical
testing, review of improper payments and recoveries, and the Quarterly High Dollar Report to
detect improper payments. These analytics assist in identifying the number and dollar value of
improper payments that have been identified and recovered by the FS.

Dissemination of audit findings, recovery efforts and identification of root causes ensure
management’s awareness. Quarterly monitoring and corrective actions will improve
accountability, identification, and resolution of improper payments in a timely manner.




                                               Fiscal Year 2013 Agency Financial Report | 188
                                                           SECTION 3: Other Information

RD
RD State offices with improper payments will develop corrective action plans. The plan includes
procedures to train field staff, borrowers, and property managers in appropriate required
documentation and follow-up with tenants and income-verifiers.
   State Office Directors and program managers’ performance plans do include appropriate
    performance elements regarding IPIA and recovery of unauthorized assistance;
   Deputy Administrator of Multi-Family Housing Programs will facilitate monthly meetings
    with the State and area office program areas to discuss any additional action necessary for
    senior management to address accountability and program administration for improper
    payments and unauthorized assistance;
   The National office staff performance plan agreements contain position-corresponding
    mission-area strategic objective element goals and priorities, and are incorporated into each
    manager’s performance plan. Staff managing the RA program have appropriate
    performance elements regarding IPIA and recovery of unauthorized assistance included;
    and
   RD has a performance management program in place to improve individual and
    organizational effectiveness in accomplishing its mission and goals.

RMA
RMA revised its strategic plan and also reviews annual performance to ensure agency
management takes future corrective actions to address program vulnerabilities to reduce program
errors and increase efficiency. Additionally, every employee’s performance plan agreement has a
generic strategic objective element aligned with RMA’s major goals since FY 2005. For
example, compliance personnel have a generic standard tied to the goal associated with
improving program integrity.

NRCS
NRCS incorporated specific language regarding the prevention, identification, and recovery of
improper payments into the current State Conservationists’ performance plans.

VII. Agency Information Systems and Other Infrastructure.
Although USDA is creating information systems and infrastructure to reduce improper
payments, especially for programs susceptible to significant risk, efforts in some programs are
constrained by limited resources. The Department has worked closely with the Office of
Management and Budget to develop action plans that focus available resources on the most
critical needs with regard to improper payment measurement and risk reduction.




                                                United States Department of Agriculture | 189
        USDA: Managing for Results in Performing Its Many Vital Public Functions

FNS
The School Breakfast, National School Lunch, and Child and Adult Care Food Programs (CACFP)
do not have administrative infrastructure or methods for producing yearly estimates of improper
payment rates and dollar values. To establish and maintain effective internal controls to reduce
improper payments, FNS needs the following:
   Training and Technical Assistance — Effective and continual training and technical
    assistance are necessary to support the CACFP oversight activities and help States properly
    administer the Child Nutrition Program to ensure they are equipped to identify and prevent
    fraud and abuse. This is especially critical because of the changes made to these vital
    programs by the Healthy Hunger Free Kids Act of 2010 (P.L. 111-296), which reauthorized
    these programs and instituted new requirements on State agencies;
   Child Nutrition Payment Accuracy — FNS believes that robust Federal oversight,
    monitoring, and technical assistance are essential to the identification, prevention, and
    resolution of improper payments; and
   Coordinated Review Program — Providing training and technical assistance for State
    agencies responsible for reviewing local school food authorities that participated in the
    school meal programs. The Coordinated Review Effort helps ensure that school children
    are offered meals that meet regulatory standards and that the financial claims associated
    with those meals are appropriate.
In FY 2011, significant updates to both the State and Federal subsystems of the SNAP Quality
Control systems (SNAP-QCS) were deployed. The improvements to this system continue with
the addition of an electronic version of the Worksheet for SNAP Quality Control Reviews
scheduled for implementation on October 1, 2013. The goal of these efforts is to simultaneously
reduce administrative burden while expanding Federal/State data sets and analysis capacity to
combat improper payments.

FSA
FSA needs to do the following to reduce improper payments:
   Develop a system that will collect improper payment data for both overpayments and
    underpayments at the disbursing office level. These data will be used to develop collection
    goals and better identify what receivables and additional payables are directly related to
    improper payments;
   FSA must have a sufficient budget for staff, equipment, and supplies to continue to support
    software, eligibility checks, field spot checks, and compliance reviews; and
   Infrastructure improvements must include enhancements to support Web-based software
    and the necessary Federal staffing to define, design, develop, and maintain Web-based
    software. These enhancements will help to ensure better compliance reviews and eligibility
    validation through mainframe centralized databases. The time savings will allow field
    office employees to review and document other manual program-related issues in more
    detail.


                                              Fiscal Year 2013 Agency Financial Report | 190
                                                              SECTION 3: Other Information

   Through FSA’s information technology modernization effort, FSA is working to improve
    the delivery of its programs through the re-engineering of FSA’s business processes and the
    adoption of enhanced and modernized information technology. This modernization effort is
    a collaborative, cross-functional effort within FSA to advance and streamline business
    processes, and to achieve compliance by oversight, management, and accountability in the
    administration of FSA programs. Web-based software that is projected to be deployed in
    FY 2015 will provide numerous eligibility checks and maintain effective internal controls,
    and should aid in reducing improper payments. As these new processes are under
    development, budgeted allocations are vital to incorporate these efficiencies:
      Include the cost-share payment functionality into a single system with the CRP contract
       data and replace the two-system method that is currently in production. This system is
       currently in testing, and the migration to a single system is targeted to begin in FY 2013.
      Reduce the number of manually calculated payment reductions and adjustments by
       incorporating the management of all contract activities, such as managed haying and
       grazing, into the contract software. Requirements gathering and development is
       underway for the CRP Contract Maintenance and migration, and implementation of this
       enhanced functionality is targeted for FY 2014.
      Utilize the most current Financial Management Division (FMD) payment and financial
       control services including National Payment System (NPS) and the included obligation
       service provided the NPS service is made useful for long-term contracts that CRP
       manages by recognizing obligations for future fiscal years and by allowing financial
       controls to be managed at the State or National level rather than at the current county
       level. FSA is implementing a yearly process to obligate the CRP annual rental payment
       for the current payment year, which was used when issuing payments in October 2013.
       Management of CRP rental payment funds at the national level in eFunds was
       implemented in FY 2012 and continues to be utilized. FMD/NPS does not handle
       obligations for future years for CRP.
      Include the calculation of Signup Incentive Payments (SIP) and Practice Incentive
       Payments (PIP) incentives into the contract system to eliminate manual calculation and
       management of the program payments. Automation of SIP and PIP payments began in
       FY 2012, and requirements gathering and development is underway for the CRP
       Contract Maintenance and migration. Implementation of this enhanced functionality is
       targeted for FY 2014.

RD
The FY 2013 President’s Budget included a legislative proposal to allow property owners and
management agents’ access to the Department of Health and Human Services’ New Hires
database, a resource that will enable confirmation and verification of household income reported
by property tenants. Access to the database is estimated at $1.7 million for the first year of use.
Access to the database will be through a Web-based portal managed by the U.S. Department of
Housing and Urban Development.



                                                  United States Department of Agriculture | 191
        USDA: Managing for Results in Performing Its Many Vital Public Functions

RMA
While the program has seen significant growth, the Risk Management Agency’s (RMA)
administrative budget has remained relatively flat. Compliance has gained significant efficiencies
through data mining and other technology applications used to identify program vulnerabilities.
These improvements have been made without additional staff to review and recover improper
payments. Thus, progress will be restricted. RMA has effective internal controls in place; however,
the performance problems of a single company identified in the 2011 crop year reviews showed
weaknesses that must be corrected. Compliance considers this a reportable condition and has
identified the appropriate corrective action that is pending completion by the responsible
program areas. Additionally, Compliance staff has been unable to perform all the work assigned
based on the sheer size of the current program. For FY 2014, RMA proposed a budget to increase
the number of Compliance staff in order to review premium dollars not associated with
indemnities for improper payments. While this request was not approved, the current pending
Farm Bill contains an authorization to use program funding for Compliance staffing to combat
waste, fraud, and abuse.

VIII. Barriers.

FSA/Commodity Credit Corporation
The Department of Agriculture Reorganization Act of 1994, Section 281, provides that “[E]ach
decision of a State, county, or area committee or an employee of such a committee, made in good
faith in the absence of misrepresentation, false statement, fraud, or willful misconduct shall be
final not later than 90 calendar days after the date of filing of the application for benefits, [and]
...no action may be taken...to recover amounts found to have been disbursed as a result of the
decision in error unless the participant had reason to believe that the decision was erroneous.”
This statute, commonly referred to as the “Finality Rule,” will affect the Farm Service
Agency/Commodity Credit Corporation’s ability to recover improper payments.

The Food, Conservation, and Energy Act of 2008, Section 1506(e)(2)(B), provides that the
Secretary shall apply the same standards as were applied in implementing the dairy program
under Section 805 of the Agriculture, Rural Development, Food and Drug Administration, and
Related Agencies Appropriations Act, 2001. This provision precludes the Agency from
developing a definition of a single unit dairy operation that can be applied consistently among
States.

FNS
The Farm Security and Rural Investment Act of 2002 (FSRIA/2002 Farm Bill) restricts the
liability levels States can be sanctioned due to high improper payment rates and also restricts the
amount of bonus funding available to States that do a good job reducing and maintaining a low
improper payment rate. While the Healthy, Hunger-Free Kids Act provided new tools to promote
strong management and integrity in the school meals programs, statutory authority continues to
limit USDA’s ability to act in this area because of concerns about potential barriers to
participation. In many instances, the mandated goal of providing easy access to benefits must be

                                                Fiscal Year 2013 Agency Financial Report | 192
                                                            SECTION 3: Other Information

balanced against the goal of reducing improper payments. In addition, program administration is
highly decentralized, involving a myriad of Governmental and non-Governmental organizations.
There are approximately 100,000 school meal locations at which benefits are provided. Many of
these benefit providers simply do not have the capacity to develop robust accountability
processes. For these reasons, any approach to reducing school meal improper payments must:
   Improve accuracy without compromising access for low-income families. A process that
    keeps eligible children from participating would undermine the program;
   Not unduly increase burden on schools. Many schools consider the program burdensome
    now. Adding burden could discourage schools from participating;
   Be cost effective. Improving accuracy is potentially resource intensive; and
   Answer the needs of other users of program data. Certification data are often used to
    distribute millions of dollars in other kinds of benefits to schools. As these needs contribute
    to the problem, a solution may also require new commitments from those users.

RD
The RD program does not have the statutory authority, similar to the U.S. Department of
Housing and Urban Development, to gain access to data from the U.S. Department of Health and
Human Services Directory of New Hires, the U.S. Internal Revenue Service (IRS), the U.S.
Social Security Administration, and the U.S. Department of Labor to be shared with field offices
and management agents. Having these resources would better enable borrowers and management
agents to confirm and verify income information from tenants, on whose behalf rental assistance
subsidy is provided.

NRCS
Verification of eligibility continues to be an ongoing challenge for NRCS. Certain farm and
conservation programs have statutory provisions that limit the provision of assistance to persons
with income levels above specified amounts. The “Adjusted Gross Income (AGI)” eligibility
requirements that are applicable to NRCS-administered programs have been delegated to FSA.
NRCS has successfully coordinated with FSA to implement FSA’s validation of AGI
certifications so that any FSA changes in eligibility determinations are effective for NRCS’
conservation program payments. However, while FSA is working to be more current in their
validation process, improper payments related to AGI noncompliance cannot be avoided if
participants misrepresent their income.

Additionally, CCC’s Conservation Security Program, which is administered by NRCS, must pay
participants in advance of the implementation of conservation practices. The Conservation
Security Program has now been replaced by the Conservation Stewardship Program. Under the
former program, CCC was statutorily required to pay participants at the beginning of the fiscal
year in which the conservation practice is scheduled to be implemented. Since these payments
were made in advance, improper payments were sometimes detected via annual quality
assurance reviews but could not always be prevented. Under the Conservation Stewardship
Program, payments are not made in advance of performance.

                                                United States Department of Agriculture | 193
        USDA: Managing for Results in Performing Its Many Vital Public Functions


Inspector General Act Amendments of 1988: Management’s
Report on Audit Follow Up
Background
The Inspector General Act Amendments of 1988 (P.L. 100-504), require that each agency head
submit semi-annual reports to Congress on the actions taken in response to Office of Inspector
General (OIG) audit, evaluation, and inspection reports. Consistent with the Reports
Consolidation Act of 2000 (P.L. 106-531), the U.S. Department of Agriculture’s (USDA) Office
of the Chief Financial Officer (OCFO) consolidates and annualizes the required semi-annual
Inspector General Act Amendments’ reporting elements for inclusion in the annual Agency
Financial Report.

OIG audits USDA’s programs, systems, and operations. It then recommends improvements to
management based on its findings. Management may agree or disagree with the audit’s findings
or recommendations. An agreement is reached during the management-decision process. If
management agrees with a recommendation, a written plan for corrective action with a target
completion date is developed. The plan is then submitted to OIG for concurrence. If both OIG
and management agree that the proposed corrective action will correct the weakness, a
management decision is concluded for that recommendation.

Audit follow up ensures that prompt and responsive action is taken. USDA’s OCFO oversees
audit follow up for the Department. An audit remains open until all corrective actions for each
recommendation are completed. As agencies complete planned corrective actions and submit
closure documentation, OCFO reviews the submitted documentation for sufficiency and
determines if final action is completed.




                                              Fiscal Year 2013 Agency Financial Report | 194
                                                                              SECTION 3: Other Information

Fiscal Year Results (as of August 30, 2013)
USDA agencies closed 67 audits in fiscal year (FY) 2013. As of August 30, 2013, OIG and
USDA agencies reached management decision on 44 audits. As shown in the following exhibit,
the Department’s inventory of open audits decreased in FY 2013 by 22 percent from 124 to 102.

Exhibit 34: Open Audit Inventory

                     FY2009               FY2010               FY2011               FY2012               FY2013
     160

     140
                    135
     120                                                                            124
                                          114
     100                                                                                                 102
                                                               96
      80

      60

      40

      20

        0
                                            Open Audit Inventory

Note: The FY 2012 ending balance was revised from 114 to 124 to include 10 audits transmitted from the Office of Inspector
General after the reporting period. These adjustments are also reflected in the beginning balances for audits with disallowed
costs (DC) shown in Exhibit 36.


Audit Follow Up Process
The Inspector General Act Amendments of 1988 require an annual report to Congress providing
the status of resolved audits that remain open. Resolved audits are those for which management
decision has been reached for all recommendations. Reports on resolved audits must include the
elements listed in the bullets below:
    Beginning and ending balances for the number of audit reports and dollar value of
     disallowed costs (DC) and funds to be put to better use (FTBU) (see Exhibit 35 for
     definitions);
    The number of new management decisions reached (see Exhibit 35);
    The disposition of audits with final action (see Exhibit 35);
    Resolved audits that remain open one year or more past the management decision date and
     which require an additional reporting element; and
    The date issued, dollar value, and an explanation of why final action has not been taken.


                                                               United States Department of Agriculture | 195
          USDA: Managing for Results in Performing Its Many Vital Public Functions

Exhibit 35: Audit Follow-Up Definitions

        Term                                                         Definition
Disallowed Cost (DC)      An incurred cost questioned by the Office of Inspector General (OIG) that management has agreed
                          should not be chargeable to the Government.
Final Action              An action that management has agreed will address the audit findings and recommendations when
                          completed.
Funds To Be Put to        An OIG recommendation that funds could be used more efficiently if management completes the
Better Use (FTBU)         recommendation, including:
                           Reductions in outlays or other savings;
                           De-obligation of funds from programs or operation, or withdrawal of subsidy costs on loans,
                            guarantees, or bonds; and
                           Implementation of recommended improvements for grants or contracts or unnecessary expenditures
                            noted in pre-award reviews of contract or grant agreements.

Management Decision       Agreement between management and OIG on corrective action needed to address audit findings and
                          recommendations.


Beginning and Ending Inventory for Audits with Disallowed Costs and Funds
to Be Put to Better Use
Of the 67 audits that achieved final action during the fiscal year, 18 contained disallowed
costs (DC). The number of DC audits remaining in the inventory at the end of the fiscal year is
26 with a monetary value of $68,569,092. See Exhibit 36 below.

Exhibit 36: Inventory of Audits with Disallowed Costs

                   Audits with Disallowed Costs (DC)                                # of Audits              Amount ($)
Beginning of the Period                                                                  40                      $63,504,284
Plus: New Management Decisions                                                            4                      $12,136,681
Total Audits Pending Collection of DC                                                    44                      $75,640,965
Adjustments (see Exhibit 37)                                                                                      $1,464,298
Revised Subtotal                                                                                                 $74,176,667
Less: Final Actions (Recoveries)                                                         18                       $5,607,575
Audits with DC Requiring Final Action at the End of the Period                           26                      $68,569,092
Exhibit 36 and Exhibit 38 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain
both DC and FTBU amounts. For these reasons, the number of audits shown as the ending balances in Exhibit 36 and Exhibit 38
does not equal the total resolved audit inventory balance in Exhibit 34.


As shown in Exhibit 36 above, for DC audits that achieved final action in FY 2013, OIG and
management agreed to collect $7,071,873. Adjustments were made totaling $1,464,298
(21 percent of the total) because of the following: (1) USDA agencies’ inability to provide
sufficient documentation to substantiate DC; (2) legal decisions; (3) other changes (4)
contracting officer’s decision; and (5) agency discovery. Management recovered the remaining
$5,607,575.




                                                            Fiscal Year 2013 Agency Financial Report | 196
                                                                           SECTION 3: Other Information

Exhibit 37: Distribution of Adjustments to DC

                                 Category                                                                     Amount ($)
Agency Documentation                                                                                               $16,395
Legal Decisions                                                                                                   $945,508
Other changes                                                                                                     $442,683
Contracting Officer’s Decision                                                                                       $4,625
Agency Discovery                                                                                                   $55,087
Total                                                                                                           $1,464,298


Final action occurred on 2 audits that involved FTBU amounts. The number of FTBU audits
remaining in the inventory to date is 11 with a monetary value of $18,332,894 (see Exhibit 38).

Exhibit 38: Inventory of Audits with Funds To Be Put to Better Use (FTBU)

                           Audits with FTBU                                        # of Audits              Amount ($)
Beginning of the Period                                                                  7                    $106,905,411
Plus: New Management Decisions                                                           6                      $8,927,483
Total Audits Pending                                                                    13                    $115,832,894
Less: Final Actions                                                                      2                     $97,500,000
Audits with FTBU Requiring Final Action at the End of the Period                        11                     $18,332,894
Disposition of FTBU:
  FTBU Implemented                                                                                             $97,500,000
  FTBU Not Implemented                                                                                                   $0
  Total FTBU Amounts for Final Action Audits                                                                   $97,500,000
Exhibit 36 and Exhibit 38 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain
both DC and FTBU amounts. For these reasons, the number of audits shown as the ending balances in Exhibit 36 and Exhibit 38
does not equal the total resolved audit inventory balance in Exhibit 34.


The numbers of audits open 1 or more years without final action in FY 2013 decreased from
66 to 60 audits, a 10-percent decrease. The 60 audits include an additional 14 audits that reached
1 year past management decision date during FY 2013. USDA agencies continue to pursue
compensating controls that address many of the underlying issues identified in these older audits.




                                                             United States Department of Agriculture | 197
            USDA: Managing for Results in Performing Its Many Vital Public Functions

Exhibit 39: Decrease in the Number of Audits Open 1 or More Years Past the
Management Decision Date (MDD)

                          Audits One Year or More Past MDD                                                  # of Audits
Beginning of the period                                                                                           66*
     Less: FY 2012 audits closed                                                                                  20
Subtotal FY 2012 audits one year or more past MDD                                                                 46
     Plus: Audits that turned one year during FY 2012                                                             14
End of the Period*                                                                                                60*
* End of the Period includes 1 audit in appeal not listed in Exhibit 40. In addition, one audit was omitted from the FY 2011
ending balance.


Agencies have completed all planned corrective actions on 16 audits that are pending collection
of associated DC (see Exhibit 40 below).

Exhibit 40: Distribution of Audits Open One Year or More Past the Management Decision
Date (MDD)

            Audits On Schedule                           Audits Behind Schedule                   Audits Under Collection
     No.           DC ($)       FTBU ($)          No.        DC ($)         FTBU ($)        No.          DC ($)         FTBU ($)
      3              $0                $0          42      $15,869,752      $5,595,324      14       $14,106,856        $3,240,563


Management’s Report on Audit Follow Up
With the exception of one audit that is in appeals, audits without final action 1 year or more past
MDD and behind schedule are listed individually in the Exhibit 41. The audits are categorized by
the reason final action has not occurred. More detailed information on audits on schedule, in
appeals, and under collection, is available from OCFO.

Exhibit 41: Audits Open 1 Year or More, Past the MDD, and Behind Schedule

                                             Revised                             Monetary Amount
                             Date                                                                                  Pending by
          Audits                            Completion       Audit Title
                            Issued                                                                                   Reason
                                              Date                               DC ($)        FTBU ($)
                                            Agricultural Marketing Service (AMS)
 01601-1-32                  2/27/12          12/30/13       National                                         Internal monitoring
                                                             Organic
                                                                                   $0               $0
                                                             Program -
                                                             Organic Milk
 AMS Subtotal (1)                                                                   $0              $0




                                                               Fiscal Year 2013 Agency Financial Report | 198
                                                             SECTION 3: Other Information

                         Animal and Plant Health Inspection Service (APHIS)
33002-0004-SF        5/14/10     11/30/13    Inspection of      $0       $177,980
                                             Problematic
                                             Dealers
33601-0003-CH        2/20/03     4/30/14     Safeguards to
                                             Prevent Entry
                                             of Prohibited
                                             Pests And          $0            $0
                                             Diseases into
                                             The United
                                             States
33601-0007-CH        8/14/07     4/30/14     Review of
                                             Customs and
                                             Border
                                             Protection’s       $0            $0
                                             Agricultural
                                             Inspection
                                             Activities
33601-0011-CH        8/13/10     4/30/14     USDA’s
                                             Controls over
                                             Animal             $0            $0
                                                                                    Issuance of policy
                                             Import
                                                                                    guidance &
                                             Centers
                                                                                    legislation
33601-0012-CH        8/24/12     4/30/14     Effectiveness      $0            $0
                                             of the
                                             Smuggling,
                                             Interdiction,
                                             and Trade
                                             Compliance
                                             Unit
50601-0008-TE        1/28/05     11/30/13    Controls over
                                             APHIS
                                             Issuance of
                                             Genetically
                                                                $0            $0
                                             Engineered
                                             Organisms
                                             Release
                                             Permits
50601-0016-TE        5/31/11     4/30/14     Controls over
                                             Genetically
                                             Engineered
                                                                $0            $0
                                             Animal and
                                             Insect
                                             Research
APHIS Subtotal (7)                                              -        $177,980
                                Agricultural Research Service (ARS)
02601-1-CH           9/30/05     12/31/13    ARS                $0            $0
                                             Adequacy of
                                             Controls to
                                                                                    Pending
                                             Prevent the
                                                                                    administrative
                                             Improper
                                                                                    action
                                             Transfer of
                                             Sensitive
                                             Technology



                                                 United States Department of Agriculture | 199
        USDA: Managing for Results in Performing Its Many Vital Public Functions

                               Agricultural Research Service (ARS)
50601-6-TE          3/4/04     12/31/13    ARS Controls         $0        $0
                                           Over Plant
                                           Variety                             Conclusion of
                                           Protection and                      external action
                                           Germplasm
                                           Storage
50601-10-AT         3/8/04     12/31/13    ARS Follow           $0        $0
                                           Up Report on
                                           the Security of
                                           Biological
                                           Agents at U.S.
                                           Department of
                                           Agriculture                         Issuance of policy
                                           Laboratories                        guidance &
                                                                               legislation
50601-17-TE        12/12/08    12/31/13    ARS Control          $0        $0
                                           over
                                           Importation of
                                           Transgenic
                                           Plants and
                                           Animals
ARS Subtotal (4)                                                $0        $0

                              Commodity Credit Corporation (CCC)
06401-20-FM        11/9/05      9/30/14    CCC’s                $0        $0
                                           Financial                           Pending
                                           Statements for                      administrative
                                           FYs 2004 and                        action
                                           2004
CCC Subtotal (1)                                                $0        $0

                                Food and Nutrition Service (FNS)
27002-10-13        6/14/12     11/29/13    Analysis of       1,268,260    $0
                                           New York’s
                                           Supplemental
                                                                               Pending
                                           Nutrition
                                                                               administrative
                                           Assistance
                                                                               action
                                           Program
                                           Eligibility
                                           Data
27099-49-TE        3/10/08      5/31/14    Disaster Food        $0        $0
                                           Stamp
                                           Program for
                                           Hurricanes
                                           Katrina and
                                           Rita,
                                           Louisiana,                          Issuance of policy
                                           Mississippi                         guidance &
                                           and Texas                           legislation

27601-12-SF        11/18/11     6/30/14    Review of         $2,486,633   $0
                                           Management
                                           Controls for
                                           the Child and
                                           Adult Care
                                           Food Program



                                             Fiscal Year 2013 Agency Financial Report | 200
                                                                   SECTION 3: Other Information

                                   Food and Nutrition Service (FNS)
27601-16-AT         3/31/08       1/31/14        FNS Food             $0           $0
                                                 Stamp
                                                 Employment
                                                 and Training
FNS Subtotal (4)                                                   $3,754,893      $0

                                             Forest Service (FS)
08601-55-SF         6/16/11       2/28/14        Forest Service       $0        $5,387567
                                                                                             Issuance of policy
                                                 Administration
                                                                                             guidance &
                                                 of Special Use
                                                                                             legislation
                                                 Program
FS Subtotal (1)                                                       $0        $5,387,567
                                     Farm Service Agency (FSA)
03601-17-CH         9/29/08       12/31/13       Controls Over        $0           $0
                                                 Guaranteed
                                                                                             Issuance of policy
                                                 Farm Loan
                                                                                             guidance &
                                                 Interest Rates
                                                                                             legislation
                                                 and Interest
                                                 Assistance
50601-15-KC         8/1/11        12/31/13       FSA, NASS            $0           $0
                                                                                             Pending
                                                 Establishment
                                                                                             administrative
                                                 of Average
                                                                                             action
                                                 Yields
FSA Subtotal (2)                                                      $0           $0

                               Food Safety and Inspection Service (FSIS)
24601-0001-CH      6/21/2000     12/31/2013      FSIS Food            $0           $0
                                                 Safety and
                                                 Inspection
                                                 Service                                     Issuance of policy
                                                 Laboratory                                  guidance &
                                                 Testing of                                  legislation
                                                 Meat and
                                                 Poultry
                                                 Products
24601-0008-CH      8/23/2007     12/31/2014      FSIS Egg             $0           $0
                                                 Products
                                                 Processing
                                                 Inspection
24601-0008-HY      8/4/2008      12/31/2013      FSIS Follow          $0           $0
                                                 Up Review of                                Pending IT system
                                                 Food Safety                                 implementation &
                                                 and Inspection                              enhancements
                                                 Service’s
                                                 Controls Over
                                                 Imported Meat
                                                 and Poultry
                                                 Products




                                                     United States Department of Agriculture | 201
        USDA: Managing for Results in Performing Its Many Vital Public Functions

                                 Food Safety and Inspection Service (FSIS)
50601-0006-HY       7/15/2009      12/31/2013   FSIS                $0          $0
                                                Assessment of
                                                USDA’s
                                                Controls to                             Issuance of policy
                                                Ensure                                  guidance &
                                                Compliance                              legislation
                                                with Beef
                                                Export
                                                Requirements
24601-0001-31       5/9/2012        12/31/13    Application of      $0          $0
                                                FSIS
                                                Sampling                                Issuance of policy
                                                Protocol for                            guidance &
                                                Testing Beef                            legislation
                                                Trim for E.
                                                Coli O157:H7
FSIS Subtotal (5)                                                   $0          $0

                              Natural Resources Conservation Service (NRCS)
10401-1-11           11/8/11        1/31/14     Financial           $0          $0      Issuance of policy
                                                Statements for                          guidance &
                                                FY 2011                                 legislation
10401-2-FM          11/13/08        10/31/13    Financial           $0          $0      Pending IT system
                                                Statements for                          implementation &
                                                FY 2008                                 enhancements
10401-3-FM           11/4/09        5/30/14     Financial           $0          $0
                                                Statements for
                                                FY 2009
10401-4-FM           11/8/10        7/31/14     Financial           $0          $0
                                                Statements for
                                                FY 2010                                 Pending internal
                                                                                        monitoring/program
10601-6-KC           3/30/11        12/31/13    Emergency           $0        $29,777   reviews
                                                Disaster
                                                Assistance:
                                                Emergency
                                                Watershed
                                                Protection
                                                Program
10703-1-KC           9/8/10         12/31/13    NRCS ARRA           $0          $0
                                                Emergency
                                                Watershed
                                                                                        Pending
                                                Protection
                                                                                        administrative
                                                Program
                                                                                        action
                                                Floodplain
                                                Easement
                                                Phase I




                                                   Fiscal Year 2013 Agency Financial Report | 202
                                                                  SECTION 3: Other Information

                           Natural Resources Conservation Service (NRCS)
10703-3-KC           3/14/12        12/31/13     ARRA,               $0           $0
                                                 Emergency
                                                 Watershed
                                                 Protection
                                                 Program
                                                                                          Issuance of policy
                                                 Floodplain
                                                                                          guidance &
                                                 Easements,
                                                                                          legislation
                                                 Easement
                                                 Applications
                                                 on Non-
                                                 Agricultural
                                                 Land
NRCS Subtotal (7)                                                    $0         $29,777

                               Office of the Chief Information Officer (OCIO)
50501-1-IT           8/15/11        12/31/13     OCIO USDA’s         $0           $0
                                                 Management
                                                 and Security
                                                 Over Wireless
                                                 Handheld
                                                 Devices
50501-2-IT          11/19/10        12/31/13     OCIO FY             $0           $0
                                                 2010 Federal
                                                                                          Pending IT system
                                                 Information
                                                                                          implementation &
                                                 Security
                                                                                          enhancements
                                                 Management
                                                 Act
50501-15-FM         11/18/09        12/31/13     OCIO FY             $0           $0
                                                 2009 Federal
                                                 Information
                                                 Security
                                                 Management
                                                 Act
OCIO Subtotal (3)                                                    $0           $0


                                         Rural Development (RD)
04601-0020-CH       9/19/2011       7/31/2015    Rural Rental     $152,970        $0
                                                 Housing
                                                 Program -
                                                 Midwest
                                                 Apartment and
                                                 Management
                                                 Group, Inc.
04703-0002-CH       9/28/2011       9/30/2013    Controls over       $0           $0      Issuance of policy
                                                 Eligibility                              guidance &
                                                 Determinations                           legislation
                                                 for Single
                                                 Family
                                                 Housing
                                                 Guaranteed
                                                 Loan Recovery
                                                 Act Funds
                                                 (Phase 2)




                                                     United States Department of Agriculture | 203
        USDA: Managing for Results in Performing Its Many Vital Public Functions

                                    Rural Development (RD)
34099-0002-AT     9/14/2011   10/31/2013   Business and     $4,052,351       $0
                                           Industry Loan
                                           Program
                                           Omnivest
                                           Resources
                                           Inc.
34601-0004-AT     1/10/2003   10/31/2013   RBS Lender           $0           $0
                                           Servicing of
                                           Business and
                                           Industry
                                           Guaranteed
                                           Loans in
                                           Georgia
34601-0006-AT     6/25/2010   12/30/2013   Rural            $7,909,538       $0
                                           Business-
                                           Cooperative                                 Pending issuance
                                           Service’s                                   of policy guidance
                                           Intermediary                                & legislation
                                           Relending
                                           Program
34601-0015-TE     9/30/2003   10/31/2013   RBS National         $0           $0
                                           Report on the
                                           Business and
                                           Industry Loan
                                           Program
34703-0002-TE     12/5/2011   10/31/2013   American             $0           $0
                                           Recovery and
                                           Reinvestment
                                           Act - Business
                                           and Industry
                                           Guaranteed
                                           Loans, Phase
                                           2
RD Subtotal (7)                                             $12,114,859      $0
Total Number                               Total            $15,869,752   $5,595,324
Audits (42)




                                              Fiscal Year 2013 Agency Financial Report | 204
                                                           SECTION 3: Other Information


Freeze the Footprint
As part of the White House’s OMB Memorandum-12-12, Promoting Efficient Spending to
Support Agency Operations effort, USDA is implementing policy to “Freeze the Footprint,” by
which it has committed to “dispose of excess properties held by the Federal Government and
make more efficient use of the Government’s real estate assets.” USDA and other agencies “shall
not increase the size of their civilian real estate inventory except in certain exceptions.”

Exhibit 42: Freeze the Footprint

   Square            Fiscal Year 2012           Current Year 2013               Change
   Footage               Baseline                                             (2012-2013)
                        35,928,774                  35,817,753                  -111,021


USDA has issued an Agriculture Property Management Regulation (AGPMR NO. 13-05)
providing policy and procedures for Freeze the Footprint. The Department has set forth processes
and procedures to halt space needs at the FY 2012 baseline.




                                               United States Department of Agriculture | 205
                                                                                               Acronyms

Acronyms
A
A&A—Assessment and Authorization                      AGPMR—Agriculture Property Management Regulation
AARC—Alternative Agricultural Research and            AMS—Agricultural Marketing Service
Commercialization Corporation                         APHIS—Animal and Plant Health Inspection Service
ADA—Antideficiency Act                                APR—Annual Performance Report
AFMSS—Automated Fluid Mineral Support System          AQI—Agricultural Quarantine Inspection
AFR—Agency Financial Report                           ARRA—American Reinvestment and Recovery Act of 2009
AGI—Adjusted Gross Income                             ARS—Agricultural Research Service
B
BDO—Barter Delivery Obligation                        BLM—Bureau of Land Management
BFDL—Black Farmers Discrimination Lawsuit
C
C&A—Certification and Accreditation                   CNPP—Center for Nutrition Policy and Promotion
CACFP—Child and Adult Care Food Program               CoC—Cushion of Credit
CBO—Certificates of Beneficial Ownership              COF—County Office
CCC—Commodity Credit Corporation                      CORE—Core Accounting System
CFR—Code of Federal Regulations                       CORP—County Office Review Program
CI—Condition Index                                    CRE—Coordinated Review Effort
CM—Continuous Monitoring                              CRP—Conservation Reserve Program
CN—Child Nutrition                                    CY—Calendar Year
CND—Child Nutrition Division
D
DAFP—Deputy Administrator Farm Programs               DHS—United States Department of Homeland Security
DC—Disallowed Costs                                   DM—Deferred Maintenance
DCP—Direct and Counter-Cyclical Payments              DNP—Do Not Pay

E
E&T—Employment and Training                           ERS—Economic Research Service
eFMS—Electronic Funds Manaement System                EWPP‑FPE—Emergency Watershed Protection Program
EO—Executive Order                                    Floodplain Easements

F
FAS—Foreign Agricultural Service                      FNCS—Food, Nutrition, and Consumer Services
FCIC—Federal Crop Insurance Corporation               FNS—Food and Nutrition Service
FDA—Food and Drug Administration                      FOA—Funding Opportunity Announcement
FDCH—Family Day Care Homes                            FS—Forest Service
FECA—Federal Employee Compensation Act                FSA—Farm Service Agency
FFAS—Farm and Foreign Agricultural Services           FSFL—Farm Storage Facility Loan
FFB—Federal Financing Bank                            FSH—Forest Service Handbook
FFIS—Foundation Financial Information System          FSIS—Food Safety and Inspection Service
FFMIA—Federal Financial Management Improvement Act    FSM—Forest Service Manual
FFMS—Federal Financial Management System              FSMC—Food Service Management Company
FISMA—Federal Information Security Management Act     FSRIA—Farm Security and Rural Investment Act
FMD—Financial Management Division                     FSRIP— Farm Security and Rural Investment Act Programs
FMFIA—Federal Managers’ Financial Integrity Act       FTBU—Funds To Be Put to Better Use
FMMI—Financial Management Modernization Initiative    FY—Fiscal Year


                                                     United States Department of Agriculture | 206
                                                                                                      Acronyms

G
G&A—Grants and Agreements                                  GMS—Global Market Strategy
GAO—Government Accountability Office                       GSA—General Services Administration
GIPSA—Grain Inspection, Packers, and Stockyards
Administration
H
HIMP—Hazard Analysis and Critical Control Point-based
Inspection Models Project
I
IP—Improper Payments                                       IPIA—Improper Payments Information Act of 2002
IPAC—Intragovernmental Payment and Collection              IRS—Internal Revenue Service
IPERA—Improper Payments Elimination and Recovery Act       IT—Information Technology
of 2010                                                    ITSD—Information Technology Services Division
IPERIA—Improper Payments Elimination and Recovery
Improvement Act of 2012
L
L&WCF—Land and Water Conservation Fund                     LEA—Local Education Agency
LDP—Loan Deficiency Payment                                LFP—Livestock Forage Disaster Program
M
MAL—Marketing Assistance Loan                              ME—Management Evaluation
MD&A—Management’s Discussion and Analysis                  MILC—Milk Income Loss Contract
MDD—Management Decision Date                               MOU—Memorandum of Understanding
MDP—Miscellaneous Disaster Programs                        MRP—Marketing and Regulatory Programs
N
NAL—National Agricultural Library                          NIFA—National Institute of Food and Agriculture
NAP—Noninsured Assistance Program                          NIST—National Institute of Standards and Technology
NAP—Noninsured Crop Disaster Assistance Program            NPS—National Payment System
NASS—National Agricultural Statistics Service              NRCS—Natural Resources Conservation Service
NCIC—National Crime Information Center                     NRE—Natural Resources and Environment
NEST—National Easement Staging Tool                        NRHP—National Register of Historic Places
NFS—National Forest System                                 NSLP—National School Lunch Program
O
OCFO—Office of the Chief Financial Officer                 OMB—Office of Management and Budget
OCIO—Office of the Chief Information Officer               ORAS—Operations Review and Analysis Staff
OIG—Office of Inspector General
P
PAR—Performance and Accountability Report                  PP&E—Property, Plant, and Equipment
PHA—Priority Heritage Assets                               PRRA—Payment Recapture/Recovery Auditing
PHIS—Public Health Information System                      PRV—Plant Replacement Value
PIP—Practice Incentive Payments                            PY—Previous Year




                                                        Fiscal Year 2013 Agency Financial Report | 207
                                                                                              Acronyms

R
RAP—Rental Assistance Program                         RHS—Rural Housing Service
RBEG—Recovery Act Rural Business Enterprise Grant     RMA—Risk Management Agency
RBS—Rural Business and Cooperative Service            RME—Risk Management Education
RC&D—Resource Conservation and Development            RMF—Risk Management Framework
RD—Rural Development                                  RO—Regional Office
REE—Research, Education, and Economics                RUS—Rural Utilities Service
RHIF—Rural Housing Insurance Fund
S
SA—State Agency                                       SITC—Smuggling, Interdiction and Trade Compliance
SAM—System for Award Management                       SNAP—Supplemental Nutrition Assistance Program
SBP—School Breakfast Program                          SOP—Standard Operating Procedure
SBR—Statement of Budgetary Resources                  SOS—Schedule of Spending
SCRA—Supplier Credit Recovery Audit                   SP—Special Publication SPA—Special Program Area
SDA—Socially Disadvantaged Farmers                    SSA—Security Stack Array
SER—Single Effective Rate                             STO—State Office
SFA—School Food Authority                             SURE—Supplemental Revenue Assistance Payments
SFH—Single Family Housing                             SY—School Year
SIP—Signup Incentive Payments
T
TANF—Temporary Assistance to Needy Families           TME—Target Management Evaluations
TB—Technical Bulletin                                 TPMC—Tucson Plant Materials Center
U
ULO—Unliquidated Obligations                          USGCB—U.S. Government Configuration Baseline
USDA—United States Department of Agriculture          USSGL—U.S. Standard General Ledger
W
WebTA—Web‑based time and attendance                   WIC—Special Supplemental Program for Women, Infants,
WEP—Water and Environmental Program                   and Children
WFM—Wildland Fire Management                          WRP—Wetland Reserve Program
WFSU—Wildland Fire Suppression Management




                                                    United States Department of Agriculture | 208
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
